APPENDIX

ia
APPENDIX
TABLE OF CONTENTS
Kendrick v. Parris, United States Court of Appeals for
the Sixth Circuit, Case No. 19-6226, Opinion (Issued
March 2, 2021)...........................................................1a
Kendrick v. Parris, United States Court of Appeals for
the Sixth Circuit, Case No. 19-6226, Judgment
(Issued March 2, 2021)............................................36a
Kendricks v. Parris, United States Court of Appeals
for the Sixth Circuit, Case No. 19-6226, Order
Regarding Certificate of Appealability (Issued March
31, 2020) ..................................................................37a
Kendricks v. Phillips, United States District Court,
Eastern District of Tennessee, Case No. 1:16-CV00350-JRG-SKL, Memorandum Opinion (Issued
Sept. 30, 2019) .........................................................47a
Kendricks v. Phillips, United States District Court,
Eastern District of Tennessee, Case No. 1:16-CV00350-JRG-SKL, Order of Judgment (Issued Sept. 30,
2019) ......................................................................141a
Kendrick v. State, Tennessee Supreme Court, Case
No. E2011-02367-SC-R11-PC, Opinion (Issued Jan.
16, 2015) ............................................................... 142a

iia
Kendrick v. State, Tennessee Court of Criminal
Appeals, Case No. E2011-02367-CCA-R3-PC, Opinion
(Issued June 27, 2013) ..........................................207a
Kendrick v. State, Criminal Court for Hamilton
County, Tennessee, Case No. 220622, Order (Issued
Oct. 13, 2011).........................................................248a
Kendrick v. State, Criminal Court for Hamilton
County, Tennessee, Case No. 220622, Memorandum
Opinion (Issued Oct. 13, 2011) .............................250a

1a
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0052p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
EDWARD THOMAS
KENDRICK, III,
Petitioner-Appellant,
v.
MIKE PARRIS, Warden,
Respondent-Appellee.

No. 19-6226

Appeal from the United States District Court
for the Eastern District of Tennessee of
Chattanooga.
No. 1:16-cv-00350—J. Ronnie Greer, District Judge.
Argued: January 26, 2021
Decided and Filed: March 2, 2021
Before: GUY, LARSEN, and MURPHY, Circuit
Judges.
_________________
COUNSEL
ARGUED:
Amanda
Rauh-Bieri,
MILLER,
CANFIELD, PADDOCK, AND STONE, PLC, Grand
Rapids, Michigan, for Appellant. John H. Bledsoe,
OFFICE OF THE TENNESSEE ATTORNEY
GENERAL, Nashville, Tennessee, for Appellee. ON
BRIEF: Amanda Rauh-Bieri, Paul D. Hudson,

2a
MILLER, CANFIELD, PADDOCK, AND STONE,
PLC, Grand Rapids, Michigan, for Appellant. John H.
Bledsoe,
OFFICE
OF
THE
TENNESSEE
ATTORNEY GENERAL, Nashville, Tennessee, for
Appellee. Joshua Counts Cumby, ADAMS AND
REESE LLP, Nashville, Tennessee, for Amici Curiae.
_________________
OPINION
_________________
LARSEN, Circuit Judge. One evening in 1994,
Edward Kendrick III fatally shot his wife outside a
Chattanooga gas station. At trial, he insisted that his
rifle had malfunctioned and fired [*2] without
Kendrick pulling the trigger. But the jury didn’t buy
his account. Instead, it convicted Kendrick of firstdegree murder.
In his petition for state postconviction relief,
Kendrick raised seventy-seven claims alleging either
ineffective assistance of counsel (IAC) or prosecutorial
misconduct. He succeeded in the Court of Criminal
Appeals on two of his IAC claims, but the Tennessee
Supreme Court reversed as to both. In doing so, it
held that counsel’s decision not to adduce the
testimony of a firearms expert was not
constitutionally deficient performance. Neither was
counsel’s failure to introduce favorable hearsay
statements under the excited utterance exception.
Kendrick then sought federal habeas review. The
district court denied his forty-eight-claim petition. We
granted a certificate of appealability (COA) on the two
IAC claims that the Tennessee Court of Criminal
Appeals had initially found meritorious. Because the

3a
Tennessee Supreme Court did not unreasonably
apply Supreme Court precedent in denying Kendrick
relief, we now AFFIRM.
I.
Kendrick was holding his Remington Model 7400
hunting rifle at the time it fired a single bullet at
point-blank range into his wife’s chest. That much has
never been disputed. Kendrick’s intent, on the other
hand, always has been. The State contended this was
a cold-blooded execution. Kendrick insisted it was a
freak accident.
A.
In the early months of 1994, Kendrick and his wife
Lisa were in the process of pursuing what Kendrick
described as an “amicable” divorce based on
irreconcilable differences. They were still living
together, along with their three-year-old son and fouryear-old daughter. Lisa was working at a gas station
in Chattanooga, Tennessee.
Lisa was on duty on the evening of March 6, 1994,
and had been talking with her friend, Lennell
Shepheard Jr., for over an hour. Just before 10:00
p.m., she received a page from her husband and
returned his call. A little while later, Kendrick pulled
into the parking lot with their two children sitting in
the backseat of his car. Kendrick entered the gas
station and told Lisa, [*3] “when she got a chance, to
step outside, that he wanted to talk to her.” Kendrick
walked out first, and Lisa followed after she finished
ringing up a customer. From where Shepheard was
standing inside the station, “it looked like . . . they

4a
were arguing” outside, but Shepheard couldn’t hear
anything or see clearly what was going on.
“After that [Shepheard] heard a boom.” He did not
know what it was at first, but upon opening the door,
he saw Lisa lying on the ground with Kendrick
“standing over her.” The sound had been a gunshot,
which two other witnesses heard as well. Charles
Mowrer, who lived across the street, testified that he
ran outside following the “extremely loud shot” and
saw “a lady laying [sic] on the ground with a man
looking over her.” Timothy Benton, who was just
pulling out of the gas station, “heard an explosion”
too. Benton looked back and saw Kendrick holding a
gun “pointed straight up in the air.” “The right hand
was on the pistol grip area around the trigger and the
left hand was up near the stock.”
Shepheard testified that Kendrick then stood over
Lisa’s body, while repeating “I told you so, I told you
so,” about six times. During trial, Kendrick denied
making these statements. And Kendrick’s counsel
pointed out that the records from Shepheard’s initial
interview with police did not mention Kendrick
saying “I told you so” at all. Nevertheless, it is
undisputed that Kendrick did not “render any
assistance” to Lisa or “call out for help” after shooting
her. He made eye contact with Shepheard, fumbled
for the passenger door “at least three times,” and then
“ran around the car, jumped in and left.” During his
flight, Kendrick threw the gun out of his vehicle onto
the side of the road.
Meanwhile, Timothy Benton had turned his car
around and had pulled back into the gas station to

5a
help. But when he saw Lisa lying on the ground and
Shepheard about to call 911, he gave chase to
Kendrick instead—”to make sure he didn’t get away.”
Within minutes, Benton caught up with Kendrick and
“followed him into the Chattanooga Airport.”
At the airport, now about five minutes after the
shooting, Kendrick dialed 911 himself. He
immediately stated: “I want to turn myself in. . . . My
wife, I just shot my wife.” Kendrick then revealed to
the operator that he was at the airport and would wait
with his kids for the police to arrive. After Kendrick
was placed into a police vehicle and advised of his
rights, he said “I [*4] hope this is only a dream.” He
made no suggestion to the officers that the shooting
had been an accident.
An officer then spoke with Kendrick’s four-yearold daughter, Endia, who “was very upset, was crying,
[and] seemed to be very scared.” At trial, a second
officer also claimed that Endia was “hysterical” and
“stated that she had told daddy not to shoot mommy
but he did and she fell.” Endia, for her part, testified
that she “saw [Kendrick] shoot” her mother and that
Lisa “was standing with her hands up” at the time.
The positioning of Lisa’s hands was supported by
forensic evidence of stipple injuries on her forearms.
Yet on cross-examination, Endia admitted that she
“remember[ed] telling [Kendrick’s counsel] that [she]
didn’t see [her] daddy shoot [her] mommy.” And she
agreed that Kendrick got the gun out of the front seat
of the car “because [her] mommy wanted him to put
the gun in the back of the car.” Counsel also
insinuated that Lisa’s parents—with whom Endia

6a
was living at the time of trial—were attempting to
manipulate Endia’s story.
Later that evening, Officer Steve Miller of the
Chattanooga Police Department retrieved Kendrick’s
gun, a Remington Model 7400, from the side of the
road. He placed the rifle in his car to take back to the
station. But around 1:45 a.m., as Miller “was
gathering the evidence” out of the trunk of his car, he
pointed the gun downward and “the weapon
discharged,” firing a bullet into his left foot. According
to police incident reports, Miller told other officers
that the gun had fired without Miller having touched
the trigger; but Miller claimed not to remember the
“exact position of [his] hand” when asked on the
stand.
Kendrick’s counsel challenged this lack-ofmemory testimony with a vigorous crossexamination. Miller admitted that he had been a
police officer for twenty-two years, that he had never
accidentally discharged a firearm, and that it is
“drilled into you at the police academy don’t ever put
your hand on the trigger unless you’re going to shoot
the gun.” He also confirmed that he would “[n]ever”
otherwise “knowingly” place his finger on the trigger
of a loaded gun. And Miller conceded that he
“presumed [the gun] was loaded” at the time. Counsel
next pointed out that when Miller reenacted the
incident for the jury, he hadn’t “put [his] finger on the
trigger.” Miller insisted that he could not “say for sure
in th[e] courtroom how [his] hand was that night,” but
counsel wouldn’t let Miller off the hook so easily.
Eventually, counsel’s [*5] questioning caused Miller

7a
to admit that his reenactment for the jury—finger
“not on the trigger”—was “to the best of [his]
recollection how it happened[.]”
The State then called a firearms expert, Kelly Fite.
Fite testified that he conducted a “drop test” on
Kendrick’s rifle and “abuse[d]” it to see if that affected
the force needed to pull the trigger. It did not. He also
“checked the rifle for what’s called a slam fire” and
“attempt[ed] to accidentally discharge this weapon
with the safety,” but “[t]he only way [he could] get this
rifle to fire was by pulling the trigger.” Fite thus
declared that in his expert opinion, “[t]he only way
that you can fire [Kendrick’s] rifle without breaking it
is by pulling the trigger.”
After cross-examining Fite and attempting to cast
doubt on the validity of his conclusion, Kendrick’s
counsel recalled Miller to the stand. Counsel showed
Miller the police incident reports from the night he
was shot, in which Miller purportedly told other
officers that the gun had gone off without his finger
on the trigger. Miller, however, could not recall
making those statements. Counsel next tried to
impeach Miller with the reports, but the trial court
sustained the State’s objection. So, counsel called to
the stand Officer Glen Sims, one of the authors of the
incident reports. He sought to impeach Miller that
way, but the trial court again sustained the State’s
objection.
The defense called the rest of its witnesses, and
then Kendrick took the stand in his own defense. He
testified that he “loved [his] wife and [he] would have
never taken [their] children to [his] wife and done

8a
anything like that.” He also maintained that they
were not arguing outside the gas station and that he
only carried a loaded rifle in the car for protection, as
he and Lisa often cleaned houses in an unsafe part of
town. According to Kendrick, Lisa had instructed him
to “go ahead and put [the gun] in the trunk of the car.”
So he took it out of the front seat. When he reached
into his pocket to retrieve his keys and moved the rifle
to his right hand, “the gun went off” without him
“pull[ing] the trigger.” Lisa died almost instantly.
Kendrick testified that he “just wanted to get the kids
away” and that is why he “just got in the car and left.”
Because he was “scared,” he threw the weapon out the
window before calling 911 at the airport.
The jury was unconvinced by Kendrick’s account.
It found him guilty of first-degree murder, and
Kendrick was sentenced to life in prison. The trial
court denied Kendrick’s motion [*6] for a new trial,
and on direct review, the Tennessee Court of Criminal
Appeals affirmed his conviction. See State v.
Kendricks, 947 S.W.2d 875, 878 (Tenn. Crim. App.
1996). The Tennessee Supreme Court declined to hear
Kendrick’s case. See State v. Kendricks, 1997 Tenn.
LEXIS 248, at *1 (May 5, 1997) (order).
B.
Kendrick then petitioned for state postconviction
relief. The postconviction trial court initially
dismissed Kendrick’s petition without a hearing,
finding that the issues he raised had either been
waived or previously determined. Kendricks v. State,
13 S.W.3d 401, 404 (Tenn. Crim. App. 1999). But the
Tennessee Court of Criminal Appeals reversed in part

9a
and remanded the case for further proceedings. See
id. at 405.
On remand, more than a dozen witnesses testified
over the course of ten days of evidentiary hearings.
Several of those witnesses are relevant to the two
issues before us.
First, now-Sergeant Miller was asked again
whether he recalled if his “fingers were anywhere
near the trigger” when the rifle discharged and
injured his foot. He responded, “No sir, I can’t say
with a hundred percent accuracy. They shouldn’t
have been.” Miller then stated that he was put on pain
medication shortly after the incident and didn’t
remember whether he had made any statements to
fellow officers regarding the positioning of his fingers.
Three other police officers also testified regarding
Miller’s statements on the night of the shooting—
Michael Holbrook, Glen Sims, and James Gann.
Holbrook, who had prepared the initial report about
Miller’s injury after visiting him in the hospital,
testified that Miller told him “his finger was not near
the trigger” when the rifle fired. Sims next testified
that he did not recall the circumstances surrounding
the supplemental incident report he generated later
that night. But he confirmed that the report stated
that Miller told Officer Gann that the rifle “just went
off.” Gann, for his part, testified that he was the first
officer to render assistance to Miller. He confirmed
that after the accident, Miller “was in a lot of pain,
bleeding and starting to go into shock.” Yet when
Gann was shown Sims’s report, it did not “refresh

10a
[his] memory as to what [he] stated in regards to the
incident[.]” [*7]
In addition to these four officers, Kendrick called
Henry Jackson Belk Jr., a firearms expert from
southern Idaho. Belk was the only expert called or
identified during the postconviction hearings. He
testified that Kendrick’s Model 7400 rifle had “a
common trigger mechanism” that “[g]enerally
speaking,” was contained within “all pumps and
automatics manufactured after 1948 by Remington.”
According to Belk, Remington firearms with that
particular design have “a history of firing under
outside influences other than a manual pull of the
trigger.” This is because the buildup of debris in the
trigger mechanism “can cause an insecure
engagement between the hammer and the sear itself.
So even with a gun on safe . . . it can still fire . . .
[w]ithout pulling the trigger.”
Belk stated that he “first identified the problem
with the Remington Common Fire Control in 1970.”
And “[o]ver the years,” he had been “consulted on
probably two dozen cases” and had “given testimony
in cases where the gun was subject to impact.” The
first case in which he examined the “Common Fire
Control” as an expert was in 1994—a case he
identified as “Keebler in Little Rock, Arkansas.” That
case was about a different firearm, a Remington 700,
but Belk “did testify in the late nineties, probably ‘97
or ‘98, about a [Remington Model] 7400.” Belk then
surmised that “in ‘94, . . . if someone had done some
research, they would have potentially been able to
find [him.]”

11a
Belk also “had occasion to look at” Kendrick’s rifle
prior to the hearing. He was unable to get the gun to
fire without pulling the trigger. But Belk had an
alternative theory as to what happened. He found
that the rifle was dirty on the inside, “common to a
gun that has not been cleaned.” And while Belk did
not find any debris in the trigger mechanism that
could cause it to misfire, he explained that “transit
debris” could have been “dislodged through mainly
the recoil or even the operation of the gun.” Even any
“testing itself”—such as Fite’s drop test—would tend
to “destroy[] any evidence that was there.” Belk
therefore concluded that in his expert opinion,
Kendrick’s rifle “is capable of firing without a pull of
the trigger, whether the safety is on or off.” Belk’s
opinion thus contradicted Fite’s conclusion at trial.
Finally, Kendrick called the public defender who
had represented him during his November 1994 trial.
Counsel testified that he did not personally interview
Miller, but instead “relied on [his] investigator[]” to do
so and “reviewed [Miller’s] statements” to his
colleague. [*8] When he heard that Miller “said
specifically that he was not holding the gun anywhere
near the trigger housing and it discharged,” counsel
believed that “ought to prove our case.” “And then
beyond that, [counsel] was aware of [Miller’s]
previous statements that he didn’t touch the trigger
and the gun went off accidentally.”
Counsel further asserted that he “thought Mr.
Miller would testify consistently with what [counsel]
knew to be his statements” before trial. He elaborated
that having known Miller “in the past,” he didn’t

12a
think that Miller was “a dishonest person.” So counsel
“didn’t think there would be any issue as to whether
or not [Miller’s] initial statements when he shot
himself would come in.” Because “there was not any
doubt in [counsel’s] mind” that Miller “was going to
stick to his prior statements,” he built his defense
around that “gem.” At one point, Kendrick asked if
going into trial, counsel had a “backup plan” of
“having other officers who made reports come in to
testify[.]” Counsel responded that he did not “recall
backup plans or specifically anything beyond that,”
explaining that he “presumed [he] would be able to
get Mr. Miller’s testimony that he was no[t] holding
the trigger and the gun discharged.” In counsel’s view,
he “could use that very effectively” to elicit an
acquittal.
When Miller unexpectedly reversed course at trial,
counsel felt “sandbagged by him.” In fact, counsel
expressed that he “was mad at [Miller],” because he
“didn’t think [Miller] was being fair” and he “thought
[Miller] wasn’t telling the truth” on the stand.
Counsel confirmed that later in the trial, he
“recalled Mr. Miller with the purpose of trying to
impeach him with prior inconsistent statements”
contained in the incident reports. He acknowledged,
however, that he didn’t invoke the excited utterance
exception to the hearsay rule as a basis for admission.
Counsel then opined: “Well, in hindsight, I think it
could . . . well have been used as an excited utterance.”
But after Miller’s unexpected shift in story and “[i]n
the heat of the trial, [counsel] didn’t see that” at the
time.

13a
As to counsel’s strategy for rebutting the State’s
expert, he testified that he “reviewed Mr. Fite’s
report” and the defense also “talked to [Fite] before
the trial.” From counsel’s experience, he knew that
Fite’s “position is his position and he’s not very easily
swayed from that position.” But even after reviewing
the report, counsel believed that Miller’s fortuitous
shooting would [*9] “trump[] anything Kelly Fite
[could] say.” He “thought that Mr. Miller shooting
himself in the foot accidentally, without his hands
near the trigger, was enough for a reasonable doubt
as to anything.” So counsel believed it was “a
plausible and reasonable trial strategy” to have
Kendrick testify “that the gun went off accidentally”
and then to “buttress[]” that testimony with “the fact
that it went off accidentally again and shot Mr.
Miller.” Counsel admitted that he did not seek an
expert and could not recall whether he spoke with a
local gunsmith he would often consult informally. And
he agreed that “[i]n hindsight, especially with the
knowledge now that there have been so many
problems with the Remington trigger mechanism,” it
“would have been beneficial” to have an expert testify
on Kendrick’s behalf. But “at the time,” counsel didn’t
recognize the potential significance of an expert; for
despite his “fundamental knowledge of firearms,” he
“was not aware” of any “discussion in the industry
about the trigger mechanism on the Remington being
potentially able to malfunction.” And, as counsel
pointed out, “you couldn’t Google Remington trigger
mechanisms back then.”

14a
Following these hearings, the state trial court
denied postconviction relief on each of Kendrick’s
claims. But the Court of Criminal Appeals reversed as
to two of them. Specifically, it held that counsel was
constitutionally deficient in his “failure to adduce
expert proof about the Common Fire Control and his
failure to adduce Sgt. Miller’s excited utterances.”
Kendrick v. State, No. E2011-02367-CCA-R3-PC,
2013 WL 3306655, at *18 (Tenn. Crim. App. June 27,
2013). The court vacated Kendrick’s conviction and
declined to address the remaining issues. See id.
But the Tennessee Supreme Court reversed again.
See Kendrick v. State, 454 S.W.3d 450, 481 (Tenn.
2015). In a lengthy opinion, the state’s highest court
unanimously concluded that neither of Kendrick’s
IAC claims had merit. First, it reasoned that “[t]his
was not a case that hinged on expert testimony.” Id.
at 477. Kendrick’s counsel “had a reasonable basis to
believe Sergeant Miller would testify that he had not
touched the trigger, and that this testimony would be
‘enough for a reasonable doubt as to anything.’” Id.
Moreover, “it remain[ed] entirely uncertain that Mr.
Kendrick’s trial counsel could have located and hired
a firearm expert in 1994 who could have testified
concerning the potential defects of the Remington
Model 7400’s trigger mechanism.” Id. at 476. As such,
the court rejected Kendrick’s claim that it was
ineffective [*10] assistance for his counsel not to find
and call a firearms expert. Id. at 477. Second, the
Tennessee Supreme Court concluded that “trial
counsel did almost everything at his disposal to prove
that Sergeant Miller had not pulled the trigger, with

15a
the exception that he did not offer the statements as
[excited utterances].” Id. at 480. The court thus
disagreed that counsel had exhibited constitutionally
deficient performance simply by “not attempting to
use the excited utterance exception.” Id. at 477, 481.
In the alternative, the court held that Kendrick failed
to show prejudice resulting from this second alleged
error. Id. at 481.
Having rejected both IAC claims, the Tennessee
Supreme Court remanded for further proceedings. Id.
The U.S. Supreme Court declined to hear Kendrick’s
case. See Kendrick v. Tennessee, 577 U.S. 930 (2015).
And finally, the Tennessee Court of Criminal Appeals
rejected Kendrick’s pretermitted claims. See Kendrick
v. State, No. E2011-02367-CCA-R3-PC, 2015 WL
6755004, at *39 (Tenn. Crim. App. Nov. 5, 2015).
C.
Out of options in state court, Kendrick filed a
timely habeas petition in the Eastern District of
Tennessee, alleging four dozen claims of
constitutional error. The district court determined
that the majority of Kendrick’s claims were
procedurally defaulted. See Kendricks v. Phillips, No.
1:16-CV-00350-JRG-SKL, 2019 WL 4757813, at *10–
17 (E.D. Tenn. Sept. 30, 2019). It then denied the
remaining eighteen claims on the merits. See id. at
*18–34. We granted a COA for two of Kendrick’s
claims regarding: (1) counsel’s failure to call a
rebuttal weapons expert; and (2) counsel’s failure to
admit Miller’s statements to other officers under the
excited utterance exception to the hearsay rule.

16a
One last note before we turn to the merits. Shortly
before this court issued a COA, Kendrick was released
on parole. But since Kendrick “was incarcerated at
the time his petition was filed and is presently subject
to parole supervision, the ‘in-custody’ requirement for
relief in habeas remains satisfied and the issues
presented by this appeal have not been mooted.”
Goodell v. Williams, 643 F.3d 490, 495 n.1 (6th Cir.
2011); see Maleng v. Cook, 490 U.S. 488, 491 (1989)
(per curiam); Abela v. Martin, 380 F.3d 915, 921 (6th
Cir. 2004). [*11]
II.
Because the Tennessee Supreme Court denied
Kendrick’s claims on the merits, he faces a
“formidable barrier to federal habeas relief.” Burt v.
Titlow, 571 U.S. 12, 19 (2013). Under the
Antiterrorism and Effective Death Penalty Act
(AEDPA), we may not grant his habeas petition
unless the state court’s ruling “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States.” 28 U.S.C. §
2254(d)(1). The phrase “‘[c]learly established Federal
law’ . . . includes only ‘the holdings, as opposed to the
dicta, of [the Supreme] Court’s decisions.’” White v.
Woodall, 572 U.S. 415, 419 (2014) (quoting Howes v.
Fields, 565 U.S. 499, 505 (2012)). “And an
‘unreasonable application of’ those holdings must be
‘objectively unreasonable,’ not merely wrong; even
‘clear error’ will not suffice.” Id. (quoting Lockyer v.
Andrade, 538 U.S. 63, 75–76 (2003)). This is a “highly
deferential standard for evaluating state-court

17a
rulings, which demands that state-court decisions be
given the benefit of the doubt.” Cullen v. Pinholster,
563 U.S. 170, 181 (2011) (quoting Woodford v.
Visciotti, 537 U.S. 19, 24 (2002) (per curiam)).
Tack on to that the “exacting Strickland
standard,” which governs the pair of IAC claims
before us. Ambrose v. Booker, 801 F.3d 567, 579 (6th
Cir. 2015); see Strickland v. Washington, 466 U.S. 668
(1984). “Under Strickland, we first determine
whether counsel’s representation ‘fell below an
objective standard of reasonableness.’ Then we ask
whether ‘there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.’” Padilla v.
Kentucky, 559 U.S. 356, 366 (2010) (internal citation
omitted) (quoting Strickland, 466 U.S. at 688, 694).
This too is a “most deferential” standard, “[e]ven
under de novo review.” Harrington v. Richter, 562
U.S. 86, 105 (2011). Strickland commands us to
“indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance.” 466 U.S. at 689. And it cautions that we
must make “every effort” to “eliminate the distorting
effects of hindsight, to reconstruct the circumstances
of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Id.
The challenger’s burden is to show “that counsel made
errors so serious that counsel was not functioning as
the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. at 687.
[*12] Add it all up and we are left to apply a
“doubly deferential” standard of review. Knowles v.

18a
Mirzayance, 556 U.S. 111, 123 (2009). Indeed, because
of the “general” nature of the Strickland inquiry and
the broad range of factual circumstances that might
give rise to IAC claims, we must afford a state court
considerable “latitude to reasonably determine that a
defendant has not satisfied that standard.” Id.; accord
Harrington, 562 U.S. at 105 (“[T]he range of
reasonable applications is substantial.”). Kendrick
cannot prevail unless he can show that the Tennessee
Supreme Court’s application of Strickland “was so
lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.”
Harrington, 562 U.S. at 103. That’s a “high bar” to
relief, which “is intentionally difficult to meet.” Woods
v. Donald, 575 U.S. 312, 316 (2015) (internal
quotation marks and citation omitted). “It bears
repeating that even a strong case for relief does not
mean the state court’s contrary conclusion was
unreasonable.” Harrington, 562 U.S. at 102.
III.
Kendrick’s appeal raises two IAC claims. First, he
argues that counsel rendered ineffective assistance by
failing to introduce Miller’s hearsay statements—that
the rifle discharged on its own—as excited utterances.
Second, he contends that counsel was ineffective due
to his failure to find and present a firearms expert to
counter the State’s own. Although we have our doubts
about the viability of these two claims, our role as a
federal habeas court under AEDPA is not to review
them anew. And whether or not the Tennessee
Supreme Court’s unanimous rejection of these claims

19a
“was correct, it was clearly not unreasonable.” Renico
v. Lett, 559 U.S. 766, 779 (2010); see Shinn v. Kayer,
141 S. Ct. 517, 523 (2020) (per curiam). We hold that
at the very least, the Tennessee Supreme Court’s
opinion was not “so erroneous that ‘there is no
possibility fairminded jurists could disagree that the
state court’s decision conflicts with [the U.S.
Supreme] Court’s precedents.’” Nevada v. Jackson,
569 U.S. 505, 508–09 (2013) (per curiam) (quoting
Harrington, 562 U.S. at 102). Hence, AEDPA
forecloses us from granting Kendrick’s petition. [*13]
A.
We first address Kendrick’s claim that his counsel
was constitutionally deficient in failing to admit
Miller’s statements that he did not pull the trigger
when he shot himself in the foot. Even assuming that
the hearsay statements could have been introduced as
excited utterances, see Tenn. R. Evid. 803(2),1 “we
cannot say that the state court’s application of
Strickland’s attorney-performance standard was
objectively unreasonable,” Bell v. Cone, 535 U.S. 685,
702 (2002). “The Sixth Amendment guarantees
reasonable competence, not perfect advocacy judged
with the benefit of hindsight.” Yarborough v. Gentry,
540 U.S. 1, 8 (2003). And Kendrick’s “[r]eliance on ‘the
harsh light of hindsight’” to second-guess his counsel’s
competence in the crucible of trial “is precisely what
During postconviction review, the Criminal Court for Hamilton
County and the Court of Criminal Appeals disagreed as to
whether Miller’s statements qualified as excited utterances. The
Tennessee Supreme Court assumed without deciding that the
statements would have qualified as excited utterances under
Tennessee law. See Kendrick, 454 S.W.3d at 480.
1

20a
Strickland and AEDPA seek to prevent.” Harrington,
562 U.S. at 107 (quoting Bell, 535 U.S. at 702).
Indeed, it is clear that “trial counsel took great
pains to inform the jury that the weapon apparently
misfired for Sergeant Miller.” Kendrick v. State, 454
S.W.3d 450, 481 (Tenn. 2015). First, even Kendrick
concedes that his counsel put on a thorough and
“skilled
cross-examination”
challenging
the
credibility of Miller’s unexpected lack of memory.
Counsel elicited testimony from Miller that he had
served as a police officer for twenty-two years and
that he had never accidentally discharged a firearm
in the past. He also got Miller to admit that it was
“drilled into you at the police academy don’t ever put
your hand on the trigger unless you’re going to shoot
the gun.” And, he prompted Miller to confess that he
would never “knowingly” put his finger “on the trigger
of a loaded gun.” On recross, counsel likewise led
Miller into testifying that he “presumed [the gun] was
loaded” and “treated the gun that way” in picking it
up. He next pointed out that when Miller reenacted
the events before the jury, he held the gun with his
“finger off the trigger.” Finally, counsel closed his
interrogation by boxing the waffling Miller into
admitting that his reenactment—with his finger off
the trigger—was “to the best of [his] recollection how
it happened[.]” Through his effective questioning,
then, counsel “elicited [*14] answers strongly
suggesting that Sergeant Miller would not have
picked up the rifle with his finger on the trigger.” Id.
at 480.

21a
And counsel didn’t stop there. At the end of the
prosecution’s case-in-chief, counsel recalled Miller to
the stand and attempted to refresh Miller’s memory
with the incident reports containing his hearsay
statements. Miller, however, remained firm in his
purported lack of memory.
So counsel tried a third route. He called one of the
detectives who had produced one of the incident
reports, seeking to introduce the report that way as
impeachment evidence. See Tenn. R. Evid. 613(b). The
trial court sustained the State’s objection. But on
direct review, the Tennessee Court of Criminal
Appeals “found that the trial court erred by
preventing Mr. Kendrick’s trial counsel from
impeaching Sergeant Miller based on his prior
inconsistent statements.” Kendrick, 454 S.W.3d at
480 n.19. That means that “counsel pursued a proper
basis for the admission of the reports and failed only
because of the trial court’s error.” Id. (emphasis
added). That alone provides at least a “reasonable
argument that counsel satisfied Strickland’s
deferential standard.” Harrington, 562 U.S. at 105.
After all, “it is difficult to establish ineffective
assistance when counsel’s overall performance
indicates active and capable advocacy.” Id. at 111.
And the appellate court only declined to reverse
because, in its view, counsel’s “thorough crossexamination of Officer Miller” rendered the trial
court’s error “harmless.” Kendricks, 947 S.W.2d at
882.
In short, to prove that his counsel’s zealous
“[r]epresentation [was] constitutionally ineffective,”

22a
Kendrick has to show that “it ‘so undermined the
proper functioning of the adversarial process’ that
[he] was denied a fair trial.” Harrington, 562 U.S. at
110 (quoting Strickland, 466 U.S. at 686). Yet
“counsel did almost everything at his disposal to prove
that Sergeant Miller had not pulled the trigger, with
the exception that he did not offer the statements as
[excited utterances].” Kendrick, 454 S.W.3d at 480.
So, Kendrick cannot show that the Tennessee
Supreme Court “applied Strickland to the facts of his
case in an objectively unreasonable manner.” Bell,
535 U.S. at 699. AEDPA therefore bars relief. [*15]
In response, Kendrick does not dispute that after
Miller’s unexpected testimony, his “counsel labored to
convince the jury that Sergeant Miller’s finger was
not on the trigger of the rifle when it fired into his
foot.” Kendrick, 454 S.W.3d at 480. Nor does he
contend that, despite these repeated attempts,
counsel’s failure to identify the excited utterance
exception “during the heat of the trial” was
constitutionally deficient by itself. Id. Rather, he
protests that his counsel personally should have
“spoken with Inspector Miller to verify his testimony
and to gauge his confidence in what had happened.”
Doing so, Kendrick surmises, “would have prompted
counsel to form a backup plan—and anticipate a
forgetful witness.”
We are unpersuaded that Supreme Court
precedent clearly establishes such a specific
investigatory obligation in this case. To be sure,
“counsel has a duty to make reasonable investigations
or to make a reasonable decision that makes

23a
particular investigations unnecessary.” Strickland,
466 U.S. at 691. But the Sixth Amendment does not
require an attorney to interview a witness personally
when he reasonably believes that doing so is
unnecessary. See id.; cf. LaGrand v. Stewart, 133 F.3d
1253, 1274 (9th Cir. 1998); Lewis v. Mazurkiewicz,
915 F.2d 106, 113–14 (3d Cir. 1990); Beans v. Black,
757 F.2d 933, 936 (8th Cir. 1985). Instead, “a
particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances,
applying a heavy measure of deference to counsel’s
judgments.” Strickland, 466 U.S. at 691.
Applying these principles, Kendrick is wrong that
counsel’s failure to interview Miller personally “can
only be attributed to a professional error of
constitutional magnitude.” Yarborough, 540 U.S. at 9.
This is readily apparent once we “reconstruct the
circumstances of counsel’s challenged conduct” and
“evaluate the conduct from counsel’s perspective at
the time.” Strickland, 466 U.S. at 689. For one,
counsel did not simply neglect to investigate Miller,
as Kendrick suggests. To the contrary, counsel “relied
on [his] investigator[]” in the public defender’s office
to do so and then “reviewed [Miller’s] statements” to
his colleague. At the same time, “counsel reasonably
believed that an investigation of what Miller’s
testimony would be was unnecessary,” because
“Miller had made statements to other officers to that
effect.” Kendricks v. Parris, No. 19-6226, slip op. at *7
(6th Cir. Mar. 31, 2020) (Readler, J.) (denying a COA
on a similar IAC claim). Put those together and here’s
what counsel saw: [*16] Miller’s statements to the

24a
investigator aligned with those Miller had made to
other officers the night of the incident, and having
known Miller “in the past,” counsel didn’t have any
reason to believe he was “a dishonest person.” In these
circumstances, counsel did what was arguably
“reasonable at the time” and “balance[d] limited
resources” in electing not to interview Miller
personally. Harrington, 562 U.S. at 107; see Jackson
v. Warden, Chillicothe Corr. Inst., 622 F. App’x 457,
464 (6th Cir. 2015). That Miller later changed his
story on the stand does not mean that counsel was
constitutionally deficient.
Thus, in concluding that “counsel had a reasonable
basis to believe Sergeant Miller would testify that he
had not touched the trigger,” Kendrick, 454 S.W.3d at
477, the state court’s decision was not objectively
unreasonable. Fairminded jurists could agree that
Kendrick had not shown his attorney was deficient
under Strickland.2 Accordingly, the district court did
not err in denying Kendrick’s first IAC claim.
B.
We now turn to Kendrick’s expert-witness claim.
Kendrick is right that “[c]riminal cases will arise
where the only reasonable and available defense
strategy requires consultation with experts or
introduction of expert evidence.” Hinton v. Alabama,
For this reason, we need not address the state court’s
alternative conclusion that the alleged deficiency was not
prejudicial under Strickland. See Shinn, 141 S. Ct. at 524 (“[I]f
a fairminded jurist could agree with either [the] deficiency or
prejudice holding, the reasonableness of the other is ‘beside the
point.’” (quoting Wetzel v. Lambert, 565 U.S. 520, 524 (2012) (per
curiam))).
2

25a
571 U.S. 263, 273 (2014) (per curiam) (quoting
Harrington, 562 U.S. at 106). “But Strickland does
not enact Newton’s third law for the presentation of
evidence, requiring for every prosecution expert an
equal and opposite expert from the defense.”
Harrington, 562 U.S. at 111. In this case, it was “well
within the bounds of a reasonable judicial
determination for the state court to conclude that
defense counsel could follow a strategy that did not
require the use of experts.” Id. at 106–07.
1.
First, a fairminded jurist could agree with the
Tennessee Supreme Court that counsel’s pre-trial
strategy for rebutting the State’s firearms expert was
reasonable. “Miller’s injury was not speculative,”
Kendrick, 454 S.W.3d at 477, whereas any expert
could only conjecture [*17] whether Kendrick’s gun
might have spontaneously discharged in the past. So
“[t]he best evidence that Mr. Kendrick’s Model 7400
was capable of misfiring” would have been “the
undisputed fact that Sergeant Miller was shot in the
foot by the very same rifle.” Id. Counsel therefore
strategically built his case around the Miller
mishap—an “available” approach which did not
“require[]” expert assistance. Hinton, 571 U.S. at 273
(quoting Harrington, 562 U.S. at 106).
This was not an uninformed decision. Counsel
“reviewed Mr. Fite’s report” and the defense also
“talked to him before the trial.” Even so, counsel
believed that Miller’s expected testimony would
“trump[] anything Kelly Fite [could] say.” As counsel
explained, “Miller shooting himself in the foot

26a
accidentally, without his hands near the trigger, was
enough for a reasonable doubt as to anything.” And,
as described above, counsel reasonably believed that
Miller would “stick to his prior statements” at trial.
“In hindsight, Sergeant Miller’s testimony deviated
from what trial counsel expected. But at the time
defense counsel was forming his trial strategy, it was
reasonable to anticipate that he could ‘use [Sergeant
Miller’s testimony] very effectively’ to elicit an
acquittal.” Kendrick, 454 S.W.3d at 477 (alteration in
original) (quoting counsel’s testimony). It is thus
difficult for us to conclude that counsel’s strategy was
“outside the wide range of professionally competent
assistance.” Strickland, 466 U.S. at 690. At a
minimum, “[n]o precedent of [the Supreme] Court
clearly forecloses that view.” Woods v. Etherton, 136
S. Ct. 1149, 1152 (2016) (per curiam).
Second, even if counsel should have sought out an
expert, a fairminded jurist could agree that it was
“entirely uncertain” whether counsel would have
found one in 1994 with a reasonable investigation.
Kendrick, 454 S.W.3d at 476. Henry Belk is the only
expert Kendrick has identified who might have been
available to testify about the Remington trigger
mechanism. Yet Belk offered his first testimony about
the mechanism on a different Remington model at
some unidentified point in 1994—the same year as
Kendrick’s trial. Belk did not testify about the
Remington Model 7400 until several years later. And
as counsel observed, “you couldn’t Google Remington
trigger mechanisms back then.” Even if Belk’s 1994
testimony preceded Kendrick’s trial, Kendrick failed

27a
to present any evidence that counsel should have
known that Belk might have been an available
witness. To the contrary, despite counsel’s
“fundamental [*18] knowledge of firearms,” he
“wasn’t aware” of any “discussion in the industry
about the trigger mechanism on the Remington being
potentially able to malfunction.”3 “It was at least
arguable that a reasonable attorney could decide to
forgo inquiry” into a firearms expert in these
circumstances. Harrington, 562 U.S. at 106.
2.
Kendrick offers four counterarguments, none of
which persuade us. First, he maintains that, as in
Hinton v. Alabama, the “only reasonable and
available defense strategy” was to employ a defense
expert. 571 U.S. at 273 (citation omitted). But as we
have already explained, that is simply not true. It was
arguably reasonable for counsel to build his case
around
Miller’s
testimony
instead.
Miller’s
Kendrick cites two civil cases that would have revealed
allegations of defective Remington firearms before 1994. See
Lewy v. Remington Arms Co., 836 F.2d 1104 (8th Cir. 1988);
Chapa v. Garcia, 848 S.W.2d 667 (Tx. 1992). But neither case
involved Belk or the Remington Model 7400. Neither mentioned
experts that testified regarding a defective trigger mechanism.
And neither involved circumstances of accidental discharge like
those alleged here. The incident in Lewy occurred when the
plaintiff “placed the safety on the fire position.” 836 F.2d at 1105.
And in Chapa, the “rifle discharged during loading.” 848 S.W.2d
at 667. Those cases therefore do not present clear and convincing
evidence that counsel would have reasonably found Belk, or
another expert, in 1994. While these cases do show that
problems regarding other Remington firearms were not
unknown at the time, counsel did attempt to cross-examine Fite
about this.
3

28a
unexpected change in his story “shows merely that
the defense strategy did not work out as well as
counsel had hoped, not that counsel was
incompetent.” Harrington, 562 U.S. at 109.
Moreover, the Tennessee Supreme Court
reasonably found Hinton distinguishable. In that
case, the defendant was charged with a pair of
murders committed during the course of two
robberies. 571 U.S. at 265. In order to convict Hinton
of these murders, Alabama sought to link him to a
third robbery “through eyewitness testimony and
forensic evidence about the bullets” recovered from
the scene. Id. The State’s strategy was “then to
persuade the jury that, in light of the similarity of the
three crimes and forensic analysis of the bullets and
the Hinton revolver, Hinton must also have
committed the two murders.” Id. Yet without any
other evidence, “[t]he State’s case turned on whether
its expert witnesses could convince the jury that the
six recovered bullets had indeed been fired from the
Hinton revolver.” Id. [*19]
Hinton’s attorney filed a motion to hire an expert,
and the trial court afforded him $1,000, which both
the judge and Hinton’s attorney believed was the
statutory maximum. Id. at 266. The attorney later
testified that the only expert he could hire for that
amount “did not have the expertise he thought he
needed and that he did not consider [the expert]’s
testimony to be effective.” Id. at 268 (citation
omitted). Nevertheless, counsel “felt he was ‘stuck’”
with this inadequate expert who was later “badly
discredited” at trial. Id. at 269, 273.

29a
But that view was fundamentally mistaken. It
turned out that $1,000 “was not the statutory
maximum at the time of Hinton’s trial,” as the
relevant Alabama statute had been amended to
provide the defense with “‘any expenses reasonably
incurred’” in obtaining an expert. Id. at 267 (quoting
Ala. Code § 15-12-21(d) (1984)). Thus, the Court held
that counsel was deficient in his “failure to request
additional funding in order to replace an expert he
knew to be inadequate because he mistakenly
believed that he had received all he could get under
Alabama law.” Id. at 274. Hinton was careful to
explain, however, that “[t]he only inadequate
assistance of counsel . . . was the inexcusable mistake
of law—the unreasonable failure to understand the
resources that state law made available to him—that
caused counsel to employ an expert that he himself
deemed inadequate.” Id. at 275.
Here, by contrast, Kendrick has not identified any
legal error that his counsel made in failing to obtain
an expert. Nor has he shown that it was objectively
unreasonable for Kendrick’s counsel to put together
his defense without one. See Swaby v. New York, 613
F. App’x 48, 50 (2d Cir. 2015) (“[T]he failure to seek
an expert does not satisfy the performance prong of
Strickland where counsel chooses a strategy that does
not require an expert.”). Nor does Hinton clearly
establish that an attorney must hire an expert when,
as here, he reasonably expects to be able to rebut the
prosecution’s expert effectively with a lay witness’s
testimony. Cf. Hinton, 571 U.S. at 273 (noting that
“effectively rebutting [the State’s] case required a

30a
competent expert on the defense side” (emphasis
added)). Though we need not decide whether we
would reach the same result de novo, we are satisfied
that there is “ample room for reasonable
disagreement” as to the need to hire an expert in this
case. Shinn, 141 S. Ct. at 520. A fairminded jurist
could agree with the Tennessee Supreme Court that
“counsel made a reasonable tactical decision to
construct his ‘accidental firing’ defense around
Sergeant Miller’s mishap with Mr. Kendrick’s [*20]
rifle.” Kendrick, 454 S.W.3d at 477; see also
Harrington, 562 U.S. at 106 (“It can be assumed that
in some cases counsel would be deemed ineffective for
failing to consult or rely on experts, but even that
formulation is sufficiently general that state courts
would have wide latitude in applying it.”).
Kendrick next maintains that counsel had no
reasonable strategy to counter Fite’s testimony. But
again, that’s not true. “In many instances crossexamination will be sufficient to expose defects in an
expert’s presentation.” Harrington, 562 U.S. at 111.
And in this case, counsel both cross-examined Fite
and sought to introduce Miller’s statements in order
to undermine Fite’s opinion testimony. In crossexamining the State’s expert, counsel first attempted
to discredit Fite by characterizing him as someone
who erroneously believed he never made mistakes.
Then, he labored to have Fite concede that “there
have been situations” where Fite had previously
testified that a gun could not possibly discharge
accidentally, but that, in fact, “guns of the same make
and model” as those he described “did fire without

31a
pulling the trigger.” Immediately after poking these
small holes in Fite’s testimony, counsel recalled
Miller to the stand and presented him with the
incident reports in an effort to show the jury that this
particular gun had in fact misfired for Miller. That
would have been a damaging blow to Fite’s adamant
testimony—that “[t]he only way you could fire this
rifle [was] by pulling the trigger or breaking the gun.”
Hence, counsel devised a reasonable approach to
counteract Fite’s testimony and to introduce proof
suggesting that Kendrick’s rifle could—and did—
discharge on its own. Once we eliminate the distorting
effects of hindsight, Kendrick cannot “overcome the
presumption that, under the circumstances,” his
counsel’s tactics “‘might be considered sound trial
strategy.’” Strickland, 466 U.S. at 689 (quoting Michel
v. Louisiana, 350 U.S. 91, 101 (1955)).
Kendrick also insists that the Tennessee Supreme
Court erred in its factual determination that counsel
could not “have located and hired a firearm expert in
1994” with a reasonably diligent investigation.
Kendrick, 454 S.W.3d at 476. At the outset, we
reiterate that “[a]n attorney can avoid” investigations
“that appear ‘distractive from more important
duties.’” Harrington, 562 U.S. at 107 (quoting Bobby
v. Van Hook, 558 U.S. 4, 11 (2009) (per curiam)). And
in light of Miller’s anticipated testimony, it was
reasonable for the state court to conclude [*21] that
counsel did not need to seek expert assistance at all.
See id. at 106 (“Strickland . . . permits counsel to
‘make a reasonable decision that makes particular
investigations unnecessary.’” (citation omitted)).

32a
But even if we believed that counsel was required
to seek an expert, that would not justify our setting
aside the Tennessee Supreme Court’s decision. Under
AEDPA, “a determination of a factual issue made by
a State court shall be presumed to be correct. The
applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1). “And we apply the
same deference ‘even to state-court factual findings
made on appeal.’” Johnson v. Genovese, 924 F.3d 929,
938 (6th Cir. 2019) (quoting Franklin v. Bradshaw,
695 F.3d 439, 447 (6th Cir. 2012)); see Burt, 571 U.S.
at 22.
Kendrick has not met this demanding standard.
To be sure, the record “does suggest that [counsel]
could well have made a more thorough investigation
than he did.” Burger v. Kemp, 483 U.S. 776, 794
(1987). But the Sixth Amendment “does not force
defense lawyers to scour the globe on the off chance
something will turn up.” Rompilla v. Beard, 545 U.S.
374, 383 (2005). We cannot say by clear and
convincing evidence that, in 1994, counsel would have
reasonably found Belk—a southern Idaho resident
who first testified in the same year as Kendrick’s trial
about a different Remington model in one civil case in
Little Rock, Arkansas. In fact, even if counsel could
have reasonably tracked down Belk’s out-of-state
testimony in 1994, and even if counsel could have
discovered that the two Remington models had the
same trigger mechanism, nothing in the record
clearly states that Belk had testified or even filed a
publicly available expert report, about any type of

33a
firearm, before Kendrick’s trial. See Cullen, 563 U.S.
at 181 (holding that a habeas court’s review “is
limited to the record that was before the state court
that adjudicated the claim on the merits”). Nor is
there anything else in the record to suggest why
Kendrick’s counsel should have reasonably found this
lone expert that Kendrick claims was so readily
available.4 [*22]
Finally, Kendrick turns to two of our prior cases
addressing, under AEDPA, an attorney’s failure to
retain an arson expert. See Stermer v. Warren, 959
Though we need not decide, we are also skeptical that Kendrick
can show by clear and convincing evidence that he would have
been permitted to hire an expert in 1994. Cf. Kendrick, 454
S.W.3d at 476. At the time, the state legislature had authorized
funding for expert witnesses only in capital cases. See Tenn.
Code Ann. § 40-14-207(b). And the most recent opinions of the
Tennessee Supreme Court had held that “an indigent defendant
does not have a right under the federal or state constitution, to
the services of [an expert], at state expense.” Graham v. State,
547 S.W.2d 531, 536 (Tenn. 1977); accord State v. Williams, 657
S.W.2d 405, 411 (Tenn. 1983). However, after these decisions,
the U.S. Supreme Court held that an indigent defendant is
constitutionally entitled to a psychiatric examination when his
sanity at the time of the offense is seriously in question—at least
in a capital case. See Ake v. Oklahoma, 470 U.S. 68, 70, 86–87
(1985); id. at 87 (Burger, C.J., concurring) (“Nothing in the
Court’s opinion reaches noncapital cases.”). In the wake of Ake,
multiple panels from the Tennessee Court of Criminal Appeals
produced conflicting dicta as to whether Ake extended to
noncapital cases like Kendrick’s. Compare State v. Harris, 866
S.W.2d 583, 585 (Tenn. Crim. App. 1992), and State v. Chapman,
724 S.W.2d 378, 380 (Tenn. Crim. App. 1986), with State v.
Edwards, 868 S.W.2d 682, 697–98 (Tenn. Crim. App. 1993). The
law was thus unsettled at the time, and this is all the more
reason to believe that counsel acted reasonably in building his
case without expert assistance.
4

34a
F.3d 704 (6th Cir. 2020); Richey v. Bradshaw, 498
F.3d 344 (6th Cir. 2007). In Stermer, however, a
divided panel granted habeas relief on other grounds
and expressly declined to decide the merits of the IAC
claim based on counsel’s failure to retain an arson
expert. See 959 F.3d at 738. So our discussion of
counsel’s duties with respect to rebutting expert
testimony was dicta. See Wright v. Spaulding, 939
F.3d 695, 701 (6th Cir. 2019). In Richey, counsel
affirmatively recognized the need for an expert and
retained one, but counsel then unreasonably failed to
consult the expert to help with the defense. 498 F.3d
at 362. In this case, by contrast, a fairminded jurist
could conclude that counsel had reasonably decided
that no expert was necessary given Miller’s
anticipated testimony. Moreover, Richey predates the
Supreme Court’s guidance in Harrington, which held
that a federal court misapplied AEDPA by finding
that an IAC claim had merit under de novo review and
then “declar[ing], without further explanation,” that
the state court’s contrary ruling was unreasonable.
562 U.S. at 101–02. Richey engaged in that type of
now-outdated review and barely referenced AEDPA’s
deferential standards when granting relief. See 498
F.3d at 361–64. “AEDPA demands more.” Harrington,
562 U.S. at 102.
In sum, “the Sixth Amendment does not guarantee
the right to perfect counsel; it promises only the right
to effective assistance.” Burt, 571 U.S. at 24. And that,
Kendrick at least arguably received. “Recognizing the
duty and ability of our state-court colleagues to
adjudicate claims of constitutional wrong,” we

35a
conclude that the Tennessee Supreme Court’s
decision was “reasonable and supported by the
record.” Id. at 19, 24. As a result, Kendrick’s second
claim fails as well. [*23]
***
We AFFIRM the district court’s denial of
Kendrick’s habeas petition.

36a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-6226
EDWARD THOMAS KENDRICK, III,
Petitioner - Appellant,
v.

FILED
Mar 02, 2021
DEBORAH S. HUNT, Clerk

MIKE
PARRIS,
Warden,
Respondent - Appellee.

Before: GUY, LARSEN, and MURPHY, Circuit
Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Tennessee of
Chattanooga.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN
CONSIDERATION
THEREOF,
it
is
ORDERED that the district court’s denial of Edward
Thomas Kendrick’s petition for a writ of habeas
corpus is AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s Deborah S. Hunt
Deborah S. Hunt, Clerk

37a
No. 19-6226
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Mar 31, 2020
DEBORAH S. HUNT, Clerk
EDWARD THOMAS
)
KENDRICKS,
)
Petitioner-Appellant, )
)
v.
)
)
SHAWN PHILLIPS,
)
Respondent-Appellee. )

ORDER

Before: READLER, Circuit Judge.
Edward Thomas Kendricks III (often referred to
as “Edward Thomas Kendrick III” in court
proceedings), a Tennessee state prisoner, appeals pro
se a district court judgment denying his petition for a
writ of habeas corpus, filed pursuant to 28 U.S.C. §
2254. The court construes the notice of appeal as an
application for a certificate of appealability. See Fed.
R. App. P. 22(b)(2).
In 1994, a jury convicted Kendricks of the firstdegree murder of his wife. He was sentenced to life
imprisonment. The incident occurred on March 6,
1994. Kendricks drove to his wife’s workplace with

38a
their two children in their car seats and a rifle in the
front passenger seat. He asked her to come outside,
where she spoke briefly with the children. Kendricks
took the rifle out of the front seat, walked to the back
of the car, and shot his wife in the chest. He then
drove to the airport, where he was apprehended,
throwing the rifle out of the car along the way.
The conviction was upheld on direct appeal in the
state courts. State v. Kendricks, 947 S.W.2d 875
(Tenn. Crim. App. 1996). Kendricks then filed for
post-conviction relief. The trial court denied the
motion after holding an evidentiary hearing
including testimony from a firearms expert that the
type of firing mechanism used in the murder weapon
was defective, although he could not cause the
murder weapon to fire without pulling the trigger.
The appellate court concluded that two claims of
ineffective assistance of counsel were meritorious.
Kendrick v. State, [*2] No. E2011-02367-CCA-R3-PC,
2013 WL 3306655 (Tenn. Crim. App. June 27, 2013).
On appeal, the Tennessee Supreme Court reversed
that decision and remanded the matter for
consideration of the remaining claims. Kendrick v.
State, 454 S.W.3d 450, 455 (Tenn. 2015). The
appellate court found the remaining claims meritless.
Kendrick v. State, No. E2011-02367-CCA-R3-PC,
2015 WL 6755004 (Tenn. Crim. App. Nov. 5, 2015).
In this petition for federal habeas corpus relief,
Kendricks enumerated forty-eight issues: numerous
claims of ineffective assistance of trial counsel,
several claims of ineffective assistance of appellate
counsel, several claims of prosecutorial misconduct, a

39a
claim of new evidence of innocence, a claim that postconviction proceedings in Tennessee do not provide
equal protection for African Americans, and a claim
that the Antiterrorism and Effective Death Penalty
Act is unconstitutional. The State filed a response,
and Kendricks filed a reply.
The district court determined that the majority of
the claims were procedurally defaulted when they
were not raised by counsel in the appeal of the postconviction
proceeding,
although
Kendricks
attempted to raise them in pro se filings. The court
therefore addressed only the claims that had been
raised by appointed counsel in the post-conviction
appeal. The district court also reviewed de novo one
claim that was raised but not addressed in the state
court. Finding no merit to the claims, the district
court denied the petition.
To receive a certificate of appealability, a
petitioner must make a substantial showing of the
denial of a constitutional right. See 28 U.S.C. §
2253(c)(1). On claims that are denied on procedural
grounds, a petitioner must show that jurists of reason
would find it debatable whether the petition stated a
valid claim of the denial of a constitutional right and
whether the district court was correct in its
procedural ruling. Slack v. McDaniel, 529 U.S. 473,
484 (2000). On claims that were denied on the merits,
the petitioner may meet the standard by showing
that reasonable jurists would find the district court’s
assessment of the claims debatable or wrong. Id.
Reasonable jurists would not find it debatable
whether the district court was correct in finding most

40a
of the claims procedurally defaulted. These include
many of the claims of ineffective assistance of trial
and appellate counsel and prosecutorial misconduct.
They were not raised by [*3] counsel in the postconviction appeal, and, although Kendricks
attempted to raise them in pro se filings and counsel
attempted to incorporate the claims by reference in a
reply brief, defendants in Tennessee are barred from
representing themselves while being represented by
counsel. See Williams v. State, 44 S.W.3d 464, 469
(Tenn. 2001). Also, counsel could not raise new
arguments in a reply brief under Tennessee law.
Caruthers v. State, 814 S.W.2d 64, 69 (Tenn. Crim.
App. 1991).
Procedurally defaulted claims will not be heard on
their merits unless the petitioner shows cause and
prejudice to excuse the procedural default, or that a
miscarriage of justice would occur if the claims were
not examined because of the existence of new
evidence of actual innocence. See House v. Bell, 547
U.S. 518, 536-37 (2006). Although Kendricks
attempts to establish cause for his default by blaming
ineffective assistance of appellate post-conviction
counsel, the Supreme Court has recognized
ineffective assistance on initial post-conviction
proceedings only as cause to excuse procedural
default, not appeals from those proceedings. See
Martinez v. Ryan, 566 U.S. 1, 16 (2012). Moreover,
Kendricks would be hard-pressed to establish
ineffective assistance of post-conviction counsel on
appeal, where his counsel initially succeeded in
having the sentence vacated. Finally, Kendricks

41a
claims to have new evidence of his actual innocence
to allow his procedurally defaulted claims to be
addressed, but his evidence of problems with the
firing mechanism in the murder weapon was
cumulative to evidence presented at trial and
rejected by the jury.
The district court examined the rest of the claims,
all asserting ineffective assistance of counsel, on the
merits. To prevail on these claims, Kendricks had to
show that his counsel’s performance was deficient
and that the result of the trial was prejudiced.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
The first non-procedurally defaulted claim argued
that trial counsel was ineffective in failing to hire a
weapons expert. The defense presented at trial was
that the gun accidentally discharged. Counsel
planned to rely on the fact that the police officer who
found the murder weapon along the side of the road
where Kendricks had thrown it––Officer Miller––
accidentally shot himself in the foot when removing
it from the trunk of his vehicle at the police station.
Miller had told other police officers investigating the
incident that he had not touched the [*4] trigger. The
prosecutor put on an expert who testified that the
gun would not fire without pulling the trigger. The
Tennessee Court of Criminal Appeals granted postconviction relief on this claim, but the Tennessee
Supreme Court reversed. The district court found
that it was not unreasonable for the Tennessee
Supreme Court to conclude that the failure to hire an
expert was not ineffective assistance. However, it did
not find the appellate court’s decision unreasonable

42a
either. Because it appears that reasonable jurists
could find this claim debatable, a certificate of
appealability will be granted on this claim.
The second claim is in the same posture.
Kendricks argued that counsel was ineffective in
failing to have Officer Miller’s statements to his
fellow officers admitted under the excited utterance
exception to the hearsay rule after Miller claimed at
trial not to remember whether he touched the trigger.
The Tennessee appellate court granted postconviction relief on this claim before being reversed
by the Tennessee Supreme Court. The district court
concluded that the Tennessee Supreme Court was
not unreasonable in finding that counsel’s
performance was not deficient because he challenged
Miller’s trial testimony through cross-examination.
Again, the district court did not find the appellate
court’s opposite conclusion unreasonable. It appears
that reasonable jurists would find this claim
debatable, and a certificate of appealability will be
granted on this claim.
Kendricks next argued that trial counsel was
ineffective in opening the door to admission of his
prior convictions, including returned checks,
marijuana possession, and driving under the
influence, and failing to seek a limiting instruction on
this evidence. Reasonable jurists would not find
debatable the district court’s conclusion that the
state court’s decision that the admission of these
prior crimes could not have prejudiced the result of
the trial, given the minor nature of the convictions
and the other evidence of guilt.

43a
Kendricks argued that counsel was ineffective in
challenging the admission of testimony from an
airport security officer. Kendricks drove to the
airport after the shooting, and his daughter told the
officer, while she was being removed from her car
seat, that she had told daddy not to shoot mommy but
he did and she fell. Kendricks argued that, because
the prosecutor called this [*5] surprise witness,
counsel should have insisted on specific performance
of the plea agreement Kendricks rejected before trial.
The state court found that no such remedy was
required by state law. The district court’s conclusion
that the state court’s decision was not contrary to
clearly established Supreme Court precedent is not
debatable by reasonable jurists, where Kendricks
points to no Supreme Court holding to this effect, and
there is none.
Kendricks also challenged counsel’s performance
with regard to an eyewitness. Counsel was surprised
at trial by his testimony that Kendricks stood over
his wife’s body saying “I told you so” several times.
The state court found that counsel effectively crossexamined the witness, pointing out that the witness
had not given this evidence in his earlier statements,
attempted to impeach his testimony, and argued in
closing that the testimony was fabricated, and
therefore did not perform ineffectively. Reasonable
jurists would not find debatable the district court’s
conclusion that this finding by the state court was not
contrary to clearly established federal law.
Kendricks also argued that the prosecutor, after
securing his agreement to waive a preliminary

44a
hearing in exchange for open-file discovery, violated
this agreement by introducing the surprise testimony
of the above two witnesses and that of Officer Miller,
and that counsel was ineffective in failing to object.
The state court found that Kendricks was not entitled
to the witness statements under Tennessee law.
Reasonable jurists would not debate whether the
district court was correct in finding that counsel’s
failure to object to the non-receipt of statements to
which Kendricks was not legally entitled was not
ineffective assistance.
Kendricks also alleged ineffective assistance of
counsel in failing to object to a police officer’s
testimony concerning statements Kendricks made
after his arrest at the airport. He argued that the
officer’s testimony amounted to the use of his silence
against him because the prosecutor argued that
Kendricks did not tell the officer that the shooting
was an accident. The state court found that
Kendricks had agreed to speak to the officer after
receiving warnings. Reasonable jurists would not
debate the district court’s finding that no claim of the
denial of the right to remain silent was stated in this
case. See Berghuis v. Thompkins, 560 U.S. 370, 38586 (2010). [*6]
Kendricks alleged that counsel was ineffective in
calling the attorney who was representing him in
divorce proceedings. The state court found that the
attorney gave generally favorable testimony and that
Kendricks had agreed with the decision to call him.
The attorney testified that the divorce was amicable,
that Kendricks was going to receive custody of the

45a
children, most of the marital property, and child
support, and that Kendricks was a truthful person,
but also that Kendricks believed his wife had been
unfaithful, which Kendricks argues supplied a
motive for the crime. Reasonable jurists would not
debate the district court’s rejection of this claim on
the ground that the benefit of the testimony
outweighed any inference as to motive which would
have been available without the testimony.
Similarly, Kendricks argued that counsel was
ineffective in failing to call his cousin to testify that
he had seen Kendricks and the victim together
earlier in the day and that they were not arguing, and
that he had found food simmering on the stove after
the crime, which Kendricks argues would show a lack
of premeditation. However, the state court found that
Kendricks did not ask counsel to call this witness,
and that his testimony would have merely been
cumulative of the attorney’s testimony that the
divorce was amicable. Reasonable jurists would not
debate the district court’s conclusion that failing to
call this witness was not deficient and did not
prejudice the result of the trial, where Kendricks did
not show that he made counsel aware of the cousin’s
non-cumulative evidence.
Kendricks also faulted counsel for failing to call
another police officer who saw Kendricks at the
airport after his arrest to testify that Kendricks was
distraught. The state court found that there was no
evidence that counsel was aware of this possible
witness and that his testimony would have only been
cumulative of other testimony. Reasonable jurists

46a
would not debate the district court’s conclusion that
the state court decision was not contrary to clearly
established Supreme Court law.
Finally, the district court examined de novo a
claim that counsel was deficient in promising the jury
during the opening argument that Officer Miller
would testify that he did not touch the trigger when
he shot himself in the foot, without investigating
what Miller planned to testify. [*7] Because Miller
had made statements to other officers to that effect,
the district court concluded that counsel reasonably
believed that an investigation of what Miller’s
testimony would be was unnecessary. See English v.
Romanowski, 602 F.3d 714, 728 (6th Cir. 2010).
Reasonable jurists would not debate the district
court’s assessment of this claim.
Accordingly, a certificate of appealability is
GRANTED as to the two claims of ineffective
assistance of counsel regarding the failure to call a
weapons expert and the failure to seek to admit
Officer Miller’s statements to other officers under the
excited utterance exception to the hearsay rule,
because reasonable jurists could debate the
resolution of these claims. A certificate of
appealability is DENIED on the remaining claims. A
briefing schedule shall issue.
ENTERED BY ORDER OF THE COURT
/s Deborah S. Hunt
Deborah S. Hunt, Clerk

47a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
EDWARD THOMAS
)
KENDRICKS,
)
Petitioner,
)
[Filed 09/30/19]
)
v.
)
No. 1:16-CV-00350
)
-JRG-SKL
SHAWN PHILLIPS,
)
Respondent.
)
MEMORANDUM OPINION
Before the court is a pro se prisoner’s petition for
a writ of habeas corpus filed pursuant to 28 U.S.C. §
2254 [Doc. 1]. Respondent has filed a response in
opposition [Doc. 15], as well as the state court record
[Doc. 14]. Petitioner filed a reply [Doc. 30]. After
reviewing all of the relevant filings, the Court has
determined that Petitioner is not entitled to relief
under §2254 and no evidentiary hearing is warranted.
See Rules Governing § 2254 Cases, Rule 8(a) and
Schirro v. Landrigan, 550 U.S. 465, 474 (2007). For
the reasons set forth below, the §2254 Petition is
DENIED and this matter will be DISMISSED.
I. PROCEDURAL HISTORY
In 1994, a Hamilton County jury convicted
Petitioner of first-degree murder for shooting and
killing his wife [Doc. 14 Attachment 1 at 24].
Petitioner appealed on several grounds including that
the evidence was insufficient to support the finding of
guilt by the jury, that the trial court erred in allowing

48a
and disallowing various pieces of evidence, and that
the State had violated Brady v. Maryland by failing
to disclose exculpatory information [Doc. 14
Attachment 9]. The Tennessee Court of Criminal
Appeals (“TCCA”) affirmed his conviction [Doc. 14
Attachment 11]. Petitioner then applied for
permission to appeal to the Tennessee Supreme
Court, but his application was denied [Doc. 14
Attachments 12, 15]. [*2]
Next, Petitioner filed a motion for post-conviction
relief alleging various grounds of ineffective
assistance of counsel and various instances of
prosecutorial misconduct [Doc. 14 Attachment 15 at 3
– 12]. His petition was summarily dismissed [Doc. 14
Attachment 16 at 63 – 64]. Thereafter, Petitioner
amended his petition for post-conviction relief which
was dismissed as untimely filed [Doc. 14 Attachment
16 at 65 – 81; 84]. Petitioner immediately appealed
and the TCCA reversed in part and remanded for
further proceedings on Petitioner’s ineffective
assistance of counsel claims, with specific instructions
for the post-conviction court to allow Petitioner to
amend his petition [Doc.14 Attachment 20].
Petitioner filed an amended petition in 2000, and
over the next several years filed various amendments,
with and without the assistance of counsel [Doc. 14
Attachments 21 at 5 – 114; 21 at 115 – 131; 21, at 140
– 141; 22 at 127 – 23 at 87; 23 at 88 – 123; 28 at 71 –
106; 28 at 107 – 29 at 51]. In 2011, after hearings

For the sake of brevity this includes only Petitioner’s amended
petitions and not his vast Memoranda of Law, spanning
1

49a
spanning various days in February and March, the
post-conviction court dismissed the petition [Doc. 14
Attachment 29 at 6 – 72]. Petitioner then appealed to
the TCCA again, which resulted in the TCCA
reversing the judgment of the post-conviction court,
vacating Petitioner’s conviction, and remanding for
further proceedings, based on two of Petitioner’s
ineffective assistance of counsel claims: (1) failure to
adduce expert proof about a defective trigger
mechanism design in Petitioner’s rifle, and (2) failure
to use the excited utterance exception to hearsay to
admit the prior statements of an officer in the case
[Doc. 14 Attachment 48].
The State appealed to the Tennessee Supreme
Court (“TSC”), which found no ineffective assistance
of counsel on either claim, reversed the TCCA’s
judgment, and remanded the case to the TCCA to
address Petitioner’s pretermitted claims [Doc. 14
Attachments 49, 60]. Petitioner [*3] then moved for a
rehearing in the TSC which was denied [Doc.14
Attachments 61, 62]. He also filed a writ of certiorari
with the United States Supreme Court which was also
denied [Doc. 14 Attachments 63, 64]. Later, the TCCA
evaluated Petitioner’s remaining claims as directed
by the TSC and affirmed the judgment denying
petitioner post-conviction relief [Doc. 14 Attachment
72]. Petitioner filed an application for permission to
appeal with the TSC, which was denied [Doc. 14
Attachments 73, 75]. Finally, in 2016 Petitioner filed
for a writ of habeas corpus with this Court [Doc.1].
hundreds of pages, which accompanied them and are separately
labeled in the record.

50a
II. BACKGROUND
A. Trial
On Direct Appeal, the TCCA summarized the facts
of this case as follows:
On March 6, 1994, at approximately 10:00
p.m., the defendant drove to the gas station at
which Lisa Kendrick, his wife and the victim,
worked. With him in the car were their four-yearold daughter and three-year-old son. These
children were sitting in car seats in the back seat
of the station wagon the defendant was driving.
Also in the car, on the front passenger floorboard,
was the defendant’s loaded 30.06 hunting rifle.
The defendant pulled into the station, parked,
and went into the market portion of the station
where his wife worked as a cashier. He asked her
to come outside, which she did. She and the
defendant went to the car where she spoke briefly
to the children. The defendant retrieved the rifle
from the front passenger floorboard and carried
it to the back of the car. At that point, the weapon
fired once, the bullet striking the victim in her
chest and killing her almost instantly.
After the victim fell to the parking lot, the
defendant briefly bent over her body, put the gun
back in the car, and drove toward the airport a
short distance away. On the way, he threw the
rifle out of the car. Once he arrived at the airport,
he called 911 and reported that he had shot his
wife. Before the defendant left the gas station, he
took no action to assist the victim in any way.
[*4]

51a
Timothy Shurd Benton, a customer, was in
the market when the defendant entered. He
testified that the defendant had asked the
cashier “to step outside, he had something to
show her.” Benton left the market, got in his car
and started to leave the parking lot. He testified
that, as he had begun to leave, he heard an
“explosion.” He looked over his shoulder out the
window of his car and saw the defendant holding
a rifle “pointed straight up in the air.” He also
saw the victim lying on her back on the parking
lot. After deciding that another person in the
market was aware of the situation and would call
for help, Benton followed the defendant to the
airport, where he contacted an airport police
officer.
Lennell Shepheard was also in the market at
the time the defendant entered. He testified that
he had seen the defendant and his wife leave the
store, that the defendant had not appeared angry
or hostile, and that the victim had shown no signs
of fear when she went outside at the defendant’s
request. Shepheard remained in the store until
he heard the rifle shot. At that point, he opened
the market door and looked outside to see what
had happened. He testified that he had seen the
defendant shut the back passenger door and then
lean over the victim’s body and state, “I told you
so” approximately six times.
Endia Kendrick, the defendant’s four-year-old
daughter, testified on direct examination that
she had seen her father shoot her mother and

52a
that her mother had had her arms up at the time.
However, on cross-examination, Endia admitted
that she hadn’t actually seen the shooting.
Dr. Frank King, the Hamilton County
Medical Examiner, testified that the victim had
died of a single gunshot wound to the chest that
entered her body in the left chest at forty-nine
inches above the heel and exited her body at the
left back at forty-nine and one-half inches above
the heel.
The defendant testified that he had been
moving the rifle from the front of the car to the
back at the request of the victim and that it had
discharged accidentally. He testified that he had
been shifting it from one hand to the other when
it went off. He testified that he had not pulled the
trigger. He steadfastly denied that he had
intended to shoot the victim, and claimed that he
had been carrying the rifle in the car because he
sometimes cleaned apartments near an area
where he felt a gun was necessary for personal
protection. He also denied making any
statements as he bent over the victim, and
testified that he had taken no action to assist her
because he knew she was dead. The defendant
also testified that he and the victim had agreed
on an [*5] irreconcilable differences divorce, that
an attempted reconciliation had recently failed,
and that he suspected that she had had or was
having an affair. He denied that he was upset or
angry at his wife about the status of their
relationshiat [sic]

53a
In support of his contention that the rifle fired
accidentally, the defendant relied on the
testimony of Officer Steve W. Miller. Officer
Miller testified that he had shot himself in the
foot with the rifle when he was removing it from
the trunk of his car after recovering it from where
the defendant had thrown it. Officer Miller
testified that he had shot himself accidentally.
He further testified that he could not recall
whether or not his finger had been on the trigger
of the gun when it fired.
[The state’s expert witness,] Kelly Fite, a
firearms examiner, testified that he had
examined and tested the rifle and that, in his
opinion, “[t]he only way that you can fire this rifle
without breaking it is by pulling the trigger.”
After the defense closed its proof, the State
called Martha Kay Maston as a “rebuttal”
witness. Maston testified that she had been
working as a public safety officer for the
Chattanooga Metropolitan Airport Police on the
night of the shooting. On finding the defendant
at the airport, she saw the two children in the
back seat of the car. She testified that she had
gotten the children out and that they were both
“very upset and hysterical.” She further testified
that “when I got [the little girl] out of the car, she
just put her arms around me and she stated that
she had told daddy not to shoot mommy but he
did and she fell.” Maston testified that the
defendant’s daughter had not made any other

54a
statements and that his son had not said
anything.
State v. Kendricks, 947 S.W.2d 875, 878 – 79 (Tenn.
Crim. App. 1996).
B. Post – Conviction
As stated above, the post-conviction trial court
conducted hearings over several days in February
and March of 2011. In its second opinion addressing
the dismissal of Petitioner’s post-conviction petition,
the TCCA summarized the evidence adduced at these
hearings as follows:
Henry Jackson Belk, Jr., a gunsmith, testified
that, earlier that morning in the clerk’s office, he
examined the gun, a Remington Model 7400
30.06 autoloading rifle, that shot and killed the
victim. He stated that he was familiar with the
trigger mechanism inside the rifle, describing it
as “a common trigger mechanism that is [*6]
contained within a wide variety of firearms,
shotguns, rim fires and center fire rifles.” He
added, “Generally speaking, all pumps and
automatics manufactured after 1948 by
Remington contain this trigger mechanism.”
Belk testified that the trigger mechanism is
referred to as the “Remington Common Fire
Control” (“the Common Fire Control”).
Belk stated that the Common Fire Control
was first used in the automatic shotgun in 1948,
then in the pump shotgun in 1950, and then in
the automatic rifle in 1951. The Common Fire
Control is currently used in 23 million firearms.
Because the Common Fire Control is used in

55a
different firearms, any “issue” with the trigger
mechanism would not be limited to one specific
type of firearm. According to Belk, the Common
Fire Control is a “defective mechanism.”
As to the rifle in this case, Belk stated that it
had “the normal dirt, dried oil and residue
common to a gun that has not been cleaned.”
After removing the trigger mechanism while he
was on the witness stand, Belk examined the rifle
and stated that “the action spring is sticky.” He
explained that the “action spring . . . supplie[d]
the energy for the bolt to return back forward.”
Because the action spring was “sticky,” the bolt
was “not going forward as freely as it should.”
Belk explained that the action spring’s condition
was consistent with a firearm that had not been
cleaned.
Turning his attention to the trigger
mechanism, Belk testified about how it could
malfunction:
The general description here is this is a
swing hammer mechanism; in other words, it
fires by a hammer going forward and hitting
a firing pin that’s contained in the bolt inside
the housing. The sear is the part that retains
the hammer. The sear is what holds the
hammer back, does not fire. On this particular
mechanism, on all these Remington
mechanisms, that sear is an independent
part, is right here. That is an independent
part, not on the end of the trigger like a
Browning design is.

56a
For that reason, and the fact that the safety
only blocks the trigger, it does not block the
action of the sear or the hammer, it only
blocks the trigger, any debris that is captured
between the sear and the slot that it is housed
in, which is the housing, any debris that is
caught between the bottom or the tail of [*7]
the sear and the stock surface inside the
housing, any debris that gathers there, any
debris that gathers between the trigger yoke
and the rear pivot pin and the trigger pusher
arm and the bottom of the sear, any debris in
any of those places, alone or in concert, can
cause an insecure engagement between the
hammer and the sear itself.
So even with a gun on safe, which it is now,
it can still fire, which it just did. Without
pulling the trigger, on safe.
Responding to questions by the court, Belk
clarified: “I can pull the trigger and make it fire,
just like that (indicating), or I can put it on safe
without the trigger being pulled and fire it just
by manipulation of the sear.”
Belk continued:
The notch in the hammer determines how
much debris it takes to make it fail. The
notch in the hammer is about 18,000 of an
inch deep, about the thickness of a
matchbook cover. . . . [A]nything that
totals that amount of distance can make a
gun fail. . . . .

57a
Any of those other locations, it takes about
18,000ths in order to interfere with the secure
engagement of the hammer and the sear.
Belk clarified that there were five locations in the
trigger mechanism that made the mechanism
“weak” and that could collect the requisite
amount of debris to cause a misfire. Moreover, of
the five “weak spots,” “the clearance between the
sear and the housing itself is usually about
4,000ths, so it would take less debris captured
between those places to retard the proper motion
of the sear and would also cause it to fail. So it
wouldn’t necessarily take as much as 18,000ths.”
Belk also testified that “[t]he Remington
Common Fire Control has a history of firing
under outside influences other than a manual
pull of the trigger. Vibration is one way that can
happen. Impact. Even in one case the simple act
of grabbing the gun by [the forward part of the
stock] caused it to fire.” Belk reiterated that the
Common Fire Control “fires without the control
of the trigger. It can fire out of the control of the
shooter. It can discharge without any hand being
on the stock.” [*8]
Belk stated that, if debris caused the gun to
fire unintentionally, the debris could be
dislodged during the discharge. He added,
On this semi-automatic, each time the gun
is fired, the hammer goes forward, and then
under great pressure and speed, the hammer
is forced back again into position. So there’s a
lot of cycling going on.

58a
There’s also the disconnector here, there’s a
lot of movement in the mechanism itself
during firing and during manipulation after
firing. And that movement, many times,
dislodges the debris that actually was the
causation.
Belk acknowledged that debris also can be
dislodged through a gun being dropped or
“banged around.” He acknowledged that a drop
test “many times[] destroys any evidence that
was there.” He explained that the standardized
tests of dropping a firearm “on a hundred
durometer rubber pad from a certain distance in
certain orientations . . . does nothing whatsoever
to analyze the mechanism and how it can fail. So
the . . . drop test in itself can be destructive [by
dislodging debris] without actually showing
anything.” He added, “[T]his particular
mechanism has what is called a recapture angle.
So, impact, as in dropping it on the floor, will
actually recapture the sear engagement rather
than dislodge it. So the . . . drop test on this
particular gun is pretty much useless.”
Belk opined that the rifle which shot and
killed the victim “is capable of firing without a
pull of the trigger, whether the safety is on or off.”
Belk testified that he was first hired to work
on a case involving the Common Fire Control in
1994, and he agreed that, “if someone had done
some research, they would have potentially been
able to find [him].” He also testified that
problems with Remington firearms could be

59a
reported to the manufacturer, which maintained
“some” records of complaints. According to Belk,
people were complaining prior to his initial
involvement. He testified that he “first identified
the problem with the Remington Common Fire
Control in 1970.” When a “co-shooter” on a skeetrange complained of trigger problems, Belk
disassembled the trigger mechanism and “found
a section of lead shot debris stuck in the sear
notch of the hammer.” He added, “That was the
first identification that [he] had of a bad
mechanism, that it could fire without a trigger
being [*9] pulled.” Since then, he had consulted
with “many, many attorneys.” One case involved
a Remington 7400 that fired while it was being
cleaned with an air hose. The safety on that gun
had been engaged. Another gun fired while being
wiped with a rag. Another gun fired when the
butt-end of the stock was placed on the floor.
On cross-examination, Belk admitted that,
while the trigger assembly was in the Petitioner’s
rifle, the rifle had not misfired during Belk’s
handling of it. He also admitted that he could not
opine about the cleanliness of the gun in March
1994. He stated that he testified in a case
involving a Remington 7400 in 1997 or 1998.
On redirect examination, Belk testified that
he was familiar with a case in which a Remington
shotgun containing the Common Fire Control
fired while it was in a locked case and with the
safety engaged. The gun was strapped to the
handlebars of an ATV that had been left idling.

60a
The vibrations caused the gun to fire. Belk stated
that he had been consulted on “probably two
dozen” cases involving the Common Fire Control
in which the gun discharged and injured
someone.
On re-cross examination, Belk maintained
that he had previously been able to induce a
misfire by “artificially introducing” debris in
“any” of the previously identified “weak spots.”
He clarified that he induced these misfires in
“cutaway” guns.
Sergeant Steve Miller of the Chattanooga
Police Department (“CPD”) testified that, on the
night the victim was killed, he was assigned to
the case as a crime scene investigator. He
testified that the firearm was not located at the
scene of the shooting. When a “[c]all came across
the police radio that a gun had been located down
Airport Road,” Sgt. Miller went to locate the
firearm. He located the rifle on the side of Airport
Road and noted that there was no clip in it. He
photographed the rifle and collected it for
evidence, placing it in the trunk of his patrol car.
Sgt. Miller transported the rifle back to the police
service center on Amnicola Highway.
Sgt. Miller agreed that he was handling the
rifle carefully in order to preserve fingerprints.
He also acknowledged that he testified at trial
that he had a jacket in his left hand and that he
“grabbed” the rifle from the trunk of his patrol
car with his right hand and “pointed it in a
downward motion” towards the pavement. When

61a
Sgt. Miller pointed it in the downward motion,
the rifle discharged, injuring his left foot. Sgt.
Miller testified that he “can’t say with a hundred
percent accuracy” whether his fingers were [*10]
anywhere near the trigger but stated that “[t]hey
shouldn’t have been.”
Sgt. Miller acknowledged his signature on the
bottom of a report prepared by Michael Taylor on
March 7, 1994 (“the Taylor report”). The Taylor
report, admitted into evidence, reflected that
James Gann was the first officer to respond to
Sgt. Miller’s injury, and Sgt. Miller’s recollection
at the post-conviction hearing was consistent:
that Officer James Gann came out of the service
building to see what had happened after Sgt.
Miller
shot
himself.
Sgt.
Miller also
acknowledged that the Taylor report indicated
that he told the “initial officer that he had both
hands on the rifle and did not have his finger
near the trigger.” Sgt. Miller testified that he
suffered “a massive foot injury” that was
“extremely painful.” Sgt. Miller agreed that the
wound also was stressful.
On cross-examination, Sgt. Miller agreed that
he was called by the State as a witness at the
Petitioner’s trial. He agreed that defense counsel
questioned him at the trial and asked questions
about where his fingers were with respect to the
trigger when he shot himself. He also
remembered that defense counsel’s crossexamination was “tough.”

62a
On redirect examination, Sgt. Miller testified
that defense counsel did not interview him prior
to the trial.
Glenn Sims, retired from the CPD,
acknowledged that he prepared a police report in
connection with Sgt. Miller’s incident, but he did
not recall speaking with Sgt. Miller. He
acknowledged that, according to his report, Sgt.
Miller “was taking the firearm . . . that he had
collected into evidence, out of the truck of the
vehicle [and] it discharged[.]” The report further
reflected that “the rifle swung down, [Sgt. Miller]
wasn’t sure if it hit his foot or the ground, but it
went off, hitting Miller in the left inside foot.”
Sims agreed that the report reflected that the
rifle “just went off.”
James A. Gann testified that he was employed
by the CPD in 1994 and that he was one of the
officers who investigated Sgt. Miller’s incident.
He stated that he was in the office when he heard
“a loud recoil of a gun.” Gann went outside to
investigate and saw that Sgt. Miller was shot in
the foot. Gann radioed for an ambulance and
alerted the appropriate people who “had to be
advised on a shooting.” Gann stated that Sgt.
Miller was “in a lot of pain, bleeding, and starting
to go into shock.” Gann could not recall whether
he spoke to Sgt. Miller about what had happened,
explaining that he “was more concerned with his
foot, he was [*11] bleeding.” Referring to a police
report that Sgt. Glenn Sims had prepared, Gann
acknowledged that Sgt. Miller had told Gann

63a
that, while Sgt. Miller was taking the rifle out of
the trunk, the gun “just went off.” Gann also
testified that he was not contacted by anyone
from the public defender’s office before the
Petitioner’s trial.
Officer Michael Holbrook of the CPD testified
that he was dispatched to Erlanger Hospital to
respond to an accident involving Sgt. Miller.
Officer Holbrook spoke to Sgt. Miller at the
hospital and prepared a report regarding their
conversation. Officer Holbrook testified that Sgt.
Miller told him that “as he was taking the rifle
out of the trunk of his patrol car, the rifle went
off and shot him in the foot.” Sgt. Miller also told
Officer Holbrook that his hands were not on the
rifle’s trigger. Officer Holbrook’s report was
consistent with his testimony and contained the
following narrative: “As he was lifting out the
rifle, the weapon went off and struck him in the
left foot. [Sgt.] Miller states that he picked it up
with both hands and his finger was not near the
trigger.” Officer Holbrook’s report, dated March
7, 1994, was admitted as an exhibit.
The Petitioner’s trial lawyer (“Trial Counsel”)
testified that he worked for the public defender’s
office in 1994 and represented the Petitioner at
trial. He stated that two investigators assisted
him in investigating the case. Trial Counsel
agreed that the Petitioner’s appointed counsel in
general sessions waived the preliminary hearing
in exchange for “an open file policy.”

64a
Trial Counsel testified that, from the
beginning, the Petitioner maintained that the
rifle accidentally discharged. He also testified
that Sgt. Miller had made statements indicating
that “he was not holding the gun anywhere near
the trigger housing and it discharged, shooting
him in the foot.” Trial Counsel stated that he
never looked for an expert witness to support the
Petitioner’s accidental discharge claim. He
testified that the public defender’s office
informally consulted with a gunsmith who was a
former Red Bank police officer, but he did not
remember whether he spoke to him about this
case. Trial Counsel also agreed that he performed
no research regarding the trigger mechanism in
the Remington 7400 rifle. He added, “[a]s a
matter of fact, when I heard on NPR, a year or so
ago, that the Remington trigger mechanism was
faulty and [there had] been several apparent
accidental deaths as a result of it, you’re the first
person I contacted, because I thought, I
remembered it was a Remington and I thought it
was something very important.” Trial Counsel
generally recalled that the State’s expert, Kelly
Fite, performed a “drop test” on the rifle. He
agreed that Fite’s report did not indicate that
Fite inspected the trigger mechanism.
[*12] Asked whether it would have been
beneficial for an expert to testify on the
Petitioner’s behalf about the trigger mechanism,
Trial Counsel answered, “In hindsight, especially
with the knowledge now that there have been so

65a
many problems with the Remington trigger
mechanism, yeah.” Asked about his knowledge of
any discussions in the industry regarding the
trigger mechanism misfiring, Trial Counsel
responded:
I wasn’t aware of any. And I will point out,
at the time, I was the only public defender in
Division II, and in that period of time in little
over four years, I probably tried, literally, 40
first degree murder cases, settled another 40
to 50, and I will concede I didn’t put nearly as
much time in on his case or any other cases
that I tried as I do now in my private practice,
because I’ve got a lot more time. My average
caseload every Thursday for settlement day
was between 20 and 30 defendants. My
average month included at least 2 if not 3
trials. So I wasn’t aware of the issue with the
trigger pull.
Trial counsel also added that, although he
had “a fundamental knowledge of firearms, [he]
was not aware of it and . . . [he] didn’t know it
and [he] didn’t get an expert.” He also explained,
I thought [Sgt.] Miller would testify
consistently with what I knew to be his
statements, and I thought that would come in
and I thought that when that did come in, I
could use that very effectively to say, okay, if
[the Petitioner] can’t accidentally have that
gun [go] off, neither can [Sgt.] Miller, so,
therefore, you got to presume that [Sgt.]
Miller shot himself in the foot on purpose.

66a
That was my whole line of reasoning in this
case.
Trial Counsel testified that he “was not
prepared for [Sgt.] Miller to say he couldn’t
remember, because there was not any doubt in
[Trial Counsel’s] mind, at least, when [they]
started trying this case, that he was going to stick
to his prior statements.” Accordingly, Trial
Counsel had no “backup plan” to call other
officers to testify about what Sgt. Miller had told
them after he shot himself. Trial counsel felt
“sandbagged” by Sgt. Miller’s trial [*13]
testimony. He recalled the trial court refusing to
allow him to introduce one of the reports
generated about Sgt. Miller’s injury in which Sgt.
Miller reported that his hands had not been near
the rifle’s trigger when it misfired. He did not
request to make an offer of proof. He also did not
attempt to introduce Sgt. Miller’s statements as
excited utterances, explaining, “[i]n the heat of
the trial, I didn’t see that.”
Trial Counsel agreed that both Lennell
Shepheard and Sgt. Miller’s testimony at trial
differed from their statements that the State
provided the defense during discovery. Trial
Counsel stated that the first time he heard
Shepheard claim the Petitioner stated “I told you
so” was during Shepheard’s testimony. Trial
Counsel agreed that he was never provided
notice by the State prior to these two witnesses
testifying that the substance of their pretrial
statements had changed materially. Trial

67a
counsel also stated that, although he was not the
Petitioner’s counsel at the preliminary hearing
stage, he would expect “in exchange for the
waiver of a preliminary hearing, especially in a
first degree murder case, that there would be
some extra benefit to come to the defendant
through the discovery process.” He added, “if
[Sgt.] Miller was going to change his story, we
should have been made aware of that, if Mr.
Shepheard was going to add to his story, we
should have been made aware of that.”
On cross-examination, Trial Counsel stated
that he began practicing law in Tennessee in
April 1978 and had been in continuous practice
since that time. At the time of the Petitioner’s
trial, Trial Counsel had been practicing law for
sixteen years, primarily in criminal defense.
Trial Counsel also stated that he was employed
at the public defender’s office at the time of the
Petitioner’s trial and had worked in that capacity
for approximately five years. Trial Counsel had
tried at least sixty to seventy cases by 1994,
including murder cases, less-serious cases, and
death penalty cases. He stated that he tried in
excess of forty murder cases prior to this case.
Trial Counsel testified that he was assigned this
case at arraignment.
Before meeting with the Petitioner, Trial
Counsel stated that the Petitioner completed an
“intake sheet” wherein he wrote out his “side of
the story.” Trial Counsel testified that the
Petitioner was on bond when he was assigned to

68a
the Petitioner’s case and that he [*14] remained
on bond throughout his representation of him.
The offense occurred in March 1994, and the
Petitioner’s trial was in November 1994. Trial
Counsel agreed that this was a “little quick.”
Trial Counsel could not recall whether the
Petitioner had desired that the case proceed to
trial quickly.
Trial Counsel acknowledged that he and the
Petitioner discussed the strategy in the case. He
stated, again, that the Petitioner maintained
from the beginning that the rifle accidentally
discharged and that there was “no real
animosity” between him and the victim. Trial
Counsel also stated that, in his preparation for
the trial, he reviewed documents provided to the
defense by the State. Trial Counsel testified that
he typically would meet at the district attorney’s
office to review documents the State provided
him in a case. He could not recall particularly
whether he had a meeting in the district
attorney’s office in this case but stated that was
his “standard operating procedure.” He added,
“I’m sure we met on it several times, not just one
time.” Trial Counsel stated that he was
“confident” that the standard discovery motions
were filed in this case although he could not
specifically recall filing them. He stated that he
filed the “standard motions” with every
appointment he received. Pursuant to those
discovery motions, Trial Counsel stated that he
received documents from the State in this case

69a
and that he reviewed them to prepare for the
trial. He also stated that the documents included
the names of witnesses, and he agreed that the
documents also included witness statements “in
theory.”
Trial Counsel recalled discussing the
Petitioner’s testimony with him prior to trial. He
was “pretty confident” that he and the Petitioner
“went through sit-downs where [Trial Counsel]
cross-examined” the Petitioner. He added that,
for every trial in which the defendant was going
to testify, he would “sit down and grill them” so
that they could anticipate what crossexamination would be like.
Trial Counsel did not recall specifically
“familiarizing [him]self with the schematic of the
[rifle]” prior to the trial, but stated that he was
“relatively familiar with guns.” Although Trial
Counsel could not recall specifically looking at
the rifle before the trial, he stated, “I’m sure I did.
. . . I’m sure I looked at it in your office too.” Trial
Counsel also could not recall specifically his
cross-[*15]examination of Sgt. Miller. However,
he stated, “I try to be vigorous [in crossexamination] especially when I think somebody’s
not telling the truth, and I thought that he wasn’t
telling the truth.” He also recalled calling Sgt.
Miller to testify during the defense’s proof. He
acknowledged that he recalled Sgt. Miller with
the purpose of trying to impeach him with prior
inconsistent statements.

70a
Richard Mabee testified that, as of the time of
the post-conviction hearing, he had been an
assistant public defender for approximately
nineteen years. He represented the Petitioner at
the Petitioner’s preliminary hearing. Mabee
testified regarding the “one-time sheet” for the
Petitioner’s case, which was admitted as an
exhibit at the hearing. According to Mabee, a
one-time sheet lists basic information about the
defendant, identifies the judge and the charges,
and the disposition of the case at the general
sessions level. According to Mabee, the
disposition on the Petitioner’s one-time sheet
provided, “waived to grand jury, $50,000 bond.
DA agreed to show everything.” Mabee testified
that this latter notation indicated that he had
talked to the district attorney assigned to the
case, and the district attorney had said, “[I]f
you’ll waive preliminary hearing, we’ll show you
everything in our file.” Mabee stated that he then
would have presented this information to the
Petitioner and that it would have been up to the
Petitioner to decide whether to waive the
preliminary hearing.
On cross-examination, Mabee agreed that the
notations on the Petitioner’s one-time sheet
appeared to be his handwriting. Mabee explained
that, when public defenders get appointed in
general sessions, they “open up a one-time sheet”
which means that the public defender
represented that defendant one time at the
preliminary hearing. Mabee also clarified that

71a
the judge previously would have signed the order
of appointment at the bottom of the one-time
sheet prior to the public defender’s notations
regarding the disposition of the case.
On re-direct examination, Mabee stated that
he made the notation, “[W]e’ll show you
everything in our file,” because “that’s exactly the
words the [district attorney] said to [him].”
Mabee added that, after his representation of
someone, he would take the one-time sheet back
to the public defender’s office where it was placed
in a “big drawer of one-time sheets.” He stated,
“[A]fter someone [was] [*16] appointed in a
higher court, they may or may not get that onetime sheet.”
The Petitioner testified that the first time
Trial Counsel met with him was at the county
jail. During this initial meeting, the Petitioner
completed an “intake sheet” and told Trial
Counsel that the rifle had “accidentally
discharged.” Trial Counsel informed the
Petitioner that Sgt. Miller had shot himself with
the Petitioner’s rifle and told the Petitioner that
Sgt. Miller’s incident supported the Petitioner’s
account of what had occurred.
The Petitioner recalled only two meetings
with Trial Counsel after he was released on bond:
one meeting occurred on or around June 1, 1994,
and the second meeting occurred two or three
months before trial. The Petitioner agreed that
they discussed “trial strategy” during these
meetings and their defense that the rifle

72a
accidentally discharged. During one of their
meetings, Trial Counsel asked the Petitioner
what had happened on the day of the incident,
and the Petitioner informed him what he did that
day. The Petitioner denied that Trial Counsel
ever told him “that any evidence in this case
would be damning to [him],” including the fact
that he threw the rifle out of his car window. He
also did not recall that Trial Counsel “went
through a cross-examination of [him].”
The Petitioner stated that he got the rifle at
least ten years before the killing and that he had
shot it numerous times. The Petitioner testified
that, although he wiped down the outside of the
rifle, he never did “any maintenance in regards
to the inside” of it because he did not know he
was supposed to. He agreed that he testified at
trial that he had never had a problem with the
rifle accidentally discharging during the time he
owned it.
The State asked the Petitioner whether it was
Trial Counsel’s “idea to use accidental discharge
as the theory of the case[.]” The Petitioner
responded, “I mean he’s the lawyer, I mean he
makes the ultimate decision, so I guess I have to
say so, yes, based upon . . . his investigation and
everything, yeah, I’d say it was.” [*17]
Kendrick2 v. State, No. E2011-02367-CCA-R3-PC,
2013 Tenn. Crim. App. LEXIS 539, at *7 – 31 (Tenn.

In his habeas petition, Petitioner lists his name as Edward
Thomas Kendricks, III, but in many pleadings lists his last name
2

73a
Crim. App. 2013). Due to the extraordinary length of
the record in this case, many of the facts relevant to
Petitioner’s claims are not discussed here and will
instead be addressed in the analysis below.
III. STANDARD OF REVIEW
Under the Antiterrorism and Effective Death
Penalty Act (“AEDPA”), codified in 28 U.S.C. §2254,
a district court may not grant habeas corpus relief for
a claim that a state court adjudicated on the merits
unless the state court’s adjudication of the claim:
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly
established
Federal
law,
as
determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the state
court proceeding.
28 U.S.C. § 2254(d)(1) and (2). This standard is
intentionally difficult to meet. Woods v. Donald, 135
S. Ct. 1372, 1376 (2015) (quotation marks omitted).
Under the unreasonable application clause, the
proper inquiry is whether the state court’s decision
was “objectively unreasonable,” and not simply
erroneous or incorrect. Williams v. Taylor, 529 U.S.
362, 409 – 11 (2000). The AEDPA likewise requires
heightened respect for state factual findings. Herbert
v. Billy, 160 F.3d 1131, 1134 (6th Cir. 1998). Where
as Kendrick. The state courts vary in which name is they adopt,
this Court will use Kendricks.

74a
the record supports the state court’s findings of fact,
those findings are entitled to a presumption of
correctness which may be rebutted only by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1). [*18]
IV. ANALYSIS
A. Exhaustion and Procedural Default
In his §2254 petition, Petitioner raises forty-eight
claims for relief that he classifies in five broad
categories: (1) ineffective assistance of counsel, (2)
ineffective assistance of new trial and appellate
counsel, (3) prosecution suppression of evidence, (4)
new evidence, and (5) a singular claim that the
AEDPA is an unconstitutional extension of
Congressional power. Respondent argues that many
of the claims set forth in Petitioner’s federal habeas
corpus petition have been procedurally defaulted and
may not now be addressed on the merits. Petitioner
first suggests that his claims have not been
procedurally defaulted, and second offers multiple
alternative grounds for which to excuse any
procedural default. This Court finds that Petitioner’s
claims raised only in his pro se briefs were abandoned
on appeal and have been procedurally barred. As
there is no valid cause for the court to address these
claims, the Court will only address the eighteen
claims, spanning eleven issues, Petitioner now raises
which were properly included in the appellate briefs
filed by counsel.
Before a federal court may grant habeas relief to
a state prisoner, the prisoner must first exhaust the
remedies available in state courts. 28 U.S.C. §
2254(b)(1); O’Sullivan v. Boerckel, 526 U.S. 838, 842

75a
(1999). Exhaustion requires a petitioner to “fairly
present” federal claims to state courts to ensure
states have a “full and fair opportunity to rule on the
petitioner’s claims.” Manning v. Alexander, 912 F.2d
878, 881 (6th Cir. 1990); see O’Sullivan, 526 U.S. at
842. Generally, to fulfill the exhaustion requirement,
each claim must have been presented to all levels of
the state appellate system, including the state’s
highest court. Duncan v. Henry, 513 U.S. 364, 365-66
(1995); Wagner v. Smith, 581 F.3d 410, 414 (6th Cir.
2009). The Tennessee Supreme Court has
established, however, that when the Tennessee Court
of Criminal Appeals has denied [*19] relief on a
claim, it is exhausted regardless of appeal to the
Tennessee Supreme Court. Tenn. S. Ct. Rule 39
(Supp. 2001). Nevertheless, if there are no further
state court remedies available to the petitioner, lack
of exhaustion will not foreclose merits review. Rust v.
Zent, 17 F.3d 155, 160 (6th Cir. 1994).
When a claim was never presented to the highest
available state court and is now barred from such
presentation by a state procedural rule, the claim
may be considered “exhausted, but procedurally
barred from habeas review.” Wallace v. Sexton, 570
Fed. Appx. 443, 449 (6th Cir. 2014). Procedural
default may also occur when a state court is
prevented from “reaching the merits of the
petitioner’s claim” because petitioner failed to comply
with an applicable state procedural rule, which is
regularly enforced and is an “adequate and
independent” state ground, and Petitioner “cannot
show cause and prejudice to excuse his failure to

76a
comply.” Id. at 449 (citing Maupin v. Smith, 785 F.2d
135, 138 (6th Cir. 1986)); Seymour v. Walker, 224
F.3d 542, 549-550 (6th Cir. 2000) (citing Wainwright
v. Sykes, 433 U.S. 72, 80, 84 87 (1977)). In
determining whether a state procedural rule was
applied to bar a claim, a reviewing court looks to the
last reasoned state-court decision disposing of the
claim. See Ylst v. Nunnemaker, 501 U.S. 797, 803;
Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010).
On Petitioner’s direct appeal, he raised twelve
issues, three pertaining to the sufficiency of the
evidence, eight questions of trial court error, and one
question of prosecution suppression regarding the
testimony of Martha Maston as a surprise witness
[Doc. 14 Attachment 9]. Later, on his first appeal of
the dismissal of his state petition for post-conviction
relief, Petitioner raised six issues of trial court error,
all relating to the summary dismissal of his postconviction petition [Doc. 14 Attachment 17]. On his
second appeal, in an opening brief appealing the
denial of post-conviction relief, Petitioner’s counsel
raised two issues – (1) that the post-conviction trial
court [*20] had used the wrong standard in
evaluating Petitioner’s claims, and (2) that the
cumulative effect of trial counsel’s deficient
performance was sufficiently prejudicial to warrant
relief [Doc. 14 Attachment 45].3 After what appears
to be a significant amount of tension between counsel
This claim encompassed both a legal and factual analysis of
several of the claims of ineffective assistance of trial counsel and
appellate counsel Petitioner litigated in the post-conviction trial
court below and raises now in his federal habeas corpus petition.
3

77a
and Petitioner regarding counsel’s filing of the brief
prior to Petitioner’s approval and Petitioner’s concern
that counsel had waived many of his issues by
omission, counsel attempted to withdraw from
representation and asked the TCCA to issue a new
briefing schedule, both of which were denied [Doc. 1
Attachments 1, 4]. At this time, counsel attempted to
incorporate Petitioner’s previously raised claims by
reference in the reply brief [Doc. 14 Attachment 47].
In its opinion, the TCCA briefly outlined Petitioner’s
issues but did not expressly state which it would be
considering; instead, it granted Petitioner relief on
two sub-issues included within the claim of
ineffective assistance of trial counsel – counsel’s
failure to adduce proof regarding a defective trigger
mechanism design related to the propensity of
Petitioner’s rifle for accidental discharge, and
counsel’s failure to introduce the testimony of Officer
Steve Miller’s pretrial statements as excited
utterances – and noted that it was pretermitting
others [Doc.14 Attachment 48].
The State appealed to the TSC, claiming error by
the TCCA regarding both of the findings that
Petitioner was entitled to post-conviction relief [Doc.
14 Attachment 52]. In a pro-se response, Petitioner
attempted to include most, if not all, of the claims he
had previously litigated in the post-conviction trial
court, including those not addressed or outlined by
the TCCA [Doc. 14 Attachments 56, 57]. Counsel filed
a supplemental brief responding only to the two
issues set out by the State in their opening brief [Doc.
14 Attachment 58]. The TSC addressed only the two

78a
issues identified by the State and reversed on both
grounds, remanding the case to the TCCA to [*21]
address Petitioner’s remaining claims [Doc. 14
Attachment 60]. Petitioner filed a motion for
supplemental briefing before his pretermitted claims
were considered, which the TCCA denied [Doc. 14
Attachments 65, 70]. In its opinion on remand, the
TCCA clarified the pretermitted issues as: (1)
ineffective assistance of trial counsel for waiving
Petitioner’s attorney-client privilege with his divorce
attorney, (2) ineffective assistance of trial counsel for
failing to call the Petitioner’s cousin as a witness, (3)
ineffective assistance of trial counsel for “opening the
door” to Petitioner’s prior convictions, (4) ineffective
assistance of trial counsel for failing to adequately
challenge Lennell Shepheard’s testimony, (5)
ineffective assistance of trial counsel for failing to call
Officer Lapointe to testify to Petitioner’s state of
mind after the crime, (6) ineffective assistance of trial
and appellate counsel for failure to object to Detective
Rawlston’s use of Petitioner’s volunteered testimony
after arrest, (7) ineffective assistance of trial counsel
for failure to seek curative measures for the surprise
testimony of Martha Maston, and (8) whether the
cumulative impact of counsels’ errors entitle him to
relief. The TCCA stated that all other claims had
been abandoned on appeal [Doc. 14 Attachment 72 at
5].4

“While it is true that the Petitioner raised an additional fortyone issues of ineffective assistance of trial counsel, twenty-two
claims of ineffective assistance of appellate counsel on direct
appeal, and twelve claims of prosecutorial misconduct, many of
4

79a
Due to Tennessee’s one-year statute of limitations
and one petition rule, state remedies are foreclosed to
Petitioner and lack of exhaustion will not prevent
federal habeas review of his claims. Rust, 17 F.3d at
160; see Tenn. Code Ann. § 40-30-102. However, while
Petitioner posits that all of his current claims have
been fairly presented to either the TCCA or the TSC,
presumably relying first on the incorporation by
reference in his reply brief presented to the TCCA on
his second-appeal of the dismissal of his postconviction relief, and second on his “unchallenged”
pro se [*22] response brief to the TSC [Doc. 2 at 8], a
majority of the claims he now raises were
procedurally defaulted and will not be reviewed on
their merits.5 The state courts were prevented from
reaching the merits of Petitioner’s claims because
they found that his claims were abandoned on appeal
[Doc. 14 Attachment 72 at 5]. Petitioner appears to
argue that this finding is the result of the
misapplication or arbitrary application of procedural
law [Doc. 2 at 11]. However, although the state court
these claims have been abandoned on appeal. Accordingly, we
will focus only on those issues raised by the Petitioner in his
appellate brief. See Tenn. R. App. P. 13(b) (‘Review generally will
extend only to those issues presented for review.’)” Kendrick,
2015 Tenn. Crim. App. LEXIS 887, at *10 – 11.
5 In the event that Petitioner also intends to allege that the
presentation of his claims in his Application for Permission to
Appeal or Motion to Rehear satisfy exhaustion requirements, we
note that raising a claim “for the first and only time in a
procedural context in which its merits will not be considered
unless there are special and important reasons therefor, [does
not] constitute fair presentation.” Olson, 604 Fed. Appx. 387, 402
(6th Cir. 2015) (quoting Castille v. Peoples, 489 U.S. 346, 351
(1989)).

80a
offered no explanation for its finding of
abandonment, this Court finds that it had adequate
and independent, regularly enforced, state grounds
to find that Petitioner’s claims had not been fairly
presented. See Wallace, 570 Fed. Appx. at 449 (6th
Cir. 2014) (citing Maupin, 785 F.2d at 138 (6th Cir.
1986)).
Specifically, Petitioner’s claims were not fairly
presented to an appropriate state court because a
Tennessee procedural rule barred consideration of
his pro se briefs.6 “In Tennessee, a petitioner
represented by either retained or appointed counsel
may not file pro se briefs.” Wallace, 570 Fed. Appx. at
451 (citing State v. Burkhart, 451 S.W.2d 365, 371
(Tenn. 1976)); Williams v. State, 44 S.W.3d 464, 469
(Tenn. 2001) (barring defendants from “representing
themselves while simultaneously being represented
by counsel”)). This rule is an adequate and
independent state ground, regularly enforced,
sufficient to foreclose state review of Petitioner’s
claims and procedurally default said claims before a
federal court. See Wallace, 570 Fed. Appx. at 451.
Further, in Wallace, the petitioner argued that his
claims were fairly presented because counsel [*23]
attached his claims as an appendix to his own brief,
As in Wallace, “the state post-conviction appellate court did not
explicitly state that it declined to consider [Petitioner]’s
supplemental pro se brief. However, it responded in detail to
claims raised by [] counsel, […] without even mentioning
[Petitioner’s] supplemental brief or any of the claims raised
therein. We can infer only that the court applied the Tennessee
procedural rule barring consideration of pro se filings made by
represented petitioners.” 570 Fed. Appx. 443, 452 (6th Cir. 2014).
6

81a
yet the Court still found that Tennessee was within
its discretion to decline to address such claims. Id. at
452.
Here, counsel did not attach Petitioner’s claims
but rather tried to incorporate them by reference in
her reply brief. Not only would the state court have
been prevented from addressing the pro se brief in
conjunction with counsel’s brief, but this also
improperly expanded counsel’s reply brief. In
Tennessee, “[a] reply brief is limited in scope to a
rebuttal of the argument advanced in the appellee’s
brief.” Caruthers v. State, 814 S.W.2d 64, 69 (Tenn.
Crim. App. 1991). Counsel could not add new
arguments in her reply brief, by reference or
otherwise, because to do so “would be fundamentally
unfair as the appellee may not respond to a reply
brief.” Caruthers, 814 S.W.2d at 69; see also Flinn v.
Sexton, 2018 U.S. Dist. Lexis 36927 (E.D. Tn. 2018).
Petitioner has not demonstrated, and this Court
cannot find, that the state courts arbitrarily enforced
these rules to find that Petitioner did not fairly
present his claims.
Like the reply brief discussed above, Petitioner’s
response brief on appeal to the TSC involved issues
of Petitioner’s brief being filed alongside a brief filed
by counsel, although admittedly Petitioner’s brief
was filed first and counsel’s as a supplement. Again,
the TSC did not address Petitioner’s additional
claims, but did consider the arguments made in
counsel’s brief, leading us to infer that Tennessee was
enforcing its own procedural rule regarding pro se

82a
filings from represented petitioners. Kendrick v.
State, 454 S.W.3d 450, 475 – 76 (Tenn. 2015).
Moreover, even if Tennessee courts had looked to
Petitioner’s brief, Petitioner did not properly raise
each of his previously litigated claims in his response.
Petitioner correctly points to case law that asserts
that appellees may include issues in response briefs
not included by the appellant, as long as such is done
in conjunction with the Tennessee Rules of Appellate
Procedure. See Mobley v. State, 397 S.W.3d 70, 103 –
104 (Tenn. 2013); Hodge v. Craig, 382 S.W.3d 325,
[*24] 334 (Tenn. 2012). However, in Hodge, which
Petitioner points to, the TSC clarified that TN. R.
App. P. 27(b) limits such new issues to those in which
the appellee is “seeking relief from the judgment” of
the Court of Appeals. Hodge, 382 S.W.3d at 336
(Tenn. 2012). Petitioner cannot be claiming to seek
relief from the judgment of the TCCA on his
additional claims when no such judgment was made.
See Id. Again, Petitioner has not demonstrated, and
this Court cannot find, that the state court arbitrarily
enforced these rules to find that Petitioner did not
fairly present these claims.
Because Petitioner did not comply with various
regularly-enforced state procedural rules, which are
adequate and independent grounds, the claims he
presented only in his pro se briefs are procedurally
defaulted and may not now be addressed on the
merits absent Petitioner’s demonstration of cause
and prejudice sufficient to excuse such default.
B. Cause and Prejudice

83a
Petitioner next contends that any procedural
default is excused for cause; specifically, he alleges as
cause: (1) the ineffective assistance of post-conviction
counsel; (2) state court action or inaction, including
the arbitrary application of procedural law; (3) the
respondent’s continued failure to disclose exculpatory
information; and (4) that equitable principles, as well
as the due process clause of the 14th Amendment
and/or 6th Amendment demand that this Court can
and should hear critical constitutional claims [Doc. 2
at 3 – 11]. None of these are sufficient cause to excuse
Petitioner’s procedural default, and his defaulted
claims will not be reviewed on their merits.
The Courts have carved out a narrow set of
circumstances in which procedural default may be
excused and defaulted claims may be evaluated on
their merits. Procedurally barred claims may be
considered on their “merits only if the petitioner
establishes (1) cause for his failure to [*25] comply
with the state procedural rule and actual prejudice
from the alleged violation of federal law or (2)
demonstrates that his is ‘an extraordinary case,
where a constitutional violation has probably
resulted in the conviction of one who is actually
innocent.’” Wallace, 570 Fed. Appx. at 452 (quoting
Murray v. Carrier, 477 U.S. 478, 496 (1986)”; see
House v. Bell, 547 U.S. 518, 536 (2006). To show
sufficient “cause,” Petitioner must point to “some
objective factor external to the defense” that
prevented him from raising the issue in his first
appeal. Murray, 477 U.S. at 488. Where petitioner
fails to show cause, the court need not consider

84a
whether he has established prejudice. See Engle v.
Isaac, 456 U.S. 107, 134 n.43 (1982); Leroy v.
Marshall, 757 F.2d 94, 100 (6th Cir. 1985).
In order to warrant review under the “actual
innocence” prong, which is reserved for fundamental
miscarriages of justice, a habeas petitioner must
demonstrate that a constitutional error resulted in
the conviction of one who is “actually innocent.”
Dretke v. Haley, 541 U.S. 386, 388 (2004). A habeas
petitioner asserting a claim of actual innocence must
establish that in light of new, reliable evidence –
either eyewitness accounts, physical evidence, or
exculpatory scientific evidence – that it is more likely
than not that no reasonable juror would have found
petitioner guilty beyond a reasonable doubt. House,
547 U.S. 518, 536 (2006) (citing Schlup v. Delo , 513
U.S. 298, 327 (1995)).
1. Ineffective Assistance of Counsel as Cause
Petitioner alleges the ineffectiveness of postconviction counsel as a ground on which to excuse the
procedural default of his ineffective assistance of trial
counsel and ineffective assistance of counsel on
motion for new trial and appellate counsel claims.
Ordinarily, there is “no constitutional right to an
attorney in state post-conviction proceedings,” so
ineffective assistance in post-conviction proceedings
does not qualify as “cause” [*26] to excuse procedural
default of constitutional claims. Coleman v.
Thompson, 501 U.S. 722, 725, 755 (1991). However,
the Supreme Court has carved out an exception to
this rule for claims of ineffective assistance of counsel
when those claims may be raised for the first time in

85a
post-conviction proceedings or “where a state
procedural framework… makes it highly unlikely…
that a defendant [had] a meaningful opportunity to
raise a claim of ineffective assistance of trial counsel
on direct appeal.” Trevino v. Thaler, 133 S. Ct. 1911,
1921 (2013) (citing Martinez v. Ryan, 132 S. Ct. 1309,
1320 (2012)). This exception applies in Tennessee.
See Sutton v. Carpenter, 745 F.3d 787, 795 – 96 (6th
Cir. 2014).
However, claims of ineffectiveness of postconviction appellate counsel cannot constitute cause
to excuse procedural default because it is not an
initial-review collateral proceeding. Martinez, 132 S.
Ct. at 1320.
Although Martinez and Trevino expanded the
class of cases in which a petitioner can establish
cause to excuse the procedural default of
ineffective-assistance claims, the Supreme Court
cautioned that the rule ‘does not extend to
attorney errors in any proceeding beyond the
first occasion the State allows a prisoner to raise
a claim of ineffective assistance at trial.’
Wallace, 570 Fed. Appx. at 453 (quoting Martinez,
132 S. Ct. at 1320). The Sixth Circuit has only applied
the Martinez exception to claims of ineffective
assistance of counsel, and declined to apply it to
suppressed evidence, prosecutorial misconduct, trial
error, ineffective assistance of appellate counsel, and

86a
cumulative error. See Abdur-Rahman v. Carpenter,
805 F.3d 710, 714, 716 (6th Cir. 2015).7
Petitioner’s procedural default relates to his
abandonment on appeal of the claims he now raises,
which were previously raised at the post-conviction
trial court level. The ineffective [*27] assistance of
counsel at the post-conviction trial level cannot
logically constitute cause for this procedural default.
The Martinez exception applies to ineffective
assistance of counsel claims which were not able to
be pursued on direct appeal, and due to the
ineffective assistance of counsel, were not properly
raised at the initial-review collateral proceeding.
Martinez, 132 S.Ct. at 1309; see also Wallace, 570
Fed. Appx. at 453. Here, Petitioner’s claims were in
fact raised at the initial-review post-conviction
proceeding and the ineffective assistance of postconviction counsel on appeal cannot excuse default.
Petitioner expressly notes in his reply that he did not
raise “the application of Martinez to post-conviction
appellate counsel” [Doc. 30 at22 ¶ 3].8 Regardless of
Petitioner’s intent, Wallace makes it clear that the
Martinez exception does not apply to post-conviction

The Supreme Court likewise reiterated in Davila v. Davis, 137
S.Ct. 2058, 2062 (2017) that the Martinez exception does not
extend beyond claims of ineffective assistance of trial counsel,
and specifically declined to apply it to ineffective assistance of
appellate counsel.
8 Petitioner does argue other claims regarding the performance
and decision-making of his post-conviction appellate counsel, but
rather than framing them as ineffective assistance of counsel
claims raises that her actions were such that equity demands
this Court to address Petitioner’s procedurally defaulted claims.
7

87a
appellate counsel. Wallace, 570 Fed. Appx. at 453.
Petitioner has not established cause for which to
excuse his procedural default under this theory.
2. State Court Inaction or Arbitrary
Application of Law
Petitioner asserts inaction of the state courts as
cause to excuse procedural default, stating “the
Supreme Court has long found state action and/or
inaction of the state courts as being cause to excuse
[procedural default]” [Doc. 2 at 7]. Petitioner does not
elaborate on this except to cite to a myriad of cases,
many of which are not jurisdictionally appropriate,
and most of which relate to the prosecution’s
suppression of exculpatory evidence [Doc. 2 at 7 – 8].
Petitioner does not alert the Court to any facts
demonstrating how in this instance the state court
would be responsible for any such withholding.
Petitioner later alleges the following of the state
court’s behavior:
The Tennessee Courts further, through
essentially a sham post-conviction process, failed
to apply, simply fabricated, arbitrarily applied
and/or simply ignored facts, interpretations and
application of state and federal evidentiary,
procedural and governing law, i.e. law of the case
doctrine, conflict of interest relative postconviction
appellate
attorneys,
pro
se
representation and/or waiver and previous [*28]
determination, proper standards of review,
concessions and objections on proof, cumulative
error review, and/or de novo review etc., as well
as that relative other positions set forth therein,

88a
in order to deny claims and/or otherwise
procedurally entrap the Petitioner.
[Doc. 2 at 11]. This is a lengthy and weighty set of
accusations against the state courts, yet Petitioner
offers essentially no facts under which to evaluate
these claims. The only actions, or inactions,
Petitioner seemingly points to on behalf of the state
courts are the court’s denial of post-conviction
appellate counsel’s Motion to Withdraw as Counsel
and denials of additional briefing.
As stated above, after significant disagreement
between post-conviction appellate counsel and
Petitioner on how to proceed, counsel attempted to
withdraw from her representation of Petitioner,
which the State did not oppose [Doc. 1 Attachments
1, 3, and 5]. Although criminal defendants do have a
right to self-representation under 28 U.S.C. § 1654,
courts have broad authority over who practices before
them and are not required to permit hybrid
representation, representation both pro se and by
counsel. United States v. Mosely, 810 F.2d 93, 98 (6th
Cir. 1987). “When counsel has ‘performed in a highly
competent and professional manner’ and the
defendant has been ‘given ample time to consult with
his counsel over strategy,’ it is not an abuse of a
court’s discretion to prohibit hybrid representation.”
Miller v. United States, 561 Fed. Appx. 485, 488 – 89
(6th Cir. 2014) (quoting Mosely, 810 F.2d at 98). In its
order denying the motion to withdraw, the TCCA
found that counsel had substantially invested in her
appellate brief and in preparing for oral argument
[Doc. 1 Attachment 4]. Because counsel had already

89a
filed briefs and prepared for this case and would in
the future be responsible for oral argument, the court
was not required to allow Petitioner “hybrid
representation” and Petitioner cannot demonstrate
cause for his procedural default. See Id. Moreover,
even if the TCCA’s action could constitute cause, it
would be exceedingly difficult for Petitioner to prove
prejudice for the TCCA’s prohibition of [*29]
counsel’s withdrawal, when counsel was in fact
successful in having Petitioner’s sentence vacated by
the same court. Kendrick, 2013 Tenn. Crim. App.
Lexis 539.
Regarding Petitioner’s allegations that the
TCCA’s denial of additional briefing or a new briefing
schedule constituted cause for his procedural default,
again, the court holds broad discretion over whether
to allow additional briefing. It is apparent that
Petitioner was seeking to include his procedurally
defaulted claims in his new brief and in some sense,
the denial of additional briefing kept him from doing
so. However, to demonstrate cause in this regard by
clear and convincing evidence, Petitioner must show
an external factor which “prevented him from raising
the issue in his first appeal.” Murray, 477 U.S. at 488.
It was the decision of defense counsel, attributable to
Petitioner, to winnow his claims and she did so on
Petitioner’s third trip through the TCCA. The court
was not required to permit additional briefing, in an
already long and procedurally complex case, to
counteract the defense’s decision and this will not
constitute cause to excuse Petitioner’s procedural
default.

90a
3. Respondent’s Failure to Disclose
Exculpatory Information
Petitioner also relies on the “continued failure of
the Respondent to disclose… exculpatory evidence”
as cause to excuse his procedural default [Doc. 2 at
10]. Presumably, Petitioner relies on this ground to
excuse his procedural default of his “prosecution
suppression” claims.
Prosecution suppression can serve as a ground to
excuse procedural default when the ongoing
suppression sufficiently frustrates a petitioner’s
ability to bring the claim and the cumulative effect of
the suppressed evidence was reasonably likely to
have produced a different result. See Kyles v. Whitley,
514 U.S. 419 (1995). However, as clarified above,
Petitioner’s claims are procedurally defaulted
because he failed to raise them on appeal; he was,
however, able to raise these claims at the trial court
level. While prosecution suppression may provide
cause in some [*30] cases, it does not logically follow
that a Petitioner who did successfully raise his claims
at the trial court level was impeded by the
prosecution from raising his claims on appeal.
Further, Petitioner has not established the factual
basis for his claim that the prosecution did suppress
substantial cumulative evidence by clear and
convincing evidence. Petitioner has not established
cause to excuse his procedural default.
4. Equitable Principles
Lastly, Petitioner argues that equitable
principles, as well as Due Process, requires this Court
to hear critical constitutional claims [Doc. 2 at 4].

91a
Under this theme, and given the leniency granted to
pro se petitioners, Petitioner appears to raise two
issues for which to find cause: (1) that he was
extraordinarily prevented from raising his claims
due to the actions of post-conviction appellate
counsel, and (2) that he is actually innocent [Doc. 2
at 4 – 6, 9 – 10].9
Petitioner notes that he does not raise the actions
of post-conviction appellate counsel as ineffective
assistance of counsel10, rather he attempts to frame
her actions as subjecting him to a “particular
injustice” which warrants court intervention [Id.].
Specifically, Petitioner argues that post-conviction
appellate counsel had a conflict of interest due to
representation of another client in a time-consuming
case, such that she effectively abandoned of
Petitioner and ceased to be his agent, and that she,
along with Respondent and the state court, actively
misled Petitioner regarding the raising of his claims
[Id.].11 These claims are seemingly related to
counsel’s decision to winnow Petitioner’s claims on
appeal and the court’s resulting decision to treat
To the extent that he is instead attempting to state that this
Court should circumvent the recognized rules established by the
Supreme Court regarding habeas petitions in order to hear his
claims, such an action is beyond the purview of this Court.
10 As set forth above, this claim would not provide cause to excuse
his procedural default. Wallace, 570 Fed. Appx. at 453.
11 Although Petitioner claims he was actively misled, the record
and Petitioner’s own actions belie this allegation. Petitioner’s
intent to have counsel removed based on her waiver of his claims
and continued requests for additional briefing demonstrate that
he was likely well aware that his claims had been abandoned on
appeal.
9

92a
them as abandoned. [*31] While Petitioner does
point to Maples v. Thomas, which holds that
procedural default may be excused when counsel has
actually abandoned petitioner, Petitioner has not
demonstrated by clear and convincing evidence that
counsel actually or effectively abandoned him where
she filed a timely, thorough 83-page brief on his
behalf and is not alleged to have missed court
appearances or been otherwise unprepared. See
Maples v. Thomas, 565 U.S. 266 (2012). This Court
declines to hold that counsel’s professional judgment
that her client would be better served by winnowing
his claims constitutes abandonment in this context.
See Jones v. Barnes, 463 U.S. 745 (1983).
Second, Petitioner cites to McQuiggin v. Perkins,
133 S. Ct. 1924 (2013), which recognizes “actual
innocence as a gateway through which a petitioner
may pass whether the impediment is a procedural
bar or expiration of a limitations period” [Doc. 2 at6].
This Court assumes that by doing so Petitioner is
suggesting that his new evidence claims should be
admitted under the “fundamental miscarriage of
justice” exception to procedural default. Dretke, 541
U.S. at 388. Petitioner raises two claims of new
evidence: (1) new scientific evidence of actual
innocence regarding evidence of the common fire
control mechanism’s ability to accidentally discharge,
and (2) evidence that the Petitioner was denied his
14th Amendment Right to Due Process because the
post-conviction process discriminates against “Afro
American” petitioners [Doc. 1].

93a
A habeas petitioner asserting a claim of actual
innocence must establish that “in light of new
[credible] evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a
reasonable doubt.” Schlup, 513 U.S. at 329. The
Court must determine whether Petitioner has shown
actual innocence, by clear and convincing evidence,
such that his conviction represents a “fundamental
miscarriage of justice.” See Sawyer v. Whitley, 505
U.S. 333, 339 (1992). Here, the Court is concerned
with “factual innocence, not mere legal insufficiency.”
Bousley v. United States, 523 U.S. 614, 623 (1998).
[*32] Petitioner first alleges that the evidence
adduced at post-conviction hearings by Mr. Belk is
new scientific evidence of his actual evidence [Doc. 1].
While Petitioner did raise new evidence, which was
not raised at trial, and there are no issues alleged
regarding the reliability of this evidence, Petitioner
cannot show that no reasonable juror would have
found him guilty beyond a reasonable doubt if
provided with Mr. Belk’s testimony. See House, 547
U.S. at 536. Mr. Belk’s testimony that the common
fire control mechanism was defective in design did
not definitively establish that Petitioner’s gun
discharged without a trigger pull; he merely
suggested that it was possible. Even given this
information, the jury would have had to believe the
testimony of Petitioner that accidental discharge is
factually what happened, and discredit the
contradicting proof presented by Agent Fite and even
the testimony of Mr. Belk that he was not able to
induce Petitioner’s rifle to fire without a trigger pull.

94a
Both credibility determinations and determinations
of value are questions for the jury and this Court will
not now speculate that no reasonable juror could
have found the State’s evidence more credible than
the testimony of Mr. Belk. See United States v.
Griffin, 382 F.2d 823, 829 (6th Cir. 1967).
With regards to Petitioner’s second new-evidence
claim, the Court finds that even if Petitioner’s
information regarding systematic discrimination in
the post-conviction process was determined to be
“new evidence” and presented to be reliable, this
would not be evidence of Petitioner’s factual
innocence. In other words, Petitioner could not show
that because some habeas petitioners face
discrimination within the justice system, that no
reasonable juror could have found him guilty beyond
a reasonable doubt.
Petitioner has failed to establish cause to excuse
procedural default on this ground or any other and
his procedurally defaulted claims will not now be
considered on their merits. Accordingly, only
Petitioner’s non-defaulted claims will be discussed in
turn. [*33]
C. Merits Analysis
If a claim is exhausted before the state courts, and
not procedurally defaulted, the federal court may
then evaluate the merits. Under the Antiterrorism
and Effective Death Penalty Act (“AEDPA”), codified
in 28 U.S.C. §2254, et. seq., a district court may not
grant habeas corpus relief for a claim that a state
court adjudicated on the merits unless the state
court’s adjudication of the claim:

95a
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly
established
Federal
law,
as
determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the state
court proceeding.
28 U.S.C. § 2254(d)(1) and (2). This standard is
“intentionally difficult to meet.” Woods, 135 S. Ct. at
1376 (quotation marks omitted).
“A state court’s decision is ‘contrary to’ clearly
established law ‘if the state court arrives at a
conclusion opposite to that reached by the Court on a
question of law or if the state court decides a case
differently than the Court has on a set of materially
indistinguishable facts.” Wallace, 570 Fed. Appx. at
450 (quoting Williams, 529 U.S. at 413). Under the
“unreasonable application clause,” the proper inquiry
is whether the state court’s decision was “objectively
unreasonable,” and not simply erroneous or incorrect.
Williams, 529 U.S. at 409 – 11. As to a claim that the
state court’s decision was based on an unreasonable
determination of the facts, the AEDPA requires
heightened respect for state factual findings. Herbert
v. Billy, 160 F.3d 1131, 1134 (6th Cir. 1998). Where
the record supports the state court’s findings of fact,
those findings are presumed to be correct unless
rebutted by clear and convincing evidence. 28 U.S.C.
§ 2254(e)(1). [*34]

96a
All of Petitioner’s remaining claims are based on
the ineffective assistance of trial or appellate counsel.
The Sixth Amendment entitles criminal defendants
to the “reasonably effective assistance” of counsel.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
To establish that counsel’s assistance was
constitutionally ineffective, a defendant must prove
(1) that counsel’s performance was sufficiently
deficient that he was no longer “functioning as the
‘counsel’ guaranteed under the Sixth Amendment[,]”
and (2) that his “deficient performance prejudiced the
defense… so as to deprive the defendant of a fair
trial” and undermined the reliability of trial results.
Id. To prove deficiency, the defendant must show
“that counsel’s representation fell below an objective
standard of reasonableness.” Id. at 688. To prove
prejudice, the defendant must show that he has been
prejudiced by his counsel’s deficiencies by showing
“there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694.
The Supreme Court has clarified that when a
federal court reviews a state court’s application of
Strickland, which sets its own high bar for claims,
“establishing that a state court’s application was
unreasonable under §2254(d) is all the more
difficult.” Harrington v. Richter, 562 U.S. 86, 105
(2011) (quoting Padilla v. Kentucky, 559 U.S. 356,
371 (2010)). “In those circumstances, the question
before the habeas court is ‘whether there is any
reasonable argument that counsel satisfied
Strickland’s deferential standard.’” Id.; see Jackson v.

97a
Houk, 687 F.3d 723, 740-41 (6th Cir. 2012) (stating
the “Supreme Court has recently again underlined
the difficulty of prevailing on a Strickland claim in
the context of habeas and AEDPA . . . .”).
1. Weapons Expert Testimony
Petitioner alleges that his trial counsel was
ineffective for failing to adduce expert testimony
relating to a defective firing mechanism design,
present in Petitioner’s rifle, that could [*35] have
caused the gun to discharge accidentally [Doc. 3 at 6
– 25]. Respondent contends that trial counsel was not
ineffective because he did plan and employ tactics to
introduce evidence on this point and to controvert the
evidence offered by the State [Doc. 15 at20 – 23]. The
Court finds that trial counsel was not ineffective in
this respect.
The central theory of the defense was that the
Petitioner’s rifle malfunctioned and fired without
Petitioner pulling the trigger. The State presented a
firearms expert, Agent Fite, who stated that after
testing Petitioner’s rifle he concluded that the gun
could not possibly fire without the trigger being
pulled or the gun being broken [Doc. 14 Attachment
60 at13]. Trial counsel attempted to counter this
testimony by first, discrediting Agent Fite as
someone who believed himself infallible and second,
by attempting to cross-examine Agent Fite on issues
present with the Remington Model 742, a precursor
to Petitioner’s rifle, although the trial court
prohibited this line of questioning. Kendrick, 454
S.W.3d at 475 – 476.

98a
At post-conviction, trial counsel conceded that he
did not interview the State’s firearms expert prior to
trial and did not recall conducting any legal or factual
investigation into the gun’s propensity to fire without
the trigger being pulled and did not look for an expert
on this matter. Id. at 476. Instead, counsel planned
to rely on the expected testimony of Officer Steve
Miller to contradict the proof presented by the State.
Id. at 477. Officer Miller testified that he retrieved
the rifle from where Petitioner had thrown it and,
when later removing the gun from the trunk of his
police vehicle, shot himself in the foot. Id. Before
trial, Officer Miller made definitive statements that
his finger was not on the trigger, but at trial testified
that he could not recall where his finger had been,
although he did physically demonstrate how he
believed himself to be holding the gun, notably
without his finger on the trigger, and stated that
officers are thoroughly trained to not touch triggers
of weapons they are not intending to shoot. Id. [*36]
At the post-conviction hearings, Petitioner presented
the testimony of Henry Belk, Jr., a firearms expert
who testified that the common fire control
mechanism, a trigger mechanism in the Remington
7400 model weapon in question, had malfunctioned
in several cases and caused guns to fire without the
trigger being pulled. Id. at 464. Mr. Belk testified
that he first became aware of the problem in 1970,
but did not first serve as an expert on this issue until
1994, and had since provided expert testimony in
several courts regarding this defect, both in
Remington 7400 models and other models containing
the defective mechanism. Id. He also testified that he

99a
had been unable to cause Petitioner’s rifle to
malfunction. Id. Still, the post-conviction trial court
noted that his testimony would have lent credence to
Petitioner’s case at trial. Id. at 476.
On Petitioner’s second appeal of the denial of his
post-conviction petition, the TCCA reversed the postconviction trial court’s holding on this issue.
Kendrick, 2013 Tenn. Crim. App. LEXIS 539. The
TCCA found that trial counsel’s performance fell
“below an objective standard of reasonableness when
trial counsel failed to adduce expert testimony about
the rifle’s defective trigger mechanism, which was
known to cause accidental shootings, to rebut the
State’s expert testimony that the rifle could only be
fired by pulling the trigger[.]” Kendrick, 454 S.W.3d
at 476 (citing Kendrick, 2013 Tenn. Crim. App.
LEXIS 539). The TCCA found this issue prejudicial,
particularly because they found that it was
reasonably likely that the jury would have convicted
Petitioner of a lesser degree of homicide, which
satisfied the test for prejudice. Kendrick, 2013 Tenn.
Crim. App. LEXIS 539 at *51.
The TSC, however, later reversed the TCCA’s
holding, finding that counsel’s decision to “construct
his ‘accidental firing’ defense” around anticipated
testimony from Officer Miller claiming that the
specific gun in question did actually accidentally
discharge was reasonable. Kendrick, 454 S.W.3d at
477. The TSC went through a lengthy analysis of both
Harrington and [*37] Hinton, each of which apply the
Strickland test for ineffective assistance of counsel.
Kendrick v. State, 454 S.W.3d at 468 – 475 (analyzing

100a
Harrington, 562 U.S. 86; Hinton v. Alabama, 571
U.S. 263 (2014); Strickland 466 U.S. 668). The court
notes that Harrington held that defense counsel was
not deficient for failing to hire expert testimony, even
though such testimony may have been useful, when
counsel had a reasonable strategic reason for doing
so and took other measures to counteract the State’s
evidence. Id. Notably here, the court points out that
in Harrington, counsel’s defense strategy not
working as well as planned does not prove counsel
incompetent. Id.
The court then discussed Hinton which found that
in some cases, the defense strategy relies on expert
evidence and hiring one will be necessary. Id.
However, the court notes that even in Hinton, counsel
was held deficient for failing to appropriately
research his ability to hire an expert, not for failing
to hire an expert. Id. The TSC found that “[d]espite
Sergeant Miller’s memory lapse, defense counsel’s
performance on this issue indicated ‘active and
capable advocacy,’” under Harrington v. Richter,
because at the time counsel was forming his trial
strategy it was reasonable to rely on this testimony,
which was “not speculative[] and… did not involve
other weapons” to refute Agent Fite and cast
reasonable doubt on Petitioner’s guilt. Id. at 477. The
TSC further stated that while it was likely best
practice for trial counsel to seek out expert proof,
failing to do so was not objectively unreasonable
when the defense did not hinge on expert proof. Id.
Additionally, the TSC pointed out that although Mr.
Belk’s testimony may have been helpful, it is doubtful

101a
that in 1994 counsel would have been given
permission to hire an expert,12 that it remained
unclear whether Mr. Belk could have been found at
the time of Petitioner’s trial, and [*38] lastly that
even if Mr. Belk had been called, his testimony would
not have been as useful when he had not yet testified
about the three instances of the 7400 model rifle
misfiring. Id. at 476. The Court cannot find that the
TSC unreasonably applied federal law on this claim.
The TSC reasonably applied Harrington and Hinton
to find that counsel was not constitutionally
deficient, because he had a reasonable strategy to
introduce proof regarding Petitioner’s rifle’s capacity
for accidental discharge and did attempt to
undermine the expert proof presented by the State.
Petitioner has also not demonstrated by clear and
convincing evidence that Mr. Belk’s testimony could
have been found at the time of his trial. Because the
case here did not rely solely on expert testimony
where the State presented much additional evidence,
including eyewitness testimony, counsel was not
ineffective for failing to hire an expert. While Mr.
Belk’s testimony would certainly have been useful at
trial, this Court does not find that it was
unreasonable for the TSC to conclude counsel was not
deficient for failing to raise it. Petitioner is therefore
not entitled to §2254 relief on this claim.

Tennessee did not recognize until 1995 “that indigent noncapital criminal defendants had a constitutional right to expert
psychiatric assistance,” and even then it was limited to
psychiatric experts. Kendrick v. State, 454 S.W.3d 450, 476
(Tenn. 2015) (citing State v. Barnett, 909 S.W.2d at 430 n.7).
12

102a
2. Excited Utterances Exception for Officer
Miller’s Testimony
Petitioner claims that trial counsel was ineffective
for failing to utilize the Tennessee Rule of Evidence
regarding excited utterance hearsay exceptions to
introduce the prior statements of Officer Steve Miller
[Doc. 3 at 25 – 40].13 Respondent contends that even
if Officer Miller’s statements were excited utterances,
it does not necessarily follow that counsel was
ineffective for failing to introduce them under this
theory [Doc. 15, at 23]. Because counsel was thorough
in his attempts to introduce Officer Miller’s prior
statements and impeach the witness, counsel’s
representation at trial was not deficient. [*39] When
attempting to remove Petitioner’s rifle from the
trunk of his vehicle, Officer Steve Miller shot himself
in the foot. Kendrick, 2013 Tenn. Crim. App. LEXIS
539, at *16. After the accident, Officer Miller made
statements to Officers Holbrook, Sims, and Gann
that he knew his finger was not near the trigger when
the gun discharged. Id. at *16 – 20. However, at trial,
Officer Miller testified that he could not recall where
his finger was. Id. at *39 – 40. On cross-examination,
trial counsel attempted to elicit from Officer Miller
that his finger was not on the trigger. Kendrick, 454
S.W.3d at 460 – 461. While Officer Miller never used
those words, and his answers did seem less than
cooperative, trial counsel had him demonstrate how
Petitioner also claims that this is in violation of the Sixth
Amendment right to present a defense and a violation of the
confrontation clause, however, those claims are amongst those
procedurally defaulted, and will not be considered.
13

103a
he recalled picking up the gun, where Officer Miller
demonstrated that his finger was not near the
trigger. Id. Counsel also led Officer Miller to concede
that he knew the weapon was likely loaded, and had
been trained for many years to not pick up any gun
with his finger near the trigger, much less a loaded
one. Id. Trial counsel also attempted to introduce
Officer Miller’s prior statements under the “prior
inconsistent statements” rule, although the trial
court did not allow him to do so. Kendrick, 2013 Tenn.
Crim. App. LEXIS 539, at *9 – 12.
Petitioner contends that because Officer Miller’s
statements were made while “under the stresses-pain
of the event … [and] bear their own indicia of
reliability,” they could have been introduced under
the excited utterances exception to hearsay and “been
used as truth of the matter asserted” [Doc. 3 at 26].
He claims that failure to include this information was
prejudicial because the statement that Officer
Miller’s hands were nowhere near the trigger was
crucial for the defense [Doc. 3 at 27]. Because the
theory of defense was accident, Petitioner contends
that the gun had discharged without Petitioner’s
finger on the trigger and without any intent or action
on his part, and the only evidence outside of
Petitioner’s word that could have controverted the
proof of the State’s expert were the words of Officer
Miller [Doc. 3 at 27]. [*40] Both the TCCA and TSC
addressed this claim. On his second appeal of the
dismissal of his post-conviction petition, the TCCA
found that trial counsel’s performance fell below an
objective standard of reasonableness when he failed

104a
to seek the admission of Officer Miller’s statements
under the excited utterance hearsay exception.
Kendrick, 2013 Tenn. Crim. App. LEXIS 539, at *50.
They found that this error was prejudicial as it was
reasonably likely that given this statement, the jury
would have convicted Petitioner of a lesser degree of
homicide. Kendrick, 2013 Tenn. Crim. App. LEXIS
539, at *50. Accordingly, the TCCA used this as the
second ground on which to reverse the holding of the
post-conviction trial court and vacate Petitioner’s
sentence. Id.
However, the TSC reversed, concluding that
although the statements may have been admissible
under excited utterance doctrine, Petitioner could not
establish that trial counsel was deficient for failing to
admit them under this rule because counsel took
several alternative measures to demonstrate that
Officer Miller had not pulled the trigger. Kendrick,
454 S.W.3d, 480 – 81. The court noted that, in this
context, the question was not whether the statements
were admissible, but rather whether counsel was
objectively unreasonable under Strickland, given the
presumption that counsel was adequate. Id. at 480
(citing Strickland, 466 U.S. at 688 and Mobley, 397
S.W.3d at 80 – 81). The court found that while in
some circumstances the “lack of familiarity with
court rules may provide grounds for a finding of
ineffective assistance of counsel,” here, counsel
closely cross-examined Officer Miller, attempted to
refresh his memory, attempted to use the incident

105a
reports to impeach his testimony,14 emphasized
during both cross-examination and closing argument
that Officer Miller’s finger was not near the trigger
when he demonstrated his own posturing with the
rifle, and elicited from Officer Miller that he was
unlikely to pick up a rifle with [*41] his finger on the
trigger, due to his training. Id. at 480 – 481. The TSC
found that Petitioner being able to point to one tactic
counsel did not employ to introduce this evidence
would not overcome the presumption that counsel’s
representation was adequate. Id. at 481. The TSC
further clarified that even if it had found deficiency
by counsel, there was such sufficient other evidence,
both for the defense and the prosecution, that it could
not determine that this one deficiency would
undermine confidence in the verdict. Id. at 481 (citing
Strickland, 466 U.S. at 694). As with all issues of
ineffective assistance of counsel on habeas, there is
double deference here. Harrington, 562 U.S. at 105.
The Court presumes both that counsel’s
representation was adequate and that the court’s
finding of such is reasonable. Id. Even if Officer
Miller’s statements were admissible under the
excited utterances exception, such failure on behalf of
trial counsel must be weighed against the many other
actions counsel took to introduce this same
testimony. Claims of ineffective assistance of counsel
are reserved for those errors so clear and egregious
that counsel was no longer functioning as guaranteed
under the Sixth Amendment. Strickland, 466 U.S. at
The TSC noted that these attempts failed due to the trial
court’s error, not counsel’s.
14

106a
687. As detailed above, counsel took painstaking
measures to introduce this important defense
evidence to the jury and to undermine the proof
adduced by the State. Petitioner cannot then show
that counsel deficiently served his adversarial
function, for failing to use one tactic, such that the
results of trial are undermined. See Id. The Court
does not find that the state courts unreasonably
applied federal law to this claim; therefore, Petitioner
is not entitled to §2254 relief on this claim.
3. Prior Convictions
Petitioner contends that counsel was ineffective
because he “opened the door” to Petitioner’s prior
convictions, which were otherwise inadmissible, and
failed to request a limiting instruction after having
done so [Doc. 3 at 40 – 46]. Respondent holds out that
although this was likely error on behalf of trial
counsel, Petitioner cannot establish prejudice [Doc.
15 at 35 – 39]. [*42]
At trial, counsel questioned Petitioner regarding
his criminal history. He asked Petitioner:
Q. Do you have any history of violent crime?
A. No, sir.
Q. I almost forgot – do you have any history of
any convictions for any kind of crime?
A. Returned checks.
Kendrick v. State, No. E2011-02367-CCA-R3-PC,
2015 Tenn. Crim. App. LEXIS 887, at *68. Before
trial, counsel had prepared Petitioner for his
testimony and told Petitioner that only his conviction
for writing bad checks was admissible. Id. Then on

107a
cross-examination, the State asked Petitioner about
an additional conviction for driving under the
influence, which Petitioner admitted to, as well as a
conviction for possession of marijuana arising from
the same incident. Id. at *69. The State through
cross-examination also established for the jury that
as a result of these convictions, Petitioner was
driving without a valid driver’s license the night of
the shooting. Id. Trial counsel objected to this line of
questioning but was overruled by the trial court. Id.
Petitioner likewise complained about the trial court’s
allowance of this line of questioning on direct appeal,
but the TCCA held that trial counsel “opened the
door” to this type of impeachment given the form of
his question and Petitioner’s response regarding only
some of his prior convictions. Id. at *69 – 70.
Petitioner raised this issue on post-conviction as
an ineffective assistance of counsel claim, both for
opening the door to the prior convictions and failing
to request a limiting instruction after doing so [Doc.
3 at 40 – 46]. The TCCA held that although counsel
was deficient with regards to the form of the question
and should have requested a limiting instruction, it
agreed with the post-conviction court that these
errors did not prejudice Petitioner. Id. at *71. The
TCCA noted that trial counsel attempted to limit the
damage during closing arguments by explaining that
the convictions do not contribute to Petitioner’s
honesty and truthfulness and alerting the jury to the
[*43] fact that Petitioner actually volunteered
testimony about an additional charge. Id. at *71 – 72.
Additionally, the TCCA found that Petitioner’s

108a
defense did not rely solely on his own credibility,
rather it was better supported by the fact that Officer
Miller also had an incident with the same rifle that
strongly indicated the rifle misfired. Id. at *72. Citing
Strickland, the TCCA held that because there was
substantial other evidence against Petitioner,
including eyewitness testimony, the TCCA could not
find that there was a reasonable possibility but for
this error that the result of the proceeding would
have been different. Id. at *75.
The Court cannot find that the TCCA
unreasonably applied Strickland with regard to this
error and Petitioner is not entitled to relief on this
claim. While Petitioner correctly points to case law
that finds that counsel may be deficient for
introducing inadmissible prior convictions, here the
state court did not find that counsel was not deficient,
but rather that petitioner was not sufficiently
prejudiced by counsel’s error. See Byrd v. Trombley,
352 Fed. Appx. 6 (6th Cir. 2009). Petitioner must
show more than that counsel’s error has “some
conceivable effect on the outcome,” he must show that
but for counsel’s error, it is reasonably likely that the
outcome may have been different. Strickland, 466
U.S. at 694. The TCCA held that although
Petitioner’s credibility may have been damaged,
neither his defense, nor the prosecution, relied only
on his credibility or lack thereof. See Byrd, 352 Fed.
Appx. 6. There was ample evidence in this case, both
for and against Petitioner, that did not turn on
Petitioner’s credibility and the Court cannot find that
there was no reasonable basis on which the state

109a
court could determine that Petitioner was not
sufficiently prejudiced to undermine the reliability of
the results of his trial. See Harrington, 562 U.S. at
105.
4. Testimony of Martha Maston
Petitioner claims that trial counsel was deficient
for failing to properly object, request curative
instructions, or seek other curative measures in
relation to the prosecution’s use of Martha [*44]
Maston as a rebuttal witness, without having
provided notice, and for failing to offer surrebuttal to
Ms. Maston’s testimony [Doc. 3 at 46 – 59].
At trial the prosecution called Martha Maston, an
airport security officer, to testify. Kendrick, 2015
Tenn. Crim. App. LEXIS 887, at *100. Ms. Maston
attested that she arrived at the scene and removed
Petitioner’s children from their car seats and when
she did Petitioner’s four-year old daughter wrapped
her arms around Maston’s neck and while crying said
that she “told daddy not to shoot mommy but he did
and she fell.” Id.
Petitioner complains that counsel did not properly
object or request curative measures regarding: (1)
that he was not provided notice of Ms. Maston’s
testimony in violation of the parties’ open file policy
agreement and (2) that her testimony was offered in
rebuttal. He also alleges that counsel was deficient
for failing to raise surrebuttal testimony on this point
[Doc. 3 at 46 – 59].15 Under these complaints,

Petitioner also attempts to raise that this testimony was
brought after a violation of the sequestration order, but that
15

110a
Petitioner appears to argue not that counsel did not
object to this testimony, which would be factually
incorrect, but instead argues that counsel’s
ineffectiveness
was
undergirded
by
a
misunderstanding of the law that led counsel to
incorrectly and ineffectively challenge this testimony
[Id.]. He argues that counsel demonstrated a
misunderstanding of the law when he: attempted to
claim that the testimony did not fall within the
excited utterances hearsay exception, argued that
the testimony was not proper rebuttal, argued the
prejudice presented by the testimony and not the
prejudice created by the lack of notice, and suggested
to the jury that they could discredit this testimony
without the court offering a similar instruction.
Petitioner further submits that trial counsel was
ineffective for failing to move for various curative
measures, particularly “specific performance of the
prosecution’s twenty-two year plea offer” [Id.]. [*45]
Regarding the “surprise” nature of Ms. Maston’s
testimony, the TCCA on direct appeal found that
Petitioner was not prejudiced by the late notice, that
the State was not granted undue advantage, and that
because Ms. Maston’s testimony had been discovered
late, the State had not acted in bad faith. Kendricks,
947 S.W.2d at 883. The TCCA agreed with Petitioner,
however, that Maston should have been called as part
of the State’s case-in-chief and not in rebuttal, yet
still found that Petitioner was not prejudiced by the
order in which Ms. Maston’s testimony was adduced.
claim is among his procedurally defaulted claims and will not be
considered here.

111a
Id. Finally, the court determined that because this
testimony should have been part of the State’s casein-chief, no limiting instruction regarding the use of
this testimony was needed. Id. On post-conviction
appeal, the TCCA held that the issues regarding
Martha Maston’s testimony had been addressed on
direct appeal, and were therefore not the proper
subject for post-conviction relief. Kendrick, 2015
Tenn. Crim. App. LEXIS 887, at *103.
The TCCA went on to note that although
Petitioner alleges that trial counsel was deficient for
failing to request the State be ordered to execute
specific performance of the plea agreement for the
violation of the open-file agreement, Petitioner
pointed to no case law, and the court found none,
“where specific performance of a rejected plea offer
was ordered following a breach of the prosecution’s
open-file discovery agreement.” Id. at *104. The
TCCA also determined that the post-conviction court
had credited trial counsel’s testimony that the
statement of Petitioner’s daughter was “ambiguous
and not necessarily inconsistent with a theory of
accident,” and thus declined to reweigh or reevaluate
this issue to establish prejudice. Id.
The TCCA also found that Petitioner appears to
argue that trial counsel should have called him to
testify to contradict Ms. Maston’s testimony and
minimize the damage done by her statement. Id. at
*104 – 105. However, it determined the testimony
given by Petitioner’s daughter was already
questionable and Petitioner had already contradicted
her statements with his own [*46] testimony. Id. at

112a
105. The TCCA found that they could not say that
trial counsel was deficient for failing to call Petitioner
to testify to a “fairly innocuous statement in
surrebuttal.” Id.
Petitioner points to state cases pertinent to the
principle that Tennessee disfavors “surprise”
witnesses [Doc. 3 at 49]. However, the question before
us is whether there is any reasonable argument by
which the state court could have determined that
trial counsel was not deficient in his handling of Ms.
Maston’s testimony. See Harrington, 562 U.S. at 105.
The TCCA found that trial counsel did challenge the
lack of notice of this testimony, but the court did not
find prejudice resulting from Petitioner’s lack of
notice or the fact that Maston’s testimony was
characterized as rebuttal. Without more, the Court
will not hold that counsel is objectively unreasonable,
here, for making a losing argument.
Under the Tennessee Rules of Criminal
Procedure, Petitioner was not entitled to discovery of
the contents of Ms. Maston’s expected statement and
he fails to show how he was prejudiced by not
knowing her identity. Tenn. R. Crim. P. 16(a)(2). He
likewise fails to show how he was prejudiced by Ms.
Maston’s testimony being provided in rebuttal. When
faced with the surprise witness, allowed by the court,
counsel cross-examined her and sought to undermine
her testimony. The Court will likewise not find that
counsel was no longer functioning as counsel within
the adversarial process for failing to request an order
for specific performance of the plea deal. Petitioner
points to no case law ordering such performance for a

113a
breach of open file policy and counsel is not deficient
for failing to file a motion or assert a claim which has
no merit. See O’Hara v. Brigano, 499 F.3d 492, 506
(6th Cir. 2007). Because counsel was not deficient
and Petitioner has not demonstrated prejudice, he is
not entitled to relief on this claim. [*47]
5. Testimony of Lennell Shepheard
Petitioner argues that trial counsel was
ineffective for failing to object to Lennell Shepheard’s
testimony as a discovery violation, failing to impeach
Shepheard, and failing to object to Shepheard’s
reference of information outside the record or request
a limiting instruction regarding the testimony of
Lennell Shepheard [Doc. 3 at 67 – 75]. The Court
finds that trial counsel was not ineffective.
At trial, Lennell Shepheard, an eyewitness who
was acquainted with the victim through their
respective jobs, testified that after hearing the
gunshot, he looked outside and saw Petitioner
standing over the victim’s body shouting “I told you
so” roughly six times. Kendrick, 2015 Tenn. Crim.
App. LEXIS 887, at *76. Mr. Shepheard’s previous
statements provided in discovery did not contain this
“I told you so” language. Id. Mr. Shepheard then
stated that he made eye contact with the Petitioner
and saw the Petitioner reach for the rear passengerside car door as if to go for the rifle inside. Id. Trial
counsel cross-examined Mr. Shepheard on these
statements and elicited Mr. Shepheard’s agreement
that during a conversation prior to trial, Mr.
Shepheard did not tell trial counsel about any threats
and stated that he did not view any aggressive

114a
behavior, that the victim was not in fear of the
Petitioner, and that he did not hear the couple
arguing. Id. at 76 – 77.
Petitioner claims that Mr. Shepheard’s change in
testimony was a violation of the rules of discovery or
the open file policy put into place by the parties and
that trial counsel erred in failing to object or request
curative measures [Doc. 3 at 67 – 75].16 Trial counsel
testified at post-conviction hearings that he had not
been made aware of Mr. Shepheard’s material change
in testimony as he would have expected, given the
open file agreement in place, and that the first [*48]
time he heard about Petitioner’s “I told you so”
statements was during the direct examination of Mr.
Shepheard. Id. at 78. The TCCA held that under the
Tennessee Rules of Criminal Procedure, defendants
are not entitled to the statements of state witnesses
and that even if counsel had objected to his lack of
notice with regards to this testimony, there is no
guarantee that the trial court would have issued
curative measures. Id. at *79. The court further noted
that counsel thoroughly cross-examined Mr.
Shepheard on this variation in testimony and
ensured that the jury knew that the “I told you so”
statement was not included in Mr. Shepheard’s prior
statements. Id. at *80. The court held that Petitioner
did not demonstrate what more counsel could have
done to discredit Mr. Shepheard had he been given
more time. Id. at *81 – 82.
Petitioner’s claims regarding the “breach” of the open-file
policy are discussed in section (IV)(C)(6) below, his claims
regarding the discovery violations will be discussed here.
16

115a
Petitioner next claims that trial counsel erred in
not using Detective Mathis’s interview of Lennell
Shepheard, which was transcribed, to contradict the
evidence offered by Shepheard at trial [Doc. 3 at 67 –
75]. Trial counsel attempted to read part of Mr.
Shepheard’s previous statement during crossexamination,
presumably
to
highlight
the
inconsistencies between his trial testimony and the
statements he made to Detective Mathis. Id. at *84.
The State objected and claimed that the statements
were “consistent,” the trial court made no ruling, and
defense counsel continued to read from the
statement. Id. When directly asked, Mr. Shepheard
said that he did tell Detective Mathis about the “I told
you so” statement and counsel again tried to either
impeach or “refresh Shepheard’s memory” to which
the State again objected. Id. at *84 – 85. During a
bench conference on this issue, the trial court said
that the failure to make a statement is not
“inconsistent” to making that statement later and
defense counsel said he would simply call Detective
Mathis regarding the statement. Id. at *86. However,
he never called Detective Mathis to testify on this
point. Id. at *87. [*49]
On post-conviction, the TCCA points out first that
trial counsel did attempt to impeach Mr. Shepheard
with his prior statement, but was not allowed to by
the trial court. Id. at *87 – 88. The TCCA found that
even after this tactic was prohibited, counsel
performed a thorough cross-examination and even
noted the deficiencies with the testimony in his
closing arguments. Id. at *88 – 90. Petitioner argues

116a
that counsel should have called Detective Mathis to
contradict Shepheard and was ineffective for failing
to do so, and also argues, in the alternative, that
counsel should have obtained the Mathis report for
impeachment purposes and was ineffective for failing
to do so [Doc. 3 at 67 – 75]. However, the TCCA noted
that Mathis was not even called to the post-conviction
hearings and had still given no testimony. Id. at *88.
It applied Tennessee law to clarify that it could not
speculate on the potential contents of Mathis’s
testimony and whether it would have been favorable
to petitioner and thus found that Petitioner had not
established that trial counsel was deficient. Id. at *90
– 91. The TCCA then ruled that Detective Mathis’s
report was redundant given Detective Rawlston’s
testimony about the same information, and that
counsel was not deficient for seeking it out. Id. at *90.
Finally, Petitioner complains that trial counsel
erred when he did not object or request curative
measures, including a limiting instruction, when Mr.
Shepheard testified that he spoke to Investigator
Legg, and testified to the substance of that
conversation, when such was outside of evidence
[Doc. 3 at 67 – 75]. At trial, Mr. Shepheard testified
that he spoke to Mr. Legg, an investigator from the
district attorney’s office, roughly one week before
trial and that he told Mr. Legg about the “I told you
so” remarks. Id. at *93. Counsel did object based on
the Jenck’s Act, which requires the government to
produce written reports on statements made by
government witnesses, because the State had not
provided any such statement to the defense. Id. at

117a
*94. Mr. Shepheard said that Mr. Legg took notes
during his statement but he was not sure whether the
[*50] interview had been transcribed in writing or
otherwise recorded. Id. Later, Investigator Legg
testified outside of the jury’s hearing that there were
no written or recorded notations of his interview,
which ended the discussion as the Jenck’s Act was no
longer applicable. Id. at *94 – 95.
Petitioner alleges that trial counsel was
ineffective for failing to request a limiting
instruction, instructing the jury that as a prior
consistent statement, “the week-old statement [to
Mr. Legg] could only be used in connection with
credibility” [Doc. 3 at 67 – 75]. The TCCA held that
Mr. Shepheard’s testimony was a prior consistent
statement and served permissible rehabilitation
purposes, however, it also noted that the deficiencies
with this statement, including the fact that it was
only made one week before trial, were also made clear
to the jury. Id. at *96 – 97.
The trial court did not issue specific jury
instructions on prior consistent statements, but the
jury did receive instructions on prior statements
generally, outlining their impact on credibility and
thus the weight the jury can give, or not give, to
testimony. Id. at *97 – 99. The TCCA found that to
hold that trial counsel’s failure to request a limiting
instruction on this matter was deficient would be
impermissibly judging counsel’s representation in
hindsight. Id. at *99. The TCCA held that counsel
was not deficient, because requesting this instruction
could have emphasized the testimony, to the

118a
detriment of Petitioner, and counsel took many other
measures to introduce the evidence that Mr.
Shepheard’s “I told you so” testimony was only
delivered at the eleventh hour. Id.
To prevail on these claims, Petitioner would have
to demonstrate that the State court’s finding that
counsel was not constitutionally ineffective, even
given the deference granted to counsel’s actions, was
not simply incorrect, but objectively unreasonable.
Harrington, 562 U.S. at 105. Mr. Shepheard’s
testimony did indeed raise many issues for the
defense, both in its [*51] unexpected nature and
through the difficulties counsel faced in impeaching
Mr. Shepheard. However, it is evident from the
record that trial counsel diligently attempted to
advocate for his client in this regard, even though
many of his attempts were thwarted. As clarified
above, counsel had no legal basis to argue a discovery
violation based on this change in testimony, he
diligently attempted to impeach even after an
incorrect ruling by the court, and attempted to limit
Mr. Shepheard’s testimony and his credibility. The
Court will not find that counsel failed to serve his
adversarial role where he took extensive measures to
introduce evidence and contradict the proof offered by
the State merely because such attempts were
unsuccessful. Petitioner is not entitled to relief under
§2254(d) on this set of claims.
6. Bad Faith Use of Open File Policy
Petitioner alleges that both trial and appellate
counsel were ineffective for failing to object or request
curative measures, again including specific

119a
performance of the State’s previous plea deal,17
regarding the State’s “bad faith” use of its open file
policy, intended to induce him to waive his
preliminary hearing, which he did, and to interfere
with his trial [Doc. 3 at 59 – 67]. Petitioner claims
that the State withheld the identity of Ms. Maston,
whose name was not on the State’s witness list, and
the changes in the statements or expected testimony
by Officer Miller and Mr. Shepheard, which led to the
ineffective assistance of his counsel at trial, appeal,
and during his plea deal, as counsel did not have all
of the facts necessary to prepare for trial or to
properly advise Petitioner on the favorability of the
plea deal [Id.].18 Petitioner argues that whenever
evidence [*52] came in that was not included in the
open file discovery, counsel should have moved for
specific performance of the plea deal or other curative
measures [Doc. 3 at 66]. As set forth above, on direct
appeal, the TCCA concluded that Petitioner failed to
show that he was prejudiced through the lack of
disclosure of Maston as a witness because trial
counsel was able to thoroughly cross-examine Ms.
Maston and Petitioner did not indicate what more
trial counsel could have done if he had known about

As discussed above, specific performance of a plea agreement
has been used in Tennessee as a remedy, but Petitioner has not
demonstrated that it has been used for a breach of open-file
discovery.
18 Petitioner likewise attempts to raise that the prosecution
executed its open file policy in bad faith where it did not include
“documentary x-ray and 7400 schematic evidence” but these are
amongst his procedurally defaulted claims and will not be
considered.
17

120a
her testimony earlier. Kendricks, 947 S.W.3d at 883.
The TCCA also noted that it did not find bad faith or
undue advantage on the State’s part, because it
credited the State’s version of events that they did
not know about Ms. Maston’s potential testimony
earlier. Id. at 884.
On post-conviction, the TCCA held that Petitioner
had not pointed to any legal authority supporting
that sanctions were required for the State’s violation
of the open-file policy. Kendrick, 2015 Tenn. Crim.
App. LEXIS 887, at *79. The court, instead, applied
Tennessee Rule of Criminal Procedure 16(d)(2),
which provides that when a party fails to comply with
discovery rules, the trial court has discretion to enter
an order it deems just. Id. However, it also noted that
Rule 16(a)(2) clarifies that statements made by state
witnesses are not discoverable material. Id. The court
cited a Tennessee case which held that even though
a prosecutor had promised information and failure to
supply it was “likely a breach of decorum,” it was “not
within the purview of the rules of procedure
governing the practice of criminal law in Tennessee.”
Id. (citing Matrin Becton v. State, No. W2014-00177CCA-R3-PC, 2015 Tenn. Crim. App. LEXIS 303, at
*79 – 80.) With regards to the change in Mr.
Shepheard’s testimony not being disclosed to the
defense before trial, the TCCA held that “[e]ven if
trial counsel had objected to Mr. Shepheard’s
testimony on direct examination, there was no
guarantee that the trial court would have issued any
curative measures [*53] at all.” Id. at 80. Neither the
TCCA or the TSC analyzed the changes in Officer

121a
Miller’s testimony and counsel’s effectiveness or
ineffectiveness resulting from them under this
framework.
Under the Tennessee Rules of Criminal
Procedure, Petitioner was not entitled to the
discovery of the statements of state witnesses or
prospective witnesses. Tenn. R. Crim. P. Rule
16(a)(2). Although the state promised the entirety of
its information, it is not a settled matter that the
state courts would have sanctioned the State in any
form for failing to provide it, particularly when these
statements are not alleged to have been reduced to
writing, and Tennessee jurisprudence seems to
indicate they would not. See Matrin Becton, 2015
Tenn. Crim. App. LEXIS 303, at *79 – 80. Petitioner
can show neither deficiency nor prejudice for
counsel’s failure to object to Petitioner not receiving
information he was not legally entitled to. The Court
cannot find that the state courts were unreasonable
for failing to find counsel deficient for choosing not to
make an argument with no clear basis in law. See
O’Hara, 499 F.3d at 506. Petitioner additionally
alleged prejudice because he claims he would have
accepted the plea deal if given these pieces of State
evidence. However, such prejudice would only be
attributable to the State’s withholding, not counsel
where he likewise had no knowledge of the additional
testimony that would be offered at trial. Even if
counsel had objected, there was no legal basis, under
similar facts, for reinstatement of the plea deal. For
these reasons, the Court will not find that “there is
[no] reasonable argument that counsel satisfied

122a
Strickland’s deferential standard.” Harrington, 562
U.S. at 105.
7. Fifth Amendment Silence
Petitioner claims that counsel was ineffective for
failing to object or request other curative measures
for the prosecution’s improper use of Petitioner’s
Fifth Amendment silence [Doc. 3 at 75 – 79].
Respondent holds out that Petitioner voluntarily
agreed to speak with Detective [*54] Rawlston,
which the detective was properly permitted to
comment on, and that neither trial nor appellate
counsel should be faulted for failing to bring a
meritless claim [Doc. 15 at 55 – 60]. Neither trial nor
appellate counsel were deficient on this issue.
On cross-examination, trial counsel attempted to
elicit testimony from Detective Rawlston to suggest
that the detective performed an inadequate and less
than thorough investigation because he made up his
mind on the scene about what had occurred.
Kendrick, 2015 Tenn. Crim. App. 887, at *110. He
asked Detective Rawlston whether he ever
considered if the Petitioner’s rifle was fired or
discharged accidentally, and the Detective said no.
Id. After which trial counsel went through the
following line of questioning:
Q. What about when the crime scene technician
lifted the gun out of the trunk of his car and shot
himself in the foot with it, saying all the time that
his finger was nowhere near the trigger, what
about that, that wasn’t an issue you thought
worthy of investigation?
A. It has been investigated. . . .

123a
Q. And there was never an issue as to whether
or not the gun - that nobody fired the gun, that it
went off accidentally?
A. No, sir. . . .
Q. Okay. Had you had your mind - you had your
mind made up out there that night what
happened didn’t you?
A: I had, from the investigation received on the
scene and from my investigation, had concluded
what occurred, yes, sir.
Q. Okay. On the scene?
A. On the scene, the airport, forensics.
Q. So by the airport your mind was made up?
A. At that point, yes, sir.
Id. at 110 – 111. On redirect examination, Rawlston
stated that the statements of the witnesses and
“[Petitioner’s] response… in the case after advising
him of his rights” contributed to his decision. Id. at
111. Trial counsel objected that they had not been
made aware of any such statement and the
prosecutor stated that Detective Rawlston was
planning to “say something to the effect of I hope this
is a dream or something like that.” Id. at 111 – 112.
Trial counsel [*55] acknowledged he was aware of
this statement. Id. at 112. Detective Rawlston then
testified that after he advised Petitioner of his rights
and Petitioner indicated that he understood,
Petitioner agreed to speak with him and stated “I
hope this is only a dream,” but never indicated at that
time that this was an accidental discharge. Id.
Petitioner conceded both that he made this statement

124a
and that he never told anyone at the airport that the
shooting was an accident, but insisted he did not
discuss anything else because of the “racial tension”
at the airport. Id. at *113.
During closing arguments, the State highlighted
Petitioner’s failure to tell anyone that the shooting
was an accident. Id. at *113 – 114. Specifically, the
prosecutor said:
Given the opportunity, did he tell anybody
that it was an accident? He makes the [9-1-1]
call. I think the testimony came in it’s four
minutes later… But when he does, what’s the
first communication? He knows he has been
caught. I want to turn myself in, I just shot my
wife. That’s consistent with guilt. When asked
why did you shoot your wife, finally, he didn’t say
it was an accident.
Mark Rawlston, talked to Mark Rawlston, he
said he hoped it was only a dream. It definitely
wasn’t a dream. Didn’t say an accident. He didn’t
tell anybody it was an accident, didn’t present it.
Id. Trial counsel then in his own closing tried to
highlight both that Detective Rawlston had his mind
made up by the time he reached the airport, and that
while Petitioner did not tell the officers that the
shooting was an accident, he also did not state that it
was not and that his statement “I hope this is all a
dream,” is not actually inconsistent with the theory
of accident. Id. at *114.
The TCCA held that while the “constitutional
right to remain silent after arrest may not be
exploited by the prosecution at trial[,]” Petitioner’s

125a
claim fails because he failed to establish by clear and
convincing evidence that he invoked his right to
remain silent after Miranda warnings. Id. at *115 –
116 (citing Doyle v. Ohio, 426 U.S. 610, 618 (1976)).
The TCCA said that although Petitioner was under
arrest, Detective Rawlston testified that Petitioner
voluntarily agreed to speak with him, making
Rawlston’s statement a comment on Petitioner’s
decision to make a voluntary statement, rather than
his silence. Id. at *116. The TCCA held that because
there was no error, [*56] there was no deficient
performance by trial counsel. The TCCA likewise
held that there was no prejudice because the State
did not overly emphasize Detective Rawlston’s
testimony during closing and the jury heard the 9-11 call where Petitioner did not say the shooting was
an accident. Id. The TCCA also provided that because
there was no error here, appellate counsel will also
not be faulted for failing to raise this issue on appeal.
Id.
The Fifth Amendment provides that no person
“shall be compelled in any criminal case to be a
witness against himself.” U.S. Const. amend. V.
Criminal defendants have a right to remain silent
and doing so cannot be used as substantive evidence
of guilt. Griffin v. California, 380 U.S. 609, 615
(1965). Likewise, a defendant’s silence during
custodial interrogation may not be used to impeach
the defendant’s testimony at trial. Doyle, 426 U.S.
610 at 619. However, the Doyle rule does not apply
where defendant waives his right to silence,
expressly or implicitly, after Miranda warnings.

126a
United States v. Lawson, 476 F. App’x 644, 650 (citing
United States v. Crowder, 719 F.2d 166, 172 (6th
Cir.1983) (en banc)); see North Carolina v. Butler, 441
U.S. 369, 373 (1979) (holding that a waiver may be
inferred “from the actions and words of the person
interrogated”). Relying on Butler, the Supreme Court
has held that an uncoerced statement following
Miranda warnings may constitute a valid waiver of
the right to remain silent, when the accused
understood his rights. Berghuis v. Thompkins ,560
U.S. 370, 385 – 86 (2010).
The Court cannot find that the TCCA
unreasonably applied Strickland when it found that
Petitioner’s counsel was not deficient in this regard.
Petitioner and the Respondent seem to be in accord
that Petitioner was under arrest, had been advised of
his rights, and understood those rights. Petitioner
does not contest that he made a statement after that
point, but seems to imply that anything he did not
say during that statement could not be used in trial.
To hold so would be a logical fallacy. Because
Petitioner’s statements were made after valid and
understood Miranda [*57] warnings, they constitute
an implicit waiver of his right to remain silent and do
not fall within the Doyle prohibition. See Berghuis,
560 U.S. at 385 – 386. As such, Detective Rawlston
was permitted to comment on the entirety of what
Petitioner did say. Even without explicit comment by
Detective Rawlston, anything Petitioner did not say
could have been logically inferred. Even if counsel
was found deficient, the Court could not find

127a
prejudice sufficient to undermine the reliability of the
trial.
Even without comments by Detective Rawlston or
the prosecution about what Petitioner did not say,
the jury was quite capable of discerning it on their
own, particularly when the tape recorded 9-1-1 call
made by Petitioner where he also did not indicate
that the shooting was an accident, was before them.
Neither trial nor appellate counsel will be faulted for
failing to raise this meritless claim.
8. Calling of Divorce Attorney
Petitioner alleges that counsel was deficient for
failing to make a reasonable decision in the calling of
Petitioner’s divorce attorney, Ken Lawson, and for
failure to request a jury-out hearing regarding the
waiver of attorney-client privilege regarding this
witness [Doc. 3 at 79 – 82]. Respondent characterizes
this claim as involving a credibility dispute between
Petitioner, who claims he was not consulted on the
decision to call Ken Lawson or on the waiver of
attorney-client privilege, and trial counsel, who
claimed that the calling of this witness and the
waiver were a result of client’s own decision [Doc. 15
at 29 – 32]. The Court cannot find that the TCCA’s
holding that trial counsel was not deficient was an
unreasonable application of Strickland, or based on
an arbitrary finding of fact, therefore Petitioner is not
entitled to habeas relief on this claim.
At trial, counsel called Mr. Lawson who testified
on direct-examination that the parties were divorcing
amicably, and that it was a mutual decision based on
irreconcilable differences. [*58] Kendrick, 2015 Tenn.

128a
Crim. App. 887, at *54 – 55. He likewise testified that
under the terms of the divorce Petitioner would be
receiving child support from his wife, that he would
have primary custody of the couple’s children, and
would retain most of the marital property. Id. at *55,
*58. He likewise served as a character witness,
stating that he believed Petitioner to be a “truthful
and honest” person. Id. at *55.
Petitioner’s complaints regarding Mr. Lawson’s
testimony began at cross-examination, where the
State asked Mr. Lawson if he had discussed adultery
or other grounds for divorce with the couple. Id. at
*55. Mr. Lawson then asserted attorney-client
privilege. Id. After his assertion, the parties held a
bench conference at which trial counsel, prior to the
court’s ruling on privilege, stated “I’ll make this easy
for everybody. As long as I can do it in front of the
jury, we’ll waive the privilege. As long as I can
announce it when counsel does it.” Id. at *56. He then
stated that he was comfortable doing so after
conferring with Petitioner, at which point the court
allowed counsel to waive privilege and the testimony
to proceed. Id. at *56 – 57. At this point, Mr. Lawson
admitted that he had discussed adultery grounds
with Petitioner, who suspected that his wife was
having an affair, although Lawson could not recall
specifics about this conversation. Id. at *57. After this
conversation, the couple attempted to reconcile, but
their attempts failed and the couple agreed to file for
divorce on the basis of irreconcilable differences. Id.
at *57. Mr. Lawson testified that “[h]er affair had
nothing to do with it at that point.” Mr. Lawson

129a
stated that although in initial conversations
Petitioner’s mood was “more of a combination of
anger and discouragement[,]” that later on the
Petitioner “seemed more resigned to it” and told Mr.
Lawson that he did not harbor any “aggressive
feelings” towards the victim. Id. at 57 – 58.
Petitioner first alleges counsel’s deficiency in
calling this witness, because had counsel performed
better pre-trial investigation, he would have either
not called Mr. Lawson, or limited [*59] his testimony
to character only [Doc. 3 at 80]. Next, Petitioner
claims that trial counsel waived his attorney client
privilege without consulting him and erred in doing
so, as it allowed the State to insinuate the shooting
was motivated by suspicions of adultery, and that
counsel should have requested a jury out hearing
before agreeing to waive privilege [Doc. 3 at 80 – 82].
The TCCA first found that regardless of
Petitioner’s contentions, Mr. Lawson’s testimony
actually
corroborated
Petitioner’s
testimony
regarding the divorce and the couple’s accord in the
matter, and further demonstrated that the death of
his wife would be tangibly detrimental to Petitioner
under the terms of the divorce. Id. at *60. The court
clarified that the fact that some elements of this
witness’s testimony were less than favorable did not
amount to the deficiency of counsel. Id. Further, the
court noted that post-conviction hearings established
that the calling of the divorce attorney and the
waiving of attorney-client privilege was a strategic
decision at least partially directed by Petitioner. Id.
at *61. The TCCA then found that Petitioner failed to

130a
demonstrate either deficiency of counsel or prejudice.
Id.
The Court does not find that the TCCA
unreasonably applied Strickland to determine that
counsel was not deficient or made an arbitrary
finding of fact in this regard. Counsel made a
strategic decision to call this witness and to waive
privilege. Due to the couple being in the process of
divorce, motive could have been implied or naturally
inferred with or without the testimony of Mr.
Lawson. This witness had pertinent and useful
information regarding lack of contention in the
divorce, and thus lack of motive, which was
important to the defense. Even if counsel knew of the
prior adultery conversation between Petitioner and
Mr. Lawson, the Court could not say that his
professional decision that the benefit of this
testimony outweighed any potential negatives is
objectively unreasonable. Much less could the Court
find that the state court had no reasonable basis for
deciding so. Once Mr. Lawson had asserted privilege,
it could have seemed to the jury [*60] that he was
hiding something and counsel again made a strategic
decision in order to soften any suspicions. Although
Petitioner claims he was not consulted about such
decisions, he has not demonstrated so by clear and
convincing evidence. Petitioner is not entitled to
habeas relief on this claim.
9. Calling Randall Leftwich
Petitioner claims that counsel was ineffective
because he failed to fully investigate, interview, or
call Randall Leftwich, Petitioner’s cousin, to testify

131a
[Doc. 3 at 82 – 86]. Respondent states that although
Leftwich’s testimony may have provided useful
corroboration, it does not necessarily follow that
counsel was deficient for failing to call him as a
witness [Doc. 15 at 32 – 35]. The Court cannot find
that the TCCA’s finding that counsel was not
deficient for failing to call this singular witness is an
unreasonable application of Strickland.
Petitioner first raised this claim in his state postconviction petition. At post-conviction hearings, Mr.
Leftwich stated that he would have been available to
testify at trial, that he did not recall being contacted
by trial counsel or an investigator prior to trial, and
then summarized information he had that may have
been useful to present to the jury. Kendrick, 2015
Tenn. Crim. App. 887, at *61 – 62. Leftwich testified
that his parents owned the home that the couple lived
in at the time of the shooting, which they remained
in even during their divorce proceedings. Id. He saw
the couple interact on the day of the shooting when
Petitioner’s car broke down and Leftwich went to
assist; Petitioner called the victim who then bought
needed car parts and delivered them to Petitioner
and Leftwich. Id. at *62. Leftwich indicates that
there was no indication of a problem between the
couple at that time. Id. After learning of the shooting,
Leftwich’s mother asked him to go secure Petitioner’s
residence where he discovered cabbage that had been
left simmering on the stove. Id. At post-conviction
hearings, trial counsel testified that he could not
recall whether [*61] he or anyone else contacted Mr.
Leftwich, but did note that Petitioner was very

132a
engaged in the direction of his trial and that counsel
frequently consulted with Petitioner on which
witnesses to call. Id. at *63. Petitioner rebutted that
Leftwich logically should have been interviewed to
corroborate Petitioner’s testimony because Petitioner
informed trial counsel that he was with Leftwich on
the day of the shooting and that the calling of
witnesses was a decision for counsel. Id.
The TCCA agreed that Leftwich could have
provided corroborating testimony, but declined to
find counsel deficient for failing to interview and call
him as a corroborating witness. Id. at *64 – 65. First,
the TCCA noted one small discrepancy between
Petitioner’s testimony and Leftwich’s, regarding the
victim’s mood upon having to deliver car parts to
Petitioner, and second noted that as Petitioner was
very involved with the direction of his case, he could
have informed trial counsel of his desire to have
Leftwich testify and counsel was likely to have
complied, as he did in other circumstances. Id. at *65.
Further the Court found no prejudice from the
absence of this testimony because the testimony was
largely cumulative or corroborative. Id. at *66 – 67.
As to the non-corroborative evidence, regarding the
cabbage simmering on the stove, the TCCA found
that Petitioner did not demonstrate by clear and
convincing evidence that he knew about or alerted
trial counsel to Leftwich’s discovery of the cabbage,
which Petitioner alleges undermines premeditation,
before or at the time of trial. Id. at *67.
Petitioner raises two distinct claims here: the
failure to investigate Randall Leftwich as a witness

133a
and the failure to call Randall Leftwich as witness.
See English v. Romanowski, 602 F.3d 714, 726 (6th
Cir. 2010). To determine if counsel was ineffective for
failing to investigate, the Court must assess the
reasonableness of counsel’s “investigation or lack
thereof.” English v. Romanowski, at 726. As with all
ineffective assistance claims, Petitioner must still
demonstrate [*62] prejudice resulting from this
action. Strickland, 466 U.S. at 687. To show that
counsel was ineffective for failing to call witnesses,
Petitioner must establish that the witness had
favorable information and the lack of that witness’s
testimony prejudiced his defense. Pillette v. Berghuis,
408 Fed. Appx. 873, 882–83 (6th Cir. 2010) (citing
Towns v. Smith, 395 F.3d 251, 258 – 60 (6th Cir.
2005)). However, “defense counsel has no obligation
to call or even interview a witness whose testimony
would not have exculpated the defendant.” Millender
v. Adams, 376 F.3d 520, 527 (6th Cir. 2004).
Here, the Court cannot find the TCCA’s holding
that counsel was not deficient for failing to
investigate or call Randall Leftwich to testify is based
on an unreasonable finding of fact or application of
law. The TCCA considered Leftwich’s potential
testimony in two categories: first, corroborative
evidence regarding Petitioner’s account of the day of
the shooting and good relationship with the victim
and second, evidence of cabbage simmering at
Petitioner’s home that could have showed a lack of
premeditation. Counsel was not deficient for failing
to investigate or call Leftwich when he had no
indication that Leftwich had potentially exculpatory

134a
information and only knew of Leftwich’s potentially
corroborative testimony. Petitioner did not establish
by clear and convincing evidence that counsel had
any indication of the “cabbage simmering” testimony,
the only piece of Leftwich’s testimony that was not
merely cumulative. The Court cannot say that the
TCCA had no reasonable basis for their decision that
counsel was not constitutionally ineffective.
Petitioner is not entitled to relief on this claim.
10. Calling Officer Lapoint
Petitioner alleges that counsel was deficient in
failing to investigate, call, or otherwise seek to
introduce the information available through Officer
William Lapoint, as such would have communicated
Petitioner’s state of mind to the jury [Doc. 3 at 86 –
88]. Respondent states that [*63] the TCCA found
that the jury had other evidence from which it could
discern Petitioner’s demeanor and in addition notes
that Officer Lapoint’s testimony was only relevant to
Petitioner’s state of mind after the event, while the
TCCA focused only on his calmness before as
indicative of premeditation and deliberation [Doc. 15
at 53 – 55]. Because Petitioner cannot show that this
witness had favorable information, the TCCA’s
holding that counsel was not deficient in this regard
is not unreasonable.
Officer Lapoint was present at the airport where
Petitioner was arrested. Kendrick, 2015 Tenn. Crim.
App. 887, at *106. At that time, he went to the police
vehicle Petitioner was in to talk to the Petitioner. Id.
At post-conviction hearings, Officer Lapoint
described Petitioner as “very distraught” and noted

135a
that he was rocking his body, crying, and that he
stated “I can’t believe I did that.” Id. Officer Lapoint
testified that he put a tape recorder in the patrol car
set to record Petitioner, but did not check that the
tape recorder was working before doing so. Id. When
the recorder was returned, it did not work because
the batteries had corroded; other officers told Officer
Lapoint there was nothing on the tape contained in
the recorder. Id. The Petitioner noted at trial that the
tape recorder was placed in the patrol car with him
and that he believed that there must have been
evidence favorable to him on the tape because the
prosecution did not play it. Id. at *107.
On motion for new trial, counsel raised the State’s
failure to include the tape in discovery, but as the
court denied the motion, appellate counsel chose not
to raise it on appeal. Id. at *107. Trial counsel
testified at post-conviction that he did not recall ever
hearing about the tape recorder and did not recall
speaking to Officer Lapoint. Id.
The TCCA held that counsel was not deficient in
this regard for multiple reasons. First, Petitioner
only alleged that this tape could have had evidence
relevant to his mental state after the [*64] shooting,
an issue which the jury had substantial alternative
evidence on: testimony from Ms. Maston stating that
Petitioner was crying, the tape of Petitioner’s 9-1-1
call, and Petitioner’s own testimony. Second,
Petitioner’s state of mind post-shooting was not used
as evidence of premeditation and deliberation, but
rather his calmness before the shooting. Id. at *107 –
109. Lastly, the tape has never been found and there

136a
is no indication of what was on it, not even by
Petitioner.19Id. The TCCA held that for all these
reasons, Petitioner failed to establish either deficient
performance or prejudice in this regard. Id.
This Court does not find that the state courts
unreasonably applied Strickland to find that counsel
was not deficient. Petitioner has not proven the
factual basis of this claim by clear and convincing
evidence – he has not demonstrated whether trial
counsel ever heard about the tape or knew of
Lapoint’s existence as his name was not provided in
discovery. This court likewise finds no prejudice
where there is no indication as to the contents of the
tape on which to assess their potential outcome on
the verdict. Petitioner is not entitled to relief on this
claim.
11. Improper Jury Promise in Opening
Argument
Although neither the state courts nor the
Respondent address this issue, the Court finds that
it was properly presented in Petitioner’s brief to the
TCCA appealing the second dismissal of his postconviction petition [Doc. 14 Attachment 47 at 82 –
83]. As such, this claim will be reviewed de novo. See
Johnson v. Williams, 133 S. Ct. 1088, 1096 (2013).
Petitioner raises here that counsel was ineffective

Petitioner seems to contend throughout the record that there
must have been information useful to his defense on the tape and
that provided motivation for the State to suppress it. However,
he has not offered any evidence of what is on the tape and this
Court is not in the position of assuming such malintent without
proof.
19

137a
because, in his opening statement, counsel made an
unfulfilled promise to the jury that irreparably
damaged Petitioner’s credibility [Doc. 3 at 94 – 106].
In opening statement, counsel informed the jury that
Petitioner’s wife was killed by a faulty rifle and that
the jury would [*65] hear from Officer Miller that the
firearm discharged, shooting him in the foot, without
his hands anywhere near the trigger [Doc. 14
Attachment 47 at 82 – 83]. As detailed above, Officer
Miller did not expressly testify that his finger was not
on the trigger during his accident, but rather that he
could not recall his posture. However, counsel did
elicit some proof from Officer Miller indicating that
his finger was not near the trigger. Petitioner alleges
that counsel did not have a proper basis for this claim
because he had not interviewed Officer Miller and
that he should have realized by the State’s plan to
call Officer Miller and Agent Fite that Officer Miller’s
testimony had changed [Doc. 3 at 94 – 106].20
“It is unreasonable for counsel to promise
testimony to the jury without first examining the
availability and soundness of such testimony where
counsel could, and should, have discovered these
details prior to trial.” Plummer v. Jackson, 491 Fed.
Appx. 671 (6th Cir. 2012) (citing English v.
Romanowski, 602 F.3d 714, 728 (6th Cir. 2010)). Such
Petitioner seems to allege that because Agent Fite testified
that the gun could not fire without the trigger being pulled or
the gun being broken, and Officer Miller’s statement declared
that the gun had fired without his finger on the trigger, that
counsel should have deduced that there was a change in Officer
Miller’s testimony because the State would not put contradicting
witnesses on the stand.
20

138a
an unfulfilled promise can create a negative inference
in the mind of the jury, who may wonder why the
promised testimony was not proffered. See English,
602 F.3d at 729. However, English makes clear that
the ineffective assistance of counsel is formed by the
lack of a reasonably investigated basis for the
promise, not just the unfulfilled promise itself.
English 729. While counsel generally has a duty to
make reasonable investigation, Strickland clarifies
that counsel can also reasonably determine that
certain investigations are unnecessary. Strickland,
466 U.S. 668, n. 19.
In Petitioner’s case, it was a reasonable decision
for counsel to rely on previous signed statements by
Officer Miller to inform his expectations for Officer
Miller’s trial testimony and his opening argument.
Regardless of Petitioner’s contention that counsel
should have anticipated the [*66] change in
testimony, this was an unforeseeable alteration, by a
witness that counsel had no reason to presume was
unreliable. Given his limited time and resources, it
was reasonable for counsel to focus on other
investigation rather than calling Officer Miller and
every other officer to verify their sworn, written
statements. Additionally, even if Petitioner had
demonstrated deficiency, he cannot demonstrate
prejudice. As English notes, the damage from such
unfulfilled promises occurs when the jury is left to
infer why such testimony was not raised or believes
that counsel lied. English, 602 F.3d at 729. Here,
counsel took or attempted to take measures to make
it abundantly clear to the jury that he proposed that

139a
Officer Miller would say his finger was not on the
trigger because he had said so before. Petitioner
cannot show that this error, after being explained to
the jury, was sufficient to undermine the reliability
of the results of his trial.
V. CONCLUSION
For the reasons set forth above, Petitioner’s
petition for a writ of habeas corpus [Doc. 1] will be
DENIED and this action will be DISMISSED.
VI. CERTIFICATE OF APPEALABILITY
The Court must now consider whether to issue a
certificate of appealability (“COA”), should Petitioner
file a notice of appeal. Under 28 U.S.C. § 2253(a) and
(c), a petitioner may appeal a final order in a habeas
proceeding only if he is issued a COA, and a COA may
only be issued where a Petitioner has made a
substantial showing of the denial of a constitutional
right. 28 U.S.C. § 2253(c)(2). When a district court
denies a habeas petition on a procedural basis
without reaching the underlying claim, a COA should
only issue if “jurists of reason would find it debatable
whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason
would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel,
529 U.S. 473, 484 (2000). Where the court dismissed
a claim on the merits, but [*67] reasonable jurists
could conclude the issues raised are adequate to
deserve further review, the petitioner has made a
substantial showing of the denial of a constitutional
right. See Miller-El v. Cockrell, 537 U.S. 322, 327, 336
(2003); Slack, 529 U.S. at 484.

140a
Reasonable jurists would not disagree that
Petitioner procedurally defaulted his claims, nor
would they disagree that neither Petitioner’s trial nor
appellate counsel was constitutionally ineffective.
Accordingly, a COA SHALL NOT ISSUE.
AN APPROPRIATE ORDER WILL ENTER.
ENTER:
s/J. RONNIE GREER
UNITED STATES DISTRICT JUDGE

141a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
EDWARD THOMAS
)
KENDRICKS,
)
Petitioner,
)
v.
)
No. 1:16-CV-00350
SHAWN PHILLIPS,
)
-JRG-SKL
Respondent.
)
ORDER
In
accordance
with
the
accompanying
memorandum opinion, Petitioner’s pro se petition for
a writ of habeas corpus pursuant to 28 U.S.C. § 2254
[Doc. 1] is DENIED and this action is DISMISSED.
The Clerk is DIRECTED to close the civil file.
Also, for the reasons set forth in the accompanying
memorandum opinion, a COA will NOT ISSUE and
the Court will therefore DENY Petitioner leave to
proceed in forma pauperis on appeal. 28 U.S.C. §
2253; Rule 22(b) of the Federal Rules of Appellate
Procedure.
So ordered.
ENTER:
s/J. RONNIE GREER
UNITED STATES DISTRICT JUDGE
ENTER AS A JUDGMENT:
s/ John L. Medearis
District Court Clerk
[Filed 09/30/19]

142a
IN THE SUPREME COURT OF TENNESSEE, AT
KNOXVILLE
May 28, 2014, Session Heard at Cookeville1; January
16, 2015, Filed
No. E2011-02367-SC-R11-PC
EDWARD THOMAS KENDRICK, III v. STATE OF
TENNESSEE
Appeal by Permission; Judgment of the Court of
Criminal Appeals Reversed; Case Remanded. Appeal
by Permission from the Court of Criminal Appeals
Criminal Court for Hamilton County. No. 220622.
Don W. Poole, Judge.
Counsel: Robert E. Cooper, Jr., Attorney General
and Reporter; Gordon W. Smith, Associate Solicitor
General; John H. Bledsoe, Senior Counsel; Bill Cox,
District Attorney General; and Lance Pope, Assistant
District Attorney General, for the appellant, State of
Tennessee.
Edward T. Kendrick, III, Pro se, and Ann C. Short,
Knoxville, Tennessee, for the appellee, Edward
Thomas Kendrick, III.
Stephen Ross Johnson and W. Thomas Dillard,
Knoxville, Tennessee, for the Amici Curiae National
Association of Criminal Defense Lawyers and
Tennessee Association of Criminal Defense Lawyers.

1 Oral

argument was heard in this case on May 28, 2014, at
Tennessee Technological University in Cookeville, Putnam
County, Tennessee, as part of this Court's S.C.A.L.E.S.
(Supreme Court Advancing Legal Education for Students)
project.

143a
Judges: WILLIAM C. KOCH, JR., J., delivered the
opinion of the Court, in which SHARON G. LEE, C.J.,
JANICE M. HOLDER, CORNELIA A. CLARK, and
GARY R. WADE, JJ., joined.
Opinion by: WILLIAM C. KOCH, JR.
[*454] This post-conviction appeal involves
ineffective assistance of counsel claims made by a
prisoner who fatally shot his wife. A Hamilton County
jury, rejecting the prisoner’s [**2] defense that his
rifle had malfunctioned and fired accidentally,
convicted him of first degree premeditated murder.
The Court of Criminal Appeals affirmed his
conviction on direct appeal. State v. Kendricks, 947
S.W.2d 875 (Tenn. Crim. App. 1996). The prisoner
later filed a petition for post-conviction relief in the
Criminal Court for Hamilton County alleging, among
other things, that his trial counsel had been
ineffective because he decided not to seek an expert to
rebut the anticipated testimony of the prosecution’s
expert and because he did not attempt to use an
exception to the hearsay rule to introduce statements
favorable to the prisoner. The post-conviction court
conducted a hearing and denied the petition. The
Court of Criminal Appeals reversed the postconviction court and granted the prisoner a new trial
after concluding that trial counsel’s representation
had been deficient and that, but for these deficiencies,
the jury might have convicted the prisoner of a lesser
degree of homicide. Kendrick v. State, No. E201102367-CCA-R3-PC, 2013 Tenn. Crim. App. LEXIS
539, [*455] 2013 WL 3306655 (Tenn. Crim. App.
June 27, 2013). We granted the State’s application for

144a
permission to appeal. Trial counsel’s decisions not to
consult an expert to rebut the anticipated testimony
of a prosecution expert and not to attempt to
introduce [**3] a potentially favorable hearsay
statement did not amount to deficient performance
that fell below the standard of reasonableness.
Accordingly, we reverse the decision of the Court of
Criminal Appeals and remand for consideration of the
prisoner’s remaining claims.
OPINION
I.
Edward T. Kendrick, III and Lisa Kendrick were
married and had two children, a three-year-old son
and a four-year-old daughter. Their marriage had
failed, but they were continuing to live together while
they pursued an irreconcilable differences divorce.
Mr. Kendrick was angry because he suspected that
Ms. Kendrick was having an affair.
Ms. Kendrick worked at a gas station in
Chattanooga. At approximately 10:00 p.m. on March
6, 1994, Mr. Kendrick drove the couple’s station
wagon to the gas station. Their two children were in
car seats in the station wagon’s rear seat. On the
floorboard of the front passenger seat was a loaded
Remington Model 7400 .30-06 caliber hunting rifle.
Mr. Kendrick entered the gas station and asked
Ms. Kendrick to come out to the car because he had
something to show her. When she finished waiting on
another customer, Ms. Kendrick followed Mr.
Kendrick to the automobile. As Ms. Kendrick
approached [**4] the automobile, Mr. Kendrick
opened the back passenger door and spoke briefly to

145a
the children. Then, he opened the front passenger
door, picked up the loaded rifle from the floorboard,
and walked to the back of the automobile carrying the
rifle.
The rifle fired, and a single bullet struck Ms.
Kendrick in the chest. She fell backward onto the
pavement and died almost instantly. Mr. Kendrick
stated later that he stood over Ms. Kendrick’s body for
a few seconds, looking into her eyes as she died. Then,
he got back into the automobile and drove toward the
airport.
A bystander followed Mr. Kendrick. At some point
during the relatively short drive to the airport, Mr.
Kendrick threw his rifle out of the window of the
moving automobile. Upon arriving at the airport, Mr.
Kendrick used his cellular telephone to call 9-1-1. He
told the operator that he had shot his wife. During the
same time frame, the bystander who had followed Mr.
Kendrick to the airport told a police officer standing
outside the airport what had happened at the gas
station. Mr. Kendrick was taken into custody.
Early the following morning, Steve Miller, a crime
scene investigator, found Mr. Kendrick’s rifle on the
side of the [**5] road. He placed the rifle in the trunk
of his automobile and drove to the police station. The
rifle fired while Sergeant Miller was2 removing it
from the trunk of his automobile, striking his left foot.
In November 1994, Mr. Kendrick was tried for the
murder of his wife in the Criminal Court for Hamilton

2 We

will refer to this officer as "Sergeant Miller" because that
was his title at the time of the postconviction hearings.

146a
County. The State presented twelve witnesses,
including Sergeant Miller, the Kendricks’ four-yearold daughter, and an expert firearms examiner. Mr.
Kendrick presented four witnesses and testified on
his own behalf. The State called one rebuttal
witness. [*456] The jury convicted Mr. Kendrick of
premeditated first degree murder, which carried an
automatic life sentence. On direct appeal, the Court
of Criminal Appeals upheld the conviction. State v.
Kendricks,3 947 S.W.2d 875 (Tenn. Crim. App. 1996),
perm. app. denied (Tenn. 1997).
Mr. Kendrick filed a petition for post-conviction
relief in April 1998. The postconviction court
dismissed the petition after deciding that the issues it
raised were either waived or previously determined.
However, [**6] after finding that Mr. Kendrick’s
ineffective assistance of counsel claims had not been
waived, the Court of Criminal Appeals reversed the
post-conviction court and remanded the case for
further proceedings. Kendricks v. State, 13 S.W.3d
401, 405 (Tenn. Crim. App. 1999) (No Tenn. R. App.
P. 11 application filed).
In March 2000, Mr. Kendrick, aided by counsel,
filed an amended petition for postconviction relief. At
a series of hearings in February and March 2011 —
almost sixteen years after his original trial — Mr.
Kendrick raised forty-three claims of ineffective
assistance of trial counsel, twenty-two claims of
ineffective assistance of appellate counsel on direct
appeal, and twelve claims of prosecutorial
3 Several

of the early documents in this case misspelled Mr.
Kendrick's name as "Kendricks."

147a
misconduct. He supported these claims with a 631page memorandum of law.
The post-conviction court declined to grant Mr.
Kendrick relief in an order filed on October 13, 2011.
On appeal, the Court of Criminal Appeals reversed
the post-conviction court’s dismissal of Mr. Kendrick’s
petition but limited its decision to only two of the
forty-three claims of ineffective assistance of trial
counsel. The appellate court determined that trial
counsel’s performance had fallen below an objective
standard of reasonableness when counsel failed to
obtain expert evidence to [**7] rebut Mr. Fite’s
testimony that Mr. Kendrick’s rifle could only be fired
by pulling the trigger and when counsel failed to
attempt to introduce hearsay evidence regarding
Sergeant Miller’s initial explanation about how he
came to be shot by Mr. Kendrick’s rifle. Kendrick v.
State, No. E2011-02367-CCA-R3-PC, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *13-14
(Tenn. Crim. App. June 27, 2013). The appellate court
also determined that these errors prejudiced Mr.
Kendrick because had it heard such evidence, “it is
reasonably likely the jury would have accredited the
Petitioner’s version of events and convicted him of a
lesser degree of homicide.” Kendrick v. State, 2013
Tenn. Crim. App. LEXIS 539, 2013 WL 3306655, at
*17. Based on these conclusions, the Court of
Criminal Appeals pretermitted its consideration of
Mr. Kendrick’s remaining claims. Kendrick v. State,
2013 Tenn. Crim. App. LEXIS 539, 2013 WL 3306655,
at *18.
II.

148a
This claim has been brought under Tennessee’s
Post-Conviction Procedure Act.4 The Act directs
Tennessee’s courts to grant post-conviction relief to a
person “in custody” whose “conviction or sentence is
void or voidable because of the abridgement of any
right guaranteed by the Constitution of Tennessee or
the Constitution of the United States.” Tenn. Code
Ann. §§ 40-30-102,-103. The prisoner seeking postconviction relief bears “the burden of proving the
allegations of fact by clear and convincing evidence.”
Tenn. Code Ann. § 40-30-110(f) (2012); see also Tenn.
Sup. Ct. R. 28, § 8(D)(1); Nesbit v. State, 452 S.W.3d
779, 786, 2014 Tenn. LEXIS 917, 2014 WL 5901964,
at *2 (Tenn. 2014).
[*457] Appellate courts review a post-conviction
court’s conclusions of law, decisions involving mixed
questions of law and fact, and its application of law to
its factual findings de novo without a presumption of
correctness. Nesbit v. State, 2014 Tenn. LEXIS 917,
2014 WL 5901964, at *1; Whitehead v. State, 402
S.W.3d 615, 621 (Tenn. 2013). However, appellate
courts are bound by the post-conviction court’s
underlying findings of fact unless the evidence
preponderates against them. Arroyo v. State, 434
S.W.3d 555, 559 (Tenn. 2014); Dellinger v. State, 279
S.W.3d 282, 294 (Tenn. 2009). Accordingly, appellate
courts are not free to re-weigh or re-evaluate the
evidence, nor are they free to substitute their own
inferences for those drawn by the post-conviction
4 The

[**8] Tennessee Post-Conviction Procedure Act is
presently codified at Tenn. Code Ann. §§ 40-30-101 to -122 (2012
& Supp. 2014).

149a
court. State v. Honeycutt, 54 S.W.3d 762, 766 (Tenn.
2001). Appellate courts must generally defer to a postconviction court’s findings concerning witness
credibility, the weight and value of witness testimony,
and the resolution of factual issues presented by the
evidence. Whitehead v. State, 402 S.W.3d at 621;
Momon v. State, 18 S.W.3d 152, 156 (Tenn. 1999).
Mr. Kendrick’s substantive allegation is that he
was denied his constitutional right to effective
assistance of counsel. Article I, Section 9 of the
Constitution of Tennessee establishes that every
criminal defendant has “the right to be heard by
himself and his counsel.” Likewise, the Sixth
Amendment to the United States Constitution
guarantees that all criminal defendants “shall enjoy
the right . . . to have the [a]ssistance of [c]ounsel.”
These constitutional [**9] provisions have been
interpreted to guarantee a criminal defendant the
right to effective assistance of counsel. Strickland v.
Washington, 466 U.S. 668, 686, 104 S. Ct. 2052, 80 L.
Ed. 2d 674 (1984); Baxter v. Rose, 523 S.W.2d 930, 936
(Tenn. 1975).
To prevail on a claim of ineffective assistance of
counsel, a petitioner must prove both that counsel’s
performance was deficient and that counsel’s
deficient performance prejudiced the defense.
Strickland v. Washington, 466 U.S. at 687; Felts v.
State, 354 S.W.3d 266, 276 (Tenn. 2011). A court need
not address both elements if the petitioner fails to
demonstrate either one of them. Strickland v.
Washington, 466 U.S. at 697; Garcia v. State, 425
S.W.3d 248, 257 (Tenn. 2013). Each element of the

150a
Strickland analysis involves a mixed question of law
and fact - a question this Court will review de novo
without a presumption that the courts below were
correct. Williams v. Taylor, 529 U.S. 362, 419, 120 S.
Ct. 1495, 146 L. Ed. 2d 389 (2000); Strickland v.
Washington, 446 U.S. at 698; Davidson v. State, 453
S.W.3d 386, 393, 2014 Tenn. LEXIS 918, 2014 WL
6645264, at *3 (Tenn. 2014); Calvert v. State, 342
S.W.3d 477, 485 (Tenn. 2011).
Deficient performance means that “counsel’s
representation fell below an objective standard of
reasonableness.” To determine whether counsel
performed reasonably, a reviewing court must
measure counsel’s performance under “all the
circumstances” against the professional norms
prevailing at the time of the representation.
Strickland v. Washington, 466 U.S. at 688; see also
Baxter v. Rose, 523 S.W.2d at 932-33. Counsel’s
performance is not deficient if the advice given or the
services rendered “are within the range of competence
demanded of attorneys in criminal cases.” Baxter v.
Rose, 523 S.W.2d at 936; see also Harrington v.
Richter, 562 U.S. 86, , 131 S. Ct. 770, 778, 178 L. Ed.
2d 624 (2011) (“The question is whether an attorney’s
representation
amounted
to
incompetence
under [**10] ‘prevailing professional norms,’ not
whether it deviated from best practices or most
common custom.” (quoting Strickland v. Washington,
466 U.S. at 690)); [*458] Padilla v. Kentucky, 559
U.S. 356, 366, 130 S. Ct. 1473, 176 L. Ed. 2d 284
(2010) (“[Deficient performance] is necessarily linked
to the practice and expectations of the legal

151a
community: ‘The proper measure of attorney
performance remains simply reasonableness under
prevailing professional norms’ [considering all the
circumstances].” (internal citations omitted)).
In Strickland v. Washington, the United States
Supreme Court discussed the interaction between
counsel’s duty to investigate and counsel’s freedom to
make reasonable strategic choices:
[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible
options
are
virtually
unchallengeable; and strategic choices made
after less than complete investigation are
reasonable precisely to the extent that
reasonable professional judgments support
the limitations on investigation. In other
words, counsel has a duty to make reasonable
investigations or to make a reasonable
decision that makes particular investigations
unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be
directly assessed for reasonableness in all the
circumstances,
applying
a
heavy [**11] measure of deference to
counsel’s judgments.
Strickland v. Washington, 466 U.S. at 690-91.
A Strickland analysis, therefore, begins with the
strong presumption that counsel provided adequate
assistance and used reasonable professional
judgment to make all significant decisions. Strickland
v. Washington, 466 U.S. at 689. The petitioner bears
the burden of overcoming this presumption.

152a
Strickland v. Washington, 466 U.S. at 687; see also
Burt v. Titlow, 571 U.S. , , 134 S. Ct. 10, 17 (2013);
Nesbit v. State, 2014 Tenn. LEXIS 917, 2014 WL
5901964, at *3; State v. Burns, 6 S.W.3d 453, 461-62
(Tenn. 1999). Reviewing courts should resist the urge
to judge counsel’s performance using “20-20
hindsight.” Mobley v. State, 397 S.W.3d 70, 80 (Tenn.
2013) (quoting Hellard v. State, 629 S.W.2d 4, 9
(Tenn. 1982)); see also Strickland v. Washington, 466
U.S. at 689 (instructing reviewing courts to try “to
eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel’s
perspective at the time”).
The second element of the Strickland analysis
focuses on whether counsel’s deficient performance
“prejudiced” the defendant. Strickland v. Washington,
466 U.S. at 687. The question at this juncture is
“whether counsel’s deficient performance renders the
result of the trial unreliable or the proceeding
fundamentally unfair.” Lockhart v. Fretwell, 506 U.S.
364, 372, 113 S. Ct. 838, 122 L. Ed. 2d 180 (1993)
(citing Strickland v. Washington, 466 U.S. at 687). To
prove prejudice, the petitioner must establish “a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Strickland v. Washington,
466 U.S. at 694. A “reasonable probability” is a lesser
burden of proof than “a preponderance [**12] of the
evidence.” Williams v. Taylor, 529 U.S. at 405-06;
Pylant v. State, 263 S.W.3d 854, 875 (Tenn. 2008). A
reasonable probability is “a probability sufficient to

153a
undermine confidence in the outcome.” Strickland v.
Washington, 466 U.S. at 694; see also Vaughn v. State,
202 S.W.3d 106, 116 (Tenn. 2006); Goad v. State, 938
S.W.2d 363, 370 (Tenn. 1996).
[*459] III.
Mr.
Kendrick’s
claims
regarding
the
ineffectiveness of his trial counsel necessitate a
careful review of his November 1994 trial. Each side
clearly presented their theory of the case in their
opening statements to the jury. The State told the
jury:
It’s the State’s theory that Edward
Kendrick escorted his wife outside [of the gas
station where she worked] to execute her and
that’s what he did. He took her outside,
removed his Remington 7400 .30-06 hunting
rifle from the back of his car and in front of
his two small children, leveled the weapon,
pointed it at his wife and shot her at pointblank range one time, dead center in the
chest.
In his opening statement, Mr. Kendrick’s trial
counsel told the jury the State would not be able to
prove “intent” or “premeditation”:
Lisa Kendrick was killed but not by
Edward Kendrick. Lisa Kendrick was killed
by a faulty rifle that was being transferred
from the front of [their station wagon] to the
back, . . . and the gun went off. The State
would have you believe there is no merit . . .
to that defense, but because [**13] [a crime
scene investigator] picked up this gun at the

154a
scene they are going to have to put him on.
You can ask yourself . . . why [that crime scene
investigator] was shot in the foot with his
hand nowhere near the trigger with the very
same weapon. I’ll ask him that for you.
The State’s first witnesses were persons who were
at the gas station when Ms. Kendrick was shot.
Timothy Benton, the person who followed Mr.
Kendrick from the gas station to the airport following
the shooting, testified that he heard an explosion as
he was pulling out of the gas station and that when
he turned around, he saw Mr. Kendrick holding a rifle
with the barrel pointed straight up in the air. He
stated that Mr. Kendrick’s “right hand was on the
pistol grip area around the trigger and [his] left hand
was up near the stock.” Mr. Benton also testified that
Mr. Kendrick was standing over Ms. Kendrick’s
motionless body.
The State then called Lennell Shepheard, a friend
of Ms. Kendrick who was talking with Ms. Kendrick
in the gas station when Mr. Kendrick arrived. Mr.
Shepheard testified that Mr. Kendrick asked his wife
to come outside because he had something to show
her. He also testified that when he heard
the [**14] shot, he walked from the counter to the
door of the gas station and, when he opened the door,
he saw Mr. Kendrick standing over his wife’s body.
Mr. Shepheard testified that he heard Mr. Kendrick
“yelling ‘I told you so’ . . . about six times.” He also
stated that he went back inside the gas station after
he and Mr. Kendrick made eye contact.

155a
On cross-examination, Mr. Kendrick’s lawyer
suggested that Mr. Shepheard had not mentioned in
his earlier statements that he heard Mr. Kendrick say
“I told you so” and insinuated that Mr. Shepheard had
fabricated this portion of his testimony. Mr.
Shepheard responded that he had reported Mr.
Kendrick’s statement to an officer at the scene and
later to one of the district attorney’s investigators.
The lead investigator, Detective Mark Rawlston, later
testified that an audio recording of Mr. Shepheard’s
statement at the scene contained no reference to Mr.
Kendrick’s saying “I told you so.”
The jury heard the 9-1-1 telephone calls made by
two witnesses at the scene, as well as the call Mr.
Kendrick made from the airport. “I want to turn
myself in,” Mr. Kendrick said, “My wife, I just shot my
wife . . . I’m parked at the airport.” When the 9-1-1
operator [**15] asked, “Why did [*460] you shoot
her?” Mr. Kendrick only responded, “Yes.” Thereafter,
the conversation turned to where Mr. Kendrick was
located at the airport.
Mr. Kendrick’s trial counsel made sure that the
jury heard early and often that Sergeant Miller, one
of the crime scene investigators, had been shot in the
foot while handling Mr. Kendrick’s rifle. During crossexamination by Mr. Kendrick’s lawyer, Detective
Rawlston testified that he did not consider the
possibility that Mr. Kendrick’s rifle had accidentally
discharged. This answer prompted Mr. Kendrick’s
lawyer to ask, “What about when the crime scene
technician lifted the gun out of the trunk of his car
and shot himself in the foot with it, saying all the time

156a
that his finger was nowhere near the trigger, what
about that, that wasn’t an issue you thought worthy
of investigation?” Detective Rawlston responded that
he did not consider the possibility of an accidental
discharge because when he first interviewed Mr.
Kendrick following his arrest, Mr. Kendrick “never at
any time indicated to me that this was an accidental
discharge.” To the contrary, Mr. Kendrick told him, “I
hope this is only a dream.”
Testifying after Detective Rawlston, [**16]
Sergeant Miller explained that after he retrieved the
rifle from the side of the road and drove it to the police
service center, “the weapon discharged and it struck
[him] in the left foot” as he was removing it from the
trunk of his automobile. Sergeant Miller said that he
was holding a coat in his left hand and that he picked
up the weapon with his right hand with the barrel
“pointed down towards the pavement.” He also
testified that he had “no recollection of how the
weapon discharged.”
When asked to demonstrate for the jury how he
was holding the rifle when it fired, Sergeant Miller
held the weapon without putting his finger on the
trigger. However, when the prosecutor specifically
asked him if he remembered whether his finger was
on the trigger when the rifle discharged, Sergeant
Miller stated that he did not remember.
Mr. Kendrick’s trial counsel continued this line of
questioning when he crossexamined Sergeant Miller,
even though Sergeant Miller insisted that he did not
recall whether his finger touched the trigger when the
rifle discharged. The following colloquy took place:

157a
Q: Did you ever have your finger on the trigger
when it discharged?
A: I don’t recall.
Q: Well, didn’t you, [**17] in fact, tell - there is an
investigation and review of any time an officer is shot,
is that correct?
A: I don’t remember anybody coming, you know,
the people that generally do that, I don’t believe they
came.
Q: You never made any statement to those people
that your finger was not on the trigger?
A: Not that I recall because most of my statement
was made when I was in the hospital and what we do
is fill out what’s called an EOF, if something that
happens to you on duty and when you get injured. And
that was made when I was in the hospital.
Q: Well, you wouldn’t shoot yourself in the foot
intentionally, would you?
A: No, sir.
Q: How long have you been a police officer?
A: Going on 22 years.
Q: When you picked up the gun and you showed
the jury how you turned, you had your hand just like
that?
A: Right.
Q: You don’t put your finger on the trigger, do you?
[*461] A: No, sir.
Q: Okay. So when you turned the gun around is
when it went off?
A: That’s what I’ve described.

158a
Q: As you swung around the gun swung around
with you and your hand just like that and the gun
went off, is that correct?
A: But I can’t say that night that was the exact
position of my hand, is what I’m saying.
Q: Well, in 22 years as a police [**18] officer, have
you ever discharged a gun before accidentally into
your foot?
A: No, sir.
Q: Okay. Or in any other part of your body?
A: No, sir.
Q: Or any other way?
A: No, sir.
Q: And you’ve been [a crime scene investigator]
since 1988, some six years. Have you ever had a gun
accidentally discharge as you — at the crime scene or
anything else?
A: No, sir.
Q: Okay. How many times a day is it drilled into
you at the police academy don’t ever put your hand on
the trigger unless you’re going to shoot the gun, that’s
pretty standard, isn’t it?
A: Yes, sir.
Q: Would you ever put your finger on the trigger of
a gun you’re lifting out of your car, especially when,
as you say, you knew the gun was loaded?
A: Not knowingly, no.
Q: Well, now come on, you’re waffling aren’t you?
A: No.

159a
Q: Well, you told them that you never had your
finger on the trigger, you didn’t shoot the gun, did you
not tell them that?
A: I didn’t intentionally shoot the gun, no.
Q: Okay. And you know not to put your finger on
the trigger of a loaded gun unless you want to shoot
it, don’t you?
A: That’s correct.
Q: And you’ve practiced that rule for the past 22
years, have you not?
A: Yes.
During his recross-examination of Sergeant
Miller, Mr. [**19] Kendrick’s trial counsel returned
to the manner in which Sergeant Miller picked up and
carried the rifle:
Q: So [to] the best of your recollection your finger
was not on the trigger?
A: That night I can’t say, I showed you how I
thought I took it out.
Q: Well, you just said to the best of your
recollection you showed us how you took it out of the
trunk of the car.
A: Right.
Q: And to the best of your recollection, since you
showed us, when you showed us, you showed us
having the gun like this, finger off the trigger.
A: Right.
Q: To the best of your recollection, your finger was
not on the trigger was it?
A: I might Q: Did you show us to the best of your recollection?

160a
A: Yes, I did.
Q: Was your finger on the trigger when you
showed us?
A: Not in this courtroom, no.
Q: Is that to the best of your recollection how it
happened?
A: Yes.
Q: Thank you.
The Kendricks’ four-year-old daughter testified on
direct examination that she [*462] saw Ms.
Kendrick “standing with her hands up.” She also
demonstrated how Mr. Kendrick was holding his rifle
and testified that she saw Mr. Kendrick shoot Ms.
Kendrick. During cross-examination, the child was
questioned closely about whether her maternal
grandparents had coached [**20] her to say “bad
things” about Mr. Kendrick. Thereafter, she gave
ambiguous answers regarding whether she had seen
her mother with her hands up or whether she had
“actually see[n] what happened.”
Following the child’s testimony, the State called
the Hamilton County Medical Examiner who gave an
opinion about how Ms. Kendrick was standing at the
time she was shot. The medical examiner testified (1)
that Ms. Kendrick sustained a high velocity, fatal
gunshot wound in the left chest that caused massive
internal injuries, (2) that Ms. Kendrick’s wound was
a “near gunshot wound” which meant that Mr.
Kendrick’s rifle was close enough to Ms. Kendrick
that the muzzle blast contacted Ms. Kendrick’s body
causing stipple injuries on the back of both of her
forearms, (3) that Ms. Kendrick was leaning slightly

161a
away from Mr. Kendrick when she was shot, and (4)
that the stipple injuries on the back of Ms. Kendrick’s
forearms indicated that Ms. Kendrick’s forearms were
raised and facing the direction of fire when she was
shot.
The State then called Kelly Fite, a firearms
examiner employed by the Georgia Bureau of
Investigation who had examined Mr. Kendrick’s rifle
at the request of the Chattanooga Police
Department. [**21] Agent Fite explained how the
rifle’s firing mechanism worked. He also testified that
he had performed tests, including drop tests, to
determine whether the rifle could fire without the
trigger being pulled and that he had been unable to
make the rifle fire without the safety being
disengaged and pulling the trigger. When asked to
give an opinion regarding whether the Remington
Model 7400 was “susceptible to accidental misfire,”
Agent Fite stated: “The only way that you can fire this
rifle without breaking it is by pulling the trigger.”
Mr. Kendrick’s trial counsel requested a jury-out
hearing regarding the scope of his cross-examination
of Agent Fite. He asked the trial court whether he
could question Agent Fite about the Remington Model
742 rifle, a precursor to the Model 7400 rifle. In
response to the State’s objection, the trial court held
that this line of questioning was irrelevant because it
concerned a model of rifle that was different from Mr.
Kendrick’s rifle.
During the same jury-out hearing, Mr. Kendrick’s
trial counsel asked the trial court to permit him to use
an official incident report relating to Sergeant Miller’s

162a
injury prepared by Detective Glenn Sims to refresh
Sergeant [**22] Miller’s memory. This report
attributed a statement to Sergeant Miller that “he
picked the gun up with both hands and that his finger
was not near the trigger[.] [A]s he lifted the weapon
out [of the trunk], the rifle went off.” When Sergeant
Miller was recalled to the stand, he stated that he had
never seen Detective Sims’s report before and that he
did not recall speaking to Detective Sims about the
incident. The jury did not hear the contents of
Detective Sims’s report.5
[*463] After the State completed its case-in-chief,
Mr. Kendrick’s lawyer called Detective Sims. In
response to the State’s objection to this witness, Mr.
Kendrick’s lawyer explained that he was attempting
to impeach Sergeant Miller with Detective Sims’s
report in accordance with [**23] Tenn. R. Evid.
613(b). However, the trial court sustained the State’s
objection, and Detective Sims did not take the stand.6
5 During

closing arguments, the State characterized Sergeant
Miller's accident as the only "accidental discharge" in the case:
An accidental discharge of a weapon is when you take it out
of the trunk of your car, it's late at night, you are
overworked, you might get a little bit sloppy, and you shoot
yourself in the foot. Okay? That's accidental discharge.
That's what we had in this case. It wasn't the weapon that
was an accident, it was the officer. . . .
6 On direct appeal, the Court of Criminal Appeals held that the
trial court erred by refusing to permit Detective Sims to testify
regarding the substance of the statements Sergeant Miller gave
to the officers investigating his injury. However, the appellate
court also decided that this error was harmless because Mr.
Kendrick's lawyer had elicited testimony from Sergeant Miller
during cross-examination that would have permitted the jury to
conclude that Sergeant Miller's memory at the time of trial was

163a
The attorney who had been representing Mr.
Kendrick in the Kendricks’ divorce proceeding
testified that Mr. Kendrick suspected that his wife
was having an affair and that he was “angry and
discouraged” about it. However, the attorney also
testified that Mr. Kendrick appeared to harbor no
“aggressive feelings” toward Ms. Kendrick.
Thereafter, two character witnesses testified on Mr.
Kendrick’s behalf.
At this point, Mr. Kendrick took the stand. He
explained
that
he
had
owned
the
Remington [**24] Model 7400 rifle for eleven years
and that it had never malfunctioned before. He
explained that Ms. Kendrick carried a handgun and
that he often kept a rifle with him because the
Kendricks had a side job cleaning apartments at night
in an area where they felt unsafe. He testified that he
was moving the rifle to the back of the automobile at
his wife’s request when it discharged and that he was
“almost positive” that he did not pull the trigger.
With reference to his conduct after Ms. Kendrick
was shot, Mr. Kendrick stated that he did not attempt
to assist his wife because he knew she was already
dead. He explained that he left the gas station
because “he wanted to get the kids away.” He also
testified that he threw the rifle out of the front
passenger window because he was scared and that he
“just wanted to get it out of the car.” Mr. Kendrick

faulty and that Sergeant Miller knew Mr. Kendrick had not
caused the rifle to fire by pulling the trigger. State v. Kendricks,
947 S.W.2d at 881-82.

164a
denied saying “I told you so” as he watched his wife
die.
In rebuttal, the State called Officer Martha
Matson, a security officer working at the airport on
the night of the incident who removed the Kendricks’
children from their car seats. Invoking the excited
utterance exception to the hearsay rule in Tenn. R.
Evid. 803(2), the trial court permitted Officer
Matson [**25] to testify that “[t]he little girl, when I
got her out of the car, she just put her arms around
me and she stated that she had told daddy not to shoot
mommy but he did and she fell.”
After closing arguments and deliberation, the jury
found Mr. Kendrick guilty of first degree
premeditated murder — a verdict that carries an
automatic life sentence when the State has not sought
the death penalty. See Tenn. Code Ann. § 39-13-202(c)
(2014). Mr. Kendrick moved for a new trial. Following
a hearing on May 15, 1995, the trial court entered an
order denying the motion on June 19, 1995. The Court
of Criminal Appeals upheld Mr. Kendrick’s conviction
and sentence. State v. Kendricks, 947 S.W.2d at 886.
This Court denied Mr. Kendrick’s Tenn. R. App. P. 11
application for permission to appeal.
IV.
The condition of Mr. Kendrick’s Remington Mode
7400 rifle and the manner in [*464] which Sergeant
Miller handled it were the focus of the hearing on Mr.
Kendrick’s petition for post-conviction relief,
conducted almost sixteen years after his original trial.
Mr. Kendrick presented Henry Jackson Belk, Jr., a
gunsmith and former deputy sheriff, as a firearms

165a
expert. Mr. Belk testified that the Remington Model
7400 rifle contained the same trigger mechanism that
was found in at least fourteen different
models [**26] of Remington “pumps and automatics
manufactured after 1948.”7
Mr. Belk had examined Mr. Kendrick’s rifle prior
to testifying. He found that the rifle was dirty on the
inside, but he did not find any debris in the trigger
mechanism that could cause it to misfire.8 Mr. Belk
was unable to make the trigger mechanism fire
without pulling the trigger, except when he removed
the trigger mechanism from the rifle. Nonetheless,
Mr. Belk testified that the firing mechanism in Mr.
Kendrick’s rifle was a “defective mechanism” because
these mechanisms have “a history of firing under
outside influences other than a manual pull of the
trigger.”
Mr. Belk testified that he first became suspicious
about the trigger mechanism in 1970, but that it was
not until 1994 — the same year as Mr. Kendrick’s
trial — that he served as an expert in a civil case
involving the trigger mechanism in a Remington 700
rifle. In response to the State’s questioning, Mr. Belk
concurred [**27] that, if someone had done research
at the time of Mr. Kendrick’s 1994 trial, they would
have potentially been able to find him.

7 Mr.

Belk stated that this trigger mechanism could be found in
approximately 23 million weapons.
8 Mr. Belk speculated that there could have been debris in the
firing mechanism of Mr. Kendrick's rifle and that Agent Fite's
drop tests could have dislodged it.

166a
Mr. Belk described several instances in which a
malfunction caused a similar Remington rifle to fire.
In one instance, a Model 1100 shotgun fired when a
man grabbed it while it was falling. In another case,
a Model 870 shotgun fired while it sat, with the safety
on, inside a locked box that was mounted on an ATV
with its engine running. Mr. Belk also recalled
testifying about the Model 7400 rifle in two civil cases
and one criminal case. In the “late nineties,” he
testified in a civil case involving a Model 7400 that
allegedly misfired when a man was wiping it with a
rag. In another case, which he did not date, Mr. Belk
testified about a Model 7400 that allegedly misfired
while it was being cleaned with an air hose. Mr. Belk
also recalled “sign[ing] affidavits about a 7400
criminal case in Washington State,” but he did not
testify when he signed the affidavits.
Sergeant Miller also testified at the postconviction hearing. He maintained that he still could
not remember whether his finger touched the trigger
of Mr. Kendrick’s rifle when he shot himself in the foot
and [**28] that he had no recollection of talking with
other officers about the incident. He added that he
had sustained a “massive foot injury” and that he was
on pain medication. Sergeant Miller also testified that
he spent over three weeks in the hospital and that he
had had seven surgeries on his foot.
Mr. Kendrick also called the three officers who
talked with Sergeant Miller after he shot himself in
the foot. Officer Michael Holbrook, who prepared a
report about Sergeant Miller’s injury after visiting
him the hospital, testified that Sergeant Miller told

167a
him that “his finger was not near the trigger” when
the rifle fired. Detective Sims, now retired, testified
that he did not recall the circumstances
surrounding [*465] his report concerning Sergeant
Miller’s injury. Finally, Officer James Gann, the first
officer to render assistance to Sergeant Miller,
testified that Sergeant Miller “was in a lot of pain,
bleeding and starting to go into shock” after the
accident.
The assistant public defender who represented
Mr. Kendrick during his November 1994 trial also
testified at the hearing on Mr. Kendrick’s postconviction petition. He testified that Mr. Kendrick did
not tell the police that the shooting [**29] had been
accidental before he began representing Mr.
Kendrick. He also confirmed that his theory of
defense from the outset was that the shooting was an
accident caused by a defective weapon and that he
considered Sergeant Miller’s mishap to be the key fact
establishing that Mr. Kendrick’s rifle could have been
defective.
Counsel testified that he was somewhat
knowledgeable about guns because he owned a
number of them. He also stated that the public
defender’s office occasionally consulted a former
police officer who was a gunsmith but that he could
not remember whether this office consulted this
gunsmith in Mr. Kendrick’s case. He added that gun
owners in 1994 were not aware of any inherent defects
in Remington’s trigger mechanism because “there
was no discussion in the industry about the trigger
mechanism on the Remington being potentially able

168a
to malfunction.” Counsel also pointed out that “you
couldn’t Google Remington trigger mechanisms back
then” and that the “body of evidence” concerning the
Remington trigger mechanism that eventually came
to light “wasn’t available at that point in time [the
time of Mr. Kendrick’s trial in November 1994].”
The
assistant
public
defender
also
testified [**30] that he knew that Agent Fite would
be called to testify that Mr. Kendrick’s rifle was
working properly. He explained that he never looked
for an expert witness to rebut Agent Fite because he
believed that he could use Sergeant Hill’s statements
“very effectively.” Counsel believed that Sergeant
Miller’s testimony about his accidental injury would
“trump[]” Agent Fite’s testimony. He also believed
“that [Sergeant] Miller shooting himself in the foot
accidentally, without his hands near the trigger, was
enough for a reasonable doubt as to anything.”9
While Mr. Kendrick’s trial counsel had not
personally interviewed Sergeant Miller, he was aware
of the interview that one of the public defender’s
investigators had conducted. He testified that he
“thought [Sergeant] Miller would testify consistently
with what [he] knew to be his statements” and that
he “presumed [that he] would be able to get [Sergeant]
Miller’s testimony that he was not holding [**31] the
trigger and the gun discharged” before the jury to
9 Mr.

Kendrick's trial counsel testified that years after Mr.
Kendrick's trial, he telephoned Mr. Kendrick's post-conviction
counsel as soon as he heard a radio program discussing several
accidental deaths associated with Remington's trigger
mechanism.

169a
bolster his theory that the shot that killed Ms.
Kendrick was fired accidentally.
Counsel also testified that he felt “sandbagged”
and “overwhelmed” when Sergeant Miller testified
that he could not remember where his finger was
when he was shot. He added that “I was not prepared
for [Sergeant] Miller to say that he couldn’t
remember, because there was not any doubt in my
mind, at least, when we started trying this case, that
he was going to stick to his prior statements.”
The assistant public defender also testified that he
did not recall whether he considered attempting to
admit Sergeant Miller’s statements as excited
utterances [*466] after his attempt to use them to
impeach Sergeant Miller failed. He testified initially
that he did not know when the reports were taken and
that he was unsure about whether Sergeant Miller’s
statements were sufficiently “contemporaneous” to
qualify as excited utterances. Later in his testimony,
counsel agreed that, “in hindsight,” the statements
might have been admissible as excited utterances.
However, he added that “in the heat of trial, I didn’t
see that.”
The
post-conviction
court
denied
Mr.
Kendrick’s [**32] petition for post-conviction relief.
In its 66-page order, the court determined that Mr.
Kendrick had not been prejudiced by his counsel’s
decision not to call an expert witness to rebut Agent
Fite. The court reasoned:
Even if one disregards Mr. Fite’s trial
testimony
suggesting
that
accidental
discharge was impossible and accepts Mr.

170a
Belk’s testimony indicating that, because of
the trigger mechanism in the gun, accidental
discharge
was
possible,
significant
weaknesses in the theory of the defense,
specifically, unfavorable eyewitness evidence
and the petitioner’s own ambiguous actions in
leaving the scene and discarding the gun, still
remain.
***
Although Mr. Belk’s post-conviction
testimony reveals apparent gaps in Agt. Fite’s
knowledge about defects in the common
trigger mechanism and the inutility of drop
tests, the jury did not require Mr. Belk or
another expert witness to make them aware
of the possibility of accident. Off. Miller’s
injury was an immediate reminder, if any was
necessary, that accident is always a
possibility.
Furthermore, because Mr. Belk did not
explain his dismissal of drop tests, his
testimony on this issue is relatively weak. In
any event, the effect of Agt. [**33] Fite’s trial
testimony was not to exclude the possibility of
accident but to limit it to a particular
circumstance,
a
triggered
discharge.
Although Mr. Belk’s testimony raises the
possibility of an untriggered discharge, even
the petitioner at trial was not entirely certain
whether, at the time of discharge, his finger
or hand was on the trigger.

171a
In addition, the post-conviction court declined to
grant post-conviction relief with regard to the “excited
utterance” issue. The court first decided that the
statements were not excited utterances, but rather
were “post-accident statements in the course of
internal and defense investigations.” The court also
decided that Mr. Kendrick had not been prejudiced
because the Court of Criminal Appeals had already
determined on direct appeal that the trial court’s
decision to disallow the use of Sergeant Miller’s postaccident statements as impeachment evidence was
harmless error.
V.
The Court of Criminal Appeals reversed the postconviction court’s denial of Mr. Kendrick’s petition.
The appellate court decided that Mr. Kendrick’s
counsel was deficient in two respects and that, absent
these deficiencies, it was reasonably likely that the
jury would [**34] have convicted Mr. Kendrick of a
lesser degree of homicide. Kendrick v. State, No.
E2011-02367-CCA-R3-PC, 2013 Tenn. Crim. App.
LEXIS 539, 2013 WL 3306655, at *13-14, 17 (Tenn.
Crim. App. June 27, 2013).
The appellate court began its analysis by pointing
out that Mr. Kendrick had three types of evidence
available to him to establish his accidental shooting
defense. The first was his own testimony — the
effectiveness of which hinged on his own credibility.
The second was evidence that Sergeant Miller had
shot himself with the rifle without touching the
trigger, which would have bolstered not only Mr.
Kendrick’s [*467] defense but also his credibility.

172a
The third type of evidence would have been expert
testimony that the trigger mechanism on his rifle was
defective and that the rifle could fire without the
trigger being pulled. This evidence would likewise
have bolstered Mr. Kendrick’s defense and his
credibility. Kendrick v. State, 2013 Tenn. Crim. App.
LEXIS 539, 2013 WL 3306655, at *13.
The Court of Criminal Appeals then held that Mr.
Kendrick’s trial counsel was “deficient in failing to
adduce expert proof about the trigger mechanism in
the rifle.” Kendrick v. State, 2013 Tenn. Crim. App.
LEXIS 539, 2013 WL 3306655, at *13. In the court’s
view, Mr. Belk’s testimony was “absolutely crucial” to
the “key question” of whether Mr. Kendrick’s rifle
fired without the trigger being pulled. Kendrick v.
State, 2013 Tenn. Crim. App. LEXIS 539, 2013 WL
3306655, at *13. Because Mr. Belk testified about the
problems with [**35] the “Common Fire Control” in
1994 and was aware of these problems before that
date, the court decided that Mr. Kendrick’s trial
counsel should have worked harder to find Mr. Belk
or presumably an equivalent expert prior to the trial
in November 1994. Kendrick v. State, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *13.
The Court of Criminal Appeals also decided that
Mr. Kendrick’s trial counsel was “deficient in failing
to adduce, as substantive evidence, Sgt. Miller’s
pretrial statements that the rifle had fired while he
was handling it and while his hands were not near the
trigger.” Kendrick v. State, 2013 Tenn. Crim. App.
LEXIS 539, 2013 WL 3306655, at *14. The appellate
court believed the “crucial” statements Sergeant

173a
Miller made both in the parking lot and in the
hospital were admissible hearsay under the “excited
utterance” exception.10 Thus, “when Sgt. Miller’s
memory proved unreliable at the trial,” counsel
should have called the officers who heard Sergeant
Miller’s statements. Moreover, the appellate court
decided that Mr. Kendrick’s trial counsel “should
have anticipated a forgetful witness and been
prepared to adduce the proof, of which he was aware,
in another manner.” Kendrick v. State, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *14.
Turning to the prejudice prong of Strickland v.
Washington, the Court of Criminal Appeals addressed
whether the post-conviction court had applied an
incorrect legal standard in its assessment of the
adequacy of Mr. Kendrick’s proof supporting his
ineffective assistance of counsel claim. The appellate
court focused on the following two portions of the postconviction court’s October 13, 2011 order:
The Court agrees with [Mr. Kendrick] that
this new evidence is favorable to the defense.
The petitioner, however, must prove more
than this; he must prove by clear and
convincing evidence that the new evidence is
so favorable that counsel’s failure to present
it at trial had an effect on the verdict. This,
the Court finds, he does not do.
***
10 See

Tenn. R. Evid. 803(2) ("Excited Utterance. A statement
relating to a startling event or condition made while the
declarant was under the stress of excitement caused [**36] by
the event or condition [is not excluded by the hearsay rule].").

174a
The standard for post-conviction relief is
high: clear and convincing evidence. On
appeal, there was sufficient evidence to
support the conviction. Now, after the postconviction hearing, the Court cannot say that
there is clear and convincing evidence that
the victim’s death was an accident or even
that it was only knowing, not premeditated.
The appellate court correctly pointed out
that [**37] the Post-Conviction Procedure Act
requires petitioners to prove their allegations of fact
by clear and convincing evidence. Tenn. Code Ann. §
40-30-110; Tenn. Sup. Ct. R. 28, § 8. Once the
facts [*468] are established, the postconviction court
should conduct a straightforward Strickland v.
Washington analysis to reach the legal conclusion of
whether deficient performance and prejudice existed.
Kendrick v. State, 2013 Tenn. Crim. App. LEXIS 539,
2013 WL 3306655, at *15-16; see also Dellinger v.
State, 279 S.W.3d at 293-94.
Having already decided that Mr. Kendrick’s trial
counsel’s failure to retain the expert assistance of Mr.
Belk or his equivalent was deficient performance, the
Court of Criminal Appeals decided that this failure
prejudiced Mr. Kendrick “in a number of ways.”
Kendrick v. State, 2013 Tenn. Crim. App. LEXIS 539,
2013 WL 3306655, at *16. First, Mr. Belk’s testimony
would have corroborated Mr. Kendrick’s version of
events and thereby enhanced his credibility. Kendrick
v. State, 2013 Tenn. Crim. App. LEXIS 539, 2013 WL
3306655, at *16. Second, Mr. Belk’s testimony could
have discredited the testimony of the State’s firearms

175a
expert, Agent Fite. Kendrick v. State, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *17.
Third, Mr. Belk’s expert testimony would have given
the jury “an additional reason to suspect [Mr.]
Shepheard’s testimony” that Mr. Kendrick said “I told
you so” to his dying wife. Instead, the jury was
“deprived of this critical choice” to accept or reject the
fact, supported by expert testimony, that the rifle was
defective. Kendrick v. State, 2013 Tenn. Crim. App.
LEXIS 539, 2013 WL 3306655, at *17.
The Court of Criminal [**38] Appeals also
decided that Mr. Kendrick’s trial counsel’s failure to
introduce
Sergeant
Miller’s
statements
as
substantive evidence deprived the jury of evidence
that was “critical to the defense.” Kendrick v. State,
2013 Tenn. Crim. App. LEXIS 539, 2013 WL 3306655,
at *17. Particularly in light of the trial judge’s posttrial statement that he thought the case was “awfully
close” on the facts, the appellate court found it
“reasonably likely” that, had the jury heard Mr. Belk’s
testimony and Sergeant Miller’s excited utterances,
they would have convicted Mr. Kendrick of a lesser
degree of homicide. Kendrick v. State, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *17.
The Court of Criminal Appeals noted that Mr.
Kendrick had alleged other deficiencies on the part of
his trial and appellate counsel. However, after
deciding that the two foregoing deficiencies were, by
themselves, enough to require a new trial, the court
deemed it unnecessary to address Mr. Kendrick’s
remaining claims. Kendrick v. State, 2013 Tenn.
Crim. App. LEXIS 539, 2013 WL 3306655, at *18.

176a
VI.
We now turn to the first of the two grounds for the
Court of Criminal Appeals’ conclusion that Mr.
Kendrick’s trial counsel’s performance was
sufficiently deficient and prejudicial to warrant
granting Mr. Kendrick a new trial. The court decided
that counsel’s failure to find and present a firearms
expert
to
testify
that
the
trigger
mechanism [**39] on Mr. Kendrick’s rifle was
defective fell below the range of competence
demanded of attorneys trying criminal cases in
Tennessee.
A.
Two recent opinions of the United States Supreme
Court addressing the duty of defense counsel to
procure expert testimony to rebut the State’s expert
testimony are germane to the question of whether Mr.
Kendrick’s counsel’s decision not to seek and retain a
firearms expert warrants post-conviction relief.
The first opinion is Harrington v. Richter, 562 U.S.
86, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011). This case
stemmed from the shooting of Joshua Johnson and
Patrick Klein in Mr. Johnson’s home. When the police
arrived, they found Mr. Klein lying on a couch in the
living room and Mr. Johnson in the bedroom. Mr.
Klein later died, but Mr. Johnson survived and
identified [*469] Joshua Richter and Christian
Branscombe, who earlier had been smoking
marijuana with Messrs. Johnson and Klein, as the
shooters. Messrs. Richter and Branscombe were
charged with the murder of Mr. Klein, the attempted

177a
murder of Mr. Johnson, and related charges.
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 781.
Mr. Richter argued self-defense at trial. He
asserted that he and Mr. Branscombe were in a
bedroom with Messrs. Johnson and Klein when
Messrs. Johnson and Kline attacked them. He
insisted that he and Mr. Branscombe [**40] fired in
self-defense and that Mr. Johnson must have dragged
Mr. Klein from the bedroom to the couch where the
police found him. Harrington v. Richter, 562 U.S.
at , 131 S. Ct. at 782.
While the State made reference in its opening
statement to the ballistics evidence it planned to
introduce, it made no reference to blood-related
evidence because the State did not plan to introduce
evidence regarding the blood found in the house.
However, the State changed its strategy after Mr.
Richter’s trial counsel claimed in his opening
statement that the State’s investigation had been
deficient. Without advance notice, and over defense
counsel’s objection, the State called two additional
experts — one an expert in blood spatter evidence and
the other a serologist. The blood spatter expert
testified that the blood spatters at the crime scene
indicated that Mr. Klein had been shot on or near the
couch where he was discovered. The serologist
testified that the blood taken from the bedroom door
could not have come from Mr. Klein. Defense counsel
cross-examined both witnesses and exposed
weaknesses in their analyses. Nevertheless, the jury
convicted Mr. Richter of all charges, and his

178a
convictions were upheld on direct appeal. Harrington
v. Richter, 562 U.S. at , 131 S. Ct. at 782.
Mr. Richter petitioned the [**41] California
Supreme Court for a writ of habeas corpus. He
claimed that his trial counsel had been deficient by
failing to present expert testimony regarding
“serology, pathology, and blood spatter.” To buttress
his claim, he offered affidavits of two serologists, a
pathologist, and an expert in blood stain analysis,
each of whom offered an interpretation of the crime
scene evidence that was at odds with the testimony of
the experts the State had called at trial. The
California Supreme Court denied Mr. Richter’s
petition.
The United States District Court for the Eastern
District of California and a threejudge panel of the
United States Court of Appeals for the Ninth Circuit
found Mr. Richter’s federal petition for writ of habeas
corpus to be without merit. Harrington v. Richter, 131
S. Ct. at 783. However, the United States Court of
Appeals for the Ninth Circuit, sitting en banc, found
that Mr. Richter was entitled to federal habeas corpus
relief. Presumably applying the standard of review
required by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), the court decided that
Mr. Richter’s counsel had been deficient because he
should have consulted experts on blood evidence (1) to
determine an effective trial [**42] strategy and (2) to
rebut the State’s potential expert evidence.
Harrington v. Richter, 131 S. Ct. at 783 (citing Richter
v. Hickman, 578 F.3d 944 (9th Cir. 2009)).

179a
The United States Supreme Court granted
California’s petition for writ of certiorari and held
that the Ninth Circuit had failed to give proper
deference under the AEDPA to the California
Supreme Court’s decision. The Court held that under
28 U.S.C. 2254(d) (West 2012), the”pivotal question is
whether the state [*470] court’s application of the
Strickland standard was unreasonable” and that this
question required a higher degree of deference than
the related question of “whether defense counsel’s
performance fell below Strickland’s standard.”
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 785.
Accordingly, the Court held that the Ninth Circuit
had erred when it “explicitly conducted a de novo
review” under the Strickland v. Washington
standard. Even had there been “a strong case for
relief,” this would not mean the state court’s contrary
conclusion was “unreasonable.” Harrington v.
Richter, 562 U.S. at , 131 S. Ct. at 786.
The Court then turned its attention to Mr.
Richter’s Strickland v. Washington claim. It stressed
that “[s]urmounting Strickland’s high bar is never an
easy task.” Harrington v. Richter, 562 U.S. at , 131
S. Ct. at 788 (quoting Padilla v. Kentucky, 559 U.S.
356, 371, 130 S. Ct. 1473, 176 L. Ed. 2d 284). Because
it is “all too tempting” for a reviewing court to “secondguess” a defense attorney’s trial decisions, “the
Strickland
standard
must
be
applied
with [**43] scrupulous care, lest ‘intrusive post-trial
inquiry’ threaten the integrity of the very adversary
process the right to counsel is meant to serve.”
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 788

180a
(quoting Strickland v. Washington, 466 U.S. at 68990). The question under Strickland v. Washington’s
deficient performance prong is “whether an attorney’s
representation amounted to incompetence under
‘prevailing professional norms,’ not whether it
deviated from best practices or most common custom.”
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 788
(quoting Strickland Washington, 466 U.S. at 690).
According to the Court, Strickland v. Washington’s
prejudice prong requires that counsel’s error be “so
serious as to deprive the defendant of a fair trial,”
meaning “a trial whose result is reliable.” Harrington
v. Richter, 562 U.S. at , 131 S. Ct. at 787-88 (quoting
Strickland v. Washington, 466 U.S. at 687).
The United States Supreme Court’s discussion of
counsel’s performance concerning expert testimony is
particularly germane to Mr. Kendrick’s case:
The Court of Appeals first held that
Richter’s attorney rendered constitutionally
deficient service because he did not consult
blood evidence experts in developing the basic
strategy for Richter’s defense or offer their
testimony as part of the principal case for the
defense. Strickland, however, permits counsel
to “make a reasonable decision that makes
particular
investigations
unnecessary.”
[Strickland, 466 U.S. at 691]. It was at least
arguable [**44] that a reasonable attorney
could decide to forgo inquiry into the blood
evidence in the circumstances here.
Criminal cases will arise where the only
reasonable and available defense strategy

181a
requires consultation with experts or
introduction of expert evidence, whether
pretrial, at trial, or both. There are, however,
“countless ways to provide effective
assistance in any given case. Even the best
criminal defense attorneys would not defend
a particular client in the same way.”
[Strickland v. Washington, 466 U.S. at 689].
Rare are the situations in which the “wide
latitude counsel must have in making tactical
decisions” will be limited to any one technique
or approach. [Strickland v. Washington, 466
U.S. at 689]. It can be assumed that in some
cases counsel would be deemed ineffective for
failing to consult or rely on experts, but even
that formulation is sufficiently general that
state [*471] courts would have wide latitude
in applying it. Here it would be well within
the bounds of a reasonable judicial
determination for the state court to conclude
that defense counsel could follow a strategy
that did not require the use of experts
regarding the pool [of blood] in the doorway to
[the] bedroom.
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at
788-89.
The Court noted that before trial, counsel could
have considered “any number [**45] of hypothetical
experts — specialists in psychiatry, psychology,
ballistics, fingerprints, tire treads, physiology, or
numerous other disciplines and subdisciplines —
whose insight might possibly have been useful.” But

182a
pursuing these experts could have distracted counsel
from “more important duties.” Harrington v. Richter,
562 U.S. at , 131 S. Ct. at 789 (quoting Bobby v. Van
Hook, 558 U.S. 4, 11, 130 S. Ct. 13, 175 L. Ed. 2d 255
(2009) (per curiam)). “Counsel was entitled to
formulate a strategy that was reasonable at the time
and to balance limited resources in accord with
effective trial tactics and strategies.” Harrington v.
Richter, 562 U.S. at , 131 S. Ct. at 789. “Even if it
had been apparent that expert blood testimony could
support Richter’s defense, it would be reasonable to
conclude that a competent attorney might elect not to
use it.” Harrington v. Richter, 562 U.S. at , 131 S.
Ct. at 789.
The Court also observed that the Ninth Circuit’s
theory of the defense “overlooks the fact that
concentrating on the blood pool carried its own serious
risks.” Harrington v. Richter, 562 U.S. at , 131 S. Ct.
at 789. The Court noted that defense counsel had good
reason to question his client’s truthfulness regarding
the details of the crime and that they could have
ended up undercutting their client’s defense had they
hired their own forensic experts. Harrington v.
Richter, 562 U.S. at , 131 S. Ct. at 789-90. “Even
apart from this danger,” the Court said, “there was
the possibility that expert testimony could shift
attention to [**46] esoteric matters of forensic
science, distract the jury from whether [the surviving
victim] was telling the truth, or transform the case
into a battle of the experts.” Harrington v. Richter,
562 U. S. at , 131 S. Ct. at 790. In sum, the Court
concluded that the Ninth Circuit erred by relying on

183a
“‘the harsh light of hindsight’ to cast doubt on a trial
that took place now more than 15 years ago . . .
precisely what Strickland v. Washington and AEDPA
seek to prevent.” Harrington v. Richter, 562 U.S. at ,
131 S. Ct. at 789 (quoting Bell v. Cone, 535 U.S. 685,
702, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002)).
Although Mr. Richter’s counsel’s opening
statement apparently prompted the State to
introduce expert forensic blood evidence, the Court
decided that “the prosecution’s response shows
merely that the defense strategy did not work out as
well as counsel had hoped, not that counsel was
incompetent.” Harrington v. Richter, 562 U.S. at ,
131 S. Ct. at 790. Although the Court came close to
saying that counsel’s representation was not
deficient, it did not need to go that far:
If this case presented a de novo review of
Strickland, the foregoing might well suffice to
reject the claim of inadequate counsel, but
that is an unnecessary step. The Court of
Appeals must be reversed if there was a
reasonable justification for the state court’s
decision. In light of the record here[,] there
was no basis to rule that the state
court’s [**47]
determination
was
unreasonable.
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 790.
The Court then turned to the Ninth Circuit’s
second finding — that Mr. Richter’s counsel was
deficient “because he had [*472] not expected the
prosecution to offer expert testimony and therefore
was unable to offer expert testimony of his own in

184a
response.” Harrington v. Richter, 562 U.S. at , 131
S. Ct. at 790-91. The Court decided that the Ninth
Circuit erred by holding that “counsel had to be
prepared for ‘any contingency.’” Harrington v.
Richter, 562 U.S. at , 131 S. Ct. at 791 (quoting
Richter v. Hickman, 578 F.3d at 946).
The Court noted that “[j]ust as there is no
expectation that competent counsel will be a flawless
strategist or tactician, an attorney may not be faulted
for a reasonable miscalculation or lack of foresight or
for failing to prepare for what appear to be remote
possibilities.” Harrington v. Richter, 562 U.S. at ,
131 S. Ct. at 791. Even if counsel had foreseen that
the State would offer expert evidence, Mr. Richter
would still be required to show that a reasonable
attorney would have acted on that knowledge. In the
Court’s words: “Strickland does not enact Newton’s
third law for the presentation of evidence, requiring
for every prosecution expert an equal and opposite
expert from the defense.” Harrington v. Richter, 562
U.S. at , 131 S. Ct. at 791. Rather, “[i]n many
instances cross-examination will be sufficient to
expose defects in an expert’s presentation.”
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 791.
Indeed,
it is difficult to establish [**48] ineffective
assistance
when
counsel’s
overall
performance indicates active and capable
advocacy.
Here
Richter’s
attorney
represented him with vigor and conducted a
skillful cross-examination. As noted, defense
counsel elicited concessions from the State’s

185a
experts and was able to draw attention to
weaknesses in their conclusions stemming
from the fact that their analyses were
conducted long after investigators had left the
crime scene. For all of these reasons, it would
have been reasonable to find that Richter had
not shown his attorney was deficient under
Strickland.
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 791.
The United States Supreme Court also held that,
assuming counsel was deficient, the Ninth Circuit
erred by finding prejudice. Harrington v. Richter, 562
U.S. at
, 131 S. Ct. at 792. Justice Ginsburg
concurred separately. Although she believed counsel
had been deficient “[i]n failing even to consult blood
experts in preparation for the murder trial,” she did
not believe this prejudiced Mr. Richter. Harrington v.
Richter, 562 U.S. at , 131 S. Ct. at 793 (Ginsburg, J.,
concurring).
The second opinion is Hinton v. Alabama, 571
U.S. , 134 S. Ct. 1081, 188 L. Ed. 2d 1 (2014). This
case arose from a series of deadly restaurant
robberies in Birmingham, Alabama. The managers in
each of the three restaurants were shot twice with .38
caliber bullets. Two of the managers died, but the
third survived. The [**49] authorities recovered all
six bullets. After Anthony Ray Hinton was arrested
for these crimes, the authorities also recovered a .38
caliber revolver from his house. Examiners from
Alabama’s Department of Forensic Services used

186a
“toolmark” evidence11 to conclude that all
six [*473] bullets had been fired from Mr. Hinton’s
gun. Hinton v. Alabama, 571 U.S. at , 134 S. Ct. at
1083-84.
Mr. Hinton was tried for capital murder for the
first two robberies. The State’s strategy was to use the
surviving victim’s eyewitness testimony to link Mr.
Hinton to the third robbery, and then to use the
toolmark evidence to link Mr. Hinton to the earlier
robberies by showing that all six bullets had been
fired from the same gun. In his defense, Mr. Hinton
argued misidentification and presented alibi
witnesses who claimed he was at work at the time of
the third robbery. The six bullets and Mr. Hinton’s
revolver were the only physical evidence. As the
United States Supreme Court later observed, “The
State’s case turned on whether its expert witnesses
could convince the jury that the six recovered bullets

11 Toolmarks

are the impressions that are created when a hard
object (a "tool" such as the firing pin of a gun or the rifling in a
gun barrel) comes into contact with a relatively softer object
(such as a bullet casing). The brass exterior of a cartridge case
receives toolmarks when a gun fires because "the firing pin dents
the soft primer surface at the base of the cartridge to commence
firing." Extractors and ejectors also leave marks on used
cartridges as they expel those cartridges from the gun. Firearms
and toolmark examiners believe individual guns exhibit physical
heterogeneities, and that a bullet may properly be traced to the
gun from which it was fired by virtue of the unique imprints left
by the gun's firing pin and related parts. National Academy of
Sciences, Strengthening Forensic Science in the United States: A
Path
Forward
150-51
(2009),
https://www.ncjrs.gov/pdffiles1/nij/grants/228091.pdf
(hereinafter NAS Report). [**50]

187a
had indeed been fired by the Hinton revolver.” Hinton
v. Alabama, 571 U.S. at , 134 S. Ct. at 1084.
Mr. Hinton’s attorney realized that he needed to
retain his own forensic expert because the State’s case
hinged on forensic evidence. Accordingly, the attorney
filed a motion requesting funding for a rebuttal
expert. Both the trial court and Mr. Hinton’s counsel
believed that $500 was the maximum amount that
could be approved in each case. Accordingly, the trial
court authorized $1,000 for Mr. Hinton to retain an
expert in both cases. [**51] However, the trial court
also told Mr. Hinton’s attorney, “if you need
additional experts I would go ahead and file on a
separate form and I’ll have to see if I can grant
additional experts.” Hinton v. Alabama, 571 U.S.
at , 134 S. Ct. at 1084.
Regrettably, both the trial court and Mr. Hinton’s
attorney were mistaken about that maximum amount
that Alabama law permitted for experts in cases such
as Mr. Hinton’s.12 As it turned out, Mr. Hinton’s
attorney was unable to retain a reputable firearm and
toolmark expert for $1,000. Accordingly, he settled on
a witness with expertise in military ordinance whom
he believed would be “usable.” This witness had no
training in firearm or toolmark identification and had
testified as an expert only twice during the prior eight
years. The prosecution severely discredited this
12 More

than one year earlier, Alabama had amended its indigent
defense statutes to provide that attorneys representing indigent
defendants were "entitled to be [**52] reimbursed for any
expenses reasonably incurred in such defense." Hinton v.
Alabama, 571 U.S. at , 134 U.S. at 1084-85.

188a
witness during cross-examination, even soliciting his
concessions that he was visually impaired and that he
had to seek assistance from one of the prosecution’s
experts to operate a microscope at the state forensic
laboratory. Mr. Hinton was convicted and sentenced
to death. Hinton v. Alabama, 571 U.S. at , 134 S. Ct.
at 1085-86.
Mr. Hinton filed a petition for post-conviction
relief, alleging his counsel was ineffective for failing
to seek additional funds for expert testimony. Even
though Mr. Hinton produced three credentialed
experts who testified that they could not conclude
that any of the six bullets had been fired from Mr.
Hinton’s revolver, the post-conviction court decided
that Mr. Hinton was not entitled to post-conviction
relief. The post-conviction court reasoned that Mr.
Hinton had not been prejudiced because the
testimony of the three new experts tracked the
testimony of the “expert” [*474] called by Mr.
Hinton at trial. The Alabama Court of Criminal
Appeals affirmed.13 The Alabama Supreme Court
reversed the intermediate appellate court and
remanded the case to the post-conviction court to
determine whether the “expert” Mr. Hinton had
called at his original trial had been qualified to testify
as an expert witness.14 On remand, the postconviction court held that the trial expert had been
qualified to testify under the standards in place at the
13 Hinton

v. State, No. CR-04-0940, 2006 Ala. Crim. App. LEXIS
72, 2006 WL 1125605 (Ala. Crim. App. Apr. 28, 2006).
14 Ex Parte Hinton, No. 1051390, 2008 Ala. LEXIS 215, 2008 WL
4603723 (Ala. Oct. 17, 2008).

189a
time. The intermediate appellate court affirmed, and
the Alabama Supreme Court denied review.15
The United States Supreme Court granted Mr.
Hinton’s petition for writ of certiorari and applied a
“straightforward” Strickland v. Washington analysis.
Hinton v. Alabama, 571 U.S. at , 134 S. Ct. at 1087.
The Court found that Mr. Hinton’s counsel had
performed deficiently. It held that it was
“unreasonable” for Mr. Hinton’s lawyer “to fail to seek
additional funds to hire an expert where that failure
was based not on any strategic choice but on a
mistaken belief that available funding was capped at
$1,000.” Hinton v. Alabama, 571 U.S. at , 134 S. Ct.
at 1088. The attorney knew that “effectively
rebutting” the State’s theory — which relied on
toolmark evidence — “required a competent expert on
the defense side.” But defense counsel felt he was
“stuck” with the only witness he could afford at that
price. Hinton v. Alabama, 571 U.S. at , 134 S. Ct. at
1088.
As it had noted in Harrington, the Court stated
that “[c]riminal cases will arise where the only
reasonable and available defense strategy requires
consultation with experts or introduction of expert
evidence.” Hinton v. Alabama, 571 U.S. at , 134 S.
Ct. at 1088 (quoting Harrington v. Richter, 131 S. Ct.
at 788). The Court found that Mr. Hinton’s case “was
such a case.” Hinton v. Alabama, 571 U.S. at , 134
S. Ct. at 1088. While Mr. Hinton’s attorney “knew
that he needed more funding to present an effective
15 Hinton

v. State, No. CR-04-0940, 2013 Ala. Crim. App. LEXIS
10, 2013 WL 598122 (Ala. Crim. App. Feb. 15, 2013) [**53] .

190a
defense,” he “failed to make even the cursory
investigation of the state statute providing for defense
funding for indigent defendants.” [**54] Hinton v.
Alabama, 571 U.S. at , 134 S. Ct. at 1089.
The Court was careful to state precisely why the
attorney’s performance was constitutionally deficient:
An attorney’s ignorance of a point of law
that is fundamental to his case combined with
his failure to perform basic research on that
point is a quintessential example of
unreasonable performance under Strickland.
***
We wish to be clear that the inadequate
assistance of counsel we find in this case does
not consist of the hiring of an expert who,
though qualified, was not qualified enough.
The selection of an expert witness is a
paradigmatic example of the type of “strategic
choic[e]” that, when made “after thorough
investigation of [the] law and facts,” is
“virtually unchallengeable.” Strickland, [466
U.S. at 690]. We do not today launch federal
courts into examination of the relative
qualifications of experts hired and experts
that might have been hired. The only
inadequate assistance of counsel here was the
inexcusable mistake of law — the
unreasonable failure to [*475] understand
the resources that state law made available to
him — that caused counsel to employ an
expert that he himself deemed inadequate.
Hinton v. Alabama, 571 U.S. at , 134 S. Ct. at 1089.

191a
Harrington and Hinton provide a useful lens for
assessing allegations of ineffective assistance
that [**55] relate to the failure to investigate or
retain expert testimony. There are cases, such as
Hinton, in which a defense attorney bears an
affirmative duty to consult an expert, and perhaps to
call an expert as a rebuttal witness. From Hinton, we
learn that when the prosecution’s theory of the case
hinges on expert forensic science testimony, the
acquisition of an expert witness for the defense may
be exactly what professional norms under Strickland
v. Washington require.
In most cases, however, the decision to select an
expert, or which expert to select, constitutes one of the
“strategic” defense decisions that Strickland v.
Washington shields from scrutiny. In many cases,
cross-examining the prosecution’s expert will be just
as effective as, and less risky than, utilizing a rebuttal
expert. Each case must stand on its own facts.
B.
Expert testimony and forensic science evidence, in
particular, have become crucial to many criminal
cases. Many cases hinge on DNA evidence, blood
toxicology reports, the identification of latent
fingerprints, voice recognition, handwriting analysis,
toolmark evidence, the analysis of bite marks, shoe
prints and tire tracks, and other evidence that falls
under [**56] the broad umbrella of “forensic science.”
The use of forensic science evidence has blossomed
over recent decades, but in this century, forensic
science practitioners have faced criticism from
attorneys, scientists, legislators, and others. See

192a
generally NAS Report. As the Innocence Project
reports, 316 prisoners have been exonerated by postconviction DNA testing, and approximately half of
these wrongful convictions can be attributed, in some
way, to deficiencies and errors in forensic science.16
Due to the ubiquity and persuasive power of
forensic science evidence, it has become necessary for
defense counsel to be conversant with forensic science
and to be prepared to challenge forensic science
testimony — either through effective crossexamination or by marshaling expert testimony for
the defense.
In this case, the scientific testimony at issue was
not of the “individualization” variety, such as
fingerprint, bite mark, or toolmark evidence.17
Instead, the [**57] State presented a firearms expert
who testified that Mr. Kendrick’s rifle appeared to
operate properly. Agent Fite performed “drop tests”
designed to make the rifle misfire, but the rifle did not
malfunction. Agent Fite concluded that no one could
fire the rifle without pulling the trigger or breaking
it.

16 DNA

Exonerations
Nationwide,
Innocence
Project,
http://www.innocenceproject.org/Content/
DNA_Exonerations_Nationwide.php (last visited July 1, 2014);
see also Sarah Lucy Cooper, The Collision of Law and Science:
American Court Responses to Developments in Forensic Science,
33 Pace L. Rev. 234, 300 (2013).
17 The
goal of many forensic science methods is
"individualization," which means using the unique markings on
an object (markings such as fingerprints or toolmarks) to
determine the source of those markings, to the exclusion of all
other possible sources. See NAS Report, at 43-44.

193a
Defense counsel employed two strategies to
counteract this testimony. First, he tried to discredit
Agent Fite by characterizing [*476] him as someone
who believed he never made mistakes. Second, he
attempted to cross-examine Agent Fite about the
Remington Model 742 rifle, the precursor model to the
rifle Mr. Kendrick owned. The trial court overruled
this line of questioning as irrelevant and permitted
Agent Fite to discuss only the Remington model that
Mr. Kendrick owned.
At the post-conviction hearing, Mr. Kendrick
presented Mr. Belk as a firearms expert. Like Agent
Fite, Mr. Belk was unable to cause Mr.
Kendrick’s [**58] rifle to malfunction. However, Mr.
Belk testified that the trigger mechanism — found in
Mr. Kendrick’s rifle and millions of other Remingtons
of various types and models — had malfunctioned on
occasion. The post-conviction court observed that Mr.
Belk’s testimony would have been “helpful” to Mr.
Kendrick at trial.
The post-conviction court’s observation that expert
testimony regarding the occasional failure of the
trigger mechanism would have been helpful at Mr.
Kendrick’s original trial comes with three significant
qualifications. First, it is doubtful that Mr. Kendrick’s
trial counsel would have obtained permission to hire
a firearms expert in 1994, even if he had requested
one. It was not until 1995 that this Court recognized
that indigent non-capital criminal defendants had a
constitutional right to expert psychiatric assistance.
State v. Barnett, 909 S.W.2d 423, 424 (Tenn. 1995). In
doing so, we expressly limited the holding of the case

194a
to psychiatric experts. State v. Barnett, 909 S.W.2d at
430 n.7.
Second, even after briefing and oral argument in
this case, it remains entirely uncertain that Mr.
Kendrick’s trial counsel could have located and hired
a firearm expert in 1994 who could have testified
concerning the potential defects of the Remington
Model 7400’s trigger [**59] mechanism.18 Mr. Belk
told the post-conviction court that he first testified
about the trigger mechanism in 1994. The record does
not indicate the existence of any other such experts
who were available at that date. Mr. Kendrick’s trial
counsel
said
that
he
considered
himself
knowledgeable about firearms and that he was
unaware of any discussion in the industry concerning
defective Remington trigger mechanisms.
Even though the public defender’s office had often
consulted a local gunsmith, Mr. Kendrick’s trial
counsel could not recall whether he or anyone else in
the office talked to the gunsmith in conjunction with
Mr. Kendrick’s case. As trial counsel pointed out,
“[Y]ou
couldn’t
Google
Remington
trigger
mechanisms back then.” In short, the record does not
contain clear and convincing evidence that trial
counsel could have found Mr. Belk or his equivalent,
or that the sort of testimony [**60] Mr. Belk provided
18 The

civil cases cited in Mr. Kendrick's supplemental reply brief
all involved the Remington Model 700 rifle, not the Model 7400.
In one of the cases, the United States Court of Appeals noted
that the District Court had erred by admitting evidence
regarding the trigger mechanism of the Remington Model 600
rifle. Lewy v. Remington Arms Co., 836 F.2d 1104, 1109 (8th Cir.
1988).

195a
at the post-conviction hearing would have been
available or admissible at trial.
Third, even if Mr. Kendrick’s trial counsel had
been able to find and retain Mr. Belk for the original
trial in 1994, Mr. Belk would not have been able to
testify, as he did during the post-conviction hearing,
about the three instances of the Remington Model
7400’s malfunctioning. The record reflects that one, if
not all, of these instances occurred, according to Mr.
Belk, in the “late nineties, probably ‘97 or ‘98.”
Even if we were to disregard these difficulties in
Mr. Kendrick’s argument, we are [*477] unable to
conclude that Mr. Kendrick’s trial counsel’s
performance was deficient. The best evidence that Mr.
Kendrick’s Model 7400 was capable of misfiring is the
undisputed fact that Sergeant Miller was shot in the
foot by the very same rifle. Sergeant Miller’s injury
was not speculative, and it did not involve other
weapons. Trial counsel had a reasonable basis to
believe Sergeant Miller would testify that he had not
touched the trigger, and that this testimony would be
“enough for a reasonable doubt as to anything.”
In light of defense counsel’s testimony, we find
that Mr. Kendrick’s trial [**61] counsel made a
reasonable tactical decision to construct his
“accidental firing” defense around Sergeant Miller’s
mishap with Mr. Kendrick’s rifle. While counsel knew
the substance of Agent Fite’s impending testimony,
defense counsel reasonably calculated that the
incident involving Sergeant Miller would “trump[]”
anything Agent Fite could say. In hindsight, Sergeant
Miller’s testimony deviated from what trial counsel

196a
expected. But at the time defense counsel was forming
his trial strategy, it was reasonable to anticipate that
he could “use [Sergeant Miller’s testimony] very
effectively” to elicit an acquittal. Despite Sergeant
Miller’s memory lapse, defense counsel’s performance
on this issue indicated “active and capable advocacy.”
Harrington v. Richter, 562 U.S. at , 131 S. Ct. at 791.
It was not constitutionally deficient.
This was not a case that hinged on expert
testimony. The bulk of the State’s case consisted of
eyewitnesses. Although there are cases in which
defense counsel must summon expert testimony —
and we encourage defense attorneys to be vigilant in
this regard — this is not such a case. Surely it would
have been “best practices” for trial counsel to consult
a firearms expert before trial, but in this case the
failure to [**62] do so was not objectively
unreasonable. Harrington v. Richter, 562 U.S. at ,
131 S. Ct. at 788-89.
VII.
The second basis for the Court of Criminal
Appeals’ decision that Mr. Kendrick’s trial counsel’s
performance was deficient and prejudicial involved
his failure to place before the jury hearsay evidence
that would have benefitted his client. Specifically, the
appellate court took Mr. Kendrick’s trial counsel to
task for not attempting to use the excited utterance
exception to the hearsay rule to place before the jury
the statements Sergeant Miller made to fellow officers
after Mr. Kendrick’s rifle shot him in the foot.
A.

197a
Officers Holbrook, Sims, and Gann each took
statements from Sergeant Miller after he was
wounded in the foot when Mr. Kendrick’s rifle
discharged. Had these officers related Sergeant
Miller’s statements to the jury at Mr. Kendrick’s trial,
these statements would have been hearsay because
they were “statement[s], other than one made by the
declarant while testifying at the trial or hearing,
offered in evidence to prove the truth of the matter
asserted.” Tenn. R. Evid. 801(c). Here, the truth being
asserted was the alleged fact that Sergeant Miller’s
finger was not on the trigger when Mr. Kendrick’s
rifle discharged. While hearsay statements are
generally inadmissible, [**63] Tenn. R. Evid. 802,
the Tennessee Rules of Evidence include several welldefined exceptions to Tenn. R. Evid. 802. See Tenn R.
Evid. 803.
One exception to the hearsay rule involves excited
utterances. Under Tenn. R. Evid. 803(2), “[a]
statement relating to a startling event or condition
made while the declarant was under the stress of
excitement caused by the event or condition”
is [*478] not excluded by the hearsay rule. The twofold premise underlying this exception is (1) that
shocking circumstances may produce a condition of
excitement in a person which temporarily stills the
person’s capacity of reflection and produces
utterances free of conscious fabrication, State v.
Gordon, 952 S.W.2d 817, 819 (Tenn. 1997); Kenneth
S. Braun, 2 McCormick on Evidence § 272, at 365 (7th
ed. 2013) (“McCormick”), and (2) that excited
utterances may be more accurate than much a later

198a
in-court description of the event because they are
made when the memory of the event is fresh on the
declarant’s mind. State v. Gordon, 952 S.W.2d at 81920; Neil P. Cohen, Sarah Y. Sheppeard & Donald F.
Paine, Tennessee Law of Evidence § 807[2][a], at 8-85
(6th ed. 2013) (“Tennessee Law of Evidence”).
Against this backdrop, this Court has developed a
three-part test to determine the admissibility of an
alleged excited utterance. All three prongs must be
satisfied. See generally Tennessee Law of
Evidence [**64] § 8.07[3], at 8-86 to 8-90.
First, there must be a startling event or condition.
While “any event deemed startling” may be sufficient
to meet this requirement, the event must be
“sufficiently startling to suspend the normal,
reflective thought process of the declarant.” The
startling event need not be the act that gave rise to
the legal controversy. Furthermore, “a subsequent
startling event or condition which is related to the
prior event” can also produce an excited utterance.
State v. Gordon, 952 S.W.2d at 820.
The second broad requirement is that the
statement must “relate to” the startling event or
condition. A statement relates to the startling event
when it describes all or part of the event or condition,
or deals with the effect or impact of that event or
condition. State v. Stout, 46 S.W.3d 689, 699 (Tenn.
2001); see also State v. Gilley, 297 S.W.3d 739, 761
(Tenn. Crim. App. 2008) (“[T]here must be a nexus
between the statement and the startling event[.]”).
The third requirement for admission of an excited
utterance is that the statement must have been made

199a
“while the declarant is under the stress or excitement
from the event or condition.” The “ultimate test”
under this prong is whether the statement suggests
“spontaneity” and whether the statement has a
“logical relation” to the shocking event. When “an act
or declaration springs [**65] out of the transaction
while the parties are still laboring under the
excitement and strain of the circumstances and at a
time so near it as to preclude the idea of deliberation
and fabrication,” this prong may be satisfied. State v.
Gordon, 952 S.W.2d at 820; State v. Smith, 857
S.W.2d 1, 9 (Tenn. 1993); Garrison v. State, 163 Tenn.
108, 116, 40 S.W.2d 1009, 1011 (1931).
One consideration for determining whether a
statement was made under the stress and excitement
of a shocking event is the time interval between the
event and the statement. Garrison v. State, 40 S.W.2d
at 1011. But the time interval is not dispositive; other
factors must be considered. State v. Gordon, 952
S.W.2d at 820 & n.3; see also State v. Stout, 46 S.W.3d
at 700. In addition to the time interval, other relevant
circumstances include the nature and seriousness of
the event or condition; the appearance, behavior,
outlook, and circumstances of the declarant
(including such characteristics as age and physical or
mental condition); and the contents of the statement
itself, which may indicate the presence or absence of
stress. State v. Gordon, 952 S.W.2d at 820.
[*479] The excited utterance exception carries a
competency requirement. The declarant must have
had an opportunity to observe the facts contained in
the extrajudicial statement. State v. Franklin, 308

200a
S.W.3d 799, 823 n.28 (Tenn. 2010); State v. Land, 34
S.W.3d 516, 529 (Tenn. Crim. App. 2000). This
requirement is an extension of Tenn. R. Evid. 602,
which states, “A witness may not testify to a matter
unless evidence is introduced sufficient to support a
finding that [**66] the witness has personal
knowledge of the matter. Evidence to prove personal
knowledge may, but need not, consist of the witness’s
own testimony.” Personal knowledge may be inferred
from the statements themselves and the surrounding
facts and circumstances. State v. Land, 34 S.W.3d at
529. While “personal knowledge” does not require
“absolute certainty” on the declarant’s part, the
declarant’s statement may not be based on “mere
speculation.” State v. Land, 34 S.W.3d at 529.
The Tennessee Rules of Evidence do not require
the declarant to be an actual participant in the
precipitating event. State v. Gordon, 952 S.W.2d at
820. It is also worth noting that statements made in
response to questions may be admissible as excited
utterances if the declarant is still under the
excitement or stress of the event during questioning.
State v. Gordon, 952 S.W.2d at 820-21. On the other
hand, other courts have observed that when a
statement is made in response to an inquiry or when
the statement is self-serving, these factors may show
the statement was the result of reflective thought. See
2 McCormick § 272, at 370-72 & nn. 32-33.
The standard of review for rulings on hearsay
evidence has multiple layers. Initially, the trial court
must determine whether the statement is hearsay. If
the statement is hearsay, then the trial court

201a
must [**67] then determine whether the hearsay
statement fits within one of the exceptions. To answer
these questions, the trial court may need to receive
evidence and hear testimony. When the trial court
makes factual findings and credibility determinations
in the course of ruling on an evidentiary motion, these
factual and credibility findings are binding on a
reviewing court unless the evidence in the record
preponderates against them. State v. Gilley, 297
S.W.3d at 759-61. Once the trial court has made its
factual findings, the next questions — whether the
facts prove that the statement (1) was hearsay and (2)
fits under one the exceptions to the hearsay rule —
are questions of law subject to de novo review. State
v. Schiefelbein, 230 S.W.3d 88, 128 (Tenn. Crim. App.
2007); Keisling v. Keisling, 196 S.W.3d 703, 721
(Tenn. Ct. App. 2005).
If a statement is hearsay, but does not fit one of
the exceptions, it is inadmissible, and the court must
exclude the statement. But if a hearsay statement
does fit under one of the exceptions, the trial court
may not use the hearsay rule to suppress the
statement. However, the statement may otherwise
run afoul of another rule of evidence. State v. Gilley,
297 S.W.3d at 760-61. For example, a trial court may
decline to admit an excited utterance if it finds the
utterance lacks relevance under Tenn. R. Evid. 401 &
402 or if it finds the utterance’s “probative value is
substantially [**68] outweighed by the danger of
unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue
delay, waste of time, or needless presentation of

202a
cumulative evidence.” Tenn. R. Evid. 403. If a trial
court excludes otherwise admissible hearsay on the
basis of Rule 401, 402, or 403, this determination is
reviewed for abuse of discretion. State v. Harris, 839
S.W.2d 54, 73 (Tenn. [*480] 1992); State v. Gilley,
297 S.W.3d at 759-61; see also 1 McCormick § 185, at
1010.
B.
In this case, Mr. Kendrick’s trial counsel did not
attempt to introduce Sergeant Miller’s statements as
excited utterances. Accordingly, like the courts below,
we have no trial court ruling to review. Both the trial
court and the Court of Criminal Appeals approached
the question of the admissibility of Sergeant Miller’s
statements as a question of law. Accordingly, we will
address this question de novo.
For the purposes of this opinion, we will deem
Sergeant Miller’s statements to Officer Gann in the
parking lot of the police service center and to Officer
Holbrook in the hospital to be excited utterances.
However, even if Sergeant Miller’s statements were
properly admissible under Tenn. R. Evid. 803(2), it
does not necessarily follow that Mr. Kendrick’s trial
counsel was ineffective because he did not seek to
admit them under Tenn. R. Evid. 803(2).
The question [**69] at this juncture is whether
counsel’s actions were objectively unreasonable under
all the circumstances in light of the professional
norms that prevailed in 1994. Strickland v.
Washington, 466 U.S. at 688. We must undertake this
analysis with the presumption that counsel’s
representation was adequate, and we must also do

203a
our best to eliminate the distorting effects of
hindsight. Mobley v. State, 397 S.W.3d at 80-81.
Mr. Kendrick’s trial counsel candidly admitted at
the post-conviction hearing that it did not occur to
him during the heat of the trial to attempt to
introduce Sergeant Miller’s statements to the other
officers as excited utterances under Tenn. R. Evid.
803(2). While lack of familiarity with relevant court
rules might in some cases provide grounds for a
finding of ineffective assistance of counsel, this record
reflects that Mr. Kendrick’s trial counsel labored to
convince the jury that Sergeant Miller’s finger was
not on the trigger of the rifle when it fired into his
foot.
Counsel closely cross-examined Sergeant Miller
regarding the incident and his loss of memory of the
particulars. He also recalled Sergeant Miller to the
stand and attempted to refresh his memory with the
incident reports. Counsel attempted to use the
incidents reports as impeachment evidence in
accordance [**70] with Tenn. R. Evid. 613(b). In
addition,19 he pointed out during his crossexamination of Sergeant Miller and his closing
argument, that when Sergeant Miller demonstrated
how he was holding the rifle, his finger was not near
the trigger and that Sergeant Miller stated during
cross-examination that he was holding the rifle in the
19 The

Court of Criminal Appeals found that the trial court erred
by preventing Mr. Kendrick's trial counsel from impeaching
Sergeant Miller based on his prior inconsistent statements. State
v. Kendricks, 947 S.W.2d at 881-82. Mr. Kendrick's trial counsel
pursued a proper basis for the admission of the reports and failed
only because of the trial court's error.

204a
courtroom in the same way he was holding it when he
was shot. Finally, during his cross-examination of
Sergeant Miller about his training and experience
with firearms, Mr. Kendrick’s trial counsel elicited
answers strongly suggesting that Sergeant Miller
would not have picked up the rifle with his finger on
the trigger.
In short, trial counsel did almost everything at his
disposal to prove that Sergeant Miller had not pulled
the trigger, with the exception that he did not offer
the statements as substantive evidence under Tenn.
R. Evid. 803(2). As the Court of Criminal Appeals
noted on direct [**71] appeal, [*481] counsel’s
“thorough cross-examination of Officer Miller . . .
provided the jury ample evidence from which it could
have concluded that Officer Miller’s memory was
faulty and that he knew he had not caused the gun to
fire by pulling the trigger.” State v. Kendricks, 947
S.W.2d at 882.
The “circumstances” surrounding this evidentiary
issue reflect that Mr. Kendrick’s trial counsel adduced
evidence that would have supported the jury’s
conclusion that Sergeant Miller was not touching the
trigger when Mr. Kendrick’s rifle discharged into his
foot. The fact that counsel failed to go one step further
by pursuing the excited utterance exception does not
overcome the presumption that trial counsel gave Mr.
Kendrick adequate representation. Although the
excited utterance exception slipped his mind, trial
counsel took great pains to inform the jury that the
weapon apparently misfired for Sergeant Miller. This
was the best evidence that the trigger mechanism on

205a
Mr. Kendrick’s rifle might have been defective.
Counsel’s representation was not deficient in this
regard.
Even if we determined that trial counsel’s
representation was deficient, the other “ample
evidence” summarized above would mitigate against
finding that Mr. Kendrick [**72] was prejudiced.
The defense theory was that the rifle malfunctioned
both for Mr. Kendrick and Sergeant Miller. The jury
heard evidence to support that theory, including
Sergeant Miller’s cross-examination and Mr.
Kendrick’s statement that he was “almost positive”
his finger was not on the trigger. However, the jury
also heard evidence suggesting that Mr. Kendrick
pulled the trigger. Mr. Benton testified that he saw
Mr. Kendrick’s “right hand was on the pistol grip area
around the trigger and the left hand was up near the
stock.” Other evidence suggested a premeditated
murder, including Mr. Kendrick’s flight from the
scene, his failure to give or ask for assistance, the fact
that he discarded the weapon, and the testimony of
his daughter and Mr. Shepheard. The fact that the
jury was not able to see or hear the incident reports
does not, by itself, undermine our confidence in the
verdict. See Strickland v. Washington, 466 U.S. at
694.
VIII.
We conclude that Mr. Kendrick did not receive
ineffective assistance from his trial counsel with
regard to the two issues before the Court on this
appeal. Accordingly, the judgment of the Court of
Criminal Appeals is reversed. In light of the fact that

206a
the appellate court did not consider [**73] the
remaining issues raised by Mr. Kendrick, we remand
this case to the Court of Criminal Appeals with
directions to consider the issues that it pretermitted
in its earlier decision. Because Mr. Kendrick appears
indigent, we assess the costs of this appeal to the
State of Tennessee.
WILLIAM C. KOCH, JR., JUSTICE

207a
IN THE COURT OF CRIMINAL APPEALS OF
TENNESSEE AT KNOXVILLE
January 29, 2013 Session
EDWARD THOMAS KENDRICK, III v.
STATE OF TENNESSEE
Appeal from the Criminal Court for
Hamilton County
No. 220622 Don W. Poole, Judge
_________________
No. E2011-02367-CCA-R3-PC - Filed June 27,
2013
__________________
Edward Thomas Kendrick, III (“the Petitioner”)1
was convicted by a jury of first degree premeditated
murder. This Court affirmed the Petitioner’s
conviction on direct appeal. The Petitioner filed for
post-conviction relief, alleging ineffective assistance
of counsel. After a hearing, the post-conviction court
denied relief, and this appeal followed. Upon our
thorough review of the record and the applicable law,
we are constrained to [*2] conclude that the
Petitioner established that he received the ineffective
assistance of counsel at trial, because it is reasonably
likely that a jury would have convicted him of a lesser
degree of homicide absent the deficiencies in his trial
counsel’s performance. Accordingly, we must reverse
1 The

Petitioner identifies himself as "Edward Thomas Kendrick,
III" in his petition for post-conviction relief filed on April 15,
1998. We note that this Court's opinion addressing the
Petitioner's direct appeal from his conviction identifies the
Petitioner as "Edward Thomas Kendricks, III, alias Edward
Thomas Kendrick, III."

208a
the Petitioner’s conviction and remand this matter
for further proceedings.
Tenn. R. App. P. 3 Appeal as of Right;
Judgment
of the Criminal Court Reversed; Remanded
JEFFREY S. BIVINS, J., delivered the opinion of the
Court, in which ALAN E. GLENN and
ROGER A. PAGE, JJ., joined.
Ann C. Short (on appeal), Knoxville, Tennessee;
Jeffrey Schaarschmidt and Jason Demastus
(at
post-conviction
hearing),
Chattanooga,
Tennessee, for the Appellant, Edward Thomas
Kendrick, III. Robert E. Cooper, Jr., Attorney
General & Reporter; Lacy Wilbur, Assistant Attorney
General; Bill Cox, District Attorney General; and
Lance Pope, Assistant District Attorney
General, for the appellee, State of Tennessee.
OPINION
Factual and Procedural Background
Trial
On March 6, 1994, the Petitioner shot and killed
his wife. A jury subsequently convicted the Petitioner
of first degree premeditated murder, and the
Petitioner was sentenced to life imprisonment. This
Court affirmed the Petitioner’s conviction on direct
appeal. See State v. Kendricks, 947 S.W.2d 875, 886
(Tenn. Crim. App. 1996). To assist in the resolution
of this proceeding, we repeat here the summary of the
facts
set
forth
in
this
Court’s
opinion
resolving [*3] the Petitioner’s direct appeal:

209a
On March 6, 1994, at approximately 10:00
p.m., the [Petitioner] drove to the gas station at
which Lisa Kendrick, his wife and the victim,
worked. With him in the car were their four-yearold daughter and three-year-old son. These
children were sitting in car seats in the back seat
of the station wagon the [Petitioner] was driving.
Also in the car, on the front passenger floorboard,
was the [Petitioner’s] loaded 30.06 hunting rifle.
The [Petitioner] pulled into the station,
parked, and went into the market portion of the
station where his wife worked as a cashier. He
asked her to come outside, which she did. She
and the [Petitioner] went to the car where she
spoke briefly to the children. The [Petitioner]
retrieved the rifle from the front passenger
floorboard and carried it to the back of the car. At
that point, the weapon fired once, the bullet
striking the victim in her chest and killing her
almost instantly.
After the victim fell to the parking lot, the
[Petitioner] briefly bent over her body, put the
gun back in the car, and drove toward the airport
a short distance away. On the way, he threw the
rifle out of the car. Once he arrived at the
airport, [*4] he called 911 and reported that he
had shot his wife. Before the [Petitioner] left the
gas station, he took no action to assist the victim
in any way.
Timothy Shurd Benton, a customer, was in
the market when the [Petitioner] entered. He
testified that the [Petitioner] had asked the

210a
cashier “to step outside, he had something to
show her.” Benton left the market, got in his car
and started to leave the parking lot. He testified
that, as he had begun to leave, he heard an
“explosion.” He looked over his shoulder out the
window of his car and saw the [Petitioner]
holding a rifle “pointed straight up in the air.” He
also saw the victim lying on her back on the
parking lot. After deciding that another person in
the market was aware of the situation and would
call for help, Benton followed the [Petitioner] to
the airport, where he contacted an airport police
officer.
Lennell Shepheard was also in the market at
the time the [Petitioner] entered. He testified
that he had seen the [Petitioner] and his wife
leave the store, that the [Petitioner] had not
appeared angry or hostile, and that the victim
had shown no signs of fear when she went outside
at the [Petitioner’s] request. Shepheard
remained [*5] in the store until he heard the rifle
shot. At that point, he opened the market door
and looked outside to see what had happened. He
testified that he had seen the [Petitioner] shut
the back passenger door and then lean over the
victim’s body and state, “I told you so”
approximately six times.
Endia Kendrick, the [Petitioner’s] four-yearold daughter, testified on direct examination that
she had seen her father shoot her mother and
that her mother had had her arms up at the time.

211a
However, on cross-examination, Endia admitted
that she hadn’t actually seen the shooting.
Dr. Frank King, the Hamilton County
Medical Examiner, testified that the victim had
died of a single gunshot wound to the chest that
entered her body in the left chest at forty-nine
inches above the heel and exited her body at the
left back at forty-nine and one-half inches above
the heel.
The [Petitioner] testified that he had been
moving the rifle from the front of the car to the
back at the request of the victim and that it had
discharged accidentally. He testified that he had
been shifting it from one hand to the other when
it went off. He testified that he had not pulled the
trigger. He steadfastly denied that he
had [*6] intended to shoot the victim, and
claimed that he had been carrying the rifle in the
car because he sometimes cleaned apartments
near an area where he felt a gun was necessary
for personal protection. He also denied making
any statements as he bent over the victim, and
testified that he had taken no action to assist her
because he knew she was dead. The [Petitioner]
also testified that he and the victim had agreed
on an irreconcilable differences divorce, that an
attempted reconciliation had recently failed, and
that he suspected that she had had or was having
an affair. He denied that he was upset or angry
at his wife about the status of their relationship.
In support of his contention that the rifle fired
accidentally, the [Petitioner] relied on the

212a
testimony of Officer Steve W. Miller. Officer
Miller testified that he had shot himself in the
foot with the rifle when he was removing it from
the trunk of his car after recovering it from where
the [Petitioner] had thrown it. Officer Miller
testified that he had shot himself accidentally.
He further testified that he could not recall
whether or not his finger had been on the trigger
of the gun when it fired.
Kelly Fite, a firearms examiner, [*7] testified
that he had examined and tested the rifle and
that, in his opinion, “[t]he only way that you can
fire this rifle without breaking it is by pulling the
trigger.”
After the defense closed its proof, the State
called Martha Kay Maston as a “rebuttal”
witness. Maston testified that she had been
working as a public safety officer for the
Chattanooga Metropolitan Airport Police on the
night of the shooting. On finding the [Petitioner]
at the airport, she saw the two children in the
back seat of the car. She testified that she had
gotten the children out and that they were both
“very upset and hysterical.” She further testified
that “when I got [the little girl] out of the car, she
just put her arms around me and she stated that
she had told daddy not to shoot mommy but he
did and she fell.” Maston testified that the
[Petitioner’s] daughter had not made any other
statements and that his son had not said
anything.
Kendricks, 947 S.W.2d at 878-79.

213a
Post-Conviction
After the direct appeal, the Petitioner, pro se,
timely filed a petition for post-conviction relief in
April 1998.2 The post-conviction court summarily
dismissed the petition on the basis that the issues
raised were either waived [*8] or previously
determined. See Kendricks v. State, 13 S.W.3d 401,
403 (Tenn. Crim. App. 1999). On appeal, this Court
held that “the post-conviction court erred in holding
that the petitioner’s ineffective assistance of counsel
claims were barred for failure to raise them on direct
appeal.” Id. at 405. Accordingly, this Court reversed
the post-conviction court in part and remanded the
case for further proceedings, noting specifically that
the Petitioner should be allowed the opportunity to
amend his petition. Id. On March 16, 2000, the
Petitioner filed an amended petition with the
assistance of counsel. The Petitioner also filed
multiple amended petitions with and without the
assistance of counsel. The hearing on the Petitioner’s
post-conviction petitions and amended petitions
ultimately occurred on multiple days in February and
March 20113 during which the following proof was
adduced:4
2 The

Tennessee Supreme Court denied the Petitioner's
application for permission to appeal from this Court's decision
on May 5, 1997.
3 It is unclear from the record why over ten years elapsed
between this Court's prior opinion and the hearing on the
Petitioner's amended petitions.
4 Although there was a great [*9] deal of testimony adduced at
the post-conviction hearing, we have limited our recitation of the
evidence to that which is necessary for our resolution of this case.

214a
Henry Jackson Belk, Jr., a gunsmith, testified
that, earlier that morning in the clerk’s office, he
examined the gun, a Remington Model 7400 30.06
autoloading rifle, that shot and killed the victim. He
stated that he was familiar with the trigger
mechanism inside the rifle, describing it as “a
common trigger mechanism that is contained within
a wide variety of firearms, shotguns, rim fires and
center fire rifles.” He added, “Generally speaking, all
pumps and automatics manufactured after 1948 by
Remington contain this trigger mechanism.” Belk
testified that the trigger mechanism is referred to as
the “Remington Common Fire Control” (“the
Common Fire Control”).
Belk stated that the Common Fire Control was
first used in the automatic shotgun in 1948, then in
the pump shotgun in 1950, and then in the automatic
rifle in 1951. The Common Fire Control is currently
used in 23 million firearms. Because the Common
Fire Control is used in different firearms, any “issue”
with the trigger mechanism would not be limited to
one specific [*10] type of firearm. According to Belk,
the Common Fire Control is a “defective mechanism.”
As to the rifle in this case, Belk stated that it had
“the normal dirt, dried oil and residue common to a
gun that has not been cleaned.” After removing the
trigger mechanism while he was on the witness
stand, Belk examined the rifle and stated that “the
action spring is sticky.” He explained that the “action
spring . . . supplie[d] the energy for the bolt to return
back forward.” Because the action spring was
“sticky,” the bolt was “not going forward as freely as

215a
it should.” Belk explained that the action spring’s
condition was consistent with a firearm that had not
been cleaned.
Turning his attention to the trigger mechanism,
Belk testified about how it could malfunction:
The general description here is this is a swing
hammer mechanism; in other words, it fires by a
hammer going forward and hitting a firing pin
that’s contained in the bolt inside the housing.
The sear is the part that retains the hammer.
The sear is what holds the hammer back, does
not fire. On this particular mechanism, on all
these Remington mechanisms, that sear is an
independent part, is right here. That is an
independent part, [*11] not on the end of the
trigger like a Browning design is.
For that reason, and the fact that the safety
only blocks the trigger, it does not block the
action of the sear or the hammer, it only blocks
the trigger, any debris that is captured between
the sear and the slot that it is housed in, which is
the housing, any debris that is caught between
the bottom or the tail of the sear and the stock
surface inside the housing, any debris that
gathers there, any debris that gathers between
the trigger yoke and the rear pivot pin and the
trigger pusher arm and the bottom of the sear,
any debris in any of those places, alone or in
concert, can cause an insecure engagement
between the hammer and the sear itself.

216a
So even with a gun on safe, which it is now, it
can still fire, which it just did. Without pulling
the trigger, on safe.
Responding to questions by the court, Belk
clarified: “I can pull the trigger and make it fire, just
like that (indicating), or I can put it on safe without
the trigger being pulled and fire it just by
manipulation of the sear.”
Belk continued:
The notch in the hammer determines how
much debris it takes to make it fail. The notch in
the hammer is about 18,000 of an
inch [*12] deep, about the thickness of a
matchbook cover. . . . [A]nything that totals that
amount of distance can make a gun fail.
....
Any of those other locations, it takes about
18,000ths in order to interfere with the secure
engagement of the hammer and the sear.
Belk clarified that there were five locations in the
trigger mechanism that made the mechanism “weak”
and that could collect the requisite amount of debris
to cause a misfire. Moreover, of the five “weak spots,”
“the clearance between the sear and the housing
itself is usually about 4,000ths, so it would take less
debris captured between those places to retard the
proper motion of the sear and would also cause it to
fail. So it wouldn’t necessarily take as much as
18,000ths.”
Belk also testified that “[t]he Remington Common
Fire Control has a history of firing under outside
influences other than a manual pull of the trigger.

217a
Vibration is one way that can happen. Impact. Even
in one case the simple act of grabbing the gun by [the
forward part of the stock] caused it to fire.” Belk
reiterated that the Common Fire Control “fires
without the control of the trigger. It can fire out of the
control of the shooter. It can discharge
without [*13] any hand being on the stock.”
Belk stated that, if debris caused the gun to fire
unintentionally, the debris could be dislodged during
the discharge. He added,
On this semi-automatic, each time the gun is
fired, the hammer goes forward, and then under
great pressure and speed, the hammer is forced
back again into position. So there’s a lot of cycling
going on.
There’s also the disconnector here, there’s a
lot of movement in the mechanism itself during
firing and during manipulation after firing. And
that movement, many times, dislodges the debris
that actually was the causation.
Belk acknowledged that debris also can be
dislodged through a gun being dropped or “banged
around.” He acknowledged that a drop test “many
times[] destroys any evidence that was there.” He
explained that the standardized tests of dropping a
firearm “on a hundred durometer rubber pad from a
certain distance in certain orientations . . . does
nothing whatsoever to analyze the mechanism and
how it can fail. So the . . . drop test in itself can be
destructive [by dislodging debris] without actually
showing anything.” He added, “[T]his particular
mechanism has what is called a recapture angle. So,

218a
impact, as in dropping [*14] it on the floor, will
actually recapture the sear engagement rather than
dislodge it. So the . . . drop test on this particular gun
is pretty much useless.”
Belk opined that the rifle which shot and killed
the victim “is capable of firing without a pull of the
trigger, whether the safety is on or off.”
Belk testified that he was first hired to work on a
case involving the Common Fire Control in 1994, and
he agreed that, “if someone had done some research,
they would have potentially been able to find [him].”
He also testified that problems with Remington
firearms could be reported to the manufacturer,
which maintained “some” records of complaints.
According to Belk, people were complaining prior to
his initial involvement. He testified that he “first
identified the problem with the Remington Common
Fire Control in 1970.” When a “co-shooter” on a skeetrange complained of trigger problems, Belk
disassembled the trigger mechanism and “found a
section of lead shot debris stuck in the sear notch of
the hammer.” He added, “That was the first
identification that [he] had of a bad mechanism, that
it could fire without a trigger being pulled.” Since
then, he had consulted with “many, [*15] many
attorneys.” One case involved a Remington 7400 that
fired while it was being cleaned with an air hose. The
safety on that gun had been engaged. Another gun
fired while being wiped with a rag. Another gun fired
when the butt-end of the stock was placed on the
floor.

219a
On cross-examination, Belk admitted that, while
the trigger assembly was in the Petitioner’s rifle, the
rifle had not misfired during Belk’s handling of it. He
also admitted that he could not opine about the
cleanliness of the gun in March 1994. He stated that
he testified in a case involving a Remington 7400 in
1997 or 1998.
On redirect examination, Belk testified that he
was familiar with a case in which a Remington
shotgun containing the Common Fire Control fired
while it was in a locked case and with the safety
engaged. The gun was strapped to the handlebars of
an ATV that had been left idling. The vibrations
caused the gun to fire. Belk stated that he had been
consulted on “probably two dozen” cases involving the
Common Fire Control in which the gun discharged
and injured someone.
On re-cross examination, Belk maintained that he
had previously been able to induce a misfire by
“artificially introducing” debris in “any” [*16] of the
previously identified “weak spots.” He clarified that
he induced these misfires in “cutaway” guns.
Sergeant Steve Miller of the Chattanooga Police
Department (“CPD”) testified that, on the night the
victim was killed, he was assigned to the case as a
crime scene investigator. He testified that the
firearm was not located at the scene of the shooting.
When a “[c]all came across the police radio that a gun
had been located down Airport Road,” Sgt. Miller
went to locate the firearm. He located the rifle on the
side of Airport Road and noted that there was no clip
in it. He photographed the rifle and collected it for

220a
evidence, placing it in the trunk of his patrol car. Sgt.
Miller transported the rifle back to the police service
center on Amnicola Highway.
Sgt. Miller agreed that he was handling the rifle
carefully in order to preserve fingerprints. He also
acknowledged that he testified at trial that he had a
jacket in his left hand and that he “grabbed” the rifle
from the trunk of his patrol car with his right hand
and “pointed it in a downward motion” towards the
pavement. When Sgt. Miller pointed it in the
downward motion, the rifle discharged, injuring his
left foot. Sgt. Miller [*17] testified that he “can’t say
with a hundred percent accuracy” whether his fingers
were anywhere near the trigger but stated that
“[t]hey shouldn’t have been.”
Sgt. Miller acknowledged his signature on the
bottom of a report prepared by Michael Taylor on
March 7, 1994 (“the Taylor report”). The Taylor
report, admitted into evidence, reflected that James
Gann was the first officer to respond to Sgt. Miller’s
injury, and Sgt. Miller’s recollection at the postconviction hearing was consistent: that Officer James
Gann came out of the service building to see what had
happened after Sgt. Miller shot himself. Sgt. Miller
also acknowledged that the Taylor report indicated
that he told the “initial officer that he had both hands
on the rifle and did not have his finger near the
trigger.” Sgt. Miller testified that he suffered “a
massive foot injury” that was “extremely painful.”
Sgt. Miller agreed that the wound also was stressful.
On cross-examination, Sgt. Miller agreed that he
was called by the State as a witness at the

221a
Petitioner’s trial. He agreed that defense counsel
questioned him at the trial and asked questions
about where his fingers were with respect to the
trigger when he shot himself. [*18] He also
remembered
that
defense
counsel’s
crossexamination was “tough.”
On redirect examination, Sgt. Miller testified that
defense counsel did not interview him prior to the
trial.
Glenn Sims, retired from the CPD, acknowledged
that he prepared a police report in connection with
Sgt. Miller’s incident, but he did not recall speaking
with Sgt. Miller. He acknowledged that, according to
his report, Sgt. Miller “was taking the firearm . . .
that he had collected into evidence, out of the truck
of the vehicle [and] it discharged[.]” The report
further reflected that “the rifle swung down, [Sgt.
Miller] wasn’t sure if it hit his foot or the ground, but
it went off, hitting Miller in the left inside foot.” Sims
agreed that the report reflected that the rifle “just
went off.”
James A. Gann testified that he was employed by
the CPD in 1994 and that he was one of the officers
who investigated Sgt. Miller’s incident. He stated
that he was in the office when he heard “a loud recoil
of a gun.” Gann went outside to investigate and saw
that Sgt. Miller was shot in the foot. Gann radioed for
an ambulance and alerted the appropriate people
who “had to be advised on a shooting.” Gann stated
that Sgt. [*19] Miller was “in a lot of pain, bleeding,
and starting to go into shock.” Gann could not recall
whether he spoke to Sgt. Miller about what had

222a
happened, explaining that he “was more concerned
with his foot, he was bleeding.” Referring to a police
report that Sgt. Glenn Sims had prepared, Gann
acknowledged that Sgt. Miller had told Gann that,
while Sgt. Miller was taking the rifle out of the trunk,
the gun “just went off.” Gann also testified that he
was not contacted by anyone from the public
defender’s office before the Petitioner’s trial.
Officer Michael Holbrook of the CPD testified that
he was dispatched to Erlanger Hospital to respond to
an accident involving Sgt. Miller. Officer Holbrook
spoke to Sgt. Miller at the hospital and prepared a
report regarding their conversation. Officer Holbrook
testified that Sgt. Miller told him that “as he was
taking the rifle out of the trunk of his patrol car, the
rifle went off and shot him in the foot.” Sgt. Miller
also told Officer Holbrook that his hands were not on
the rifle’s trigger. Officer Holbrook’s report was
consistent with his testimony and contained the
following narrative: “As he was lifting out the rifle,
the weapon went off and [*20] struck him in the left
foot. [Sgt.] Miller states that he picked it up with both
hands and his finger was not near the trigger.”
Officer Holbrook’s report, dated March 7, 1994, was
admitted as an exhibit.
The Petitioner’s trial lawyer (“Trial Counsel”)
testified that he worked for the public defender’s
office in 1994 and represented the Petitioner at trial.
He stated that two investigators assisted him in
investigating the case. Trial Counsel agreed that the
Petitioner’s appointed counsel in general sessions

223a
waived the preliminary hearing in exchange for “an
open file policy.”
Trial Counsel testified that, from the beginning,
the Petitioner maintained that the rifle accidentally
discharged. He also testified that Sgt. Miller had
made statements indicating that “he was not holding
the gun anywhere near the trigger housing and it
discharged, shooting him in the foot.” Trial Counsel
stated that he never looked for an expert witness to
support the Petitioner’s accidental discharge claim.
He testified that the public defender’s office
informally consulted with a gunsmith who was a
former Red Bank police officer, but he did not
remember whether he spoke to him about this case.
Trial Counsel [*21] also agreed that he performed no
research regarding the trigger mechanism in the
Remington 7400 rifle. He added, “[a]s a matter of
fact, when I heard on NPR, a year or so ago, that the
Remington trigger mechanism was faulty and [there
had] been several apparent accidental deaths as a
result of it, you’re the first person I contacted,
because I thought, I remembered it was a Remington
and I thought it was something very important.”
Trial Counsel generally recalled that the State’s
expert, Kelly Fite, performed a “drop test” on the
rifle. He agreed that Fite’s report did not indicate
that Fite inspected the trigger mechanism.
Asked whether it would have been beneficial for
an expert to testify on the Petitioner’s behalf about
the trigger mechanism, Trial Counsel answered, “In
hindsight, especially with the knowledge now that
there have been so many problems with the

224a
Remington trigger mechanism, yeah.” Asked about
his knowledge of any discussions in the industry
regarding the trigger mechanism misfiring, Trial
Counsel responded:
I wasn’t aware of any. And I will point out, at
the time, I was the only public defender in
Division II, and in that period of time in little
over four years, I [*22] probably tried, literally,
40 first degree murder cases, settled another 40
to 50, and I will concede I didn’t put nearly as
much time in on his case or any other cases that
I tried as I do now in my private practice, because
I’ve got a lot more time. My average caseload
every Thursday for settlement day was between
20 and 30 defendants. My average month
included at least 2 if not 3 trials. So I wasn’t
aware of the issue with the trigger pull.
Trial counsel also added that, although he had “a
fundamental knowledge of firearms, [he] was not
aware of it and . . . [he] didn’t know it and [he] didn’t
get an expert.” He also explained,
I thought [Sgt.] Miller would testify
consistently with what I knew to be his
statements, and I thought that would come in
and I thought that when that did come in, I could
use that very effectively to say, okay, if [the
Petitioner] can’t accidentally have that gun [go]
off, neither can [Sgt.] Miller, so, therefore, you
got to presume that [Sgt.] Miller shot himself in
the foot on purpose. That was my whole line of
reasoning in this case.

225a
Trial Counsel testified that he “was not prepared
for [Sgt.] Miller to say he couldn’t remember, because
there was not any [*23] doubt in [Trial Counsel’s]
mind, at least, when [they] started trying this case,
that he was going to stick to his prior statements.”
Accordingly, Trial Counsel had no “backup plan” to
call other officers to testify about what Sgt. Miller
had told them after he shot himself. Trial counsel felt
“sandbagged” by Sgt. Miller’s trial testimony. He
recalled the trial court refusing to allow him to
introduce one of the reports generated about Sgt.
Miller’s injury in which Sgt. Miller reported that his
hands had not been near the rifle’s trigger when it
misfired. He did not request to make an offer of proof.
He also did not attempt to introduce Sgt. Miller’s
statements as excited utterances, explaining, “[i]n
the heat of the trial, I didn’t see that.”
Trial Counsel agreed that both Lennell
Shepheard and Sgt. Miller’s testimony at trial
differed from their statements that the State
provided the defense during discovery. Trial Counsel
stated that the first time he heard Shepheard claim
the Petitioner stated “I told you so” was during
Shepheard’s testimony. Trial Counsel agreed that he
was never provided notice by the State prior to these
two witnesses testifying that the substance of their
pretrial [*24] statements had changed materially.
Trial counsel also stated that, although he was not
the Petitioner’s counsel at the preliminary hearing
stage, he would expect “in exchange for the waiver of
a preliminary hearing, especially in a first degree
murder case, that there would be some extra benefit

226a
to come to the defendant through the discovery
process.” He added, “if [Sgt.] Miller was going to
change his story, we should have been made aware of
that, if Mr. Shepheard was going to add to his story,
we should have been made aware of that.”
On cross-examination, Trial Counsel stated that
he began practicing law in Tennessee in April 1978
and had been in continuous practice since that time.
At the time of the Petitioner’s trial, Trial Counsel had
been practicing law for sixteen years, primarily in
criminal defense. Trial Counsel also stated that he
was employed at the public defender’s office at the
time of the Petitioner’s trial and had worked in that
capacity for approximately five years. Trial Counsel
had tried at least sixty to seventy cases by 1994,
including murder cases, less-serious cases, and death
penalty cases. He stated that he tried in excess of
forty murder cases prior to this [*25] case. Trial
Counsel testified that he was assigned this case at
arraignment.
Before meeting with the Petitioner, Trial Counsel
stated that the Petitioner completed an “intake
sheet” wherein he wrote out his “side of the story.”
Trial Counsel testified that the Petitioner was on
bond when he was assigned to the Petitioner’s case
and that he remained on bond throughout his
representation of him. The offense occurred in March
1994, and the Petitioner’s trial was in November
1994. Trial Counsel agreed that this was a “little
quick.” Trial Counsel could not recall whether the
Petitioner had desired that the case proceed to trial
quickly.

227a
Trial Counsel acknowledged that he and the
Petitioner discussed the strategy in the case. He
stated, again, that the Petitioner maintained from
the beginning that the rifle accidentally discharged
and that there was “no real animosity” between him
and the victim. Trial Counsel also stated that, in his
preparation for the trial, he reviewed documents
provided to the defense by the State. Trial Counsel
testified that he typically would meet at the district
attorney’s office to review documents the State
provided him in a case. He could not recall
particularly [*26] whether he had a meeting in the
district attorney’s office in this case but stated that
was his “standard operating procedure.” He added,
“I’m sure we met on it several times, not just one
time.” Trial Counsel stated that he was “confident”
that the standard discovery motions were filed in this
case although he could not specifically recall filing
them. He stated that he filed the “standard motions”
with every appointment he received. Pursuant to
those discovery motions, Trial Counsel stated that he
received documents from the State in this case and
that he reviewed them to prepare for the trial. He
also stated that the documents included the names of
witnesses, and he agreed that the documents also
included witness statements “in theory.”
Trial Counsel recalled discussing the Petitioner’s
testimony with him prior to trial. He was “pretty
confident” that he and the Petitioner “went through
sit-downs where [Trial Counsel] cross-examined” the
Petitioner. He added that, for every trial in which the
defendant was going to testify, he would “sit down

228a
and grill them” so that they could anticipate what
cross-examination would be like.
Trial Counsel did not recall specifically
“familiarizing [*27] [him]self with the schematic of
the [rifle]” prior to the trial, but stated that he was
“relatively familiar with guns.” Although Trial
Counsel could not recall specifically looking at the
rifle before the trial, he stated, “I’m sure I did. . . . I’m
sure I looked at it in your office too.” Trial Counsel
also could not recall specifically his crossexamination of Sgt. Miller. However, he stated, “I try
to be vigorous [in cross-examination] especially when
I think somebody’s not telling the truth, and I
thought that he wasn’t telling the truth.” He also
recalled calling Sgt. Miller to testify during the
defense’s proof. He acknowledged that he recalled
Sgt. Miller with the purpose of trying to impeach him
with prior inconsistent statements.
Richard Mabee testified that, as of the time of the
post-conviction hearing, he had been an assistant
public defender for approximately nineteen years. He
represented the Petitioner at the Petitioner’s
preliminary hearing. Mabee testified regarding the
“one-time sheet” for the Petitioner’s case, which was
admitted as an exhibit at the hearing. According to
Mabee, a one-time sheet lists basic information about
the defendant, identifies the judge and [*28] the
charges, and the disposition of the case at the general
sessions level. According to Mabee, the disposition on
the Petitioner’s one-time sheet provided, “waived to
grand jury, $50,000 bond. DA agreed to show
everything.” Mabee testified that this latter notation

229a
indicated that he had talked to the district attorney
assigned to the case, and the district attorney had
said, “[I]f you’ll waive preliminary hearing, we’ll
show you everything in our file.” Mabee stated that
he then would have presented this information to the
Petitioner and that it would have been up to the
Petitioner to decide whether to waive the preliminary
hearing.
On cross-examination, Mabee agreed that the
notations on the Petitioner’s one-time sheet appeared
to be his handwriting. Mabee explained that, when
public defenders get appointed in general sessions,
they “open up a one-time sheet” which means that the
public defender represented that defendant one time
at the preliminary hearing. Mabee also clarified that
the judge previously would have signed the order of
appointment at the bottom of the one-time sheet prior
to the public defender’s notations regarding the
disposition of the case.
On re-direct examination, [*29] Mabee stated
that he made the notation, “[W]e’ll show you
everything in our file,” because “that’s exactly the
words the [district attorney] said to [him].” Mabee
added that, after his representation of someone, he
would take the one-time sheet back to the public
defender’s office where it was placed in a “big drawer
of one-time sheets.” He stated, “[A]fter someone [was]
appointed in a higher court, they may or may not get
that one-time sheet.”
The Petitioner testified that the first time Trial
Counsel met with him was at the county jail. During
this initial meeting, the Petitioner completed an

230a
“intake sheet” and told Trial Counsel that the rifle
had “accidentally discharged.” Trial Counsel
informed the Petitioner that Sgt. Miller had shot
himself with the Petitioner’s rifle and told the
Petitioner that Sgt. Miller’s incident supported the
Petitioner’s account of what had occurred.
The Petitioner recalled only two meetings with
Trial Counsel after he was released on bond: one
meeting occurred on or around June 1, 1994, and the
second meeting occurred two or three months before
trial. The Petitioner agreed that they discussed “trial
strategy” during these meetings and their defense
that [*30] the rifle accidentally discharged. During
one of their meetings, Trial Counsel asked the
Petitioner what had happened on the day of the
incident, and the Petitioner informed him what he
did that day. The Petitioner denied that Trial
Counsel ever told him “that any evidence in this case
would be damning to [him],” including the fact that
he threw the rifle out of his car window. He also did
not recall that Trial Counsel “went through a crossexamination of [him].”
The Petitioner stated that he got the rifle at least
ten years before the killing and that he had shot it
numerous times. The Petitioner testified that,
although he wiped down the outside of the rifle, he
never did “any maintenance in regards to the inside”
of it because he did not know he was supposed to. He
agreed that he testified at trial that he had never had
a problem with the rifle accidentally discharging
during the time he owned it.

231a
The State asked the Petitioner whether it was
Trial Counsel’s “idea to use accidental discharge as
the theory of the case[.]” The Petitioner responded, “I
mean he’s the lawyer, I mean he makes the ultimate
decision, so I guess I have to say so, yes, based upon
. . . his investigation and [*31] everything, yeah, I’d
say it was.”
After considering the proof, the post-conviction
court denied relief, and this appeal followed. Initially,
the Petitioner contends that the post-conviction court
utilized an incorrect analysis in concluding that the
Petitioner failed to demonstrate that he received the
ineffective assistance of counsel at trial. The
Petitioner also contends that he received the
ineffective assistance of counsel at trial in the
following particulars: (1) Trial Counsel failed to
adduce expert testimony about the rifle’s defective
trigger mechanism which causes accidental
shootings; and (2) Trial Counsel performed
deficiently vis-a-vis Sgt. Miller. The Petitioner also
raises several other issues which, given our
disposition of this matter, we decline to address.
Standard of Review
Relief pursuant to a post-conviction proceeding is
available only where the petitioner demonstrates
that his or her “conviction or sentence is void or
voidable because of the abridgment of any right
guaranteed by the Constitution of Tennessee or the
Constitution of the United States.” Tenn. Code Ann.
§ 40-30-203 (1997). To prevail on a post-conviction
claim
of
a
constitutional
violation,
the
petitioner [*32] must prove his or her “allegations of

232a
fact by clear and convincing evidence.” Tenn. Code
Ann. § 40-30-210(f) (1997). See Momon v. State, 18
S.W.3d 152, 156 (Tenn. 1999). This Court will not
overturn a post-conviction court’s findings of fact
unless the preponderance of the evidence is
otherwise. Pylant v. State,263 S.W.3d 854, 867
(Tenn. 2008); Sexton v. State, 151 S.W.3d 525, 531
(Tenn. Crim. App. 2004). We will defer to the postconviction court’s findings with respect to the
witnesses’ credibility, the weight and value of their
testimony, and the resolution of factual issues
presented by the evidence. Momon, 18 S.W.3d at 156.
With respect to issues raising mixed questions of law
and fact, however, including claims of ineffective
assistance of counsel, our review is de novo with no
presumption of correctness. See Pylant, 263 S.W.3d
at 867-68; Sexton, 151 S.W.3d at 531.
Analysis
Ineffective Assistance of Counsel
The Sixth Amendment to the United States
Constitution and article I, section 9 of the Tennessee
Constitution guarantee a criminal defendant the
right to representation by counsel at trial.5 Both the
United States Supreme Court and the Tennessee
Supreme Court have recognized [*33] that this right
is to “reasonably effective” assistance, which is
assistance that falls “within the range of competence
5 The

Sixth Amendment right to counsel is applicable to the
States through the Fourteenth Amendment to the United States
Constitution. See Gideon v. Wainwright, 372 U.S. 335, 342, 83
S. Ct. 792, 9 L. Ed. 2d 799 (1963); State v. Howell, 868 S.W.2d
238, 251 (Tenn. 1993).

233a
demanded of attorneys in criminal cases.” Strickland
v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80
L. Ed. 2d 674 (1984); see also Baxter v. Rose, 523
S.W.2d 930, 936 (Tenn. 1975). The deprivation of
effective assistance of counsel at trial presents a
claim cognizable under Tennessee’s Post-Conviction
Procedure Act. See Tenn. Code Ann. § 40-30-203;
Pylant, 263 S.W.3d at 868.
In order to prevail on a claim of ineffective
assistance of counsel, the petitioner must establish
two prongs: (1) that counsel’s performance was
deficient; and (2) that the deficient performance
prejudiced the defense. See Strickland, 466 U.S. at
687; Goad v. State, 938 S.W.2d 363, 370 (Tenn. 1996).
The petitioner’s failure to establish either prong is
fatal to his or her claim of ineffective assistance of
counsel. Goad, 938 S.W.2d at 370. Accordingly, if we
determine that either prong is [*34] not satisfied, we
need not consider the other prong. Id.
To establish the first prong of deficient
performance, the petitioner must demonstrate that
his lawyer’s “acts or omissions were so serious as to
fall below an objective standard of ‘reasonableness
under prevailing professional norms.’” Vaughn v.
State, 202 S.W.3d 106, 116 (Tenn. 2006) (quoting
Strickland, 466 U.S. at 688). Our supreme court has
explained that:
[T]he assistance of counsel required under the
Sixth Amendment is counsel reasonably likely to
render and rendering reasonably effective
assistance. It is a violation of this standard for
defense counsel to deprive a criminal defendant

234a
of a substantial defense by his own
ineffectiveness or incompetence. Defense counsel
must perform at least as well as a lawyer with
ordinary training and skill in the criminal law
and must conscientiously protect his client’s
interest,
undeflected
by
conflicting
considerations.
Baxter, 523 S.W.2d at 934-35 (quoting Beasley v.
United States, 491 F.2d 687, 696 (6th Cir. 1974)).
When a court reviews a lawyer’s performance, it
“must make every effort to eliminate the distorting
effects of hindsight, to reconstruct the circumstances
of counsel’s [*35] conduct, and to evaluate the
conduct from the perspective of counsel at that time.”
Howell v. State, 185 S.W.3d 319, 326 (Tenn. 2006)
(citing Strickland, 466 U.S. at 689). Additionally, a
reviewing court “must be highly deferential and
‘must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable
professional assistance.’” State v. Honeycutt, 54
S.W.3d 762, 767 (Tenn. 2001) (quoting Strickland,
466 U.S. at 689). We will not deem counsel to have
been ineffective merely because a different strategy
or procedure might have produced a more favorable
result. Rhoden v. State, 816 S.W.2d 56, 60 (Tenn.
Crim. App. 1991). We recognize, however, that
“deference to tactical choices only applies if the
choices are informed ones based upon adequate
preparation.” Cooper v. State, 847 S.W.2d 521, 528
(Tenn. Crim. App. 1992) (citing Hellard v. State, 629
S.W.2d 4, 9 (Tenn. 1982)).

235a
As to the prejudice prong, the petitioner must
establish a “reasonable probability that but for
counsel’s errors the result of the proceeding would
have been different.” Vaughn, 202 S.W.3d at 116
(citing Strickland, 466 U.S. at 694). “A reasonable
probability is a probability sufficient [*36] to
undermine confidence in the outcome.” Strickland,
466 U.S. at 694. “That is, the petitioner must
establish that his counsel’s deficient performance
was of such a degree that it deprived him of a fair
trial and called into question the reliability of the
outcome.” Pylant, 263 S.W.3d at 869 (citing State v.
Burns, 6 S.W.3d 453, 463 (Tenn. 1999)). “A
reasonable probability of being found guilty of a
lesser charge . . . satisfies the second prong of
Strickland.” Id.
Alleged Deficiencies
In assessing the Petitioner’s claims, we turn first
to whether he established that Trial Counsel was
deficient in representing him at trial. To make this
determination, we consider both the trial record and
the post-conviction record in light of the Petitioner’s
defense at trial: that the rifle fired accidentally. In
seeking to establish this defense, the Petitioner had
available three types of proof. First, the Petitioner
had his own testimony. To be effective, however, the
Petitioner’s testimony had to be perceived as credible
by the jury. Second, Sgt. Miller had made pretrial
statements indicating that the rifle fired while he
was handling it without his finger on the trigger. This
proof was crucial [*37] to bolster both the substance
of the Petitioner’s defense and the Petitioner’s own

236a
credibility. Third, expert testimony was available to
prove that the trigger mechanism in the rifle was
defective and could have caused the rifle to fire
without the trigger being pulled. This proof was also
crucial to the substance of the Petitioner’s defense, as
well as to both bolstering the Petitioner’s credibility
and challenging the State’s expert proof.
The Petitioner contends that Trial Counsel was
deficient in failing to adduce expert proof about the
trigger mechanism in the rifle. We agree. There is no
question in this case that the Petitioner shot and
killed his wife with the rifle admitted into evidence.
The key question was whether the Petitioner
deliberately pulled the trigger or whether the gun
discharged accidentally. In our view, the expert
testimony adduced at the post-conviction hearing on
this issue was absolutely crucial to this inquiry. The
fact that the post-conviction court described this
evidence as “favorable to the defense” implies that
Belk was a credible witness. Belk testified that he
was hired in 1994 to work on another case involving
the Common Fire Control and that, if [*38] Trial
Counsel had done the research, Trial Counsel could
have found him. Belk also testified that problems
with the Common Fire Control had been reported
prior to his initial involvement in the 1994 case.
Indeed, Belk first discovered the problem with the
Remington trigger mechanism in 1970. Trial Counsel
testified that he did not investigate whether there
was expert proof available about the gun misfiring.6
6 We

note that, according to a "Chattanooga Police Supplement
Report" prepared by Sgt. Rawlston, Sgt. Rawlston "contacted

237a
Accordingly, while the post-conviction court did not
make a specific finding about whether Trial Counsel’s
performance in this regard was deficient, we hold
that Trial Counsel was deficient in failing to adduce
this proof at trial.
The Petitioner also contends that Trial Counsel
was deficient in failing to adduce, as substantive
evidence, Sgt. Miller’s [*39] pretrial statements that
the rifle had fired while he was handling it and while
his hands were not near the trigger. Again, we must
agree that Trial Counsel’s performance was deficient
in this respect. The Petitioner established at the postconviction hearing that, immediately after being shot
by the rifle while he was handling it, Sgt. Miller told
Gann that he “did not have his finger near the
trigger” of the gun at the time the gun fired. A short
time later, while Sgt. Miller was in the hospital, Sgt.
Miller told Holbrook that, at the time the rifle fired
and struck him in the foot, Sgt. Miller’s “finger was
not near the trigger.” Again, this proof was crucial to
the Petitioner’s defense. As Trial Counsel
acknowledged during the post-conviction hearing,
proof of Sgt. Miller’s statements at the time he was
shot, both in the parking lot and at the hospital, were
“excited utterances” and, as such, were admissible as
exceptions to the hearsay rule. See Tenn. R. Evid.
803(2) (“A statement relating to a startling event or
condition made while the declarant was under the
Special Agent Jack Scott of the U. S. Treasury Bureau of Alcohol
Tobacco and Firearms" on March 8, 1994, and that Sp. Agent
Scott would "conduct research into the history of the Remington
Model 7400 Rifle which was utilized in this incident." The State
did not call Sp. Agent Scott to testify at the Petitioner's trial.

238a
stress of excitement caused by the event or
condition.”); see also State v. Banks, 271 S.W.3d 90,
116-18 (Tenn. 2008) [*40] (holding that statement
made approximately six hours after declarant was
shot was admissible as an excited utterance); State v.
Stout, 46 S.W.3d 689, 700 (Tenn. 2001) (holding that
declarant’s statements made twelve hours after the
event were admissible as excited utterances); Rickey
Williams v. State, No. W2006-00605-CCA-R3-PC,
2007 Tenn. Crim. App. LEXIS 590, 2007 WL
2120174, at *7 (Tenn. Crim. App. July 24, 2007)
(recognizing that “the length of time between a
startling event and the statement does not
automatically preclude the statement’s being
admissible as an excited utterance”).
Accordingly, when Sgt. Miller’s memory proved
unreliable at the trial, Trial Counsel should have
called the persons to whom Sgt. Miller had made the
statements and adduced the necessary proof in that
manner. Although Trial Counsel testified at the postconviction hearing that, in the “heat” of the trial, this
approach did not occur to him, we hold that Trial
Counsel should have anticipated a forgetful witness
and been prepared to adduce the proof, of which he
was aware, in another manner. Trial Counsel’s
performance was deficient in this regard. See, e.g.,
Timothy Flood v. State, No. E2009-00294-CCA-R3PC, 2010 Tenn. Crim. App. LEXIS 251, 2010 WL
1068184, at *9 (Tenn. Crim. App. Mar. 24,
2010) [*41] (holding in post-conviction case that
“counsel was deficient for failing to comply with the
Tennessee Rules of Evidence”), perm. app. denied

239a
(Tenn. Aug. 25, 2010); People v. Cortez, 296 A.D.2d
465, 466, 745 N.Y.S.2d 467 (N.Y. App. Div. 2002)
(holding that counsel was deficient due, in part, to
her “lack of familiarity with the rules of evidence”).
The Petitioner contends that both Trial Counsel
and appellate counsel performed deficiently in other
respects. However, given our disposition of this case
on the basis of the above-identified deficiencies, we
deem it unnecessary to address these remaining
claims of deficient performance. Accordingly, we turn
now to the question of whether Trial Counsel’s
deficient performance was prejudicial to the
Petitioner.
Prejudice
Initially, the Petitioner contends that the postconviction court utilized an erroneous legal analysis
in determining that he failed to establish that he
received ineffective assistance of counsel at trial. We
agree. Of particular concern is the post-conviction
court’s analysis of Trial Counsel’s failure to adduce
expert proof about the possibility that the Petitioner’s
rifle discharged without his pulling the trigger:
The [P]etitioner alleges [*42] that counsel
was ineffective in not consulting or calling a
firearms expert to rebut the state’s theory and
Mr. Fite’s testimony that the rifle did not
accidentally discharge. In support of the
allegation, he submits expert evidence that
trigger mechanisms like the one in the gun in
issue present a risk of accidental discharge and,
contrary to Mr. Fite’s apparent belief, the

240a
existence of the risk is not subject to proof or
disproof by means of drop tests.
The Court agrees with the [P]etitioner that
this new evidence is favorable to the defense. The
[P]etitioner, however, must prove more than this;
he must prove by clear and convincing evidence
that the new evidence is so favorable that
counsel’s failure to present it at trial had an effect
on the verdict. This, the Court finds, he does not
do. Even if one disregards Mr. Fite’s trial
testimony suggesting that accidental discharge
was impossible and accepts Mr.Belk’s testimony
indicating that, because of the trigger
mechanism in the gun, accidental discharge was
possible, significant weaknesses in the theory of
the defense, specifically, unfavorable eyewitness
evidence and the [P]etitioner’s own ambiguous
actions in leaving the scene [*43] and discarding
the gun, still remain. The Court therefore finds
no prejudice in counsel’s performance in this
respect.
The post-conviction court’s use of an incorrect
analytical framework is further demonstrated in the
“Conclusion” section of its memorandum denying
relief:
The standard for post-conviction relief is high:
clear and convincing evidence. On appeal, there
was sufficient evidence to support the conviction.
Now, after the post-conviction hearing, the Court
cannot say that there is clear and convincing
evidence that the victim’s death was an accident

241a
or even that it was only knowing, not
premeditated.
As set forth above, a post-conviction petitioner’s
burden of proof in a claim that he is entitled to a new
trial due to the ineffective assistance of counsel at
trial is to establish, by clear and convincing evidence,
allegations of fact supporting his claim that trial
counsel’s assistance at trial was ineffective.
Allegations of fact include the actions that trial
counsel did and did not take in preparing for and
conducting the petitioner’s defense at trial. If those
allegations of fact are supported by clear and
convincing evidence, and if the clear and convincing
evidence establishes
[*44] that trial counsel
performed deficiently — a conclusion of law — then
the petitioner has satisfied the first prong of his
ineffective assistance of counsel claim.
As our supreme court has explained, this first
prong includes both proof and then a legal analysis of
the significance of that proof:
Tennessee Code Annotated section 40-30110(f) (2006) provides that the “petitioner shall
have the burden of proving the allegations of fact
by clear and convincing evidence.” (emphasis
added). This inquiry does not implicate the
Strickland inquiry. Pursuant to section 40-30110(f), the petitioner is required to prove the fact
of counsel’s alleged error by clear and convincing
evidence. If that burden of proof is met, the court
then must assess under Strickland whether that
error “fell below an objective standard of
reasonableness,” Strickland, 466 U.S. at 687-88,

242a
and whether the error raised “a reasonable
probability . . . that the result of the proceedings
would have been different,” id. at 694.
Dellinger v. State, 279 S.W.3d 282, 293-94 (Tenn.
2009) (citations omitted).
Once the post-conviction court assesses the proof
and draws the legal conclusion that trial counsel’s
performance was deficient, [*45] the post-conviction
court must turn to the second prong: prejudice. As to
this second prong, the relevant inquiry is “whether
counsel’s deficient performance renders the result of
the trial unreliable or the proceeding fundamentally
unfair.” Lockhart v. Fretwell, 506 U.S. 364, 372, 113
S. Ct. 838, 122 L. Ed. 2d 180 (1993) (citing Strickland,
466 U.S. at 687). As our supreme court has
recognized, “‘a court making the prejudice inquiry
must ask if the [petitioner] has met the burden of
showing that the decision reached [by the jury] would
reasonably likely have been different absent the
errors.’” Pylant, 263 S.W.3d at 874 (quoting
Strickland, 466 U.S. at 696) (emphasis added in
Pylant). Significantly, it is not the petitioner’s burden
to establish by clear and convincing evidence that his
lawyer’s deficient performance actually had an effect
on the verdict. See id. at 875 n.30. Nor, contrary to
the post-conviction court’s approach in this case,
should the post-conviction court analyze this
prejudice prong through an inquiry into the
sufficiency of the evidence adduced at trial. Id. at 875.
Rather, as our supreme court has recognized, “‘[t]he
result of a proceeding can be rendered unreliable, and
hence the proceeding itself [*46] unfair, even if the

243a
errors of counsel cannot be shown by a preponderance
of the evidence to have determined the outcome.’” Id.
(quoting Strickland, 466 U.S. at 694). Accordingly, we
hold that the post-conviction court failed to apply the
correct analysis to the Petitioner’s claims.
We also hold that, under the proper Strickland
analysis, Trial Counsel’s deficient performance in
failing to adduce expert proof about the faulty trigger
mechanism in the rifle was prejudicial to the defense
in a number of ways. First, Belk’s testimony would
have corroborated the Petitioner’s explanation of the
shooting. At trial, the jury had no definitive account
other than the Petitioner’s that the gun fired
accidentally. While Trial Counsel assumed that he
would be able to prove an accidental discharge
through Sgt. Miller, Trial Counsel’s assumption was
wrong. Moreover, Trial Counsel did not make a
strategic decision to rely solely on Sgt. Miller’s
testimony after investigating the possibility of expert
testimony. Rather, Trial Counsel simply did not
investigate the possibility of expert testimony in
support of the defense. Given the other evidence in
the case that circumstantially was very damaging
to [*47] the Petitioner’s account, Belk’s corroborative
testimony was critical to bolstering the Petitioner’s
credibility. Indeed, the post-conviction court noted
that the Petitioner’s testimony at trial “was critical
to the defense, it being the only direct evidence
supporting the theory of accident.” (Emphasis added).
Belk’s testimony would have been additional direct
evidence that the rifle fired accidentally.

244a
Second, Belk’s testimony would have provided an
alternative expert opinion to Fite’s. Moreover, Belk
testified that Fite’s opinion was suspect because the
drop tests that Fite performed were, according to
Belk, essentially useless in evaluating whether the
trigger mechanism in the rifle had caused it to
misfire.7 Without Belk, the jury had no scientific or
mechanical explanation sufficient to discredit Fite’s
expert opinion.
Finally, Belk’s testimony would have provided the
jury with an additional reason to suspect
Shepheard’s testimony about the Petitioner’s
declarations of “I told you so” after the victim was
shot.8 Thus, Belk’s testimony would have assisted the
Petitioner’s defense on multiple levels.
Certainly, had the jury heard and rejected Belk’s
testimony, the proof would have supported its
decision that the Petitioner shot and killed his wife
deliberately and with premeditation. But the jury
was deprived of this critical choice by Trial Counsel’s
7 Fite

testified at trial that the rifle was "not broken," that it was
"in good operating condition," and that the trigger safety
functioned. To determine if the rifle would fire accidentally, he
dropped the rifle with the hammer cocked several times. He also
checked the rifle to determine if it would "slam fire," which
involved a malfunction of the bolt. He testified [*48] that the
rifle did not "slam fire." He also tested the trigger safety which
he described as blocking the trigger when engaged. He concluded
that the "only way [he] can get this rifle to fire was by pulling
the trigger." Fite did not testify that he removed and evaluated
the trigger mechanism.
8 Trial Counsel established at trial that Shepheard had not
reported the Petitioner's alleged declarations in Shepheard's
statement to the police shortly after the shooting.

245a
deficient performance. The jury also was deprived by
Trial Counsel’s deficient performance of substantive
evidence concerning Sgt. Miller’s initial explanations
of how he came to be shot by the rifle, [*49] i.e.,
without his having touched the trigger. Again, this
proof was critical to the theory of the defense.9
The prejudicial effect of these deficiencies is
clear when considered in light of the trial court’s
comments at the conclusion of the motion for new
trial:
It was a remarkable case. I’ve never had
another case quite like it where the evidence —
I’ve commented on this before — where the
evidence seesawed back and forth. For example,
the evidence about the weapon where the State
proved that the gun would not go off accidentally
and then the property officer shot himself in the
foot with it; and where the [Petitioner] proved
good character which is, as we used to say, good
character is a [*50] witness[.]
....
It was an awfully close question on the facts.
During the trial I found myself going back and
forth. After the trial I kept thinking was I
9 We

acknowledge that, in the direct appeal of this matter, this
Court concluded that the trial court's erroneous exclusion of
Officer Sims' testimony about Sgt. Miller's prior inconsistent
statement was harmless error. Kendricks, 947 S.W.2d at 882.
However, this Court was considering this testimony as
impeachment evidence relevant to demonstrate to the jury that
Sgt. Miller's memory was faulty, and not as substantive evidence
that the gun had misfired. We consider the distinction to be
significant.

246a
satisfied with the verdict of the jury or I guess
more to the point did I under the law. . . . I found
that to be an extremely close question, difficult
question.
We hold that, had Trial Counsel put on expert
proof about the Common Fire Control, and had Trial
Counsel elicited admissible substantive evidence
about Sgt. Miller’s initial explanations of how he
came to be shot by the rifle, it is reasonably likely
that the jury would have accredited the Petitioner’s
version of events and convicted him of a lesser degree
of homicide. Thus, we hold that these deficiencies in
Trial Counsel’s performance cast the jury’s verdict
into sufficient doubt as to render it unreliable.
Accordingly, we conclude that the Petitioner
established both that Trial Counsel performed
deficiently and that Trial Counsel’s deficient
performance rendered the jury’s verdict unreliable.
Therefore, we are constrained to conclude that the
Petitioner is entitled to post-conviction relief in the
form of a new trial.
As set forth above, the Petitioner contends that
Trial [*51] Counsel was ineffective in numerous
other ways, as well. Given our holdings with respect
to Trial Counsel’s failure to adduce expert proof about
the Common Fire Control and his failure to adduce
Sgt. Miller’s excited utterances, we decline to address
these remaining assertions. We also decline to
address the Petitioner’s claim of ineffective
assistance of counsel on direct appeal.
Conclusion

247a
The Petitioner established that he received the
ineffective assistance of counsel at trial. Accordingly,
the Petitioner is entitled to a new trial. We reverse
the judgment of the post-conviction court, vacate the
Petitioner’s conviction, and remand this matter for
further proceedings consistent with this opinion.
JEFFREY S. BIVINS, JUDGE

248a
COURT MET PURSUANT TO ADJOURNMENT,
PRESENT AND PRESIDING THE HONORABLE
DON W POOLE, JUDGE, THIRD DIVISION OF
CRIMINAL COURT, HAMILTON COUNTY, WHEN
THE FOLLOWING PROCEEDINGS WERE HAD,
TO-WIT:
IN THE CRIMINAL COURT FOR HAMILTON
COUNTY, TENNESSEE
EDWARD THOMAS
:
KENDRICKS, III,
:
No. 220622
Petitioner,
:
Division III
v.
:
FILED IN OFFICE
:
11 OCT 13 PM 4:01
GWEN TIDWELL,
STATE OF
:
CLERK
TENNESSEE,
:
BY _________D.C.
Respondent.
:
ORDER
Before the Court are the amended petition of
Edward Thomas Kendricks, III (“the petitioner”), by
and through counsel, for relief from his conviction or
life sentence for first-degree murder in case 201138
and the answer of the state. The matter was heard on
7, 10, 11, and 21 February and 4,8, and 22 March
2011. For the reasons set forth in the accompanying
memorandum, the Court finds that the petition
should be dismissed.
The Court therefore ORDERS as follows:
(1) that the subject petition be dismissed and
(2) that the petitioner, post-conviction advisory
counsel for the petitioner, Jeffrey S. Schaarschmidt,
Esq., and Jason D. Demastus, Esq., former trial

249a
counsel, Hiram G. Hill, Jr., Esq., former appellate
counsel, Jerry G. Summers, Esq., executive assistant
district attorney general Neal Pinkston, Esq.,
assistant district attorney general Lance Pope, Esq.,
the state attorney general and reporter, and the
department of correction be promptly provided with a
copy of this order.
SO ENTER on this 13 day of October, 2011.
/s Don W. Poole
Don W. Poole
Criminal Court Judge

250a
IN THE CRIMINAL COURT FOR HAMILTON
COUNTY, TENNESSEE
EDWARD THOMAS
:
KENDRICKS, III,
:
Petitioner,
:
v.
: No. 220622
: Division III
STATE OF
:
TENNESSEE,
: [Filed Oct. 13, 2011]
Respondent.
:
MEMORANDUM
Before the Court, on remand from the Court of
Criminal Appeals, are the amended petition of
Edward Thomas Kendricks, III (“the petitioner”), by
and through counsel, for relief from his conviction or
life sentence for first-degree murder in case 201138 1
and the answer of the state. The matter was heard on
various days in February 2011. For the reasons set
forth herein, the Court finds that the petition should
be dismissed.
I. Procedural history
The record in case 2011381 reflects that, on 8 July
1995, following a jury trial before the Honourable
Russell C. Hinson, the petitioner was convicted of
first-degree murder and sentenced to life
The Court notes that the petitioner's family name appears
variously herein as Kendricks and Kendrick. The Court -uses
Kendricks, that being the name that appears on the original
petition herein and, as the caption in the direct appeal, State v.
Kendricks, 947 S.W.2d 875,878 (Tenn. Crim. App. 1996), reflects,
Kendrick being an alias.
1

251a
imprisonment. On appeal, he alleged that the
evidence was insufficient, the trial court erred in
allowing a child to testify, limiting his attempt to:
introduce a witness’s prior statements, allowing the
prosecution to cross-examine him about prior
convictions, allowing the prosecution to produce a
surprise witness, admitting hearsay under the
excited-utterance exception, not giving a limiting
instruction on excited utterance, and giving an
instruction on flight, and the prosecution did not
disclose exculpatory information in violation of Brady
v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d
215 (1963). On 25 September 1996, the Court of
Criminal Appeals affirmed the judgment. On 5 May
1997, in the Supreme Court denied permission to
appeal.
On 16 April 1998, the petitioner, pro se, filed the
original petition herein. Finding that the claims in the
petition had been previously determined or waived,
the Honourable Stephen M. Bevil summarily
dismissed the petition. One week later, the petitioner,
pro se, filed an amended petition. Judge Bevil
summarily dismissed this petition as untimely.
On 27 August 1999, the Court of Criminal
Appeals, agreeing that some issues had been
previously determined but disagreeing that the claim
of ineffective assistance of counsel had been waived
by the omission of post-trial counsel; affirmed the
judgment in part, reversed it in part, and remanded
the case for further proceedings.
The petitioner has been before six judges,
including the trial judge. Since the remand, counsel

252a
has been substituted several times. In addition, the
petitioner, by and through counsel, has filed
amendments to the petition, the last of which was
filed on 13 January 2011.
On 20 May 2010, the state filed an answer. On 14
June, the state filed a motion to set the case for a prehearing hearing. On 23 July, the Court denied the
motion.
Thereafter, the petitioner moved to clarify the
order.
The Court understands the petitioner to allege in
the amended petition as follows:
(1) that his trial counsel, Hiram G. Hill, Esq., was
ineffective in various particulars ;
(2) that his appellate counsel, Jerry H. Summers,
Esq., was ineffective in various particulars;
(3) that the prosecution did not disclose material,
favorable evidence; and
(4) that there is new scientific evidence of his
actual innocence.
On 7, 10, 11, 21 February and 4, 8, and 22 March
2011, the matter was heard. There were fourteen
witnesses and thirteen exhibits:
Witness
Exhibit
Off. Michael Holbrook
Transcript of the trial
Report from the
investigation of Off.
Miller’s self-inflected
injury
Mr. Jack Belk
Mr. Belk’s resume
Petitioner’s rifle

253a
Sgt. Steve Miller

Off. Michael Taylor’s
report

Off. Glen Sims
Mr. Randall Leftwich, Sr.
Agt. James Russell Davis, III
Mrs. Dorothy Grisham
Mr. William Lapoint
Hiram G. Hill, Esq.
Tape of Mr. Hill’s
interview of Ms. Evans
Take of Mr. Hill’s
interview of petitioner’s
four-year-old daughter
Tape of a prosecutor’s
interview of Ms. Evans
Pages 1-177 of the
appendix
Mr. James Gann
Jerry H. Summers, Esq.
Rick Mabee, Esq.
Ms. Angela Evans
The petitioner
Mssrs. Hill’s and
Summers’ files
Agt. Davis’ report
Det. Mathis’ supplemental
report
Copies of the 1989 versions
of Tenn. Code Ann. §§ 39
13 202,204, and 208 and
40 35 201 and 501

254a
During the hearing, the petitioner moved to proceed
pro se and waived his right to counsel and postconviction counsel withdrew.
II. Summary of evidence
Off. Holbrook testified that he has been with the
Chattanooga Police Department (“CPD”) for eighteen
years. He was summoned to Erlanger Hospital to
investigate an accident involving Off. Steve Miller,
who had suffered a bullet wound in his foot while
handling the petitioner’s gun. Off. Miller told Off.
Holbrook that his hands were not on the trigger when
the gun discharged and shot him in the foot.
Mr. Belk testified that he lives in southern Idaho
and is a high-school graduate. He became interested
in weaponry when he was young. In 1969, he
completed a training course in weaponry and received
a certificate of completion. For five years, he was a
deputy sheriff. Since 1993, he has consulted in many
cases and testified in civil cases about the design and
function of weapons. On average, he consults on
twelve cases per year. In the last three years, he has
testified for the defense in two criminal cases, one in
Montana and one in Wyoming. He has also taught a
course in weaponry.
Mr. Belk receives no compensation for his
testimony in this case. The defense did, however, pay
his fare from Idaho.
Mr. Belk inspected the petitioner’s gun in the
clerk’s office. The gun is a Remington 30.06 7400 with
a trigger mechanism that is common in a wide array
of firearms. It was manufactured in February 1982.

255a
Early Remington trigger mechanisms were
designed by Browning. In 1950, the design was
changed to correct some defects. In Mr. Belk’s opinion,
defects in the design remain.
Most weapons require a specific trigger
mechanism. At one time, manufacturers tried to
make weapons that did not require a specific trigger
mechanism. In 1948, Remington changed this
approach for economic reasons. The present trigger
mechanism is called “Remington Common Fire
Control”.
Mr. Belk examined the gun on the stand and
identified it as the one in issue. He extracted the
trigger mechanism and observed that the action
spring was sticking, which indicates that the weapon
is in need of cleaning. He measured the amount of
debris in the mechanism at eighteen hundredths of an
inch.
Any debris can cause a weapon to fail, or misfire.
After a weapon is fired, the debris does not necessarily
remain. In the late 1940s, Remington introduced a
hole for removing debris.
A trigger mechanism may fail at one of five
different points. One of them is the swing hammer,
which holds the trigger back. Insecure engagement of
the swing hammer may cause a weapon to discharge
accidentally.
Trigger mechanisms like the one in the gun in
issue have a history of discharging even when the
trigger has not been pulled. According to the ten
commandments of the National Sports Foundation,
no gun should ever do so. A gun with such a

256a
mechanism may discharge when the trigger has not
been pulled whether the safety is on or off.
In 1993, Mr. Belk was hired in a Remington case.
Counsel could have identified him as an expert.
Mr. Belk had a difficult time reassembling the gun
on the stand. He noted that, even before he began
consulting in cases, there were complaints that the
model “shoots a lot” and, even with a clearance of two
inches, “gets both hands dirty.”
Mr. Belk “dry fired” the weapon without a
cartridge and the firing mechanism.
Except to pull the trigger, he did not test the gun
or observe it fire.
A variety of debris enters guns. It is common for
them to become extremely dirty just from being fired.
Mr. Belk admitted that he did not inspect the gun in
issue in 1994 and cannot testify about its cleanliness
then. The amount of debris in it, however, indicates
multiple firings.
Mr. Belk had but did not review a transcript of the
trial. His role in the case is to testify about the trigger
mechanism.
In 1994, Mr. Belk was hired in a case involving a
Remington 7400 and, probably in 1997 or 1998, he
testified. Since then, he has been involved in different
cases in which misfiring was an issue. A drop test on
the gun is “pretty much useless” and could dislodge
debris. In neither the gun in issue nor in any
Remington 7400 has Mr. Belk reproduced an
inadvertent discharge.

257a
Sgt. Miller testified that he has been with the CPD
for thirty-seven years and, since March 1988, has
investigated crime scenes. He investigated the crime
scene in the petitioner’s case, which involved
retrieving evidence and taking photographs. He did
not recover the gun in issue from the crime scene but
from another location, where it had been found. There
was no clip in the gun, and he photographed it,
collected evidence, and then put it in the trunk of his
car. At the police center on Arnnicola Highway, he
carefully removed the gun from the trunk, pointing it
toward the ground as he did so.
Despite his care, the gun discharged, striking him
or causing debris from the asphalt to strike him in his
left foot.
Sgt. Miller cannot say whether his finger was on
the trigger when the gun discharged. It has been
sixteen years.
The injury required medical attention. Sgt. Miller
does not recall speaking to Off. Holbrook and thinks
that another officer, Off. Gann, who retired in 2002,
probably “came out”.
Sgt. Miller does not remember signing anything
but admits that he was on medication. His injury was
extremely painful and stressful. He was taken to
hospital, where he remained for three to four weeks
and underwent seven surgeries.
Before trial, defense counsel did not interview Sgt.
Miller. At trial, defense counsel subjected him to a
“tough” cross-examination about whether, at the time
of his accident, his finger was on the trigger. He does
not remember whether he was shown his statement

258a
to Off. Holbrook but knows that, after trial, in the
motion for a new trial, the statement was an issue.
Mr. Sims testified that he retired from the CPD in
2001. In March 1994, while still employed by the
department, he reported to Arnnicola Highway to
investigate the shooting of Off. Miller. He made a
report, which simply stated that the gun “just went
off’. He was “approached” about the report but does
not recall speaking to defense counsel before trial. He
testified at trial but his testimony’ was “cut off’,
though defense counsel may have questioned him
outside the presence of the jury.
Mr. Leftwich testified that he is the petitioner’s
first cousin, his father being the petitioner’s uncle,
and his parents owned the house where the petitioner
and the victim lived. He was born on 1 November
1964 and has no convictions. In 1994, he was married,
had two children, and was working as an auto
mechanic.
On the day of the shooting, Mr. Leftwich was with
the petitioner in the Orchard Knob area. The
petitioner had called to tell him that his car had
broken down. They worked on the car on the side of
the road. He needed parts, and the victim brought
parts and tools. He does not remember the vehicle she
was driving. She and the petitioner, though divorced,
apparently lived together and shared vehicles.
Everything seemed normal between them.
When Mr. Leftwich learned later what had
happened, he was astounded. He went to the house
where the family lived and secured it. There was
cabbage on the range.

259a
Mr. Leftwich cannot recall speaking to defense
counsel and was not called as a witness. He attended
the trial and could have testified. He may have told
his father that he was with the petitioner before the
shooting.
Agt. Davis testified that he is in his thirtieth year
as a forensic scientist for the Tennessee Bureau of
Investigation. He has a B.S. in chemistry and other
qualifications, including additional training and some
masters-level courses, and has taught a course in
trace evidence. He has testified in Tennessee in two
hundred twenty-one cases and in other states in four
cases.
When Agt. Davis tests for gunshot residue, he is
testing for the presence and amounts of three metals.
When a gun fires, the hammer strikes a firing pin.
The size of the gun and the distance from it affect the
amount of residue on a shooter’s hands. A 22- caliber
gun is the smallest primer; a 30.06 is the larger
primer. Most of the residue comes from the end of the
barrel. Guns have openings where debris can enter. If
the trigger mechanism is not airtight, debris would or
could enter there.
Off. Rawlston submitted a sample collected from
the petitioner’s hand in a gun shot residue test kit.
From the information sheet, it appears that the
sample was collected about five hours after the
weapon was fired. Agt. Davis tested the sample and
obtained inconclusive results, meaning that he could
not rule out that the petitioner had fired the gun but
he did not find enough to prove that the petitioner had
fired the gun. He was not subpoenaed and, at this late

260a
date, has no recollection of being contacted. He does
not know whether the parties stipulated the results.
Agt. Davis noted that material on the hands
disappears rapidly and the amount of material is
affected by handwashing and other things. For
instance, it is possible to fire a new gun or to fire a
gun outside and not to have residue on one’s hands.
Outside, residue may blow away. In addition, very dry
hands will not hold residue. Time is important
because the more one uses one’s hands, the less
residue will remain. Clothing, if collected, can also be
examined for residue. Mrs. Grisham testified that, in
1994, she was summoned to jury duty. Panelists were
questioned about the murder and their eligibility to
serve on the jury and names were announced. She
does not remember the name of the prosecutor.
Mrs. Grisham was an insurance agent for the
Leftwiches. She was vaguely aware of the possible
involvement of her lawyer husband in a civil
proceeding involving the petitioner. Since September
1990, she had attended church at New City
Fellowship on Third Street. She knew an assistant
prosecutor, Ms. Irwin, from there and was aware that
Mr. Kellogg and someone else attended there, too,
though she does not recall that it was the victim. She
had seen Ms. Broom at the church with two children,
one of whom, Ms. Groggins, at some point worked at
the church.
Mr. Lapoint testified that, on 6 March 1994, he
was employed by CPD and was dispatched to the
airport in connection with a shooting. He filed a report
about the incident. When he arrived, Off. Whitfield

261a
and airport police were already on the scene and the
petitioner, whose children were in a blue Ford
Taurus, was in custody in front of the terminal.
Mr. Lapoint placed the petitioner in the back of a
police car and left a tape recorder there with him,
telling him that it was there and he could say
anything that he wished to say. The petitioner was
very distraught and was crying and rocking back and
forth. He said, “I can’t believe I did that.”
Mr. Lapoint gave the tape recorder and tape to Off.
Whitfield. Several months later, the recorder was
returned to him. When it was returned, it was not
operable. Whether it was operable when he left it with
the petitioner, he does not know. He did not examine
it at the time. The file, however, should indicate
whether it was operable.
Mr. Lapoint was told that there was nothing on the
tape. The tape should have gone to the detective in
charge of the investigation and would have been
discoverable if an open-file policy was in effect.
In November 1994, Mr. Lapoint left the CPD for “a
lot of reasons.” He had been undercover and was then
on patrol.
Counsel testified that, in April 1978, he began
practicing law. First he was in private practice, then
he was in the office of the district public defender for
five years, and now he is again in private practice. He
primarily practices criminal defense. By 1994, he had
been in practice for sixteen years and had tried in
excess of sixty to seventy cases, including capital
cases. Since 1994, he has had one capital case.

262a
Altogether, he has probably tried forty murder cases.
He admits that good lawyers can make mistakes.
From page 13 of the appendix, it appears that the
general sessions court appointed the district public
defender to represent the petitioner. The petitioner
waived a preliminary examination in exchange for
open access to the prosecutor’s file.
While in the office of the district public defender,
counsel was assigned to general sessions court for
one-half year and to Division II of this Court for four
and one-half years. He was not assigned to the
petitioner’s case in the general sessions court; he
would have been assigned to the case at the
arraignment in Division II of this Court.
When counsel went to see the petitioner before his
release from jail, the petitioner gave him notes. After
the petitioner’s release on bond, counsel would have
had him complete an intake form and include his
account of events and would then have talked to him.
The petitioner’s intake form states in part as follows:
“When I picked up the rifle, a child said, ‘Daddy, don’t
shoot my Mommy.’ I replied, ‘Sweetheart, I’m not
going to shoot your Mommy.’” Counsel and the
petitioner talked at length. The petitioner said that
the gun had discharged accidentally when his finger
was not on the trigger and, despite the divorce, there
was no animosity between the victim and him.
The petitioner is very bright and communicates
well. He is also pleasant, was an “easy” client, and
“got along” well with counsel. Counsel thinks he was
also a caring father.

263a
There being no blanket discovery order in Division
II of the Court, counsel filed discovery motions. He did
not request radio traffic about Off. Miller’s injury. Nor
does he recall requesting fingerprints, though,
according to an initial police report, latent
fingerprints were developed and he concedes that a
trigger print could have been important, even if the
petitioner had fired the weapon before.
Counsel reviewed all discovery and statements,
and an investigator would have interviewed
witnesses. Counsel used two investigators in the
petitioner’s case, Mr. Millsaps and Mr. Jacks. They
were full-time employees of the office of the district
public defender and worked at his direction. Both of
them met with the petitioner and interviewed and
took statements from witnesses. In addition, Mr.
Millsaps also sat with counsel during the trial.
The petitioner was provided with discovery, and
he and counsel reviewed it together. They had several
meetings and discussed strategy, in which the
petitioner had input.
The state disclosed the original statements of Off.
Miller and Mr. Shepheard. It did not, however,
disclose the existence of changes in the statements. In
his original statement, Off. Miller had indicated that
his hand was not near the trigger at the time of
discharge. In his original statement, Mr. Shepheard
had not said that the petitioner had said, “I told you
so.”
The petitioner was offered twenty-two years. He
rejected it, though, in counsel’s view, “it was a pretty
good offer.” He was adamant that the victim’s death

264a
was an accident and he would not plead guilty.
Usually, a plea offer is withdrawn once trial begins.
Counsel does not remember that the petitioner’s case
was unusual in this respect.
The theory of the defense was that the victim was
shot when she emerged from the station and the gun
accidentally discharged. Counsel clearly remembers
Off. Miller telling him or his investigator that, when
he was injured, his hands were nowhere near the
trigger.
Counsel recognized that there were weaknesses in
the theory of the defense. The petitioner had gone to
the scene with his children and a loaded weapon, had
called the victim out of the station, and, after she was
shot, had left the scene, discarded the gun, and never
told officers that the shooting was an accident.
Counsel prepared the petitioner for these weak
points.
Counsel also explained inconsistent defenses to
the petitioner. It would have been inconsistent to
argue accident and second-degree murder, though not
to argue accident and reckless or criminally negligent
homicide. After consulting with the petitioner, he
decided not to argue any alternative theories.
Counsel discussed gunshot residue with the
petitioner. The presence of residue on a hand
indicates that the hand was close to the chamber at
the time of discharge.
Counsel understood that the petitioner was
holding the weapon near the trigger. In the
petitioner’s case, the gunshot residue test was
inconclusive and would not have been helpful. That

265a
the gun had been fired and then discarded were not
in dispute.
Many gunshot residue tests are inconclusive for
various reasons. The test is most effective with
revolvers, where the distance between hand and
chamber is relatively small, and big guns, where the
amount of powder is relatively large.
Counsel did not call anyone to testify about
gunshot residue or request a mistrial when Off.
Rawlston was asked about it. It is not unusual for a
party to introduce evidence relating to gunshot
residue through a detective.
Counsel did not move for and does not think that
he looked for a firearms expert. Sometimes, he used a
Red Bank officer as an expert; apparently, in the
petitioner’s case, he did not. He thought that Off.
Miller would testify and attribute his accident to
accidental discharge. He does not recall whether the
prosecutor told him of the officer’s memory lapse.
In hindsight, counsel realizes that he should have
had an expert inspect the trigger mechanism. He was
not aware of any discussion in the firearms industry
about the condition of the gun on the likelihood of
accidental discharge. After the trial, on National
Public Radio, he heard a report about the accidental
discharge of a Remington and contacted Mr.
Schaarschmidt, one of the petitioner’s post-conviction
lawyers at the time.
Counsel examined the gun before trial. He is
relatively familiar with guns and has several, though
he has never had a firearm that discharged when a
finger was not on the trigger. He believes that debris

266a
could prevent a gun from firing but does not know
when the petitioner claimed the gun had last been
cleaned.
Presumably, the state called Mr. Fite, a bureau
witness. Counsel did not call an independent expert.
Mr. Fite is not easily swayed and would give his
opinion as he saw it.
Counsel cross-examined Mr. Fite, who had done
drop and other tests, about his report. The report did
not indicate that Mr. Fite had inspected the trigger
mechanism, though it did indicate that he had
checked the trigger pull.
Counsel reviewed Off. Miller’s trial testimony and
everything else he needed to review to refresh his
recollection. He was shown exhibit 2, Off. Sims’ report
of his investigation of the accidental shooting of Off.
Miller, which states that the officer’s hands were ‘not
near the trigger at the time of discharge. He does not
recall seeing exhibit 5, which is exculpatory evidence.
He did try to introduce the reports but did not make
an offer of proof. Although Off. Sims had spoken to
Off. Miller at the scene before the latter was
transported to hospital, he did not try to offer Off.
Miller’s statement to Off.
Sims at the scene as an excited utterance, i.e.,
substantive evidence, only as a prior inconsistent
statement, i.e., impeachment evidence. The issue may
have been addressed on appeal.
Counsel used Mr. Millsaps to interview witnesses
and investigate the theory of accidental discharge. He
does not remember whether Mr. Millsaps talked to
Off. Miller. Counsel was “dead wrong” about what Off.

267a
Miller’s testimony would be. He was not aware that
the officer’s testimony would change. If that makes
him unprepared, then he was unprepared.
Counsel thought that Off. Miller’s testimony and
the admission of his prior statements were critical. He
was mad at the officer, whom he believed was being
unfair. He cross-examined him and tried to do so
vigorously and then recalled him for the defense and
tried to impeach him with his prior inconsistent
statements.
Throughout counsel’s representation of the
petitioner, they discussed potential defense
witnesses, including the petitioner himself. Counsel
prepared the petitioner by conducting “sit-downs” and
cross-examining him. The petitioner made a good
witness.
The petitioner had prior convictions for driving
under the influence and writing bad checks. Despite
the failure of the prosecution to notify the defense of
its intent to use the prior convictions, counsel
mentioned the bad checks in his opening statement
and questioned the petitioner about them on direct
examination, thereby opening the door to crossexamination of the petitioner about all the prior
convictions. Counsel admits that he should not have
done so and did not request a limiting instruction.
Counsel does not remember whether he talked to
Mr. Mowrer, who telephoned 9-1-1 for emergency
services. He knew of his statement and an
investigator may have talked to him. He did not use
the statement at trial because his testimony was
completely accurate and consistent with the

268a
petitioner’s testimony. Nor did he recall Mr. Mowrer
to rebut Mr. Shepheard’s testimony.
Counsel does not recall talking to Mr. Benton, who
was in the parking lot of the station when the victim
was shot. Nor does he recall talking to Off. Sims or
Off. Lapoint.
Counsel does not recall anything about Off.
Lapoint’s tape recorder. He believes that a tape
demonstrating the petitioner’s state of mind
immediately after the event would have been
important but admits that he does not know the law
on this point. Off. Lapoint’s statement that he frisked
the petitioner and placed him in a police car and the
petitioner said, “I can’t believe I just did that” was
excluded at the instance of the state.
Counsel did not talk to Ms. Maston, who was
involved in airport security and called by the state in
rebuttal. He did not think that she was a rebuttal
witness, though the transcript would reveal whose
testimony she was rebutting.
Counsel objected to a rebuttal witness but does not
remember all the bases for the objection. He does
remember that the rule of sequestration had been
requested.
Counsel testified that he does not recall talking to
Mr. Shepheard, who was in the shop at the station
when the victim was shot. He also testified, however,
that he had questioned Mr. Shepheard on the
telephone about his statement. At trial, he tried to
impeach Mr. Shepheard but now believes that he
should have cross-examined him about his prior
inconsistent statement.

269a
Counsel presumes that he talked to Off. Huggins
and thinks that he talked to Off. Rawlston. He did
talk to Off. Miller, whose testimony he regarded as
the most important evidence in the trial, and the
petitioner’s young daughter as well as to Dr. King and
Mr. Fite, whose reports he had.
On 17 August 1994, counsel and Ms. Evans, the
mother of the petitioner’s oldest daughter, talked on
the telephone.2 She said that the petitioner had
always been good to her and she did not believe that
he would kill the victim intentionally. Counsel
wanted her to be on their side but told her that it was
not a clear case. The petitioner was remorseful, and
Off. Miller had shot himself, perhaps accidentally.
Counsel told her to call him or Mr. Millsaps.
Thereafter, the district attorney general
interviewed Ms. Evans about her relationship with
the petitioner, which was on and off. Counsel obtained
but did not listen to a recording of the interview.
At some point, counsel decided not to call Ms.
Evans. She was a former girlfriend and had had no
relationship with the petitioner during his marriage.
That the petitioner was always armed was a twoedged sword.
On 22 June 1994, at the office and in the presence
of the district attorney general, counsel interviewed
the petitioner’s four-year-old daughter. Also present
were the defense investigators. Counsel wanted to
test the child and discover whether he could lead her

In his testimony, counsel referred to Ms. Evans by her name at
the time of the events he describes.
2

270a
to agree with him. Basically, she did not disagree with
him. She had not seen the shot and did not say much
more than that her parents were fighting. Counsel
concluded that he could probably lead her to support
or at least not to contradict the theory of the defense.
The petitioner’s three-year-old son was not called
as a witness. The prosecution tried to prove from the
child’s demeanor how upset he was. Counsel should
have filed a motion in limine or asked for a mistrial
based on the prosecutor’s characterization of the child
as upset.
Counsel does not know whether he or an
investigator interviewed Mr. Leftwich. Counsel did
not subpoena Mr. Leftwich to testify about the
petitioner’s car trouble.
The petitioner thought that his divorce lawyer
would be a good witness. At his instance, counsel
called the lawyer to testify that, even though the
victim and the petitioner were divorced, their
relationship was amicable.
Counsel also called character witnesses to bolster
the petitioner’s testimony. He does not think that the
prior convictions or jury instructions caused their
testimony to lose all its value.
Counsel would have liked to have known that the
victim’s family attended church with an assistant
district attorney general, even though the only
interaction there was between the assistant and one
of the children in kindergarten. Counsel should have
questioned panelists about whether they knew that
the victim’s family attended church with the
assistant.

271a
Counsel should have requested that the verdict
form include the punishment for first-degree murder.
The jury thought it had a verdict when it did not.
Counsel argued for reconsideration of the life
sentence.
Throughout the trial, counsel consulted with the
petitioner, who remained on bond until the morning
after the verdict, when he turned himself in. The
petitioner was very actively involved in the trial.
The petitioner did not give a statement to police.
The basis for conviction was the proof at trial. Det.
Rawlston never indicated that the victim was shot
accidentally. He was in law enforcement and had
nothing to rebut. Counsel’s tactic was to suggest to
the jury that the officer made up his mind before he
arrived at the airport. There was, however, no
rebuttal to Ms. Maston’s testimony. When asked
whether it was a close case and whether the state
should have made the defense aware of witnesses,
counsel said that he would never have waived the
preliminary examination.
Counsel was not involved in the motion for a new
trial. Mr. Summers was retained.
Mr. Gann testified that he was with the CPD
between 6 March and November 1994. After hearing
a gun recoil and going to investigate, he found Off.
Miller shot in the foot. He called for an ambulance and
notified others that there had been a shooting. He
does not remember what Off. Miller said. Someone
else would have made a report. Off. Miller was in a
little pain and started to go into shock.

272a
Mr. Summers testified that he finished law school
and passed the bar in 1966. From September 1966 to
January 1969, he was an assistant district attorney
general. In July 1969, after six months in a firm, he
went into solo practice. At this time, there are six
lawyers in his firm.
For the most part, Mr. Summers confines his
practice to personal injury and criminal defense. He
has tried many cases, filed many motions for a new
trial, and, since he entered private practice, filed
many appeals. In the early 1970s, more than two
hundred of his cases were reported. Now, he tries two
to three cases a year and appears in various courts,
from city courts to the United States Supreme Court.
Mr. Summers continues to try and appeal cases.
He does not believe that he has ever been found to be
ineffective.
The petitioner and his family contacted Mr.
Summers in 1994, after the trial, and retained him to
pursue two appeals. Mr. Hill had filed a motion for a
new trial. Mr. Summers is uncertain whether he
received Mr. Hill’s entire file. The office of the district
attorney general claimed to have provided everything
that it had.
After reading the transcript of the trial and
reviewing the file, Mr. Summers filed a supplemental
motion for a new trial, which was denied. Thereafter,
he filed a notice of appeal, argued the case before the
Court of Criminal Appeals, and was overruled. After
reading the appellate court’s opinion, he filed, with a
supplemental brief identifying the appellate court’s
errors, an application for permission to appeal to the

273a
Supreme Court, which was denied, ending his
representation of the petitioner.
At any time, the Court of Criminal Appeals has
many, probably two or three hundred, arguments
before it. Generally, on appeal, it is better to
emphasize two to four of the most meritorious issues,
depending on the length of the trial, and to combine
similar issues. Mr. Summers does not raise nonmeritorious issues, unless he thinks there is a
possibility of changing the law.
Mr. Summers usually informs clients that he will
pursue fewer issues on appeal than he raises in the
motion for a new trial. He thinks he did so in the
petitioner’s case, and he did, in fact, pursue fewer
issues on appeal than he raised in the supplemental
motion for a new trial.
Among the nine issues Mr. Summers pursued on
appeal, the Court of Criminal Appeals found two
errors, the admission of the mother’s testimony of
prior inconsistent statements and the treatment of
Ms. Maston as a rebuttal witness. It also found that
neither error was prejudicial and the petitioner was
treated fairly. In the supplemental brief for the
Supreme Court, he pursued both issues.
Mr. Summers raised several issues in the motion
for a new trial, some of which, his best arguments, he
also pursued on appeal. At the hearing on the motion
for a new trial, he questioned Mr. Hill about the
rebuttal witness, who should have been named by the
prosecution and called in its case in chief. The Court
of Criminal Appeals did not agree with him that the
failure to name the witness was prejudicial.

274a
Mr. Summers also raised the issue of plea
negotiations and, in briefs, the twenty first issue. He
raised the issue of the prosecution’s failure to disclose
certain statements that apparently the police did not
disclose to it, arguing that it was prejudicial, though
not that it was in bad faith.
Mr. Summers raised the issue of the crossexamination of Off. Miller about the injury to his foot
and believes that he raised the issue of Off. Miller’s
impeachment and excited utterance, though his brief
will reveal whether he did so. He raised the issue of
Mr. Shepheard’s statement “I told you so”.
Although Mr. Hill had cross-examined Mr. Shepheard
numerous times and, despite the open-file policy, had
filed pre-trial motions, he could not sufficiently
explore what was only presented to the office of the
district attorney general a week before trial. The
Court of Criminal Appeals held that the trial court
should have given a limiting instruction without
request.
Mr. Summers did not raise the issue of ineffective
assistance of counsel in the motion for a new trial or
on appeal. He has done so in occasional cases,
including in federal court. He recognizes that even the
best lawyers make mistakes. He also recognizes,
however, that different lawyers have different styles
of trying cases. In any event, he did not think that Mr.
Hill was ineffective.
Because Mr. Summers did not see any egregious
ineffectiveness, he did not raise the issue of ineffective
assistance of counsel. He thought that any such issue
should be raised in a post-conviction proceeding and

275a
would not be waived. Even if a motion for a new trial
was the only way to raise the issue and even though
Mr. Hill had tried the case as if it were different than
what it was, it was not a meritorious issue.
Mr. Summers disagrees that he should have “laid
the groundwork” for the petitioner’s post-convictions
claims in the trial court. He called Mr. Hill to testify
at the hearing on the supplemental motion for a new
trial and questioned him about prejudice.
He thought he covered the issue for appellate
review, and his statements to the Supreme Court
about the issue were very strong. He argued, in
essence, that late revelations compromised counsel’s
effectiveness.
Mr. Summers did not raise other issues in the
supplemental motion for a new trial or pursue them
on appeal. He was unaware that the district attorney
general was present during Mr. Hill’s interview of the
petitioner’s daughter. He did not challenge the
prosecutor’s references to the petitioner’s crying,
three-year-old son. He did not challenge Ms. Maston’s
sequestration violation. He did not pursue the
prosecutor’s comments on the petitioner’s silence or
failure to make an immediate claim of accident.
Although counsel thinks that everyone is entitled
to a fair trial, the prosecutor pointing a pointer at the
petitioner was not going to get him a new trial.
The prosecutor failed to disclose the recording of
the exculpatory statements he made in the police car.
In the motion for a new trial, counsel did go into the
tape recording and was satisfied that the prosecution
did not have such a recording. For that reason and

276a
because any such statement was self-serving and
therefore inadmissible, he did not pursue the issue on
appeal.
It became apparent that Art Grisham, Esq., and
an assistant district attorney general attended the
same church. One of the prospective jurors was Mrs.
Grisham, who was aware of her husband’s
involvement in the case. In counsel’s view, the mere
fact that an assistant district attorney general knew
Mrs. Grisham’s family did not disqualify her. Mr.
Summers was unaware that the prosecutor went to
church with the victim’s family.
Nor did Mr. Summers pursue the issue of the
belated disclosure of the gunshot residue test on
appeal. The report should have been provided to Mr.
Hill, who only learned of it when Det. Rawlston
testified. Instead of challenging the report, however,
Mr. Hill used it effectively, going into detail. Mr.
Summers does not know that Mr. Hill could have done
anything more with it than he did had he had it
before, though it is possible that the agent who did the
test could have provided exculpatory evidence. In any
event, the appellate court would not have regarded
the belated disclosure as prejudicial. Sometimes it is
better to let sleeping dogs lie.
The petitioner’s prior convictions should not have
been introduced. Nor would Mr. Summers have put
on character witnesses if, as the petitioner claimed,
they had not been asked. Nor did Mr. Hill request a
limiting instruction. Mr. Summers did not regard
these errors as prejudicial.

277a
The trial court described the case as extremely
close and difficult. Mr. Summers acknowledged that,
in such a case, a series of small errors could make a
difference. Mr. Mabee testified that he has been an
assistant district public defender for nineteen years.
In the petitioner’s case, he waived the preliminary
examination in exchange for a fifty-thousand-dollar
bond and an agreement from the prosecutor, whose
name he did not note, that the prosecution would
show the defense everything. He did so after
informing the petitioner of the proposal and letting
him decide whether to waive the examination.
Usually, by the time of a preliminary examination, all
the information is available.
There is a big drawer of time sheets in the office of
the district public defender. Trial counsel would not
necessarily have seen the time sheet showing Mr.
Mabee’s work in the petitioner’s case.
Ms. Evans, whose name, in 1994, was different,
testified that, on 17 August 1994, she gave a
telephone interview to Mr. Hill, whom she knew
represented the petitioner. At some point, at the office
of the district public defender, she also gave a
statement to the prosecutor. She answered Mr. Hill’s
and the prosecutor’s questions. She did not know
what was important. She would have testified if called
but is not sure what value her testimony would have
had. She knew nothing of the homicide and does not
remember when she last saw the victim.
Although Ms. Evans was never married to the
petitioner, in 1989, they had a child together. While
she was pregnant with his child, the petitioner met

278a
the victim. She told the prosecutor that, during the
petitioner’s marriage to the victim, she and the
petitioner were “mainly friends” . She and the victim
“talked a lot”, though they were not close friends. She
knew that the petitioner and the victim, who had had
children together, were divorcing.
When Ms. Evans heard about the charges [sic] ,
she wrote to the petitioner, who replied from jail that
he had been framed. She does not have his letter. She
remained in contact with the petitioner throughout
the pre-trial period, during which he was in custody
for some time, and they talked about the accident. She
has been in and out of the post-conviction hearing.
The petitioner testified that he has drafted every
document that has been filed in this case. He has
never tried or appealed a case or observed a criminal
or civil trial but has “handled” many applications for
the writ of habeas corpus and has read about juries
and American Bar Association standards.
The subject petition contains three claims:
ineffective assistance of trial counsel, ineffective
assistance of appellate counsel, and prosecutorial
misconduct. The petitioner’s memorandum in support
of the petition consists of seven bound volumes.
Mr. Hill visited the petitioner at the county jail.
Initially, he knew little about the case, though he
knew that the petitioner claimed that the shooting
was accidental. He had the petitioner complete an
intake form. They discussed Off. Miller’s accident,
and Mr. Hill told the petitioner that it supported his,
the petitioner’s, account of events.

279a
After the petitioner’s release from jail, he had a
couple of meetings with Mr. Hill. Mr. Hill asked him
what had happened and “put forward” the defense of
accident. The petitioner “guess[es]” that it was
counsel’s idea to adopt an accident theory.
Mr. Hill knew that the petitioner had left the scene
and discarded the weapon before telephoning 9-1-1
but never indicated that any of the proof would be
damaging.
The petitioner planned to testify and understood
that he would be cross-examined. He also understood
that he had a right not to testify. He wished to testify
and did not think that anything would hurt him. He
and Mr. Hill had talked about the check cases, but
they were inadmissible. Mr. Hill did not prepare him
for cross-examination. He does not remember a
practice cross-examination.
About the weapon, the petitioner testified that it
was a 7400 rifle with a Remington Common Fire
Control Mechanism that he had had since he was
fourteen. In 1994, the mechanism was inside the rifle.
The petitioner was twenty-seven when the victim
was killed. He had never had a problem with the
weapon discharging accidentally in the thirteen years
that he had had it until it discharged in his hands and
shot his wife in the chest. Every-thing was organized
at home, and there was proof that the gun was
already loaded.
Mr. Hill claimed that latent fingerprints were
developed. The petitioner asks, “Where are the
results?” No fingerprint evidence was disclosed
during discovery or introduced at trial. The petitioner

280a
acknowledges that the gun was his weapon and,
though he did clean it occasionally, his prints would
have been all over it. After the shooting, all he did was
wipe the gun. Several members of the jury chambered
and pulled the trigger.
The petitioner does not remember what he said in
the back of the police car, the tape of which is missing.
He did not tell counsel about the possible existence of
a recording and counsel did not ask. Nor did the
prosecution disclose the identity of Off. Lapoint before
trial. The recording was an issue at trial. At the postconviction hearing, Off. Lapoint testified that he did
not know whether anything was recorded. Off.
Whitfield, whose car it was, took the recorder.
At trial, a recording of the petitioner’s 9-1-1 call
reporting that he had “just shot his wife” was played.
Counsel did not remark on how upset the petitioner
sounded.
The record will reflect that Mr. Hill did not
investigate the case. Despite the open file, Mr. Hill did
not obtain Ms. Evans’s statement or call her to testify
about the petitioner’s habit of carrying a gun.
There was a plea offer of second-degree murder.
The decision to reject the offer was difficult. Mr. Hill
said, as he did in opening statement, that the shooting
was not an intentional act., though, as the petitioner
now acknowledges, he is the only one who knew his
own state of mind at the time of the shooting. Had Mr.
Hill received the entire prosecution file, his advice
about the offer could have been better. Had the
petitioner known of all the proof, he would have

281a
accepted the offer. During trial, there were no plea
discussions.
The petitioner did not attend church with the
victim. He did not know prosecutor Irwin.
In opening statement, counsel made some
inappropriate remarks. While he understands the
importance of stating the theory of the defense,
counsel’s theory was not infom1ed and the judge did
not instruct the jury about the purpose of opening
statements and closing arguments.
Mr. Hill overstated or misstated the theory of the
defense. In opening statement, he said that the victim
was killed by a faulty firearm and the act was not
intentional; he failed to say that the act was not
premeditated. In closing argument, after Det. Miller’s
surprise testimony, he said that it did not matter
whether the weapon was faulty and “Off. Miller was
a train wreck waiting to happen.”
Mr. Shepheard was the most indispensable
witness for the prosecution. He testified that, after
the shooting, he heard the petitioner tell the victim,
“I told you so.” Because Mr. Hill did not investigate
the open file, he did not discover that this testimony
was not consistent with Mr. Shepheard’s statement to
Off. Rawlston. Mr. Hill did not attack the credibility
of Off. Rawlston or use the officer’s affidavit in
support of the search warrant to cross-examine Mr.
Shepheard. Nor did Mr. Hill request an instruction
limiting the jury’s consideration of Mr. Shepheard’s
prior inconsistent statements to police and an
investigator from the office of the district attorney
general.

282a
Mr. Fite was another critical witness for the
prosecution and his unhelpfulness was foreseeable.
He said that he could not or tried and failed to
reproduce an accidental discharge. Mr. Hill did not
consult a firearms expert to help him cross-examine
Mr. Fite or testify about the defective trigger
mechanism. Nor did Mr. Hill cross-examine Mr. Fite
extensively on the weapon or the mechanism. Mr. Hill
tried unsuccessfully to introduce evidence about a
model with the same trigger mechanism, the 742
Remington. A diagram or schematic of the weapon or
the trigger mechanism would have been helpful.
Mr. Hill was unaware of Off. Miller’s prior
inconsistent statements. The officer’s initial
statement about his accident should have been
admitted as an excited utterance.
He should not have been allowed to testify
regarding what he told an investigator from the office
of the district attorney general a couple of weeks
before trial.
Mr. Hill talked to the petitioner’s daughter and
said that she would not hurt him, though she had seen
the gun. Mr. Hill did not inforn1 the petitioner of his
daughter’s statement, to which, the petitioner says,
the Court should listen. The petitioner knew that he
would have to address her testimony at trial. Had he
known that she claimed to have said to him, “Don’t
kill Mommy,” he would have testified about it and his
response and state of mind. Nor did Mr. Hill recall
him for rebuttal or try to show bad faith on the part
of the prosecution.

283a
The prosecution should have disclosed that Ms.
Maston’s presence at the airport. The petitioner was
unaware that there were witnesses of events at the
airport. He entered the airport and talked to a
uniformed security officer. He may have seen Ms.
Maston there. Mr. Hill did not address Ms. Maston’s
testimony. Had the petitioner known that Ms. Maston
would testify, he would have addressed her testimony
during his own testimony.
The petitioner gave counsel his divorce lawyer’s
name, thinking that the lawyer could testify that the
divorce was amicable and the petitioner had custody
of the children.
He now thinks that it was a mistake to call the
lawyer. Three to four months after the victim’s death,
the petitioner had a child with another woman.
Mr. Hill’s closing argument was improper. Mr.
Meyer testified that he heard shots and the proof
showed that he saw the weapon. He did not note how
upset the petitioner was during the 9-1-1 call, as
evidenced by the recording of the call. Considering
everything that went wrong at trial, Mr. Hill should
have argued for a lesser, included offense. He should
also have requested a sentencing instruction.
Mr. Hill did not talk to all the witnesses. Mr.
Meyer testified that he heard shots and the proof
showed that he saw the weapon. Mr. Hill did not use
his statement that he looked across the street and saw
something.
Mr. Hill did not pursue the results of the gunshotresidue test. He did not move for a mistrial when Off.
Rawlston testified about the results.

284a
The petitioner has nothing to add to his claim of
ineffective assistance of appellate counsel. Mr.
Summers was retained by his family to pursue an
appeal to the Supreme Court, if necessary. He
approved the decision. Mr. Summers was a good
lawyer.
When Mr. Summers filed the motion for a new
trial, Mr. Hill filed a conditional motion for a new
trial. Mr. Summers forwarded a letter to him with the
supplemental motion. The petitioner always asked
about Off. Lapoint’s recording.
The petitioner did not ask Mr. Summers to add
any issues. He would not have known what to ask for.
He was present at the hearing on the motion for a new
trial, at which Mr. Summers presented proof. He now
complains that Mr. Summers did not challenge the
prosecutor’s use of a pointer to point at him from a
distance of two-and one-half feet and ridicule of the
accident theory.
After the hearing on the motion for a new trial, the
petitioner had no meetings with Mr. Summers. He
was sent a copy of the appellate briefs and informed
when the case would be heard.
The petitioner says that he did not make any
comments to anyone at the BP station; his first
comments were at the airport. He did not mention to
the 9-1-1 dispatcher or to Off. Rawlston, who read him
his rights while they were in the car, that the shooting
was accidental. Off. Lapoint, whose identity the
prosecution suppressed, testified that he was
distraught. His distress should have been evident on

285a
the tape, if one existed, and would have been
exculpatory.
The petitioner was aware of the one-year deadline
for filing post-conviction petitions. On 8 April 1998,
he filed the original, pro se petition. Thereafter, he
delivered a motion for an extension of time to prison
officials. The judge summarily dismissed the petition.
Apparently, the order of dismissal was in the mail
when he filed the amendment to the petition.
In post-conviction discovery, the petitioner
obtained Agt. Davis’ report on the gunshot-residue
test and Det. Mathis’ supplemental report. The
agent’s post-conviction testimony that the results of
the
gunshot-residue
test
were
inconclusive
corroborates Off. Rawlston’s trial testimony.
The petitioner does not know why Mr. Belk
testified free of charge. He does not know if he has a
pending case.
During the post-conviction hearing, the parties
tried to find the tape from Mr. Lapoint’s recorder,
officers’ field notes, and a fingerprint report. For that
purpose, counsel met at the police center. Although
they had the assistance of the person in charge of the
major-crimes division and both the property room and
a storage facility were searched, nothing else was
found. Both lawyers have contacted former Det.
Mathis, who was subpoenaed to bring the recording.
The transcript of the trial contains the evidence
that supports the finding of premeditation. In its
opinion affirming the judgment of conviction, the
Court of Criminal Appeals summarizes that evidence
as follows:

286a
The State argues that the defendant’s intent
to kill the victim is proved by the defendant’s
actions in bringing the gun to the station, calmly
requesting his wife to come outside, repeatedly
stating “I told you so” while standing over her
body, and failing to render any assistance
following the shooting. The State also points out
that the defendant and the victim had been in the
midst of divorce proceedings and that the
defendant had suspected his wife of having an
affair. While the defendant denied that he had
been angry at his wife, denied that he had
brought the gun to the station with the intent of
shooting her with it, and denied that he had said
“I told you so” to her as she lay on the parking lot,
the jury chose not to believe the defendant’s
version of the facts. This, the jury had the right
to do. Giving the State the strongest legitimate
view of this evidence, as we must, these facts are
sufficient to prove the element of intent.
State v. Kendricks, 947 S.W.2d 875, 880 (Tenn. Crim.
App. 1996).
The transcript of the trial contains some other
revelations. In opening statement, the prosecutor
refers to the victim’s death as an execution, despite
prosecution evidence of an argument. In addition, the
petitioner was not entirely certain whether, at the
time of discharge, his hand or finger was on the
trigger.
At the time of the victim’s death, there was a gun
in her purse in the shop. According to the petitioner,
he had bought the gun for her and, because of their

287a
interracial marriage and the conditions of their work,
they both carried guns. Finally, despite its open-file
agreement with the petitioner as well as its open-file
policy, the prosecution did not disclose changes in Off.
Miller’s account of his accident, changes, one week
before trial, in Mr. Shepheard’s account of events, or
Ms. Maston’s existence.
II. Law and analysis
To obtain post-conviction relief, a petitioner must
allege and, by clear and convincing evidence, prove
that his conviction or sentence is void or voidable
because of the abridgement ofa constitutional right.
Tenn. Code Ann. §§ 40 30 103, 1l0(f).
Ineffective assistance of trial counsel
The petitioner claims that he did not receive
effective assistance of counsel. If a petitioner
complains of the abridgement of his rights to effective
assistance of counsel under the Sixth and Fourteenth
Amendments to the United States Constitution and
Article I, § 9 of the Tennessee Constitution, then he
must prove that his counsel’s performance was
deficient and that the deficiency was prejudicial.
Strickland v. Washington, 466 U.S. 668,687, 104 S.
Ct. 2052, 80 L.Ed.2d 674 (1984); Powers v. State, 942
S.W.2d 551, 558 (Tenn. Crim. App. 1996). If he fails
to prove one element, then the court need not consider
the other. Henley v. State, 960 S.W.2d 572,580 (Tenn.
1997).
Counsel’s performance is deficient if it is not
“within the range of competence” applicable to
attorneys in criminal cases. Baxter v. Rose, 523
S.W.2d 930, 936 (Tenn. 1975). A court “must indulge

288a
a strong presumption that counsel’s conduct falls
within the range of reasonable professional assistance
and must evaluate [that conduct] from counsel’s
perspective at the time of the alleged error and in
light of the totality of the evidence.” Hicks v. State,
983 S.W.2d 240, 246 (Tenn. Crim. App. 1998) (citing
Strickland, 466 U.S. at 695). A deficiency in counsel’s
performance is prejudicial if there is a reasonable
probability that the outcome of a proceeding is
unreliable. Strickland, 466 U.S. at 687.
‘‘‘[S]trategic and tactical decisions should be made
by defense counsel after consultation with the client.
. .. Such decisions include what witnesses to call,
whether and how to conduct cross-examination, ...
and what evidence should be introduced.’” Pylant v.
State, 263 S.W.3d 854, 873-74 (Tenn. 2008) (quoting
A.B.A. Standards for Criminal Justice § 4-5.2(b) (3d
ed. 1993) and also citing the comment on § 4-5.2 and
Baxter, 523 S.W.2d at 936). “‘[1]f a disagreement on
significant matters of tactics or strategy arises
between defense counsel and the client, defense
counsel should make a record of the circumstances,
counsel’s advise [sic] and reasons, and the conclusion
reached.’” Id. at 874 n.29 (quoting A.B.A. Standards
for Criminal Justice § 4-5.2(c)). The courts “will not
second-guess trial counsel’s informed tactical and
strategic decisions.” See id. (stating that “this Court”,
meaning the Supreme Court, will not do so) (citing
Henley, 960 S.W.2d at 579).
1. The petitioner complains that counsel did not
interview prosecution witnesses and, in opening
statement, diminished the credibility of the defense

289a
by promising to ask Off. Miller to explain the officer’s
handless discharge of the petitioner’s gun and
describing the prosecution’s proof. It is true that the
defense was surprised by some of the evidence at trial.
It is also true, however, that, despite its open-file
agreement and policy, before trial, the state did not
disclose changes in Off. Miller’s or Mr. Shepheard’s
statement or Ms. Maston’s existence. Considering
that counsel reviewed all discovery and statements,
had an investigator interview witnesses, and clearly
remembers Off. Miller telling him or his investigator
that the officer’s hands were nowhere near the trigger
at the time of the officer’s injury, the Court does not
attribute the surprises at trial to any deficiency in
counsel’s performance. Nor does it find any deficiency
in counsel’s opening statement.
2. The petitioner complains that counsel did not
familiarize himself fully with the file or utilize Det.
Rawlston’s affidavit to impeach Mr. Shepheard’s
statement and testimony that he did not see a
weapon, though Mr. Shepheard’s testimony on
premeditation was critical to the prosecution. Counsel
reviewed all discovery and statements. Certainly, as
the cross-examinations of Mr. Shepheard and Det.
Rawlston reflect, he was aware of the inconsistencies
in Mr. Shepheard’s statement and testimony. There
was no apparent reason, however, for him to impeach
Mr. Shepherd’s prior, consistent statement that he
did not see a weapon. The Court therefore finds no
deficiency in counsel’s performance in this respect.
3. The petitioner complains that counsel did not
cross-examine or impeach Mr. Shepheard, through

290a
his own statement or Det. Rawlston, with
inconsistencies regarding the petitioner’s companions
and movements. The transcript of the trial reflects
that counsel’s cross-examination of Mr. Shepheard
was thorough and explored what Mr. Shepheard could
and could not see or hear, did and did not see or hear,
and had and had not said. The Court therefore finds
no deficiency in counsel’s performance in this respect.
4. The petitioner complains that counsel did not
know, argue, or present the law regarding prior,
inconsistent statements, object to Mr. Shepheard’s
surprise testimony that he had heard the petitioner
tell the fallen victim, “I told you so,” or request a
mistrial. For the reasons set forth in the Court’s
response to the third allegation in support of this
claim, the Court finds no deficiency in counsel’s
performance in this respect.
5. The petitioner complains that counsel did not
investigate the case fully, capitalize on the state’s
open file, or discover Det. Mathis’ supplemental
report regarding Mr. Shepheard’s statement.
Counsel, however, reviewed all the information
available to him and used or tried to use the evidence
favorable to the defense. As for Det. Mathis’
supplemental report, despite the parties’ joint efforts,
it is still not in evidence. In any event, presumably,
Det. Rawlston’s trial testimony about Mr.
Shepheard’s statement makes Det. Mathis’
supplemental report redundant. The Court therefore
finds no prejudice in counsel’s performance in this
respect.

291a
6. The petitioner complains that counsel did not
request an instruction limiting consideration of
another witness’s account of Mr. Shepheard’s prior,
consistent statement that he heard the petitioner say,
while standing over the victim’s body, “I told you so”,
to the issue of credibility. Considering the
admissibility of Mr. Shepheard’s testimony on the
same point on the issue of guilt, the Court finds no
prejudice in counsel’s performance in this respect.
7. The petitioner complains that counsel did not
utilize his rights to present a defense and confront his
accusers to question or challenge Agt. Fite’s reliability
on the ground that, despite the manufacturer’s
replacement of the model, the expert believed that the
rifle was as safe as any other firearm or operator. At
the post-conviction hearing, however, he did not
introduce evidence of the manufacturer’s replacement
of the model before or after the manufacture of his
weapon in 1982. Apparently, the only replacement in
the weapon’s history was in 1950, long before the
manufacture of the petitioner’s rifle, when there was
a redesign of the trigger mechanism to correct some
defects. The Court therefore finds no prejudice in
counsel’s performance in this respect.
8. The petitioner complains that counsel did not
establish, through Agt. Fite or another expert, that
debris inside the firing pin channel or other places can
cause a semi-automatic weapon to discharge
accidentally. For the reasons set forth in its analysis
of the thirty-ninth allegation in support of this claim,
the Court finds no prejudice in counsel’s performance
in this respect.

292a
9. The petitioner complains that, in closing
argument, counsel failed to emphasize Mr. Mowrer’s
testimony that the petitioner’s car was parked at a
gasoline pump and diminished the credibility of the
defense by erroneously arguing that Mr. Mowrer saw
a weapon and Det. Rawlston did not speak to a single
witness at the scene. The petitioner testified at trial
that his wife drove the wagon during the week and he
drove it on the weekend and he would fuel it at the
pump to which she directed him, which varied
because the cost was deducted from her wages.
Neither he nor anyone else testified at trial or at the
post-conviction hearing that he had asked her to
direct him to a pump or she had directed him to the
pump where he was parked at the time of her death.
To remind the jury of the favorable fact may have
been to remind them of an unfavorable one. As for
counsel’s misstatements of the evidence, one, an
apparent misstatement in the state’s favor, arguably
cancels the negative effect of the other, a
misstatement in the petitioner’s favor. The Court
therefore finds no prejudice in counsel’s performance
in this respect.
10. The petitioner complains that counsel did not
object to the prosecutor’s commenting on his silence
at trial or request a curative instruction or a mistrial.
Under federal law, the prosecution may make
impeachment use of any pre-caution silence,
including post-arrest silence. State v. Haire, 2002
Tenn. Crim. App. LEXIS 39, * 44-45 (tracing the
development of federal law from Doyle v. Ohio, 426
U.S. 610,96 S. Ct. 2240,49 L. Ed. 2d 91 (1976), to

293a
Fletcher v. Weir, 455 U.S. 603, 102 S. Ct. 1309,71 L.
Ed. 2d 490 (1982)). Under state law, the prosecution
may make impeachment use of a defendant’s prearrest silence and, if “patently or blatantly
inconsistent with [the defendant’s] trial testimony”, of
the defendant’s post-arrest, pre-caution silence. See
id. at * 48, 51 (conditioning impeachment use of postarrest silence and finding the defendant’s pre-arrest
silence relevant and admissible). Considering that the
prosecutor’s arguments were not about any postcaution silence but about the petitioner’s pre-arrest,
pre-caution actions and failure to make any reference
to accident in his pre-arrest, precaution admission,
the Court finds no deficiency in counsel’s performance
in this respect.
11. The petitioner complains that counsel did not
object to a prosecutor’s vouching for the testimony
and credibility of material witnesses, Mr. Shepheard,
the petitioner’s daughter, Det. Rawlston, and Agt.
Fite, and insinuating the existence of evidence
outside the record or request a curative instruction or
a mistrial. He does not substantiate this complaint
with a reference to the record. The transcript of the
trial reflects that, in closing argument, counsel
objected to the prosecutor’s description of Mr.
Mowrer’s testimony regarding the position of the
petitioner’s weapon on the ground that it was outside
the evidence and the prosecutor restated the
testimony. Counsel objected and moved for a mistrial
when the prosecutor addressed the petitioner directly
and pointed at him. The objection was sustained but
the motion denied. Counsel objected to the

294a
prosecutor’s suggestion that the jury could infer from
Mr. Benton’s testimony that the petitioner could see
Mr. Benton chasing him on the ground that it was
outside the evidence. The judge let the jury decide
what was in evidence. Counsel objected to the
prosecutor’s statement that Off. Sims “came to
testify”, though Off. Sims did not testify. The
prosecutor did not pursue the matter. The Court finds
no deficiency in counsel’s performance in these
respects.
12. The petitioner complains that counsel did not
object to the prosecutor’s stating his personal opinion
about the evidence, arguing from evidence outside the
record, misrepresenting evidence in the record,
eliciting inadmissible proof, including having the
petitioner vouch for the credibility of the state’s proof,
and engaging in courtroom antics and failed to
document the record or request curative instructions
or a mistrial. He does not substantiate this complaint
with references to the record. From the transcript of
the trial, it appears that counsel did object to some or
all of these actions and move for a mistrial in at least
one instance. The Court finds no deficiency in
counsel’s performance in these respects.
13. The petitioner complains that, when counsel
learned of the state’s intent to introduce documentary
x-rays of the victim and a schematic of the weapon, he
did not properly object, request a continuance,
establish prejudice, move for a mistrial, or request an
order requiring the state to renew the plea offer of
twenty-two years. Considering that, even now, many
years after the trial, there is no evidence that the x-

295a
ray, cumulative evidence, was not relevant or genuine
or the schematic drawing, cumulative, demonstrative
evidence, was not relevant or accurate, the Court
finds no prejudice in counsel’s failure to request a
continuance or renewal of the plea offer on the ground
of the belated disclosure of the state’s intent to
introduce the x-ray and the schematic drawing.
14. The petitioner complains that, when counsel
learned of the state’s intent to call a surprise witness,
Ms. Maston, he did not properly object, request a
continuance, establish prejudice, move for a mistrial,
or request an order requiring the state to renew the
plea offer of twenty-two years. The record reflects that
counsel did object to Ms. Maston as a rebuttal witness
on the grounds that she was a surprise witness and
not a rebuttal witness. Although the Court of
Criminal Appeals did not find that she was a rebuttal
witness, it did not find reversible error or proof that
the surprise, independent of the testimony, was
prejudicial. Although the petitioner attributes his
rejection of the plea offer to ignorance of Ms. Maston’s
testimony about his daughter’s excited utterance at
the airport, which, though not discoverable under
Tenn. R. Crim. P. 16(a); was discoverable under the
state’s open-file agreement and policy, counsel,
according to whom, the petitioner was adamant that
the victim’s death was an accident, doubts the pleaaffecting nature of the testimony. Considering that
the petitioner’s daughter’s excited utterance at the
airport was ambiguous and not necessarily
inconsistent with a theory of accident, the Court finds

296a
no clear and convincing evidence of prejudice in
counsel’s performance in this respect.
15. The petitioner complains that counsel did not
know the law, properly challenge the state’s use of
Ms. Maston as a rebuttal witness, or request a
mistrial. The record belies the allegation. The Court
of Criminal Appeals, while agreeing that she was not
a rebuttal witness, did not find the error reversible.
The Court therefore finds no prejudice in counsel’s
performance in this respect.
16. The petitioner complains that counsel did not
properly object to Ms. Maston’s testimony on the
ground that his daughter’s testimony was a ruse to
introduce Ms. Maston’s testimony. Presumably, the
petitioner means that Ms. Maston’s account of his
daughter’s excited utterance would not have been
admissible had he not had the opportunity to confront
his daughter. His trial, however, predates the
decision in Crawford v. Washington, 541 U.S. 36, 124
S. Ct. 13154, 158 L. Ed. 2d 177 (2004), under which
the right of confrontation limits the admissibility of
testimonial hearsay, irrespective of the applicability
of a hearsay exception, by almost ten years. Effective
assistance of counsel does not require counsel “to
anticipate changes in the law regarding the
confrontation clause.” See Fleming v. State, 2011
Tenn. Crim. App. LEXIS 29, * 22- 23 (rejecting postconviction claims that trial and appellate counsel
were ineffective in failing to anticipating a change in
the law regarding the confrontation clause) (citations
omitted). The Court therefore finds no deficiency in
counsel’s performance in this respect.

297a
17. The petitioner complains that counsel did not
introduce available evidence to rebut Ms. Maston’s
testimony that his daughter said, “I told Daddy not to
shoot Mommy, but he did and she fell.” Considering
that, even now, there is no evidence rebutting Ms.
Maston’s testimony, though, according to him, his
intake form reflects that his response to his
daughter’s statement, “Daddy, don’t shoot my
Mommy” was “Sweetheart, I’m not going to shoot your
Mommy,” and his daughter’s statement was
ambiguous and could mean “Don’t accidentally shoot
her” or “Don’t accidentally or intentionally shoot her”
as well as it could mean “Don’t intentionally shoot
her”, the Court finds no prejudice in counsel’s
performance in this respect.
18. The petitioner complains that counsel did not
properly challenge the trial court’s limitation on the
cross-examination of Off. Miller and exclusion of Off.
Sims’ testimony regarding Off. Miller’s prior,
inconsistent statement or request a mistrial.
Considering that the Court of Criminal Appeals,
though it did find the exclusion of Off. Sims’ testimony
erroneous, did not find the error reversible, the Court
finds no prejudice in counsel’s performance in this
respect.
19. The petitioner complains that counsel did not
interview his cousin, Mr. Leftwich, or subpoena him
to testify about his activities on the day of the victim’s
death, which were inconsistent with premeditation.
Mr. Leftwich’s post-conviction testimony that, on the
day of the victim’s death, the petitioner had had to
repair his car and had requested and received

298a
assistance from his wife in doing so does corroborate
the petitioner’s trial testimony regarding those events
as well perhaps as Mr. Lawson’s trial testimony
regarding the amicability of the divorce. According to
counsel, however, it was the petitioner’s wish that the
divorce lawyer testify on the issue of the amicability
of the divorce, presumably, because he was not a
relative. Considering the petitioner’s apparent lack of
motive to kill the victim, the Court finds no deficiency
in counsel’s performance in this respect.
20. The petitioner complains that counsel did not
fully investigate the case or obtain a copy of Off.
Lapoint’s tape recording. Considering that counsel
was unaware of even the possible existence of a
recording and there is no clear and convincing
evidence of the existence of the recording, the Court
finds neither deficiency nor prejudice in counsel’s
performance in this respect.
21. The petitioner complains that counsel did not
research or know the law regarding sentencing in
first-degree murder cases and did not request an
instruction on the range of punishment and parole
eligibility.
The Tennessee Supreme Court dealt with the
issue of improper jury instructions regarding the
range of punishment in State v. Cook, 816 S.
W.2d 322 (Tenn. 1991). In Cook, the issue before
the Court was whether a trial judge committed
prejudicial error by instructing the jury on the
range of punishment for a Range I offender,
where the sentence range which the defendant
must be sentenced under is that of a Range II

299a
offender. ld. at 324. The Court assumed that the
trial court committed error when it instructed
the jury and then turned to decide whether that
error was harmless. Id. at 325. It concluded that
Tennessee Code Annotated section 40-35-20 I (b)
gave a defendant a claimable statutory right to
have the jury know the range of punishment. The
Court went on to conclude that the benefits that
the Legislature had in mind for the defendant
when it passed this statute would be lost if the
defendant were “to be sentenced to punishments
greater than what the jury finding guilt was
instructed would be imposed.” Id. at 327.
Further, “to deny this defendant that statutory
right constitutes prejudice to the judicial process,
rendering the error reversible .... “ Id.
Vaughn v. State, 2005 Tenn. Crim. App. LEXIS 423,
*50-51 (footnote omitted).
[I]nstructions as to the penalty range are
informational in nature and nonessential to the
issue of guilt or innocence. See State v. David H.
Ooren, no number in original (Tenn. Crim. App.,
Knoxville, May 26, 1989), perm. to appeal denied,
(Tenn. 1989). Evidence that appellant was guilty
of the aggravated forms of the crimes charged
was ovenwhelming. Any possible error here was
harmless and does not rise to the level of a
constitutional violation. See State v. Wilbert M.
Phillips, No. 203 (Tenn. Crim. App., Knoxville,
April 26, 1989), perm. to appeal denied, (Tenn.
1989); T.RA.P. 36(b) ....

300a
Sword v. Slate, 1994 Tenn. Crim. App. LEXIS 830, ‘“
9-10.
Although the record reflects that, after the jury
returned a verdict of guilt, there was some confusion
on the part of the Court and the jury about who was
to impose sentence, the confusion is not attributable
to the jury’s belated discovery of and dismay about the
punishment. Although counsel did not request an
instruction on punishment in the guilt phase of the
trial, in addition to referring to the seriousness of the
charge, three times in closing argument, he referred
to the sentence as life imprisonment. The Court
therefore finds no prejudice in counsel’s performance
in this respect.
22. The petitioner complains that counsel did not
object to the prosecution’s non-disclosure of Mr.
Shepheard’s and Off. Miller’s contradictory
statements or move for a mistrial. For the reasons set
forth in the Court’s response to the third, eighteenth,
and thirtieth allegations in support of this claim, the
Court finds no prejudice in counsel’s performance in
this respect.
23. The petitioner complains that, in his crossexamination of Det. Rawlston, counsel opened the
door to prejudicial opinion and vouching and did not
object to or
request a curative instruction regarding the
prosecutor’s vouching for Mr. Shepheard and
improperly insinuating that there was more evidence
outside the record. On cross-examination of Det.
Rawlston, counsel did try to demonstrate that the
detective did not conduct the investigation with an

301a
open mind. The focus of the prosecutor’s re-direct
examination was the bases for the detective’s
interpretation of the facts. Counsel did successfully
object to a response indicating that the victim was in
a defensive posture. As for Mr. Shepheard,
presumably, what the petitioner finds objectionable is
the prosecutor’s redirect examination about a prior,
consistent statement to an investigator. The Court
finds no deficiency in counsel’s performance in these
respects.
24. The petitioner complains that counsel did not
request the removal of potential jurors from open
court to allow the defense to inquire into Ms.
Grisham’s knowledge of participants. At the
beginning of voir dire, Ms. Grisham disclosed a vague
awareness of her husband’s involvement with the
victim’s family in a civil matter and knowledge of
prosecutor Irwin and other persons from church. The
Court finds no deficiency in counsel’s performance in
this respect.
25. The petitioner complains that counsel did not
accurately advise him regarding his decision to
testify, did open the door to cross-examination about
prior convictions, and did not request a limiting
instruction. The Court accredits counsel’s testimony
that he did prepare the petitioner to testify by
identifying weaknesses in the defense and subjecting
him to practice cross-examination. Considering that
the petitioner’s trial testimony was critical to the
defense, it being the only direct evidence supporting
the theory of accident, and his post-conviction
testimony adds nothing to his trial testimony about

302a
events before or after his departure from the scene,
the Court finds no deficiency in counsel’s performance
in this respect.
It is true, however, that counsel did open the door
to cross-examination about otherwise inadmissible
prior convictions and did not request a limiting
instruction. Nor did the final instructions include
such a limiting instruction. It is reasonably probable
that the verdict reflects in part the jury’s assessment
of the petitioner’s credibility. The jury, however, was
not deciding between the petitioner’s account and
another person’s account so much as deciding
between the petitioner’s account and the petitioner’s
own prior accounts and actions and another person’s
account. The Court therefore finds no prejudice in
counsel’s performance in this respect.
26. The petitioner complains that, during plea
negotiations, counsel did not inform him of the laws
and facts relevant to guilt and sentencing and did not
give him an opinion about the plea offer. He did not,
however, question counsel on this point. Considering
that he was at all times aware of his actions, the
theory of the prosecution, and the dispositive issue,
intent, and was insistent on his innocence and wish to
go to trial and, though it is true that neither he nor
counsel was. aware of all the evidence against him
until the trial, the circumstance is not attributable to
counsel, the Court finds neither deficiency nor
prejudice in counsel’s performance in this respect.
27. The petitioner complains that counsel did not
inquire into whether he should waive his attorneyclient privilege before calling and improperly cross-

303a
examining Mr. Lawson, whose testimony was
damaging. It was the petitioner’s wish to call Mr.
Lawson to establish his lack of motive. It is not clear
that counsel was even aware of the victim’s adultery
or the witness’s knowledge of it. From its review of the
transcript of the trial, the Court respectfully
disagrees with the petitioner’s characterization of Mr.
Lawson’s testimony as damaging. It seems to the
Court to have been loyal and honest, Mr. Lawson
acknowledging the petitioner, despite the charge, as a
friend as well as a client. Although, through Mr.
Lawson, the prosecution did try to pursue proof of a
possible motive, its subsequent argument that it did
not have to prove motive was a tacit concession that
the proof of motive was relatively weak. The Court
therefore finds neither deficiency nor prejudice in
counsel’s performance in this respect.
28. The petitioner complains that counsel did not
challenge the prosecution’s refusal to allow him to
have contact with his daughter or defense counsel to
interview her outside the presence of a representative
of the prosecution. From his pre-trial interview with
the petitioner’s daughter, counsel was of the opinion
that her testimony would not be unfavorable and
could be favorable to the defense. Considering that
the petitioner’s lack of contact with his daughter,
irrespective of the reason(s), was not a ground for
exclusion of her testimony, the Court finds no
deficiency in counsel’s performance in this respect.
29. The petitioner complains that counsel did not
investigate or present alternative theories of the
defense, such as fabrication of evidence, second-

304a
degree murder, voluntary manslaughter, and reckless
homicide. He submits, however, no evidence of
fabrication of evidence. Because the theory of accident
is inconsistent with second-degree murder and
voluntary manslaughter, it was more logical for
counsel to argue against intent and premeditation
and leave the jury to its own conclusion than to argue
for those offenses. Because the theory of accident is
consistent with reckless homicide and criminally
negligent homicide, it was unnecessary for counsel to
argue those offenses, though he did mention them. Of
course, the petitioner himself was the source of the
theory of accident. The Court therefore finds no
deficiency in counsel’s performance in this respect.
30. The petitioner complains that counsel did not
move to introduce Off. Miller’s pre-trial statements
under the excited-utterance exception to the hearsay
rule. Apparently, the officer’s prior, inconsistent
statements about the location of his hands at the time
of the accident were not excited utterances. They were
post-accident statements in the course of internal and
defense investigations. In any event, considering that,
on direct appeal, the exclusion of the officer’s prior,
inconsistent statement to Off. Sims did not warrant
relief, the Court finds no prejudice in counsel’s
performance in this respect.
31. The petitioner complains that counsel did not
interview Off. Miller before trial and discover the
contradictions in his account of his accident.
Counselor his investigator did, however, question Off.
Miller before trial. He did not then give the defense
reason to believe that his account of his accident

305a
would change. Considering that the officer was a
witness for the prosecution and the inconsistency did
not become apparent until trial, the Court finds no
deficiency in counsel’s performance in this respect.
32. The petitioner complains that counsel did not
discover his statement indicating that the victim’s
death was unintentional, “I can’t believe I just did
that”, or a police report indicating that he did not have
permission to wash his hands. He does not, however,
explain why he himself did not inform counsel of these
matters, which were, presumably, within his
knowledge. In any event, the statement is not a claim
of accident and it and the petitioner’s other
admissions render the gunshot-residue test
inconsequential. The Court therefore finds no
prejudice in counsel’s performance in this respect.
33. The petitioner complains that counsel did not
discover or utilize other material in the file, including
radio traffic, undermining the reliability of the
prosecution’s evidence. Counsel did, however, review
all the information available to him and present
evidence in the petitioner’s behalf. Even now, there is
no radio traffic in evidence. Considering that,
presumably, Off. Sims’ report about Off. Miller’s
accident renders such material, including any radio
traffic, redundant, the Court finds neither deficiency
nor prejudice in counsel’s performance in this respect.
34. The petitioner complains that counsel did not
discover or utilize exculpatory fingerprint and cellphone evidence. At trial, the fingerprint analysis was
inconclusive and there was no cell-phone evidence.
Now, the fingerprint evidence is still inconclusive and

306a
there is still no cell-phone evidence. Considering the
history of the petitioner’s weapon, including his
attempt to rid himself of it after his departure from
the scene, the Court finds no deficiency in counsel’s
performance in this respect.
35. The petitioner complains that counsel did not
discover or utilize evidence negating premeditation.
Of course, the petitioner was a witness. In addition,
counsel, at the petitioner’s instance, did call the
petitioner’s divorce lawyer to negate the suggestion
that the petitioner was jealous, the divorce was
acrimonious, or the terms of the divorce were
unfavorable to the petitioner. Apparently, the only
witnesses that counsel did not try to call were Off.
Holbrook, Mr. Leftwich, and Ms. Evans, whose postconviction testimony the Court addresses in the
context of other, more specific allegations.
Considering that it was not so much the facts that
were in issue but the interpretation of the facts and
therefore much of the evidence negating
premeditation was apparent because it was the same
as the evidence supporting premeditation, the Court
finds no prejudice in counsel’s performance in this
respect.
36. The petitioner alleges that counsel did not
obtain the taped statement of Ms. Evans or subpoena
her to testify about his habit of keeping a firearm in
the car and the prosecution’s awareness of the
unlikelihood of his having intentionally shot his wife
in front of their children and interest in whether he
had ever told her that the gun might be dangerous or
accidentally discharge. Considering that he did not

307a
give her the opportunity to testify about these matters
at the post-conviction hearing, the Court finds no
prejudice in counsel’s perforn1ance in this respect.
37. The petitioner complains that counsel did not
object to the prosecutor’s description of his son’s
demeanor as unsworn evidence of premeditation or
request a mistrial. Considering that the prosecutor
was summarizing a witness’s account of his son’s
demeanor, the Court finds no deficiency in counsel’s
performance in this respect.
38. The petitioner complains that counsel did not
object to Ms. Maston’s testimony on the ground of
violation of the rule of sequestration. The rule of
sequestration, Tenn. R. Evid. 615, “does not provide
sanctions for its violation.” Cohen, Shepheard, Paine,
Tennessee Law of Evidence, § 615.4, p. 430 (3d ed.
1995).
The choice of sanction should depend on at
least three factors. First, the court should assess
the harm caused by the sequestration violation.
Did the witness hear testimony that could affect
the witness’s own testimony; or did the witness
hear unrelated proof? Exclusion is inappropriate
if there was no or little harm caused by the error.
Second, the court should determine the
importance of the testimony of the witness who
ignored the sequestration decree. If the
testimony is critical to a criminal accused,
ordinarily the witness should be permitted to
testify. Third, the judge should inquire about who
was at fault in the violation. Was it an accident
or intentional? If counsel offering the witness

308a
knew that the witness was in the courtroom in
violation of a sequestration order, more drastic
sanctions, such as barring the witness may be
appropriate.
Id. at 431 (footnotes omitted).
The record does not establish that Ms. Maston
violated the rule of sequestration. The Court therefore
finds no deficiency in counsel’s performance in this
respect.
39. The petitioner alleges that counsel was
ineffective in not consulting or calling a firearms
expert to rebut the state’s theory and Mr. Fite’s
testimony that the rifle did not accidentally
discharge. In support of the allegation, he submits
expert evidence that trigger mechanisms like the one
in the gun in issue present a risk of accidental
discharge and, contrary to Mr. Fite’s apparent belief,
the existence of the risk is not subject to proof or
disproof by means of drop tests.
The Court agrees with the petitioner that this new
evidence is favorable to the defense. The petitioner,
however, must prove more than this; he must prove
by clear and convincing evidence that the new
evidence is so favorable that counsel’s failure to
present it at trial had an effect on the verdict. This,
the Court finds, he does not do. Even if one disregards
Mr. Fite’s trial testimony suggesting that accidental
discharge was impossible and accepts Mr. Belk’s
testimony indicating that, because of the trigger
mechanism in the gun, accidental discharge was
possible, significant weaknesses in the theory of the
defense, specifically, unfavorable eyewitness evidence

309a
and the petitioner’s own ambiguous actions in leaving
the scene and discarding the gun, still remain. The
Court therefore finds no prejudice in counsel’s
performance in this respect.
40. The petitioner alleges that counsel was
ineffective in not objecting to, moving to strike, or
moving for a mistrial on the basis of Mr. Shepheard’s
testimony that, before the incident, the victim had
told him that the petitioner had paged her and she
had called him. The victim’s statement to Mr.
Shepheard, which, even under Crawford, which had
not yet been decided and is therefore inapplicable,
would be admissible, was not inconsistent with the
petitioner’s own testimony or the theory of the
defense. The Court finds no deficiency in counsel’s
perfom1ance in this respect.
41. The petitioner alleges that counsel was
ineffective in not using Mr. Mowrer’s pre-trial
statement to cross-examine him about Mr.
Shepheard’s testimony that he had seen the
petitioner looking at him from and three times
reaching for the back door of the car as if to come after
him and to establish bias in the prosecution as well as
the petitioner’s confusion. Variation in eyewitness
accounts of specific acts is common; variation in
eyewitness interpretations of such acts is probably as
or even more common. Considering that it is not clear
that the witnesses were describing the same events or
moments in time, the Court therefore finds no
prejudice in counsel’s performance in this respect.
42A. The petitioner alleges that counsel was
ineffective in not investigating the results of the

310a
gunshot-residue test or calling Agt. Davis to testify
that the results were inconclusive. Agt. Davis’ postconviction testimony agreeing with Off. Rawlston’s
trial testimony about the inconclusive results of the
gunshot-residue test and the defense not disputing
that the victim was shot while the gun was in the
petitioner’s hands, the Court finds no prejudice in
counsel’s performance in this respect.
42B. The petitioner alleges that counsel was
ineffective in not objecting to and requesting a
mistrial on the basis of Off. Rawlston’ s testimony
regarding the results of the gunshot-residue test. The
testimony in issue not having been inconsistent with
the theory of the defense, the Court finds no prejudice
in counsel’s performance in this respect.
43. The petitioner alleges that counsel was
ineffective in not fully investigating and obtaining
communications regarding Off. Miller’s accident.
Considering that the record still contains no such
communications, counsel was aware of the officer’s
prior inconsistent statements, and the exclusion of
Off. Sims’ testimony about one such statement was
merely harmless error, the Court finds no prejudice in
counsel’s performance in this respect.
Ineffective assistance of appellate counsel
1. The petitioner complains that counsel did not
properly challenge the admission of Ms. Maston’s
testimony on the ground of surprise. On direct appeal,
the Court of Criminal Appeals did not find any
evidence
of
prejudice
attributable
to
the
nondisclosure of Ms. Maston’s existence independent
of her inculpatory testimony itself. Although,

311a
according to counsel, he did pursue the issues of plea
negotiations and nondisclosure of certain statements,
apparently, he did not try to demonstrate the effect of
undisclosed evidence on the assessment of the plea
offer or the theory of the defense, presumably,
because the petitioner was not yet ready to abandon
the theory of accident.
It is true that, without knowledge of inculpatory
evidence, neither counsel nor defendant can fairly
assess a plea offer or choose among possible theories
of defense. It is also true that there is now some proof
that the prosecutor’s non-disclosure of inculpatory
evidence did have an effect on the petitioner’s
assessment of the plea offer. The petitioner seems
sincerely to believe that, but for the non-disclosures,
he would have pled guilty to second-degree murder.
According to trial counsel, however, the petitioner
was adamant that he was innocent. By the
petitioner’s own account, his intake form reflects that
he was willing to go to trial, despite his awareness of
his daughter’s admonition that he not shoot her
mother, and his reply to her was, “Sweetheart, I’m not
going to shoot your Mommy.”
The petitioner’s apparent belief in the prejudicial
effect of the prosecutor’s nondisclosure is, without
recourse to an objective standard, inseparable from
hindsight. Some defendants, however, do not behave
like reasonable persons or appreciate that innocence
does not always prevail over apparent guilt.
Gambling and losing at trial is not a sufficient ground
for post-conviction relief, without proof by a
preponderance of evidence of ineffective assistance of

312a
counsel. Russell v. State, 1999 Tenn. Crim. App.
LEXIS 385, * 26. In the absence of evidence that the
petitioner was ready to abandon the theory of
accident at or immediately after trial, the Court does
not find the evidence that he is now ready to do so
clear and convincing evidence of prejudice in counsel’s
performance in this respect.
2. The petitioner complains that counsel did not
properly challenge the admission of Ms. Maston’s
testimony on the ground that it was not rebuttal
evidence. The Court finds that the issue underlying
this allegation was previously determined on direct
appeal.
3. The petitioner complains that counsel did not
properly challenge the admission of Ms. Maston’s
testimony on the ground that it was improper
impeachment evidence introduced to bolster his
daughter’s testimony. Even though the petitioner is
correct that Ms. Maston’s testimony did not bolster
his daughter’s testimony, the Court of Criminal
Appeals determined that her testimony was
admissible as substantive evidence, thereby
rendering its inadmissibility for other purposes moot.
4. The petitioner complains that counsel did not
challenge the effectiveness of trial counsel. As the
Court of Criminal Appeals remarks in the opinion
reversing in part the summary dismissal of the
original petition herein, “[w]e have previously warned
defendants and their counsel of the dangers of raising
the issue of ineffective assistance of trial counsel on
direct appeal because of the significant amount of
development and factfinding such an issue entails.”

313a
13 S.W.3d 401,405 (1999) (citations omitted).
Considering that it did allow the petitioner to pursue
the claim of ineffective assistance of trial counsel in
this proceeding, the Court finds neither deficiency nor
prejudice in counsel’s performance in this respect.
5. The petitioner complains that counsel did not
challenge the trial court’s erroneous exclusion of Mr.
Shepheard’s prior inconsistent statement and
admission of his prior consistent statement. The
Court finds that the issue underlying this allegation
was previously determined on direct appeal.
6. The petitioner complains that counsel did not
challenge the prosecutor’s use of a pointer to point in
his face and make inflammatory comments. Trial
counsel did object to the prosecutor’s use of the
pointer; counsel did not regard the matter as a ground
for a new trial. It seems to the Court that the
prosecutor’s discourtesy would damage the
prosecution more than the defense. As for his
comments, it seems to the Court that they were
prejudicial but not unfairly so. The Court therefore
finds no deficiency in counsel’s performance in this
respect.
7. The petitioner complains that counsel did not
challenge the prosecutor’s misconduct in commenting
on his silence, vouching for prosecution witnesses,
stating his personal opinion of the evidence, arguing
evidence outside the record, misrepresenting evidence
in the record, eliciting inadmissible testimony,
including having him vouch for the credibility of the
proof, and engaging in improper courtroom antics.
Noting that the petitioner was not silent at trial and

314a
it was permissible to impeach his account with both
his pre-arrest conduct and his post-arrest, pre-caution
silence, which silence did not represent an assertion
of the constitutional privilege against selfincrimination, the Court finds no deficiency in
counsel’s performance in this respect.
8. The petitioner complains that counsel did not
challenge the prosecution’s bad faith in not disclosing
Mr. Shepheard’s and Off. Miller’s material
statements in violation of its open-file policy and
agreement with the defense. Mr. Shepheard’s prior,
inconsistent statement was disclosed at trial; Off.
Miller’s erroneously but harmlessly was not. The
Court therefore finds no prejudice in counsel’s
performance in this respect.
9. The petitioner complains that counsel did not
challenge the prosecution’s failure to disclose Off
Lapoint’s identity or recording of exculpatory
statements. There is no evidence that counsel, any
more than trial counsel, knew or had reason to know
of the possible existence or contents of any recording.
The Court therefore finds no deficiency in counsel’s
performance in this respect.
10. The petitioner complains that counsel did not
challenge the trial court’s erroneous limitation of Off.
Miller’s cross-examination and exclusion of Off. Sims’
testimony, thereby depriving him of his Sixth
Amendment rights to effective assistance of counsel,
confrontation, and presentation of a defense. The
Court finds that the issues underlying this allegation
were previously determined on direct appeal.

315a
11. The petitioner complains that counsel did not
challenge the actual or apparent conflict of interest of
prosecutor Irwin or the trial court’s error in not
inquiring into the matter. Although there is evidence
that prosecutor Irwin, who examined only one
witness, the petitioner’s daughter, and the victim
were congregants at the same church, there is no
evidence that the circumstance rendered her less
than impartial or was exploited to make
inappropriate contact with or exert undue influence
on her, the lead prosecutor, or any other member of
the office of the district attorney general. See
Muhammad v. State, 2009 Tenn. Crim. App. LEXIS
122, * 17-18 (rejecting, on the grounds of lack of
evidence of partiality, inappropriate contact, or undue
influence, an argument that counsel was ineffective
in not requesting the recusal of the trial judge and the
office of the district attorney, where the victim was
the daughter of a county commissioner) (citations
omitted). The Court therefore finds no prejudice in
counsel’s performance in this respect.
12. The petitioner complains that counsel did not
challenge the prosecution’s suppression of evidence
that prosecutor Irwin was close friends with the
victim’s family and their lawyer, Mr. Grisham, and
attended the same church as they did. For the reasons
set forth in the Court’s response to the eleventh
allegation in support of this claim, supra, the Court
finds no prejudice in counsel’s performance in this
respect.
13. The petitioner complains that counsel did not
challenge the prosecution’s refusal to allow defense

316a
counsel to interview his daughter outside the
prosecutor’s office or presence or to allow him to have
contact with her. For the reasons set forth in the
Court’s response to the twenty-eighth allegation in
support of the claim of ineffective assistance of trial
counsel, the Court finds no deficiency in counsel’s
performance in this respect.
14. The petitioner complains that counsel did not
challenge the trial court’s error in allowing the
prosecution to use his son’s demeanor as evidence of
premeditation. For the reasons set forth in the Court’s
response the thirty-seventh allegation in support of
the claim of ineffective assistance of trial counsel, the
Court finds no deficiency in counsel’s performance in
this respect.
15. The petitioner complains that counsel did not
challenge the prosecution’s violation of the rule of
sequestration with respect to Ms. Maston. For the
reasons set forth in response to the thirty-eighth
allegation in support of the claim of ineffective
assistance of trial counsel, the Court finds that no
deficiency in counsel’s performance in this respect.
16. The petitioner complains that counsel did not
challenge the trial court’s erroneous limitation of Off.
Miller’s cross-examination and exclusion of Off. Sims’
testimony regarding the former’s accident. The Court
finds that, contrary to the petitioner’s allegation, the
issues underlying this complaint were previously
determined on direct appeal.
17. The petitioner complains that counsel did not
challenge the trial court’s erroneous admission of Mr.
Shepheard’s prior consistent statement to prosecution

317a
investigator Gary Legg a week before trial when that
statement was not prior to his prior, inconsistent
statements. A prior, consistent statement may be
admissible to rebut an inference of recent fabrication.
State v. Bush, 942 S. W.2d 489, 516 (Tenn. 1997).
Because Mr. Shepheard’s statement to Mr. Legg was
much more recent than his initial statement to Det.
Mathis, it was not an effective rehabilitation. The
Court therefore finds no prejudice in counsel’s
performance in this respect.
18. The petitioner complains that counsel did not
challenge the trial court’s erroneous omission of a
limiting instruction with respect to Mr. Shepheard’s
prior, consistent statement to Mr. Legg. Considering
that the statement was consistent with Mr.
Shepheard’s trial testimony, the Court finds no
prejudice in counsel’s performance in this respect.
19. The petitioner complains that counsel did not
challenge the trial court’s erroneous omission of a
limiting instruction with respect to his prior
misdemeanor convictions and uncharged offense. The
only apparent instruction on prior convictions was
part of the final instructions. Although it did not
explicitly limit the jury’s consideration of a witness’s
prior convictions to the issue of credibility, it
implicitly did so. The Court therefore finds no
prejudice in counsel’s performance in this respect.
20. The petitioner complains that counsel did not
challenge the sufficiency of the evidence under the
thirteenth-juror rule on the ground that the trial
court found passion, an element that negates the
mens rea elements of first- and second-degree murder.

318a
The Court does not find the trial court’s finding of
passion in the record. In any event, the definition of
premeditation in the final instructions states in part
as follows:
However, passion does not always reduce the
crime below murder in the first degree, since a
person may deliberate, may premeditate, and
may intend to kill after premeditation and
deliberation, although prompted and to a large
extent controlled by passion at the time. If the
design to kill was formed with deliberation and
premeditation, it is immaterial that the accused
may have been in a state of passion or excitement
when the design was carried into effect.
The Court therefore finds neither deficiency nor
prejudice in counsel’s performance in this respect.
21. The petitioner alleges that counsel did not
challenge the admissibility of Off. Rawlston’s
testimony that the results of the gunshot-residue test
were inconclusive and, in some or all circumstances,
such results are always inconclusive. Considering
that Agt. Davis’ post-conviction testimony agrees with
Off. Rawlston’s trial testimony about the results of
the gunshot-residue test, the prosecution apparently
did not withhold fingerprint evidence, and identity
was not an issue, the Court finds no prejudice in
counsel’s performance in this respect.
22. The petitioner alleges that counsel did not
challenge the prosecution’s late disclosure of the
results of the gunshot-residue test and non-disclosure
of Agt. Davis’ identity and report. For the reasons set
forth in the Court’s response to the twenty-first

319a
allegation in support of this claim, the Court finds
no prejudice in counsel’s performance in this respect.
Prosecutorial misconduct
The petitioner claims that, in violation of Brady v.
Maryland, 373 U.S. 83, 87, 83 S. Ct. 1194, 10 L. Ed.
2d 215 (1963), the prosecutor did not disclose
material,
exculpatory
evidence,
including
impeachment evidence. Brady interprets the
constitutional right to due process generally to
require prosecutorial disclosure of material
information favorable to the defense. To prove a
Brady violation, a defendant must prove by a
preponderance of evidence as follows:
(1) that he requested Brady information or
the information was obviously exculpatory;
(2) that the prosecution suppressed the
information;
(3) that the information was favorable to the
defense; and
(4) that the information was material.
State v. Edgin, 902 S.W.2d 387,389 (Tenn. 1995)
(citation omitted). Information that is favorable to the
defense includes exculpatory and impeachment
information. Johnson v. State, 38 S.W.2d 52, 55-56
(Tenn. 2001). Information is material if ‘‘‘there is a
reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different.’” Id. at 58 (citations
omitted).
1. The petitioner complains that the prosecution
did not disclose Off. Lapoint’s identity or recording of

320a
excited utterances reflecting his lack of intent to harm
the victim. According to Off. Lapoint, the petitioner
was distraught, rocking back and forth, and
expressed disbelief at what he had done. From his
inconclusive testimony and the lack of additional
evidence, however, it appears that the recorder was
not operable, at least upon its eventual return to him,
and there was nothing on the recording.
Arguably, the petitioner’s distress and expression
of disbelief is more ambiguous than exculpatory.
Thus, even were the Court to regard Off. Lapoint’s
testimony in these respects as favorable to the
defense, it would not regard it as material.
As for the recording, at all relevant times, the
petitioner was aware that there was a recorder in the
police car with him and had reason to believe that
there was a recording of anything he said there.
Apparently, however, before trial, he did not regard
the recording as favorable or material to the defense
and did not inform counsel of its existence. The Court
therefore does not find clear and convincing evidence
that any such recording was favorable or material to
the defense.
2. The petitioner complains that the prosecution
did not disclose Ms. Evans’s recorded statement
establishing his habit of keeping a firearm in the car
at all times and indicating the prosecution’s
awareness of the unlikelihood of its theory and
interest in the weapon’s history of damage or
accidental discharge. He did not, however, question
Ms. Evans about the matter or introduce her recorded

321a
statement. The Court therefore finds no ground for
relief in this respect.
3. The petitioner complains that the prosecution
did not disclose an occupational safety and health
report, a departmental personal-injury report, or a
worker’s compensation claim, the accounts of Off.
Miller’s accident in which were inconsistent with his
trial testimony. He did not, however introduce the
evidence in issue at the post-conviction hearing. The
Court notes that the defense was aware of Offs.
Holbrooks’ and Sims’ reports and, in an offer of proof,
trial counsel even read from Off. Sims’ report.
Considering that the Court of Criminal Appeals
determined that the exclusion of Off. Sims’ testimony
was harmless error and there is no new impeachment
evidence, the Court finds no ground for relief in this
respect.
4. The petitioner complains that the prosecution
did not disclose his cell phone records, the
fingerprints on the weapon, or the results of tests on
the victim’s blouse, all of which he describes as
exculpatory. He did not, however, introduce the
telephone records or test results and there is therefore
no evidence that they were exculpatory. Nor,
considering the theory of the defense, was the
inconclusive fingerprint analysis exculpatory. The
Court therefore finds no ground for relief in this
respect.
5. The petitioner complains that the prosecution
did not disclose the close relationship between
prosecutor Irwin and the victim’s family and its
lawyer. For the reasons set forth in the Court’s

322a
response to the eleventh allegation in support of the
claim of ineffective assistance of appellate counsel the
Court finds no ground for relief in this respect.
6. The petitioner complains that the prosecution
did not disclose Det. Mathis’ supplemental report of
Mr. Shepheard’s statement, omissions in which were
inconsistent with Mr. Shepheard’s trial testimony.
Contrary to the petitioner’s allegation, trial counsel
was aware of omissions in Mr. Shepheard’s statement
to Det. Mathis and was able to elicit those in his crossexamination of Det. Rawlston. The Court therefore
finds no ground for relief in this respect.
7. The petitioner complains that the prosecution
did not provide the defense with a copy of the
amended indictment or witness list, thereby
precluding him from challenging his daughter’s
testimony as a ruse. Considering the resolution of the
issue of the admissibility of Ms. Maston’s testimony
on direct appeal, the Court finds no ground for relief
in this respect.
8. The petitioner complains that the prosecution
did not disclose the law enforcement bias against him
arising from his wife’s friendship with one or more
officers. There is still no evidence of friendship
between the victim and one or more officers. The
Court therefore finds no ground for relief in this
respect.
9. The petitioner complains that the prosecution
did not disclose evidence that, in exchange for Off.
Miller’s trial testimony, the CPD did not object to his
worker’s compensation claim. There is no evidence
that the CPD’s treatment of Off. Miller’s worker’s

323a
compensation claim was conditional on the content of
the officer’s trial testimony. The Court therefore finds
no ground for relief in this respect.
10. The petitioner alleges that the prosecution did
not disclose and knowingly introduced false and
misleading testimony regarding the ability of the
petitioner’s gun in particular and the manufacturer’s
model in general to discharge accidentally. To the
extent that the misconduct in issue is not nondisclosure, the Court finds that the issue has been
waived by the petitioner’s failure to present it on
direct appeal. It notes, however, that it addresses the
issue in the context of the petitioner’s claim of
ineffective assistance of trial or appellate counsel.
To the extent that the misconduct in issue is nondisclosure of contradictory evidence about the
possibility of accidental discharge, the Court notes
that the defense was aware of Off. Miller’s accident
and Offs. Holbrooks’ and Sims’ reports thereof. The
defense was also aware of Mr. Fite’s opinion.
Considering that there is no evidence that there was
any other contradictory evidence about the possibility
of accidental discharge in the possession of the state,
the Court finds no ground for relief in this respect.
11. The petitioner alleges that the prosecution did
not disclose and knowingly introduced false and
misleading testimony regarding gunshot residue. To
the extent that the misconduct in issue is not nondisclosure, the Court finds that the issue has been
waived by the petitioner’s failure to present it on
direct appeal. It notes, however, that it addresses the
issue in the context of the petitioner’s claim of

324a
ineffective assistance of trial or appellate counsel. To
the extent that the misconduct in issue is nondisclosure of the inconclusive results of the gunshotresidue test, noting that the defense was aware of the
results of the test, the Court finds no ground for relief
in this respect.
12. The petitioner alleges that the prosecution did
not disclose and knowingly introduced false and
misleading
testimony
regarding
police
communications about Off. Miller’s accident. To the
extent that the misconduct in issue is not nondisclosure, the Court finds that the issue has been
waived by the petitioner’s failure to present it on
direct appeal. It notes, however, that it addresses the
issue in the context of the petitioner’s claim of
ineffective assistance of trial or appellate counsel. To
the extent that the misconduct in issue is nondisclosure of police communications about Off.
Miller’s accident, considering that the contents of the
communications are not in evidence, the Court finds
that the petitioner does not satisfy his burden of
proving the exculpatory or material nature of the
communications.
15. The petitioner alleges that the prosecutor used
his exercise of the right to remain silent against him.
The misconduct in issue not being non-disclosure, the
Court finds that the issue has been waived by the
petitioner’s failure to present it on direct appeal. It
notes, however, that it addresses the issue in the
context of the petitioner’s claim of ineffective
assistance of trial or appellate counsel.

325a
16. The petitioner alleges that the prosecutor did
not correct false and misleading testimony and used
perjured testimony. The misconduct in issue not being
non-disclosure, the Court finds that the issue has
been waived by the petitioner’s failure to present it on
direct appeal. It notes, however, that it addresses the
issue in the context of the petitioner’s claim of
ineffective assistance of trial or appellate counsel.
New, scientific evidence of actual innocence
The petitioner claims that the opinion of his expert
that the Remington 7400 rifle can and will discharge
accidentally constitutes new, scientific evidence
establishing his actual innocence of first-degree
murder. Considering that evidence that accidental
discharge is possible is not equivalent to evidence that
a particular discharge was accidental, the Court
respectfully rejects this claim.
IV. Conclusion
The standard for post-conviction relief is high:
clear and convincing evidence. On appeal, there was
sufficient evidence to support the conviction. Now,
after the postconviction hearing, the Court cannot say
that there is clear and convincing evidence that the
victim’s death was an accident or even that it was only
knowing, not premeditated. The Court is perhaps less
certain of premeditation now than the prosecutor, the
jury, and the Court of Criminal Appeals were at or
after the trial. Even the evidence most favorable to
the prosecution belies the prosecutor’s opening
description of the victim’s death as an execution. One
of the witnesses on the scene apparently noticed
nothing unusual in the petitioner’s or the victim’s

326a
conduct until he heard the shot; the other described
the petitioner and the victim as arguing for several
minutes. Nor does Off. Lapoint’s post-conviction
testimony regarding the petitioner’s distress at the
airport suggest the coldness that one associates with
an execution.
Although Mr. Belk’s post-conviction testimony
reveals apparent gaps in Agt. Fite’s knowledge about
defects in the common trigger mechanism and the
inutility of drop tests, the jury did not require Mr.
Belk or another expert witness to make them aware
of the possibility of accident. Off. Miller’s injury was
an immediate reminder, if any was necessary, that
accident is always a possibility.
Furthermore, because Mr. Belk did not explain his
dismissal of drop tests, his testimony on this issue is
relatively weak. In any event, the effect of Agt. Fite’s
trial testimony was not to exclude the possibility of
accident but to limit it to a particular circumstance, a
triggered discharge. Although Mr. Belk’s testimony
raises the possibility of an untriggered discharge,
even the petitioner at trial was not entirely certain
whether, at the time of discharge, his finger or hand
was on the trigger.
It seems to the Court that, even now, the evidence
that most strongly casts doubt on the premeditated
nature of the petitioner’s act is that both the
petitioner and the victim were carrying weapons on
the day of the victim’s death and, apparently, because
of their interracial marriage or the conditions of their
work, believed that they had reason to do so. In such
circumstances, that the petitioner was carrying a

327a
weapon on the occasion of the victim’s death loses
some significance. This evidence, however, was before
the jury.
The Court notes again that, despite an opportunity
at the post-conviction hearing to ask Mr. Leftwich and
Ms. Evans about the matter, the petitioner did not do
so.
The Court concludes that the subject petition
should be dismissed. An order will enter accordingly.
s/ Don W. Poole
Don W. Poole
Criminal Court Judge
THEREUPON, COURT ADJOURNED PENDING
FURTHER BUSINESS OF THE COURT.
s/ DON W POOLE
JUDGE DON W POOLE

